<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2018 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 115-448, Part 3]
[From the U.S. Government Publishing Office]







                                                 S. Hrg. 115-448, Pt. 3

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1519

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2018 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 3

                    READINESS AND MANAGEMENT SUPPORT

                               ----------                              

                     FEBRUARY 8 AND MARCH 29, 2017


         Printed for the use of the Committee on Armed Services




















                                                 S. Hrg. 115-448, Pt. 3

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1519

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2018 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 3

                    READINESS AND MANAGEMENT SUPPORT

                               __________

                     FEBRUARY 8 AND MARCH 29, 2017

                               __________

         Printed for the use of the Committee on Armed Services



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://www.govinfo.gov/
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
34-389 PDF                WASHINGTON : 2019                 
























                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman       JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma              BILL NELSON, Florida
ROGER F. WICKER, Mississippi           CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska                  JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                   KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota              RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                       JOE DONNELLY, Indiana
THOM TILLIS, North Carolina            MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                   TIM KAINE, Virginia
DAVID PERDUE, Georgia                  ANGUS S. KING, JR., Maine
TED CRUZ, Texas                        MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina         ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                    GARY C. PETERS, Michigan
LUTHER STRANGE, Alabama              
                                    
                   Christian D. Brose, Staff Director
               Elizabeth L. King, Minority Staff Director

                               _________

            Subcommittee on Readiness and Management Support

                      JAMES M. INHOFE, Oklahoma, Chairman
MIKE ROUNDS, South Dakota              TIM KAINE, Virginia
JONI ERNST, Iowa                       JEANNE SHAHEEN, New Hampshire
DAVID PERDUE, Georgia                  MAZIE K. HIRONO, Hawaii
LUTHER STRANGE, Alabama              
                                     
                                     

                                  (ii)























                         C O N T E N T S

                               _________

                            February 8, 2017

                                                                   Page

The Current Readiness of U.S. Forces.............................     1

Allyn, General Daniel B., USA, Vice Chief of Staff...............     5
Moran, Admiral William F., USN, Vice Chief of Naval Operations...    10
Walters, General Glenn M., USMC, Assistant Commandant............    12
Wilson, General Stephen W., USAF, Vice Chief of Staff............    19

Questions for the Record.........................................    56

                             March 29, 2017

The Health of the Department of Defense Industrial Base and its     101
  Role in Providing Readiness to the Warfighter.

Wyche, Lieutenant General Larry D., USA, Deputy Commanding          104
  General, United States Army Materiel Command.
Grosklags, Vice Admiral Paul A., USN, Commander, United States      107
  Naval Air Systems Command.
Moore, Vice Admiral Thomas J., USN, Commander, United States        108
  Naval Sea Systems Command.
Dana, Lieutenant General Michael G., USMC, Deputy Commandant,       113
  Installations and Logistics, United States Marine Corps.
Levy, Lieutenant General Lee K., II, USAF, Commander, Air Force     117
  Sustainment Center, United States Air Force Materiel Command.

Questions for the Record.........................................   141

                                 (iii) 
                                 

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                      WEDNESDAY, FEBRUARY 8, 2017

                           U.S. Senate,    
                  Subcommittee on Readiness
                            and Management Support,
                               Committee on Armed Services,
                                                    Washington, DC.

                  THE CURRENT READINESS OF U.S. FORCES

    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator James 
Inhofe (chairman of the subcommittee) presiding.
    Subcommittee members present: Senators Inhofe, McCain, 
Rounds, Ernst, Perdue, Kaine, Shaheen, and Hirono.

           OPENING STATEMENT OF SENATOR JAMES INHOFE

    Senator Inhofe. I call the meeting to order.
    Let me share a couple of thoughts with you. Twenty-two 
years ago I became the chairman of this committee, and I 
haven't since that time, because under the rules on the 
Republican side, if you chair and are a ranking member in 
another committee, you can't chair a subcommittee. This is 
really the committee where really everything is happening. The 
problems that we're facing today are the ones that we deal 
with, so Tim and I are going to do a good job with that, Joni 
and the rest of the committee.
    The committee meets for the first time in the new session 
of Congress to receive testimony from you guys. I don't think 
there's a member of this committee that hasn't read what 
happened yesterday. I know I have.
    We're joined by the same group. We have all the vices here, 
General Allyn, Admiral Moran, General Walters, and General 
Wilson. I appreciate your sticking to this one more time here.
    Last week General Mattis used the guidance on the 
administration's plan to rebuild and strengthen our Armed 
Forces. I looked at some of the things that were said 
yesterday, some of the quotes, and I really do appreciate the 
fact that you folks came out and said things that weren't easy 
to say. We had General Allyn talking about the Army. Only 3 of 
58 brigade combat teams are ready to fight. We had General 
Wilson talked about the hollow force, actually used the term 
``hollow force.'' That's what we're faced with right now. A lot 
of the characteristics that we, who are old enough to remember 
it, remember from the Carter administration, know what we had 
to do the following years. That's very similar to what we are 
going to have to do now. We had General Walters. You talked 
about the operational tempo is as high as it was during the 
peak of the Iraq and Afghanistan wars. We know the problems 
that are out there.
    While I didn't always get along perfectly with Hagel when 
he was in the Senate, and I wasn't one of his strongest 
supporters when he came into being the Secretary of Defense, 
when I read the statements that he has made from that position, 
it's a wake-up call to the American people because otherwise 
they don't know, they're not exposed to this.
    This is what he said, quote, ``American dominance on the 
seas, in the skies, and in space can no longer be taken for 
granted.'' This is something we want to address, we want to 
accept as a reality. We're going to have to improve our 
readiness, achieve a balance in addressing shortfalls, and 
build a larger and more capable and more lethal joint force. 
Those are the statements that were made, the three priorities 
that were given to this committee, the major committee, just a 
week or so ago.
    We have a lot of these problems that we're going to be 
dealing with. During Secretary Mattis' nomination hearing he 
stated that we are going to have to increase operation and 
maintenance funding while adapting to strengthening our 
military as the situation dictates. This means additional 
resources are needed, and what I'd like from our witnesses 
today is an outline of how you plan to restore the readiness to 
our Armed Forces and how we re-grow our force, how do we 
maintain the equipment that has been through 2 decades of war, 
and how do we train that force to meet the national security 
requirements.
    This is the committee where most of the action is going to 
be, and we've got a lot of work to do, and Tim and I have 
already talked about this. We're going to see to it that we 
start getting a bigger attendance here and that we start 
addressing these problems that we should be addressing before 
they hit the major committee.
    Senator Kaine?

                 STATEMENT OF SENATOR TIM KAINE

    Senator Kaine. Thank you, Mr. Chairman. You've done a 
better job arm twisting on your side of the table than I have.
    Senator Inhofe. Yes, I guess so.
    Senator Kaine. I have to up my game here.
    Welcome to the witnesses. This is an interesting hearing. 
The witnesses--did you know this, Mr. Chair? Our 4 witnesses 
have a combined 142 years----
    Senator Inhofe. No, I didn't know that.
    Senator Kaine.--of combined military experience. That means 
I know we're only going to hear the most astute wisdom today.
    There is a limit to what we can discuss in open session. 
I'd just say at the start that all colleagues on the committee 
are encouraged to read the classified readiness reporting that 
is available to members of this subcommittee.
    I am pleased to be the ranking. I work very, very well with 
the Chairman. We've got a good relationship, and I know this 
subcommittee will continue the bipartisan tradition that is its 
norm.
    The military does suffer from an unacceptable level of 
readiness. I said to the Chair as we walked in that some of 
what we'll hear today we heard last year, and we heard two 
years ago. Somebody said maybe if we listened, history wouldn't 
have to repeat itself.
    The first step we ought to take to address this 
vulnerability is to provide more predictable and stable funding 
for men and women in uniform. The new administration has made 
some comments about spending that I agree with, a desire to 
boost military spending and repeal sequestration for the DOD 
[Department of Defense]. We haven't heard the same commitment 
with respect to repealing sequestration for the whole 
government. The chairman of this committee, Chairman McCain, 
put out a report suggesting that should be done, and even if 
your focus is specifically on national security, it's still 
very important that sequestration, we look at it not just on 
the DOD accounts but on the whole of government, because 
whether we're talking about Homeland Security, State, the DEA 
[Drug Enforcement Agency], the nuclear reactor portion of what 
the Department of Energy does, there are so many things in the 
non-defense discretionary side that really are integral to our 
security challenges.
    We've got the responsibility to help DOD restore readiness 
as soon as possible. We'll be getting good information that we 
can use as information to persuade our colleagues of this.
    I am concerned about one recent development, the hiring 
freeze that was issued on January 23rd for Federal civilian 
employees. It was not a permanent hiring freeze. It was a 
temporary hiring freeze to analyze what should be done, and I 
hope it is, in fact, temporary because this does have a 
readiness impact on shipyards, depots, air logistics centers, 
but also on other Federal agencies because the Federal agency 
is certainly the employer of choice for veterans. When you do a 
hiring freeze at the Federal level, it falls most 
disproportionately on the veterans that are hired so 
significantly into the Federal Government.
    At a time when we're losing shipyard depot workers and 
others to retirement and sequestration-related attrition, I'm 
afraid that a freeze like this, if it continues, could really 
hurt us both on the readiness side and be unfavorable to our 
veterans.
    I am pleased in hearing from our witnesses today about 
plans to rebuild readiness and what exactly does a fully funded 
ready force look like. Each service branch has its own measures 
of readiness, and some of the most interesting discussions 
we've had in these hearings in the past is exactly what does a 
readiness measure mean. I used to say as governor I can measure 
everything, but the one thing that scared me was measures of 
emergency readiness. I can measure an unemployment rate, I can 
measure a graduation rate, but what was the measure for what we 
would do if there was a hurricane tomorrow? Those measures are 
tough, and the need for the committee to understand exactly how 
we measure the readiness in the different branches is very 
important.
    I understand the hearing today from the Air Force, they 
would like to increase the number of fighter squadrons from 55 
to 60. What are the research requirements we have to grapple 
with in the committee and those who are on budget and 
appropriations to get to that? What's the appropriate timeframe 
that we should be looking at to make that kind of advance?
    This committee also deals with MILCON [military 
construction] and facilities sustainment, and these are 
important matters to readiness too. When we talk about 
increasing military spending, I do think that there is this 
area where we can do better, and that's increasing the O&M 
[operation and maintenance] funding for facilities sustainment, 
restoration, and modernization [FSRM]. We'll be getting into 
some testimony that I'm really interested in on the 
shipbuilding side. As a general matter, if we're resource 
pressed and we end up having fewer facilities, then it becomes 
even more important if we have fewer that we maintain those we 
have to a higher level. That's not necessarily what we're doing 
now in the MILCON area or in purchasing platforms.
    Our installations for a long time have had to defer 
necessary maintenance, and if we don't address backlogs soon, 
it just leads to higher long-term costs and risks that decrease 
the quality of life for our troops. I hope we can look at the 
FSRM accounts, increase as much as possible in the fiscal year 
2018 NDAA [National Defense Authorization Act]. I hope we can 
increase military construction across the Active and Reserve 
components. If we can increase those two accounts in 
particular, we not only improve the readiness in installations 
in every state, it would also bolster the resiliency of 
facilities, and we need to work together to make this happen.
    One area that's important to me and I know important to the 
Chairman, we have some slight differences on it, but it's the 
area of energy. DOD is the largest user of energy in the 
Federal Government, and I support the military's effort to 
invest in technologies and alternative sources that not only 
improve readiness but increase combat capabilities by extending 
range, endurance, lethality, and energy resilience for our 
installations, and especially in some ways for forward 
operating bases.
    Whether DOD is confronting cyber threats or vulnerabilities 
in its energy supply or protecting against severe weather 
events, from a readiness perspective we've got to make sure 
that we make the investments in energy resiliency, and we did 
those in section 2805 in the 2017 NDAA, and I hope we will 
continue to do that.
    Mr. Chairman, thanks again for today's hearing, to start 
this discussion that will roll up into the NDAA work that we 
will do as a full committee. I'm excited to work with you as 
the ranking on this committee and very gratified that we have 
the witnesses here today.
    Senator Inhofe. Well, thank you. Thank you, Senator Kaine.
    It will be easy for you guys because you can use the same 
opening statements you used yesterday, if you want to.
    [Laughter.]
    Senator Inhofe. We want to hear it, and we want to get it 
on record. Some of the things were very bold statements that 
were made. It's worth repeating because this is for our record 
over here. We're going to be very aggressive trying to make the 
changes necessary to bring our defenses up, so feel free to do 
it.
    We'll start with you, General Allyn. Try to keep it down 
somewhere around 5 minutes, all right?

 STATEMENT OF GENERAL DANIEL B. ALLYN, USA, VICE CHIEF OF STAFF

    General Allyn. Thank you, Chairman Inhofe, Ranking Member 
Kaine, distinguished members of the subcommittee. Thank you for 
the opportunity to testify on the readiness of your United 
States Army. I appreciate your support and demonstrated 
commitment to our soldiers, civilians, families, and our 
veterans, and look forward to discussing the strength of our 
Army with you today.
    This is a challenging time for our nation, and certainly 
for our Army. The unipolar moment is over, and replacing it is 
a multi-polar world characterized by competition and 
uncertainty. Today, the Army is globally engaged with more than 
182,000 soldiers supporting combatant commanders in over 140 
worldwide locations.
    My recent travel--I have visited our soldiers in 15 
countries since Veterans Day--reinforces that the Army is not 
about programs; it is about people, our people executing 
security missions all around the globe. The strength of the 
all-volunteer force truly remains our soldiers. These young men 
and women are trained, ready, and inspired. We must be 
similarly inspired to provide for them commensurate with their 
extraordinary service and sacrifice.
    To meet the demands of today's unstable global environment 
and maintain the trust placed in us by the American people, our 
Army requires sustained, long-term, and predictable funding. 
Absent additional legislation, the caps set by the Budget 
Control Act of 2011 will return in fiscal year 2018--that would 
be October of this year--forcing the Army to once again draw 
down end strength, reduce funding for readiness, and increase 
the risk of sending under-trained and poorly equipped soldiers 
into harm's way, a preventable risk our nation can and must 
prevent.
    We thank all of you for recognizing that plans to reduce 
the Army to 980,000 soldiers would threaten our national 
security, and we appreciate all your work to stem the drawdown. 
Nevertheless, the most important actions you can take, steps 
that will have both positive and lasting impact, will be to 
immediately repeal the 2011 Budget Control Act and ensure 
sufficient funding to train, man, and equip the fiscal year 
2017 NDAA authorized force.
    Unless this is done, additional topline and OCO [overseas 
contingency operations] funding, though nice in the short term, 
will prove unsustainable, rendering all your hard work for 
naught. In this uncertain environment, readiness remains our 
number-one priority. Sufficient and consistent funding is 
essential to build and sustain current readiness, progress 
towards a more modern, capable force, sized to reduce risk for 
contingencies, and to recruit and retain the best talent within 
our ranks.
    Readiness remains paramount because the Army does not have 
the luxury of taking a day off. We must stand ready at a 
moment's notice to defend the United States and its interests. 
With your assistance, the Army will continue to resource the 
best trained, best equipped, and best led fighting force in the 
world.
    We thank you for your steadfast support of our outstanding 
men and women. Please accept my written testimony for the 
record, and I look forward to your questions.
    [The prepared statement of General Allyn follows:]

               Prepared Statement by General Daniel Allyn
                             introduction:
    Chairman Inhofe, Ranking Member Kaine, distinguished Members of the 
Subcommittee, thank you for the opportunity to testify on the readiness 
of your United States Army. On behalf of our Acting Secretary, the 
Honorable Robert Speer, and our Chief of Staff, General Mark Milley, 
thank you for your support and demonstrated commitment to our soldiers, 
Army civilians, families, and veterans.
    To meet the demands of today's unstable global security environment 
and maintain the trust placed in us by the American people, our Army 
requires sustained, long term, and predictable funding. Absent 
additional legislation, the caps set by the Budget Control Act of 2011 
will return in fiscal year 2018, forcing the Army to once again draw 
down end strength, reduce funding for readiness, and increase the risk 
of sending under-trained and poorly equipped soldiers into harm's way--
a preventable risk our Nation must not accept. We all thank you for 
recognizing that plans to reduce the Army to 980,000 soldiers would 
threaten our national security, and we appreciate all your work to stem 
the drawdown. Nevertheless, the most important actions you can take--
steps that will have both positive and lasting impact--will be to 
immediately repeal the 2011 Budget Control Act and ensure sufficient 
funding to train, man and equip the fiscal year 2017 NDAA authorized 
force. Unless this is done, additional top-line and OCO funding, though 
nice in the short-term, will prove unsustainable, rendering all your 
hard work for naught.
    This is a challenging time for our Nation and certainly for our 
Army. The unipolar moment is over, and replacing it is a multi-polar 
world characterized by competition and uncertainty. Today, the Army is 
globally engaged with more than 182,000 soldiers supporting combatant 
commanders in over 140 worldwide locations. To break this down a bit: 
Over 5,000 soldiers are in the Middle East supporting the fight against 
ISIL, a barbaric enemy intent on destabilizing the region and the 
globe. Nearly 8,000 more remain in Afghanistan, providing critical 
enabling support to Afghan National Security forces fighting a 
persistent insurgent threat. Over 33,000 are assigned or allocated to 
Europe to assure our Allies and deter a potentially grave threat to 
freedom. Nearly 80,000 are assigned to PACOM [U.S. Pacific Command], 
including nearly 20,000 soldiers on the Korean peninsula, prepared to 
respond tonight with our ROK [Republic of Korea] allies. At the same 
time thousands of soldiers are operating across Africa and Central and 
South America, along with thousands more preparing right here in the 
United States. At home and around the world, your Army stands ready.
    My recent travel--I have visited our soldiers in 15 countries since 
Veterans Day--reinforces that all this is not about programs . . . it 
is about people . . . our people executing security missions for all of 
us around the globe. In fact, the strength of the All Volunteer Force 
truly remains our soldiers. These young men and women are trained, 
ready and inspired. We must be similarly inspired to provide for them 
commensurate with their extraordinary service and sacrifice.
     readiness: manning, training, equipping/sustaining and leader 
                              development
    Readiness remains our number one priority. Sufficient and 
consistent funding is essential to build and sustain current readiness, 
progress towards a more modern, capable force sized to reduce risk for 
contingencies, and recruit and retain the best talent within our ranks. 
A ready Army enables the Joint Force to protect our Nation and win 
decisively in combat. Unfortunately, fifteen years of sustained 
counter-insurgency operations have degraded the Army's ability to 
conduct operations across the spectrum of conflict and narrowed the 
experience base of our leaders. The current global security environment 
demands a shift in focus to support Joint operations against a broader 
range of threats. In this uncertain world, combined arms maneuver, 
which enables the Joint Force to deter, deny, compel, and defeat peer 
competitors and execute hybrid warfare, represents the benchmark by 
which we measure our future readiness.
                                manning:
    The Total Force remains globally engaged with the Army set to meet 
nearly half--48 percent--of combatant command base demand and forecast 
to meet over two-thirds--70 percent--of emergent demand for forces in 
fiscal year 2017. This trend, exacerbated by end strength reductions 
and increasing global requirements, has been consistent for the past 
three years and promises to continue. Looking ahead, any potential 
future manpower increases to reduce military risk related to Defense 
Planning Guidance and National Military Strategy requirements, must be 
coupled with commensurate funding to ensure the long-term strength of 
the force.
    At today's end-strength, the Army risks consuming readiness as fast 
as we build it. To alleviate some of the burden, we are reallocating 
and reorganizing existing force structure and leveraging the Total 
Force to meet operational demand. For example, recognizing the 
importance of assuring our Allies and deterring our adversaries, last 
month \3/4\ Armor Brigade Combat Team (ABCT) began heel-to-toe 
rotations in Europe. This unit, representing a permanent armored 
presence, enables our forces to exercise deployment systems and 
processes while simultaneously demonstrating the United States' 
commitment to the region. This ABCT deployment will be followed shortly 
by a rotational heel-to-toe Combat Aviation Brigade to Europe to 
provide aviation capacity and capability in that important part of the 
world. We will also begin Heavy Aviation Reconnaissance Squadron 
rotations to Korea, reestablishing full Combat Aviation Brigade 
capacity and capability on the peninsula.
    In fiscal year 2018 we will adjust our brigade combat team force 
mix by converting an Active Army Infantry Brigade Combat Team into an 
Armor Brigade Combat Team, marking the creation of our 15th ABCT. This 
increased armor capacity will provide much needed flexibility to meet 
extant threats around the globe. We will also build two Security Force 
Assistance Brigades (SFABs), one in the Active Army and one in the Army 
National Guard in fiscal year 2018 followed by another Active Component 
SFAB in fiscal year 2019 to better support our partners and preserve 
BCT readiness. These SFABs will also serve as the backbone of new 
brigades if the Army is ever called to rapidly expand.
    To address mounting challenges in the cyber domain, the Army is 
building 41 Cyber Mission Force teams. Currently, 30 of the Army's 41 
teams are at full operating capability (FOC), and 11 more will achieve 
FOC by fiscal year 2018. In addition, the Reserve Component is building 
21 Cyber Protection Teams, with 11 teams in the Army National Guard and 
10 teams in the Army Reserve.
    The Army has increased operational use of the Army National Guard 
and the Army Reserve to support Joint Force requirements around the 
globe, and this trend will continue. Today, three Army National Guard 
Division Headquarters, along with numerous other formations, are 
supporting geographic combatant commanders here at home and around the 
world. With the support of Congress, the Army can maintain the 
appropriate force mix and Total Force readiness to sustain these vital 
operations worldwide.
    Again, we appreciate the Congress' efforts to stem the continued 
decrease in force structure, and we are underway to regrow the Army in 
accordance with NDAA prescribed end strength. As we grow, however, we 
will focus first on filling the holes in our existing units as our top 
priority.
                               training:
    Training is the bedrock of readiness. The Army must continue to 
conduct realistic and rigorous training across multiple echelons to 
provide trained and ready forces, and this realistic training regimen 
is dependent upon predictable and sustained resources, both time and 
money.
    To maximize our resources, the Army has made significant progress 
implementing the Sustainable Readiness Model (SRM) and restoring core 
warfighting skills, and we remain focused on achieving full spectrum 
readiness for combined arms maneuver proficiency against peer 
competitors. SRM, the Army's solution to manage risk and fight and win 
when called, is a Total Force effort to define readiness objectives for 
current demand while mitigating risk for contingency requirements. 
Because readiness objectives inform programmatic decisions, a key SRM 
benefit is prevention of the ``readiness cliff'' as units redeploy from 
named operations.
    To ensure a trained and ready Army, the Army accepted considerable 
risk by reducing end-strength while deferring modernization programs 
and infrastructure investments. These trade-offs reflect constrained 
resources, not strategic insight. Again, we appreciate your support in 
helping stem the tide of force structure reductions, and our restored 
strength must be coupled with sufficient and sustained funding to avoid 
creating a hollow force.
    Today, only about one-third of our BCTs, one-fourth of our Combat 
Aviation Brigades and half of our Division Headquarters are ready. Of 
the BCTs that are ready, only three could be called upon to fight 
tonight in the event of a crisis. In total, only about two-thirds of 
the Army's initial critical formations--the formations we would need at 
the outset of a major conflict--are at acceptable levels of readiness 
to conduct sustained ground combat in a full spectrum environment 
against a highly lethal hybrid threat or near-peer adversary. Stated 
more strategically, based on current readiness levels, the Army can 
only accomplish Defense Planning Guidance Requirements at high military 
risk. To address this vital readiness issue, the Army continues to 
fully fund Combat Training Center (CTC) rotations, establish objective 
training standards, reduce non-essential training requirements, and 
protect home station training to increase training rigor and readiness 
in our formations.
    A ready Army requires highly trained units across all components. 
To build sufficient operational and strategic depth, the Army continues 
to explore ways to build increased readiness in our Reserve Component 
units. This includes increasing the number of annual training days for 
early deployers to provide sufficient repetition in core tasks; 
building multi-component and round-out units to enhance Total Force 
integration; and expanding Army National Guard BCT's CTC rotations from 
two to four in fiscal year 2018. These initiatives, providing readiness 
for current operations and ensuring strategic depth required for future 
campaigns, will require sufficient resources.
    Looking to the future, the Army continues to work with our Joint 
Force partners to develop the multi-domain battle concept. This 
emerging concept, though in the early stages of development, will 
enable the Joint force to create temporary windows of opportunity 
across multiple domains--air, land, sea, space and cyberspace--to 
seize, retain and exploit the initiative, defeat enemies and achieve 
military objectives. The Army is developing a Multi-Domain Task Force 
to evolve and refine the concept, based on operational lessons and 
experimentation that will ultimately inform future training.
                         equipping/sustaining:
    Our Army requires modernized equipment to win decisively, but today 
we are outranged, outgunned and outdated. We have prioritized our near-
term readiness to the detriment of equipment modernization and 
infrastructure upgrades, assuming risk and mortgaging our future 
readiness. Looking ahead, the Army will prioritize critical equipment 
modernization and infrastructure upgrades while proceeding with 
acquisition reform initiatives to deliver optimal readiness with 
apportioned resources.
    An unintended consequence of current fiscal constraints is that the 
Army can no longer afford the most modern equipment, and we risk 
falling behind near-peers in critical capabilities. Decreases to the 
Army budget over the past several years significantly impacted Army 
modernization. Given these trends, and to preserve readiness in the 
short term, the Army has been forced to selectively modernize equipment 
to counter our adversary's most pressing technological advances and 
capabilities. At the same time, we have not modernized for warfare 
against peer competitors, and today we risk losing overmatch in every 
domain.
    The Army developed the Army Equipment Modernization Strategy to 
preserve readiness in the short term and manage risk in the mid- to 
long-term. The strategy reflects those areas in which the Army will 
focus its limited investments for future Army readiness. We request the 
support of Congress to provide flexibility in current procurement 
methods and to fund five capability areas--Long Range Precision Fires, 
Cyber/Electronic Warfare, Integrated Air and Missile Defense, Active 
Protection Systems for combat vehicles and aircraft and Stryker 
Lethality Upgrades--to provide the equipment the Army requires to fight 
and win our Nation's wars.
    Prioritizing readiness, given current fiscal constraints the Army 
must assume risk in installation modernization and infrastructure 
improvement. Installations are the Army's power projection platforms 
and a key component in generating readiness. To build readiness, 
however, the Army has been forced to cancel or delay military 
construction, sustainment, restoration and modernization across our 
posts, camps and stations. Right now 22 percent, or 33,000 Army 
facilities require significant investment to address critical 
infrastructure deficiencies. Additionally, the Army reduced key 
installation services, individual training programs, and modernization 
to a level that impacts future readiness and quality of life. The 
deliberate decision to prioritize readiness over Army modernization and 
installation improvement, though necessary, is an unfavorable one.
                          leader development:
    The single most important factor in delivering Army readiness, both 
now and in the future, is the development of decisive leaders of 
character at every echelon. Our deep bench of combat experienced 
leaders remain our asymmetric advantage. To that end, the Army will 
continue to develop leader competencies for the breadth of missions 
across the Total Force.
    In a complex and uncertain world, the Army will cultivate leaders 
who thrive in uncertainty and chaos. To ensure the Army retains this 
decisive advantage, we continue to prioritize leader development across 
the force . . . from the individual and unit to the institution level. 
In fiscal year 2016, the Army trained over 500,000 soldiers and leaders 
from all three components in its Professional Military Education 
programs, along with nearly 30,000 more from our Joint Force teammates. 
Despite budget constraints, we will continue to fund these priority 
programs, targeted to develop soldiers and leaders who demonstrate the 
necessary competence, commitment and character to win in a complex 
world.
    Decisive leaders strengthen the bond between our Army and the 
Nation and preserve our All-Volunteer Force. As Army leaders, we 
continue to express our enduring commitment to those who serve, 
recognizing that attracting and retaining high quality individuals in 
all three components is critical to readiness. The Army is expanding 
our Soldier for Life-Transition Assistance Program (SFL-TAP) to drive 
cultural change. Our soldiers will receive the tools, leveraging 
resources from their time in service, to succeed in the civilian 
sector. As they return to civilian life, soldiers will continue to 
serve as ambassadors for the Army and, along with retired soldiers and 
veterans, remain the vital link with our Nation's communities. We owe 
it to our soldiers and their families to ensure our veterans strengthen 
the prosperity of our Nation through rewarding and meaningful civilian 
careers and service to their communities.
    Committed and engaged leadership is the focal point of our Sexual 
Harassment/Assault Response and Prevention (SHARP) efforts. To that 
end, we recently fielded the Emergent Leader Immersive Training 
Environment (ELITE) Command Team Trainer and the Prevention and 
Outreach Simulation Trainer to train Army SHARP professionals on how to 
support command teams and units. The Army is also helping shape the 
Department's Installation Prevention Project by sharing best practices 
on case management methodology, Community Health Promotion Councils and 
collaboration efforts. These holistic prevention and response efforts 
strengthen our Army culture, enrich Army readiness and support 
Department of Defense efforts.
    Army leaders remain committed to building diverse teams. We 
continue to fully integrate women into all combat roles throughout the 
operational force and remain committed to a standards-based process to 
maintain readiness. The Army's deliberate process validated standards, 
grounded in real-world operational requirements, and will provide our 
integrated professional force the highest level of readiness and 
potential for mission success.
    In this increasingly complex world, decisive leaders are essential 
to maintaining a ready Army, composed of resilient individuals and 
cohesive teams, capable of accomplishing a range of missions amidst 
uncertainty and persistent danger.
                                closing:
    Today, our Army stands ready to defend the United States and its 
interests. This requires sustained, predictable funding. To rebuild 
readiness today and prepare for tomorrow's challenges, the Army has 
prioritized combined arms maneuver readiness against a peer competitor 
as we prepare to respond to our Nation's security challenges. The 
difficult trade-offs in modernization and installation improvements 
reflect the hard realities of today's fiscal constraints.
    In the immediate future, the Army looks forward to providing input 
to the Department of Defense's 30-day Readiness Review, an important 
document that will inform a new National Defense Strategy. More long 
term and with your assistance, the Army will continue to resource the 
best-trained, best-equipped and best-led fighting force in the world. 
We thank Congress for the steadfast support of our outstanding men and 
women in uniform. The Army is all about people . . . our soldiers, 
families, civilians . . . and they deserve our best effort.

    Senator Inhofe. Thank you.
    All statements will be made a part of the record.
    Good statement.
    Admiral Moran?

STATEMENT OF ADMIRAL WILLIAM F. MORAN, USN, VICE CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Moran. Thank you, Mr. Chairman, and good afternoon 
to you and the members of the subcommittee. It's a real 
privilege to be here with my fellow Vice Chiefs to talk about 
the readiness of our military.
    The crux of my testimony is that your Navy is less ready 
because she is simply too small. It's a simple matter of supply 
can't meet demand. The smallest Navy we've had in 99 years can 
only answer 40 percent of combatant commander requirements 
today.
    On 9/11, we had 316 ships and over 400,000 sailors. Today 
we have 275 ships and nearly 90,000 fewer sailors, and yet the 
world has become a lot busier place today. A smaller fleet 
operating at the same pace is wearing out faster, work is 
increased, and we're asking an awful lot of our sailors and 
Navy civilians.
    That said, we are where we are, which makes it urgent to 
pass an amended budget and remove sequestration so that we can 
adequately fund, fix, and maintain the fleet that we do have.
    It seems that every year, to Senator Kaine's point, we come 
before you and talk about making tough choices, and more often 
than not, we rightly choose to support those forward at the 
expense of those at home. This year is more of the same as our 
long-term readiness continues its insidious decline. While 
we're still able to put our first team on the field, our bench 
is largely depleted.
    With your help, we have the opportunity to change all this. 
It starts by strengthening the foundation of the Navy by 
ensuring that the ships, aircraft, and submarines that we do 
have are maintained and modernized so they provide the full 
measure of their combat power. Then let's fill the holes by 
eliminating the inventory shortfalls of ships, submarines, and 
aircraft in the fleet. Together, by taking these two steps, we 
can achieve the ultimate goal of sizing the Navy to meet the 
strategic demands of this dynamic and changing world.
    Mr. Chairman, thank you very much. I look forward to your 
questions.
    [The prepared statement of Admiral Moran follows:]

             prepared statement by admiral william f. moran
    Mr. Chairman, Ranking Member Kaine, and distinguished members of 
the Sub-Committee, I appreciate the opportunity to testify on the 
current state of Navy readiness and the challenges we face today and in 
the future.
    Before we discuss Navy's readiness challenges and our plans to 
address them, it is important to understand our present situation. 
Globally present and modern, our Navy provides timely, agile, and 
effective options to national leaders as they seek to advance American 
security and prosperity. Today, however, the ongoing demand for naval 
forces continues to grow, which will require the Navy to continue to 
make tough choices. In the classic trade space for any service 
(readiness, modernization and force structure), readiness has become 
the bill payer in an increasingly complex and fast-paced security 
environment. To address these realities, the Navy has identified 
investments to restore the readiness of the fleet today to shore up 
what we have. At the same time, we cannot restore the fleet to full 
health without also updating our platforms and weapons to better 
address current and future threats, and evaluating the right size of 
the Navy so that it can sustain the tempo of operations that has become 
the norm. The Navy is actively working on plans for the future fleet 
with Secretary Mattis and his team, and we look forward to discussing 
those plans with you when they are approved.
    To characterize where we are today, I would say it's a tale of two 
navies. As I travel to see our sailors in the United States and 
overseas, it is clear to me that our deployed units are operationally 
ready to respond to any challenge. They understand their role in our 
nation's security and the security of our allies, and they have the 
training and resources they need to win any fight that might arise. 
Unfortunately, my visits to units and installations back home in the 
United States paint a different picture. As our sailors and Navy 
civilians, who are just as committed as their colleagues afloat, 
prepare to ensure our next ships and aircraft squadrons deploy with all 
that they need, the strain is significant and growing. For a variety of 
reasons, our shipyards and aviation depots are struggling to get our 
ships and airplanes through maintenance periods on time. In turn, these 
delays directly impact the time sailors have to train and hone their 
skills prior to deployment. These challenges are further exacerbated by 
low stocks of critical parts and fleet-wide shortfalls in ordnance, and 
an aging shore infrastructure. While our first team on deployment is 
ready, our bench--the depth of our forces at home--is thin. It has 
become clear to me that the Navy's overall readiness has reached its 
lowest level in many years.
    There are three main drivers of our readiness problems: 1) 
persistent, high operational demand for naval forces; 2) funding 
reductions; and 3) consistent uncertainty about when those reduced 
budgets will be approved.
    The operational demand for our Navy continues to be high, while the 
fleet has gotten smaller. Between 2001 and 2015, the Navy was able to 
keep an average of 100 ships at sea each day, despite a 14 percent 
decrease in the size of the battle force. The Navy is smaller today 
than it has been in the last 99 years. Maintaining these deployment 
levels as ships have been retired has taken a significant toll on our 
sailors and their families, as well as on our equipment.
    The second factor degrading Navy readiness is the result of several 
years of constrained funding levels for our major readiness accounts, 
largely due to fiscal pressures imposed by the Budget Control Act of 
2011. Although the Bipartisan Budget Act of 2015 provided temporary 
relief, in fiscal year 2017 the Navy budget was $5 billion lower than 
in fiscal year 2016. This major reduction drove very hard choices, 
including the difficult decision to reduce readiness accounts by over 
$2 billion this year.
    The third primary driver of reduced readiness is the inefficiency 
imposed by the uncertainty around when budgets will actually be 
approved. The inability to adjust funding levels as planned, or to 
commit to longer-term contracts, creates additional work and drives up 
costs. This results in even less capability for any given dollar we 
invest, and represents yet another tax on our readiness. We are paying 
more money and spending more time to maintain a less capable Navy.
    We have testified before about the maintenance and training 
backlogs that result from high operational tempo, and how addressing 
those backlogs has been further set back by budget cuts and fiscal 
uncertainty. Our attempts to restore stability and predictability to 
our deployment cycles have been challenged both by constrained funding 
levels and by operational demands that remain unabated.
    Although we remain committed to return to a seven month deployment 
cycle as the norm, the need to support the fight against ISIS [Islamic 
State of Iraq and Syria] in 2016 led us to extend the deployments of 
the Harry S Truman and Theodore Roosevelt Carrier Strike Groups to 
eight and eight and a half months, respectively. Similar extensions 
apply to the Amphibious Ready Groups which support Marine Expeditionary 
Units. This collective pace of operations has increased wear and tear 
on ships, aircraft and crews and, adding to the downward readiness 
spiral, has decreased the time available for maintenance and 
modernization. Deferred maintenance has led to equipment failures, and 
to larger-than-projected work packages for our shipyards and aviation 
depots. This has forced us to remove ships and aircraft from service 
for extended periods, which in turn increases the tempo for the rest of 
the fleet, which causes the fleets to utilize their ships and airframes 
at higher-than-projected rates, which increases the maintenance work, 
which adds to the backlogs, and so on.
    Reversing this vicious cycle and restoring the short-term readiness 
of the fleet will require sufficient and predictable funding. This 
funding would allow our pilots to fly the hours they need to remain 
proficient, and ensure that we can conduct the required maintenance on 
our ships. It would also enable the Navy to restore stocks of necessary 
parts, getting more ships to sea and better preparing them to stay 
deployed as required.
    Our readiness challenges go deeper than ship and aircraft 
maintenance, directly affecting our ability to care for the Navy Team. 
Our people are what make the U.S. Navy the best in the world, but our 
actions do not reflect that reality. To meet the constraints of the 
Balanced Budget Act, the Navy's fiscal year 2017 budget request was 
forced to reduce funding for Permanent Change of Station (PCS) moves. 
These reductions have been compounded by the Continuing Resolution, 
which imposed even further reductions on that account. Without 
sufficient PCS funding, the Navy will be unable to move sailors to 
replace ship and squadron crewmembers leaving service, increasing the 
strain on those who remain. This is an area in which timing also 
matters greatly. Even if the money comes eventually, if it is too late, 
necessary moves will be delayed until the beginning of the new fiscal 
year. That means our sailors with children will be forced to relocate 
their children in the middle of a school year. Because we don't know if 
and when additional PCS funding may come, we cannot give our sailors 
and their families much time to prepare, often leaving them with weeks, 
rather than months, to prepare for and conduct a move, often from one 
coast, or even one country, to another.
    Meanwhile, our shore infrastructure has become severely degraded 
and is getting worse because it has been a repeated bill payer for 
other readiness accounts in an effort to maintain afloat readiness. 
Consequently, we continue to carry a substantial backlog of facilities 
maintenance and replacement, approaching $8 billion.
                                summary
    Time is running out. Years of sustained deployments and constrained 
and uncertain funding have resulted in a readiness debt that will take 
years to pay down. If the slow pace of readiness recovery continues, 
unnecessary equipment damage, poorly trained operators at sea, and a 
force improperly trained and equipped to sustain itself will result. 
Absent sufficient funding for readiness, modernization and force 
structure, the Navy cannot return to full health, where it can continue 
to meet its mission on a sustainable basis. Even if additional 
resources are made available, if they continue to be provided in a way 
that cannot be counted on and planned for, some will be wasted. As we 
strive to improve efficiency in our own internal business practices, 
those efforts are being actively undermined by the absence of regular 
budgets. Although we face many readiness challenges, your Navy remains 
the finest Navy in the world. We are committed to maintaining that 
position. That commitment will require constant vigilance and a 
dedication to readiness recovery, in full partnership with the 
Congress. On behalf of our sailors and civilians, thank you for your 
continued support.

    Senator Inhofe. Thank you, Admiral. Excellent statement.
    General Walters?

    STATEMENT OF GENERAL GLENN M. WALTERS, USMC, ASSISTANT 
                           COMMANDANT

    General Walters. Good afternoon, sir. Chairman Inhofe, 
Ranking Member Kaine, and distinguished members of the Armed 
Services Subcommittee on Readiness, thank you for the 
opportunity to appear today and report on the readiness of your 
Marine Corps.
    The Marine Corps remains dedicated to our central role as 
our nation's naval expeditionary force. During 15 years of 
conflict, we've focused investment on ensuring our marines were 
prepared for the fight, and they were. Today our operational 
tempo remains as high as it was during the peak of operations 
in Iraq and Afghanistan.
    Our continued focus on deployed unit readiness, combined 
with fiscal uncertainty and funding reductions, leave your 
Marine Corps facing substantial readiness challenges. Your 
Marine Corps is insufficiently manned, trained, and equipped 
across the depth of the force to operate in an evolving 
operational environment. Due to years of fiscal constraints, 
the Marine Corps is fundamentally optimized for the past and 
has sacrificed modernization and infrastructure to sustain our 
current readiness.
    In addition to the increased resources for operations and 
maintenance needed to improve current readiness across the 
entirety of your Marine Corps, we require your support in three 
key areas to regain the readiness levels our nation requires of 
us. Over the past 18 months we have identified various end 
strengths and associated capabilities and modernization 
required to operate in the threat environment characterized by 
complex terrain, information warfare, electromagnetic 
signatures, and a contested maritime environment.
    We need to increase our active component end strength. We 
are confident that an increase of 3,000 marines per year 
maintains a rate of growth consistent with effective recruiting 
while maintaining our high standards. Our bases, stations, and 
installations are the platforms where we train and generate our 
readiness. The continued under-funding of our facilities 
sustainment, restoration, modernization, and military 
construction continues to cause progressive degradation of our 
infrastructure and creates increased long-term costs. We have a 
backlog of $9 billion in deferred infrastructure sustainment 
requirements. We require up-to-date training systems, ranges, 
and facilities to support the fielding of our new equipment, 
and simulation systems that facilitate improved training 
standards and readiness.
    Supporting the joint force requirements over the past 15 
years consumed much of the life of our legacy systems, while 
fiscal uncertainty reduced defense spending for significant 
delays in our modernization efforts. There are significant 
costs associated with maintaining and sustaining any legacy 
system without a proportional capability increase associated 
with that investment. As we continue to spend limited fiscal 
resources to sustain legacy systems developed for threats 20 
years ago, we risk steadily losing our competitive advantage 
against potential adversaries. We need to modernize our ground 
tactical vehicle and aircraft fleets soonest. Accelerated 
investments in amphibious ships is necessary to reach our 
wartime requirement.
    If forced to continue to pursue the path of investing in 
legacy systems in lieu of modernizing our force, we will find 
our Marine Corps optimized for the past and increasingly at 
risk to deter and defeat our potential adversaries.
    On behalf of all of our marines, sailors, and their 
families, and the civilians who support their service, we thank 
the Congress and this subcommittee for the opportunity to 
discuss the key challenges our Marine Corps faces. I thank you 
for your support as articulated in the recent 2017 National 
Defense Authorization Act.
    While much work needs to be done, the authorizations 
within, coupled with sufficient funding and the repeal of the 
Budget Control Act, will begin to put us on a path to rebuild 
and sustain our Marine Corps for the 21st Century. I look 
forward to your questions.
    [The prepared statement of General Walters follows:]

             Prepared Statement by General Glenn M. Walters
                              introduction
    Chairman Inhofe, Ranking Member Kaine, and distinguished members of 
the Senate Armed Services Subcommittee on Readiness, I appreciate the 
opportunity to testify on the current state of Marine Corps readiness. 
The Marine Corps remains dedicated to our essential role as our 
Nation's expeditionary force in readiness, chartered by the 82nd 
Congress and reaffirmed by the 114th Congress. During 15 years of 
conflict in Afghanistan and Iraq, we focused investment on ensuring 
marines were prepared for the fight, and they were. This was our task 
and our focus. Those 15 years of conflict consumed much of the useful 
life of many of our legacy systems while delaying replacement with new 
equipment. A focus on those operations, the decrease in funding levels 
from fiscal year (FY) 2012, fiscal instability and the lack of an 
inter-war period have left your Marine Corps insufficiently manned, 
trained and equipped across the depth of the force to operate in an 
evolving operational environment. Under the current funding levels and 
those we stand to face in the near future--the current Continuing 
Resolution and the Budget Control Act (BCA)--your Marine Corps will 
experience increasingly significant challenges to the institutional 
readiness required to deter aggression and, when necessary, fight and 
win our Nation's battles. Rebuilding the Marine Corps will require near 
term actions that can be implemented in fiscal year 2017 and fiscal 
year 2018 as well as longer term efforts in the Future Years Defense 
Plan (FYDP). I would like to take this opportunity to share with you 
the accomplishments of your Marine Corps, provide our vision for the 
Marine Corps of tomorrow, and to articulate the readiness challenges we 
face as we strive to reach that vision. With the support of the 115th 
Congress, we can begin the deliberate journey to overcome these 
difficulties and rebuild your Marine Corps for the 21st Century.
                        your marine corps today
    In 2016, your Marine Corps remained in high demand, forward 
deployed, and at the same operational tempo as the past 15 years. With 
an increasingly challenging and complex global security environment, 
the Joint Force continues to require and actively employs our 
expeditionary capabilities. During the past year, your marines executed 
approximately 185 operations, 140 security cooperation events with our 
partners and allies and participated in 65 major exercises.
    Nearly 23,000 marines remain stationed or deployed west of the 
International Date Line to maintain regional stability and deterrence 
in the Indo-Asia-Pacific region. Our Marine Expeditionary Units (MEUs) 
continue their support of Joint Force requirements around the globe. 
Our MEUs have supported counterterrorism (CT) operations in Iraq and 
North Africa, humanitarian assistance and disaster relief (HA/DR) in 
Japan and Haiti, and remain forward deployed to respond to the next 
crisis. In partnership with the State Department, we employed Marine 
Security Guards at 176 embassies and consulates in 146 countries. 
Altogether, over 66 percent our operating forces have been deployed or 
stationed overseas during calendar year 2016.
    Since 2013, marines have increasingly deployed to land-based 
locations due to the limited inventory of operationally available 
amphibious ships. Joint Force requirements remain high, and the number 
of available amphibious ships remains below the requirement. Despite 
the limitations in available amphibious shipping, your Marine Corps 
adapted to meet these requirements through land-based Special Purpose 
Marine Air-Ground Task Forces (SPMAGTFs). In 2016, we sourced SPMAGTFs 
to Central Command, Africa Command and Southern Command. Our Black Sea 
Rotational Force remains forward deployed in Europe. Although SPMAGTFs 
have met a limited requirement for the Joint Force, they lack the full 
capability, capacity and strategic and operational agility that results 
when Marine Air-Ground Task Forces (MAGTFs) are embarked aboard Navy 
amphibious ships.
                 what tomorrow's marine corps requires
    Marine Corps institutional readiness is built upon five pillars: 
Unit Readiness; Capability and Capacity to Meet Joint Force 
Requirements; High Quality People; Installation Capability; and 
Equipment Modernization. First, unit readiness is always our most 
immediate concern. Cohesive unit teams are the instruments that 
accomplish national security objectives, and we must ensure our ability 
to successfully accomplish any mission when called. Second, when the 
Joint Force requires naval expeditionary capabilities, we must answer 
with both the capabilities and capacity necessary to meet their needs. 
The third, most important pillar of our readiness remains our marines, 
the product of a time-tested yet evolving transformation process 
beginning with our Recruiting and Training Commands. The fourth, often 
understated, pillar of our readiness is our infrastructure. Our bases, 
stations, and installations, not only serve as locations where we train 
our marines, but also where we sustain their equipment and support 
their families. We have a backlog of $9 billion in deferred 
infrastructure sustainment requirements. We require up-to-date training 
systems, ranges and facilities. We need resources to sustain our 
installation capabilities at a higher level than we have been able to 
reach for the last 5 years. Fifth and finally, we must accelerate 
equipment modernization, as it is essential in our transformation to a 
21st Century, 5th generation Marine Corps.
    We require proper balance across these pillars to achieve a force 
capable not only of assuring allies and deterring threats, but able to 
rapidly respond to crises and contingencies, while remaining good 
stewards of the Nation's limited resources. Currently, readiness is not 
where it needs to be. Resources that would have otherwise been applied 
to installation capabilities and modernization were re-prioritized to 
support deployed and next-to-deploy units to safeguard near-term 
operational unit readiness. We are not only out of balance but are also 
short of the resources required to rebalance.
    We require a more stable and predictable fiscal planning horizon to 
support increased end strength, equipment recapitalization and 
modernization, amphibious ship capability and capacity, and the modern 
infrastructure required to rebuild and sustain balanced readiness 
across the depth of the force. Looming BCA implementation continues to 
disrupt our planning and directly threatens our current and future 
readiness.
                             unit readiness
    Despite the existing fiscal constraints, we will continue to ensure 
deployed units possess mission critical resources to the greatest 
extent possible--trained personnel, operational equipment and vital 
spare parts--required to accomplish their mission. Deployed and next-
to-deploy units will remain our priority in the current fiscally-
constrained environment while we increasingly experience risk to non-
deployed unit readiness.
    The most acute readiness concerns are found in our aviation units. 
Approximately 80 percent of our aviation units lack the minimum number 
of ready basic aircraft (RBA) for training, and we are significantly 
short ready aircraft for wartime requirements. Recapitalization of 
attack helicopters and reset of heavy lift helicopters are two examples 
of ways we are addressing RBA shortfalls. Our tactical fighter and 
attack squadrons suffer from shortages in aircraft availability due to 
increased wear on aging airframes subjected to continuing modernization 
delays. The impact of reduced funding levels on our depot level 
maintenance capacity still resonates today. We have temporarily reduced 
the number of aircraft assigned to our fighter-attack and heavy lift 
squadrons. We simply do not have the available aircraft to meet our 
squadrons' requirements. This means that flight hour averages per crew 
per month are below the minimum standards required to achieve and 
maintain adequate flight time and training and readiness levels. 
Although deployed squadrons remain trained for their assigned mission, 
next-to-deploy squadrons are often achieving the minimum readiness 
goals just prior to deployment. Reduced acquisition rates for the F-35 
and the CH-53K require the Marine Corps to continue to operate legacy 
aircraft well beyond their planned lifespan. Every dollar decremented 
from our procurement of future systems increases both the cost and 
complexity of maintaining our aged legacy systems beyond their 
projected life. Every dollar spent on aviation modernization now has a 
direct positive effect on current and future aviation readiness.
    We currently maintain higher ground equipment readiness than what 
we experience within our aviation community, but that is small 
consolation given the age of most of this ground equipment. With 
Congress' sustained support of our reset effort, the Marine Corps has 
reset over 90 percent of its legacy ground equipment. Despite this 
effort, underlying readiness issues exist. Non-deployed forces 
experience supply degradation as they source low density equipment 
requirements in support of deployed, task organized units such as our 
SPMAGTFs. These equipment shortfalls create training gaps for non-
deployed units preparing for their next deployment. Our most important 
ground legacy capabilities continue to age as modernization efforts are 
at minimum production rates due to limited available resources. Our 
Amphibious Assault Vehicles (AAVs) are a prime example. Our AAVs are 
now more than four decades old. Our AAV Survivability Upgrade (SU) 
Program will sustain and marginally enhance the capability of the 
legacy AAV, but will not replace any of these nearly obsolete legacy 
vehicles. The average age of our Light Armored Vehicle (LAV) fleet is 
26 years; our oldest vehicle is 34 years old. There is currently no 
program identified to replace this capable but outdated platform, and 
yet we continue to incur increased costs with the LAV Obsolescence 
Program to extend its life. Our AAVs and LAVs are two of the four 
systems that consume 50 percent of the Marine Corps' annual depot 
maintenance budget. There is significant cost associated with 
maintaining and sustaining any legacy systems without a proportional 
capability increase associated with that investment. As we continue to 
spend limited fiscal resources to sustain legacy systems as a result of 
deferred modernization, we risk steadily losing our capability 
advantage against potential adversaries.
    Current readiness shortfalls require additional operations and 
maintenance resources, and we have exhausted our internal options. 
Additional resources would facilitate exercises and training and 
correct repair parts shortfalls, while specifically addressing aviation 
specific operations and maintenance funding. In sum, the Marine Corps 
has a plan to regain and sustain unit readiness. With your support, we 
can execute our plan to achieve required organizational readiness.
            joint force requirements and capacity to respond
    The 2014 Quadrennial Defense Review (QDR) and fiscal constraints 
directed the Marine Corps to decrease its end strength from 202,000 to 
182,000. 2014 QDR assessments and assumptions identified limited global 
security challenges compared to what we face today. We must continue to 
counter violent extremist organizations and deter both an emboldened 
China and a more aggressive Russia. As a result, the need for deployed 
and forward stationed marines has not diminished while the size of the 
force has decreased. Our current end strength challenges our ability to 
support Joint Force requirements while simultaneously maintaining the 
minimum adequate time at home stations and bases to reconstitute our 
units and train for the full range of military operations prior to next 
deployment. At our current end strength, the operational tempo is 
creating significant and unsustainable strain on the force.
    Increased support for both equipment readiness and force structure 
levels remain critical requirements to improve our readiness. Time is 
equally as vital as funding to generate required readiness levels. Our 
sustainable deployment to dwell (D2D) ratio is 1:3, which means a 
deployment of six months is followed by a period of 18 months at home 
station. Units require adequate home station time to conduct personnel 
turnover; equipment reset and maintenance; and complete a comprehensive 
individual, collective, and cohesive unit training program. Units need 
this period to ensure they are ready to meet all core and assigned 
Mission Essential Tasks (METs) prior to re-deploying.
    These challenges are compounded by the requirements on today's 
force. Those requirements place a 1:2 D2D ratio on many of our units 
and capabilities. The current ratio equates to a home station training 
period one third less than what our best military judgment and 
experience tells us is necessary and sustainable. Some units and 
personnel that possess critical high demand, low density capabilities 
and skill sets currently operate below a 1:2 D2D ratio. Portions of 
marine aviation experience operational tempo below a 1:2 D2D ratio. Our 
tiltrotor MV-22 Ospreys, deployed in conjunction with KC-130J aerial 
refueling aircraft, provide previously unthinkable reach and 
flexibility to the Joint Force. Deployment requirements have also 
brought both communities to unsustainable D2D ratios. We recently 
reduced the number of those aircraft assigned to our SPMAGTFs in order 
to move these communities closer to a sustainable path. The 
capabilities provided to the Joint Force will not change; however, 
capacity will decrease. With increasing demand, resource limitations 
will further reduce Joint Force capacity and/or incur risk for home 
station units required for major combat operations. Some of our 
formations lack the requisite days of supply to sustain a major 
conflict beyond the initial weeks. The Marine Corps continues to 
support existing operational requirements, but we may not have the 
required capacity--the ``ready bench''--to respond to larger crises at 
the readiness levels and timelines required.
                          high quality people
    The success of our Marine Corps relies upon the high quality, 
character, and capabilities of our individual marines and civilians; 
they are the cornerstone of our readiness. Since the establishment of 
the All-Volunteer Force over 40 years ago through the millennial 
generation of today, we have successfully recruited and retained the 
high caliber men and women we need to operate effectively in the global 
security environment. Nearly 70 percent of our marines are serving in 
their first enlistment, and approximately 35,000 marines leave the 
Marine Corps each year. They must be replaced with the same high 
quality men and women. Our recruiting efforts continue to succeed in 
providing highly talented, patriotic men and women to replace those 
marines who loyally served before. 99.89 percent of our newest marines 
and recruits are high school graduates. This speaks to the quality of 
the marines that make up our force. Despite our continued successes, we 
must continue to seek ways to maintain the high quality people who will 
comprise tomorrow's Marine Corps. We must closely track our ability to 
recruit and retain our most highly qualified and skilled marines. In 
order to retain marines on our team, we require the resources to offer 
incentives to marines with experience, critical skills and valuable 
specialties.
    Marine Corps Force 2025, a year-long, comprehensive, bottom-up 
review of the force identified various end-strengths and the associated 
capabilities and modernization required to operate in the future 
security environment. Through this process, we determined that we need 
to increase Active component end strength to at least 194,000, to build 
new capabilities that will deter, defeat and deny adversaries and meet 
future Joint Force requirements. An increase of 3,000 marines per year 
maintains a rate of growth consistent with effective recruiting and 
accession while maintaining our high standards and ensuring a balanced 
force. We thank you for passing the 2017 NDAA that authorizes 185,000 
Active component marines. Your authorization, combined with the 
appropriations we still require, puts your Marine Corps on the right 
path to realize necessary growth that will enhance readiness.
                        installation capability
    Marine Corps installations are the power projection platforms that 
generate our readiness; they build, train and launch combat-ready 
forces. Our installations provide the capability and capacity we need 
to support the force. This includes our two depot maintenance 
facilities, which provide responsive and scalable depot maintenance 
support. While prioritizing deployed readiness, we defer infrastructure 
and facility investments and modernization necessary to sustain and 
train our Marine Corps for the 21st Century. The continued deferment of 
Facility Sustainment, Restoration and Modernization (FSRM) requires 
increased infrastructure investment now to ensure that future FSRM 
requirements costs do not increase. We ask for your continued support 
to restore and modernize our facilities.
    In addition to facilities sustainment and recapitalization, we 
require investment in military construction (MILCON). Those investments 
will support the fielding of new equipment and simulation systems that 
facilitate improved training standards and operational readiness 
enhancements. Improvements in training areas, to include aerial and 
ground ranges, require your support for special use airspace and 
additional land to replace inadequate facilities.
                             modernization
    Modernization is the foundation of our future readiness to deter 
and counter growing threats. Investing in and accelerating our 
modernization programs directly correlate to improved overall 
readiness. Previous decrements to our modernization efforts deferred 
and delayed our critical future programs and forced us to continue 
investment in aged legacy systems that lack the capabilities required 
for the 21st Century. Over time, legacy systems continue to cost more 
to repair and sustain. Simultaneously, we incur the opportunity costs 
associated with the delayed fielding of replacement systems and the 
increased capabilities they will provide. When we accelerate 
modernization, we reduce unit costs, achieve efficiencies and save 
taxpayer money.
    Our Aviation Modernization Plan requires acceleration after 
suffering recent delays, many attributed to funding deficiencies. This 
modernization plan has proven its worth. Our MV-22 Ospreys expand the 
operational reach of marines supporting Joint Force requirements. 
Increasing the procurement of the F-35 and CH-53K will result in 
similar and greater marine aviation capability improvements. Our first 
operational F-35 squadron relocated to Iwakuni, Japan last month. The 
squadron will deploy the F-35B as part of a MEU for the first time in 
2018. We look forward to the stand-up of our first F-35C squadron, 
further enhancing the 5th generation capabilities of our Navy-Marine 
Corps Team. The CH-53K Heavy Lift Replacement remains critical to 
maintaining the battlefield mobility our force requires. It will nearly 
triple the lift capacity of the aircraft it is replacing. The 
acceleration of these key modernization programs will directly improve 
our readiness and allow us to retire aircraft that have reached or 
exceeded their intended life.
    To modernize our ground combat element and ensure success against 
increasingly capable 21st Century threats, we need to accelerate 
investments in our ground systems. We need to replace our 40-year old 
AAV fleet soonest. The procurement of Joint Light Tactical Vehicles as 
planned will incrementally replace our High Mobility Multipurpose 
Wheeled Vehicles that we began operating over 30 years ago and that are 
still in use today. This needs to be accelerated. There is currently no 
replacement program for our legacy LAV fleet. We need to develop and 
invest in a next generation replacement for this system. Additionally, 
we need to establish programs that develop, procure and deliver active 
protection systems, counter-UAS and increased long-range precision 
fires capabilities. The Marine Corps will need your support to 
recapitalize and modernize these key ground capabilities required for 
the future operating environment.
    Amphibious platforms provide the sovereignty, strategic mobility, 
unmatched logistical support, operational reach, and forcible entry 
capability required to deter and, when necessary, defeat our Nation's 
adversaries. Our amphibious capability is a centerpiece to the 
operational success of the Navy-Marine Corps Team. Our amphibious 
concepts--our Naval character and expeditionary mindset--have been 
validated by history, and we will remain agents of change in the 
future. As the operating environment changes, the Marine Corps will 
continue to innovate as we implement our new Marine Corps Operating 
Concept (MOC). The availability of amphibious shipping remains 
paramount to our readiness, responsiveness and the MOC. The Nation's 
amphibious warship requirement remains at 38. The current inventory of 
31 vessels falls well short of this requirement. Recurrent maintenance 
challenges in the aging amphibious fleet significantly exacerbate that 
shortfall. The current and enduring gap of amphibious warships to 
requirements inhibits our Navy-Marine Corps Team from training to our 
full capabilities, impedes our shared ability to respond to an emergent 
crisis, and increases the strain on our current readiness. We will 
explore procurement strategies including the possibility of block buys 
and accelerating schedules that offer the best value for the taxpayer 
and allow us to retain skilled artisans in our shipyards. Along with 
increased amphibious ship capacity and modernization, we require the 
funding for the associated surface connectors that transport our 
marines from ship-to-shore, including the programmed replacement of the 
Landing Craft Air Cushioned and Landing Craft Utility platforms. These 
investments will improve our overall amphibious capability and 
capacity.
    The 5th generation Marine Corps for the 21st Century must dominate 
the information domain. We must both enable and protect our ability to 
command and control (C2) marines distributed across an area of 
operations. This requires transforming MAGTF C2 capabilities through a 
unified network environment that is ready, responsive and resilient. 
Recently fielded C2 systems provide a significantly increased 
capability associated with maneuver across the battlespace. We require 
support from the Congress to fully field these capabilities to the 
tactical edge, both in our ground and aviation platforms. These are 
examples of modern capabilities that will facilitate improved 
battlefield awareness to and from small, dispersed tactical units. As 
warfare evolves into a battle of signatures and detection, improvements 
such as these are vital to maximize our marines' protection and 
effectiveness.
    For too long, we have balanced the cost of our modernization 
efforts against our current readiness by extending and refreshing many 
of our legacy systems. While we judge these risks to be at manageable 
levels today, those risks are increasing and they are yet more examples 
of the trade-offs we are required to make due to fiscal reductions that 
accompany operational demand increases. The continued support of this 
Congress can mitigate and reverse these risks.
                               conclusion
    On behalf of all of our marines, sailors--many deployed and in 
harm's way today--and their families and the civilians that support 
their service, we thank the Congress and this subcommittee for this 
opportunity to discuss the key challenges your Marine Corps faces. I 
thank you for your support as articulated in the recent 2017 NDAA. 
While much work needs to be done, the authorizations within, coupled 
with sufficient funding and the repeal of the BCA, will begin to put us 
on a path to rebuild and sustain your Marine Corps for the 21st 
Century. Our fiscal year 2018 plan will require adjustment for 
decisions in fiscal year 2017 NDAA authorizations. We need to carry 
over decisions for fiscal year 2017 and fiscal year 2018 into our FYDP 
planning. Along with your authorization, we ask for the continued 
support of this Congress to appropriate the funds required to rebuild 
your Marine Corps. Additional end strength authorized by the Congress 
will help put us on the path to generate both the capabilities and 
capacity required in the complex operating environment our Nation 
faces. Additional funds will provide the ``ready bench'' our Nation 
requires and the infrastructure the force needs to train and sustain 
itself. Our future readiness relies upon increased procurement and 
modernization funding that will facilitate amphibious ship capacity and 
allow us to off ramp the continued funding for sustaining legacy 
systems. We have a plan to reset, recapitalize and modernize your 
Marine Corps into a 5th generation force for the 21st Century. With 
fiscal stability and predictability and increased resources, we will 
provide the Expeditionary Force in Readiness our Nation requires to 
protect its interests and security. With the support of the 115th 
Congress, we will move forward with our plan and vision to ensure your 
Marine Corps is organized, manned, trained and equipped to assure our 
allies, deter and, when necessary, defeat our adversaries.

    Senator Inhofe. Thank you, General.
    General Wilson?

  STATEMENT OF GENERAL STEPHEN W. WILSON, USAF, VICE CHIEF OF 
                             STAFF

    General Wilson. Thank you, Chairman Inhofe, Ranking Member 
Kaine, distinguished members of the subcommittee. On behalf of 
the Secretary of the Air Force and Chief of Staff of the Air 
Force, it's a pleasure to be here with you today, and with my 
fellow Vice Chiefs. I request the written statement be 
submitted for the record.
    American airmen are professional, innovative, dedicated 
and, frankly, the envy of the world. They are proud to be part 
of the most powerful joint fighting team in our history. We 
provide our leaders with a broad range of options, from 
protecting our country and its interests both at home and 
abroad. For the past 70 years responsive, flexible, and agile 
American air power has been our nation's first and often most 
sustainable solution in conflict and in crisis, underwriting 
every other instrument of power.
    We provide the nation with unrelenting global vigilance, 
global reach, and global power. In short, your Air Force is 
always in demand and always there. Look no further than two 
weeks ago when your Air Force executed a precision strike in 
Sirte, Libya, killing over 100 violent extremists. This was a 
textbook trans-regional, multi-domain, and multi-function 
mission. Air Force space, cyber, and ISR [intelligence, 
surveillance, and reconnaissance] warriors provided precision 
navigation and timing while monitoring enemy communication and 
movement.
    Simultaneously, 2 B-2 bombers took off from Whiteman Air 
Force Base in Missouri, flew a 34-hour non-stop mission, 
refueled with 18 tankers from U.S., European, and Middle East 
bases, and teamed with two MQ-9s to employ 108 precision 
munitions, meeting their time on target within 10 seconds.
    Meanwhile, every day your American airmen operate 60 
remotely-piloted [RP] aircraft patrols 24/7/365, as an 
unblinking eye for combatant commanders. They remotely fly 
these missions from the continental United States. They team 
with nearly 20,000 forward-deployed airmen to support the 
missions, like the recent Raqqa and Mosul offensives, where our 
fighter bomber and RP airmen also conduct 92 percent of U.S. 
strikes against ISIS.
    We do all of this while fulfilling two of our nation's most 
critical missions at home. We insert two-thirds of the nuclear 
triad and 75 percent of the nuclear command control 
communications remain to ensure robust, reliable, flexible and 
survivable options for the nation, while our fighters and 
tankers remain on alert, as they have for the past 15-plus 
years, ready to launch to defend the homeland.
    The capabilities our airmen provide to our nation and our 
allies have never been more vital, and our global demand for 
American air power will only grow in the future. However, this 
steadfast watch comes at a price, and the demand for our 
mission and our people exceeds the supply. We are out of 
balance.
    Twenty-six years of continuous combat has limited our 
ability to prepare for future advanced threat scenarios, 
scenarios with the lowest margin of error and the highest risk 
to national security. Non-stop combat, paired with budget 
instability and lower-than-planned toplines, have made the 
United States Air Force one of the smallest, oldest-equipped, 
and least ready in our history. We have attempted to balance 
the risk across our force to maintain readiness but have been 
forced to make unacceptable tradeoffs between readiness, force 
structure, and modernization. Today's global challenges require 
an Air Force not only ready to defeat today's violent extremism 
but prepared and modernized for any threat the nation may face.
    Mr. Chairman, I'll close by quoting General Douglas 
MacArthur. He sent a cable as he escaped the Philippines in 
1942. He said, ``The history of failure in war can be summed up 
in two words: Too late. Too late to comprehend the deadly 
purpose of the potential enemy, too late in realizing the moral 
danger, too late in preparedness.''
    Distinguished members of the subcommittee, preparedness or 
readiness cannot be overlooked. Your Air Force needs 
congressional support for fiscal year 2017 to pass an 
appropriation, and support for a budget amendment that 
accelerates readiness recovery. In fiscal year 2018 we must 
repeal the Budget Control Act and provide predictable funding 
for the future. These are critical to rebuilding full-spectrum 
military readiness, which is the number-one priority of the 
Secretary of Defense. We need to act now, before it's too late.
    On behalf of the Secretary and the Chief of Staff and the 
660,000 airmen, Active, Guard, Reserve, and civilians who serve 
our nation, thank you for your tireless support. I look forward 
to your questions.
    [The prepared statement of General Wilson follows:]

            Prepared Statement by General Stephen W. Wilson
                              introduction
    Since our establishment 70 years ago, the United States Air Force 
has secured peace throughout the full spectrum of hostilities with a 
decisive warfighting advantage in, through, and from air, space, and 
cyberspace. Without pause, we deliver global combat power by deterring 
and defeating our nation's enemies, while supporting joint and 
coalition forces at the beginning, the middle, and end of every 
operation. Though the intrinsic nature of warfare remains unchanged, 
the character of war--and the approach joint forces must take to 
address new and changing threats--must continually evolve.
    As the nation plans to counter the national security challenges 
posed by Russia, China, Iran, North Korea, and Violent Extremist 
Organizations, controlling and exploiting air, space, and cyberspace 
remains foundational to joint and coalition success. Today's 660,000 
Active Duty, Guard, Reserve, and civilian airmen meet these challenges 
by deterring threats to the U.S., assuring our allies, and defeating 
our adversaries 24/7/365. We provide unwavering homeland defense and 
operate a robust, reliable, flexible, and survivable nuclear 
enterprise, as the bedrock of our national security.
    This steadfast watch, however, comes at a price. Conducting 
continuous, worldwide combat operations since 1991 has placed a 
dangerous toll on our airmen, equipment, and infrastructure. Sustained 
global commitments and funding reductions have eroded our Air Force to 
be one of the smallest, oldest-equipped, and least ready forces across 
the full-spectrum of operations, in our service history. The 
uncertainty and reduction in military funding resulting from Budget 
Control Act of 2011 (BCA) further degraded our readiness. Such fiscal 
uncertainty critically challenges our ability to sustain warfighting 
capacity, improve readiness, modernize our force, and invest in 
research and development to maintain our advantages over near-peer 
competitors.
    While the Bipartisan Budget Act (BBA) of 2015 provided some space 
to improve readiness and continue modernization efforts, your Air Force 
needs further Congressional support to ensure we continue to strengthen 
America's military to win today's fight, while building the Air Force 
our nation needs to meet tomorrow's challenges.
                              always there
    Your Air Force has been globally engaged for the last 26 years of 
combat operations. We relentlessly provide Global Vigilance, Global 
Reach, and Global Power for the nation . . . we're always in demand . . 
. and we're always there. Though our end strength has decreased by 38 
percent since 1991, we have experienced significant growth across 
several mission areas.
    Our airmen provide joint forces with Global Vigilance using real-
time multi-domain platforms and sensors integrated across our global 
intelligence and command and control networks to find, fix, and finish 
a range of hostile targets simultaneously across the globe. Without 
fail, the Air Force flies 60 combat lines of persistent attack remotely 
piloted aircraft (RPA) per day . . . the unblinking eye that supports 
combatant commander around the globe. Through our Intelligence, 
Surveillance and Reconnaissance (ISR) capabilities, we provided 
warfighters over 6,000 intelligence products per day used to identify 
enemy targets and trigger 70 percent of Special Operations Forces 
assaults on terrorists.
    Additionally, the Air Force conducted 4,000 cyber missions against 
more than 100,000 targets, disrupting adversaries and enabling over 200 
High Value Individual kill/capture missions. In securing our networks 
and digital infrastructure, 2016 saw Air Force cyber operators block 
more than 1.3 billion malicious connections--an average of more than 40 
per second. Meanwhile, our space operators provide relentless and 
reliable interconnectedness, global positional awareness, global 
missile warning, and battlefield situational awareness for our joint 
forces.
    Nearly every three minutes a mobility aircraft departs on a 
mission, providing Global Reach and access, projecting power through a 
network of airfields in 23 countries and 77 locations, while providing 
critical aerial refueling capability. In 2016, our aeromedical 
professionals evacuated over 5,700 patients and provided emergency 
medical care resulting in a 98 percent survival rate. Your Air Force 
provides unrelenting ability to maneuver, sustain, and recover 
personnel and assets . . . at home, abroad, and with our allies and 
partners.
    With American fighters, bombers, RPAs, and Intercontinental 
Ballistic Missiles (ICBMs), the Air Force provides conventional and 
nuclear Global Power that can strike an enemy on short notice anywhere 
in the world. In Iraq and Syria, the Air Force has led 65 percent of 
the more than 17,000 coalition airstrikes since 2014, to deliver 
decisive firepower supporting joint, special operations, and coalition 
ground forces to defeat and degrade ISIS and regain critical territory. 
All while our airmen continue to provide two legs of the nuclear triad, 
resource 75 percent of the Nuclear Command, Control, and Communications 
framework, deter our adversaries, and connect the President to 
strategic options.
    Stitched together, the fabric of our Air Force weaves multi-domain 
effects and provides U.S. service men and women the strongest blanket 
of protection and the ability to power project American's full range of 
combat capabilities. Make no mistake, your Air Force is always there.
                     readiness in a changing world
    However, being ``always there'' comes at a cost to our airmen, 
equipment, and infrastructure, and we are now at a tipping point. 
Sustained global commitments and recent funding cuts eroded Air Force 
readiness, capacity, and capability for a full-spectrum fight against a 
near-peer adversary. Our force structure and our platforms now 
represent one of the smallest, oldest-equipped, and least ready forces 
in our service history. In 2013, sequestration abruptly delayed 
modernization and reduced both readiness and the size of the Total 
Force.
    Our readiness decline began as we entered fiscal year 2014 
expecting a corresponding decrease in both operations and overall 
funding. Instead, fiscal year 2014 began with a government shutdown and 
fiscal planning focused on a second year of sequestration. Compounding 
the fiscal austerity, 2014 presented enormous geopolitical challenges 
to America. Challenges included Russia's annexing of Crimea, Chinese 
island-building in the South China Seas, the rapid rise of ISIS, and 
ongoing operations in Iraq and Afghanistan. Therefore, instead of 
reducing commitments, we entered into a new era of great power 
competition coupled with persistent war against violent extremism. The 
combination of decreased funding and increased military operations 
required the Air Force to make tradeoffs that adversely affected 
readiness. In short, our force is stressed to meet ever-growing mission 
demands.
    In fiscal year 2016 and fiscal year 2017 budgets, we made necessary 
adjustments to balance near-term readiness with future modernization, 
but our readiness remains at a near all-time low due to continuous 
combat operations, reduced manpower, an aging fleet, and inconsistent 
funding. Instead of rebuilding readiness for near-peer conflicts, your 
Air Force is globally engaged in operations against lesser-equipped, 
but still highly lethal, enemies. This requires airmen to serve at home 
and abroad to underpin joint force success, but at the expense of full-
spectrum readiness. In contrast to our joint teammates, your airmen do 
not reset or regroup . . . they are either deployed abroad, deployed in 
place, or training for their next deployment.
    Your Air Force needs permanent relief from the BCA caps, increased 
funding, flexible execution authority, and manpower to recover full-
spectrum readiness. We will continue to do all we can to innovate, 
transform, and improve how we maximize our resources. However, we still 
need your help in providing funding stability with the ability to 
modernize our capabilities, at the pace required to fight and win 
against any emerging threat.
                      state of air force readiness
    During WWII, General MacArthur's Airman, General George Kenney, 
said it best, ``Airpower is like poker. A second-best hand is like none 
at all--it will cost you dough and win you nothing.'' Today's Air Force 
is at risk of becoming a second-best hand with readiness hovering near 
50 percent.
    We remain America's first and most agile responder to crisis and 
conflict, underwriting every joint operation . . . however, the demand 
for your Air Force, exceeds the supply.
    To meet the full requirements of our Defense Strategic Guidance and 
current operation plans, we require 80 percent of our combat squadrons 
to be full-spectrum ready. We define full-spectrum readiness as the 
right number of airmen, properly led, trained and equipped, to 
accomplish our Air Force mission in support of joint forces in both 
contested and uncontested environments.
    We measure full-spectrum readiness through our five levers of 
readiness: critical skills availability, weapons system sustainment, 
training resource availability, flying hour program, and operational 
tempo. If airmen are not ready for all possible scenarios, especially a 
high-end fight against a near-peer adversary, it will take longer to 
get to the fight; it will take longer to win; and it will cost more 
lives. The following sections highlight key areas where Congressional 
support is needed in order to balance our five levers of readiness.
                                 people
    Airmen are our greatest resource and our Air Force need to increase 
end strength to meet national security requirements. Manpower 
shortfalls in key areas remain the number one issue limiting readiness 
and is our top priority. At the start of 2016, our end strength stood 
at 311,000 Active Duty airmen, down from more than 500,000 during 
Desert Storm--a 38 percent decrease. Though we appreciate your support 
to build the force up to about 321,000 in 2017, we will still be 
stretched to meet national security requirements. To quote Senator 
McCain, we need to ``dig out'' more than ``build up.''
    To improve readiness and attain manning levels matching our mission 
requirements, we are considering an increase to our Active Duty, Guard, 
and Reserve end strength and will work with the Secretary of Defense to 
develop the fiscal year 2018 President's Budget to address personnel 
shortages. Our Total Force model (incorporating our Active Duty, Guard, 
Reserve, civilians, and our contracted capabilities), not only 
recognizes the value of an integrated team, but helps guarantee today's 
and tomorrow's capability. We will develop plans to address shortfalls 
in a number of key areas, including critical career fields such as 
aircraft maintenance, pilots, NC3, intelligence, cyber, and battlefield 
airmen.
    As we drew down Active Duty manpower in recent years, we have 
relied more heavily on our civilian airmen. Our civilians make up 26 
percent of our Total Force--of which, 94 percent are in the field, 
providing vital mission support through weapons system maintenance, 
sustainment, engineering, logistics, security, intelligence, and 
medical functions. Currently, our civilian workforce is 96 percent 
manned. At the historical attrition rate, the civilian workforce will 
shrink to a 93 percent manning level over the next four months.
    In the aircraft maintenance field, we were short approximately 
3,400 aircraft maintainers at the close of 2016. Because of this 
shortage, we cannot generate the training sorties needed for our 
aircrews. The same pool of maintainers that keep our existing aircraft 
flying at home and in combat, must simultaneously support fielding new 
platforms. Due to an ongoing shortage of Active Duty aircraft 
maintainers, we will continue to fund contractors to fill the gap at 
select non-combat A-10, F-16, and C-130 units as our Active Duty 
maintainers transition to the F-35. This allows us to strike a balance 
between meeting today's demand while modernizing for the future, but 
masks the insufficient size of the force.
    We also face a pilot shortage crisis across all disciplines, most 
acutely in the fighter community. The Air Force has the world's finest 
pilots who enable an incomparable duality of global mobility and combat 
lethality. As airlines continue hiring at unprecedented rates, they 
draw away experienced pilots. Without a healthy pool of pilots, we risk 
the ability to provide airpower to the nation.
    Pilots are strategic national assets and the pilot crisis extends 
beyond the Air Force and military. It is a national problem which 
requires senior-level attention in Congress, the Commercial Industry, 
and the DOD. To address this national challenge, since 2014 the 'Air 
Force-Airline Collaboration', formally known as the National Pilot 
Sourcing Forum has increased efforts to effectively utilize and train 
an adequate number of pilots to meet our nation's pilot demand signal.
    However, pilot retention has declined for five straight years. We 
ended fiscal year 2016 at 723 fighter pilots below requirement and 
1,555 total pilots short across all mission areas. Pilot training and 
retention are priorities. The increased end-strength provided in the 
fiscal year 2017 NDAA will allow us to maximize the training pipeline 
and fill out under-manned units, which are vital to our recovery. We 
are grateful for your support to increase the pilot bonus, and we will 
continue to ensure our retention programs are appropriately sized and 
utilized.
                     nuclear deterrence operations
    We require additional resources to invest in our nuclear 
capabilities and infrastructure that are the bedrock of our national 
security. While our nuclear forces remain safe, secure, and effective, 
we require significant investment to ensure robust, reliable, flexible, 
and survivable nuclear readiness and deterrence well into the future.
    On average, our B-52 bombers are 55 years old and our nuclear 
facilities are now over 50 years old, with many facility systems 
operating well past their 20-year designed life span. Currently, all of 
our weapons storage areas are operating with waivers and deviations 
from our high standards. Although these storage areas are 
uncompromised--they remain safe and secure--we must recapitalize this 
infrastructure to address the recommendations identified in our Nuclear 
Enterprise Reviews for facility and weapons sustainment.
    Meanwhile, we must continue to invest in modernization of our air- 
and ground-based nuclear weapons systems. The B-2 and B-52 require 
upgrades, and we must ensure one of our main acquisitions priorities, 
the B-21 bomber, proceeds on schedule. In addition, our ICBMs, which 
provide the U.S. with a stabilizing and responsive strategic deterrent 
capability, are being maintained and operated well beyond their planned 
operational life-cycles and face significant sustainment challenges. 
The Ground-based Strategic Deterrent (GBSD) recapitalization program, 
which will replace the ICBM fleet, must proceed as planned in order to 
ensure the ground leg of the nuclear triad remains credible and 
effective in the decades ahead. Connecting the nuclear triad is our 
nuclear command, control, and communications (NC3) system. Accordingly, 
NC3 must be modernized to support accompanying nuclear capabilities.
    Finally, we must modernize our nuclear stockpile, by continuing to 
support the B-61 modernization program, while investing in the 
development of the Long-Range Standoff weapon as a survivable air-
launched weapon capable of destroying otherwise inaccessible targets in 
any conflict zone. Though we are grateful for modest relief of spending 
limitations that allowed us to address a scrutinized priority list of 
nuclear modernization efforts, we require additional resources to 
invest in foundational nuclear capabilities and infrastructure.
                                 space
    Underwriting every joint operation across the globe is our ability 
to use the space domain at the time and place of our choosing. Our 
freedom of action in, through and from space can no longer be taken for 
granted. Our potential adversaries have had a front row seat to the 
many successes achieved by space integration into joint warfighting 
and, unfortunately, they are rapidly developing capabilities to deny us 
space superiority. In the not too distant future, our potential 
adversaries will have the capability to hold all of our military space 
capabilities at risk.
    Space is a warfighting domain. The paradigm for space operations 
has shifted from a force enabler/enhancer to an integrated warfighting 
capability. As the Nation's lead service for space, we require 
additional support to build Air Force space systems, that are more 
resilient and agile. This means investment in capabilities to defend 
our space assets, while maintaining a cycle of continuous upgrades in 
each generation of spacecraft to ensure that systems are fully ready 
when called upon by the joint warfighter and can continue to operate in 
an increasingly contested environment.
    Maintaining assured access to space remains one of our top 
priorities. We are working to mature and advance our Launch Service 
Agreement strategy to develop affordable, sustainable launch 
capabilities that will eliminate dependence on foreign rocket 
propulsion systems. Second, we are developing Space Situational 
Awareness and Battle Management Command and Control (BMC2) 
capabilities, which underpin our efforts to integrate space into full 
spectrum joint operations. Investments in space situational awareness 
capabilities, such as Space Fence, ground-based radar and optical 
systems and on-orbit surveillance capabilities, like the Geosynchronous 
Space Situational Awareness Program (GSSAP) [our geosynchronous orbit 
``neighborhood watch''], enables critical battlespace awareness in 
space and the unprecedented ability to characterize the space 
operational environment.
    Similarly, investments in the Joint Interagency Coalition Space 
Operations Center (JICSpOC) and the Joint Space Operation Center 
(JSpOC) Mission System (JMS) provide the decision superiority and data 
we need to deter attack, and, if necessary, defend our capabilities and 
freedom to operate in space. Lastly, space systems provide mission-
critical services and capabilities to support our Joint Forces in 
theater and around the globe, every day. Continuing to modernize and 
replenish our missile warning, nuclear command and control, satellite 
communication and Global Positioning System constellations ensures we 
will have resilient, mission-assured capability to support daily joint 
operations.
    Finally, we need to continue integrating our organizations and 
capabilities across both the DOD and the Intelligence Community, while 
improving training for our space force and cultivating an enduring 
cadre of space operators and acquirers. We must normalize and 
operationalize the space domain by maturing our tactics, techniques and 
procedures and ``train like we fight,'' in space, just as we would in 
any other domain to ensure we are fully prepared to deal with today's 
adversaries and emerging technology.
                               cyberspace
    Cyberspace capabilities are essential to joint operations. The Air 
Force remains committed to providing 39 fully operational Cyber Mission 
teams by the end of fiscal year 2018. Today's cyber teams are 
conducting ongoing offensive and defensive cyber operations in support 
of combatant commanders daily, therefore we must commit to a robust and 
resilient cyber enterprise.
    Today, the Air Force cyber enterprise lacks sufficient numbers of 
trained cyber forces to meet the ever-increasing demands. Additionally, 
the increasing numbers of attacks on our cyber infrastructure and 
weapon systems, from state and non-state actors, continue to tax the 
limited personnel and tools to effectively defend critical assets and 
preserve freedom of movement in a domain where actions happen at the 
speed of light. Adequate and consistent resourcing over time will 
enable us to obtain and maintain cyber superiority in this highly 
dynamic warfighting domain.
    Additional investments in cyberspace capabilities are required. We 
need to continue modernizing and developing offensive and defensive 
tools and measures to harden current infrastructures while baking cyber 
security into every new capability to counter cyberspace adversaries. 
This will ensure Air Force and joint force mission assurance--command 
and control, weapon system cyberspace defense, information dominance, 
and integrating offensive cyberspace effects into multi-domain 
operations.
                           combat air forces
    The average age of Air Force aircraft is 27 years. This is the 
oldest in our 70-year history. If aircraft required license plates, 54 
percent of our platforms would qualify for antique designation in the 
state of Virginia. The ability to fly, fight, and win with aging 
aircraft is made possible by remarkable airmen in an all-volunteer 
force. Modernization can no longer be delayed . . . it is the 
capability and capacity for a high-end fight. Today's modernization is 
tomorrow's readiness.
    To continue to provide unrelenting air superiority and global 
precision strike, we cannot accept a less than ready force. With 
current combat readiness falling below 50 percent and an ever-growing 
demand signal, our Air Force requires an increase in combat air forces 
capacity. The more diminished our combat-coded fighter squadrons, the 
more degraded our ability to posture and project global power for 
America. At our current fighter procurement rate, it will take 45 years 
to recapitalize our full fighter force. We must also continue to 
procure the F-35 to counter rapidly advancing near-peer threats.
    To ensure our airmen are ready to face any emerging or future 
threat, we need to provide our airmen with advanced threat testing, 
training, and associated technology. Our forces must have access to 
realistic test and training ranges and investment in computer-aided 
live, virtual, and constructive (LVC) infrastructure. LVC capability 
provides opportunities to test and train against the world's most 
capable threats, reduces costs, and supports full-spectrum readiness. 
Finally, we must have sufficient munitions to counter current threats, 
while developing advanced munitions to counter future threats.
          intelligence, surveillance, and reconnaissance (isr)
    The Air Force ISR enterprise is often the first in the fight and 
the last to leave . . . providing continuous coverage of global threats 
and targets . . . from the earliest surveillance of the battlespace, to 
after weapon impact. However, the demand for continuous ISR presence is 
insatiable and ever growing, and our ISR enterprise is strained.
    Over the past 15 years we grew the RPA enterprise 1,200 percent . . 
. and today we support 60 continual combat lines of persistent attack 
RPAs. Within current constraints, we are committed to improving quality 
of life and work for our airmen, and are prioritizing investments to 
create a dedicated launch and recovery MQ-1/9 squadron, increase 
training, and restore two MQ-9 operations squadrons. Additionally, we 
are training enlisted operators to fly the RQ-4 Global Hawk and funding 
a strategic basing initiative to eventually fly RPAs at new locations 
on schedule.
    However, our ISR enterprise still needs help. More than 7,000 
airmen working in our Distributed Common Ground System are over-
stressed and undermanned. These airmen supported over 29,000 ISR 
missions, analyzed more than 380,000 hours of full motion video and 
disseminated 2.6 million images to our warfighters in the last year 
alone, attempting to quench the insatiable demand for ISR. They have 
operated at these surge levels for over a decade.
    To meet the needs of combatant commanders, the RPA force may 
require additional airmen to achieve a healthy and sustainable force. 
Moreover, we continue to pursue emerging ISR Cyber and Space 
capabilities. We must also recapitalize our C2ISR platforms, such as 
our E-8C JSTARS aircraft, which provides a unique combination of 
airborne C2, communications, and high-fidelity moving-target 
surveillance capability. These capabilities are essential to finding 
and tracking our adversaries, conducting non-kinetic targeting, and 
ensuring Air Force weapon systems cyber mission assurance.
                             infrastructure
    We project airpower from a network of globally positioned bases, 
and we must focus on maintaining these bases as part of our strategic 
force posture. However, our infrastructure, particularly our 
installations in the continental U.S., are in excess of our operational 
needs. This is an inefficient arrangement with aging and underused 
facilities consuming funds that should be prioritized for readiness and 
modernization.
    Budget pressures have repeatedly delayed investments in aging 
infrastructure such as test and training ranges, airfields, facilities, 
and even basic infrastructure like power and drainage systems. Our 
infrastructure problem has only been exacerbated by the funding caps 
imposed under the BCA. Every year that we delay infrastructure repairs 
affects operations and substantially increases improvement costs. It is 
time for another round of Base Realignment and Closure (BRAC) to allow 
us to reinvest funds in higher priority areas across the Air Force.
                               conclusion
    Since 1947, the Air Force has relentlessly provided America with 
credible deterrence and decisive combat power in times of peace, 
crisis, contingency, and conflict. However, our relative advantage over 
potential adversaries is shrinking and we must be prepared to win 
decisively against any adversary. We owe this to our nation, our joint 
teammates, and our allies. The nation requires full-spectrum ready air, 
space, and cyber power, now more than ever. America expects it; 
combatant commanders require it; and with your support, airmen will 
deliver it.

    Senator Inhofe. I thank all of you for your opening 
statements.
    I see this as I did 22 years ago in this committee, not 
just to get our state of readiness where it should be, but also 
to tell the truth about how unready we are. I think you did a 
good job of that, General Wilson.
    Admiral Moran, the thing that probably came out that 
shocked most people from yesterday was your statement about 
more than half the F-18s are not running. I mean, people need 
to hear that, and they need to hear it from you guys who are at 
the top and who are in a position to say it with more 
credibility certainly than I can say it.
    We know where we are right now. We know there are problems 
we have. Senator Kaine and I are in very much agreement. In 
fact, we have a mutual friend who put us together several years 
ago, and we have a friendship. There's a little bit of 
difference in how we see what has happened during the last 
administration, the idea of finding ourselves where we have to 
do something about sequestration, we have to do something about 
the deterioration in the funding and the capabilities of our 
military.
    As we do that, we don't want to be in a position that for 
every dollar we do that, we have to do it for the non-defense. 
I mean, that philosophy tells me that the priority is not what 
I interpret the Constitution, and I told you all of this when 
you were in my offices. I think it's important that we 
recognize that we're going to have to do a lot of rebuilding 
here, and we have to tell the truth. When you talk about we're 
pretty good forward but we have nearly an empty bench behind, 
that's a serious thing.
    You've heard a lot of the talks recently. You've heard the 
figures, as some of you have referred to, the Army going to 
540,000 ships, 355 marines to 36 battalions, and 1,200 fighter 
aircraft there for General Wilson. These are figures that it's 
going to be hard to actually come out for exact figures. We 
talked to [Secretary of Defense] Mattis about these same 
figures, and they recognize they do represent an enhancement 
that has to be there.
    I want to start off by asking each one of you how realistic 
you think these figures are, not as if they're going to be 
exact but are they in the ball park of the threat that's facing 
us now.
    We'll start with you, General.
    General Allyn. Thank you, Chairman Inhofe. I'll start by--
--
    Senator Inhofe. I neglected to say if there's no objection, 
we'll use 7-minute rounds because we're going to have to do 
this in one round.
    Go ahead.
    General Allyn. I'll ignore this 4-minute ticker on my 
screen here.
    Senator Inhofe. Just ignore that.
    General Allyn. Yes, Chairman Inhofe, the Secretary of 
Defense has directed a strategic review that we expect to 
result in an adjusted force sizing construct. As the Chief of 
Staff of the Army has highlighted in prior testimony, the 
estimate that 540,000 in the Active force reflects is a subset 
of what would it take to get the military risk level to respond 
to the contingencies that we face and the operational plans of 
our combatant commands down to a moderate level.
    Senator Inhofe. You're talking about moderate risk.
    General Allyn. A moderate risk level. That would require a 
1.2 million total force. Now, if we get adjusted guidance, 
obviously we will do our internal due diligence to determine 
exactly what the right number is. You asked is it in the 
ballpark; it's in the ballpark.
    Senator Inhofe. All right, and I appreciate that. You know, 
when you talk about risk, I would hope you would always make 
sure people understand. You talk about risk, which talks about 
readiness, which talks about lives. We're talking about lives 
now, that's how serious that is.
    Admiral Moran?
    Admiral Moran. Yes, sir, Chairman. The number you quoted 
was based on our force structure assessment, which was done 
over the past year. I would tell you that that's a good target 
to start ramping towards. As you know, in shipbuilding, it 
takes years just to get to one ship. We're going to have many 
years to assess where new technology takes us, new war-fighting 
constructs.
    As I said in my opening, we know we're too small for what 
we're being asked to do today, so we have to get on a ramp to 
not only arrest the decline, which I think we're on in 
President's Budget 2017 [President budget for fiscal year 
2017], unsequestered, and with an appropriations bill. It's a 
target that's worth shooting for, at least in the beginning 
ramp of the next four or five years.
    Senator Inhofe. Okay, that's understandable. Would you 
repeat your characterization of our capability of our F-18s?
    Admiral Moran. Yes, sir. The facts are that for our entire 
Hornet fleet, it's the Hornets and Super Hornet fleet, we have 
62 percent on a given day. Yesterday was 62 percent. I doubt 
it's changed much since yesterday. We're in about 62 percent 
that are not flyable.
    Senator Inhofe. More than half.
    Admiral Moran. More than half. On a typical day it's about 
30 percent if everything's going well, about 30 percent that's 
either in depot or on a flight line that's not flyable. We're 
double where we should be in non-flyable aircraft.
    Senator Inhofe. Thank you.
    General Walters?
    General Walters. Yes, sir. The figure of 36 battalions for 
us, that's a reasonable target to shoot at if it's a total 
force number. More importantly I think is if we grow end 
strength. I mentioned that we have done 18 months' worth of 
analysis on what capabilities we need. They're everywhere from 
ISR, IO [information operations], counter-UAS [unmanned 
aircraft system], which is nascent but required and I think a 
need right now, long-range fires.
    Before we build another capacity, we need to fix the holes 
that are in our current organizations. That's a smaller number, 
194,000 is about that, before you start buying any additional 
capability. That's a strategic choice that needs to be made, 
and a strategic review will look at that.
    I think the 36 battalions comes from a 2-thing strategy, 
doing 2 things simultaneously. I can tell you today we cannot 
do two things simultaneously, and one of the stressing ones for 
us is Korea. We couldn't do that at all if we still had 
commitments elsewhere in the world--Europe, Africa, or the 
Middle East.
    Senator Inhofe. You know, they don't use that anymore like 
they used to, two worldwide conflicts almost simultaneously.
    General Walters. Yes, sir, and I think our enemies know 
that.
    Senator Inhofe. Because it's a recognition we're not there.
    General Walters. Yes, sir, and I think our enemies know 
that, too.
    Senator Inhofe. Yes, I think they do too.
    General Wilson?
    General Wilson. Chairman, I told you yesterday that we're 
at about 50 percent readiness today across the Air Force. We're 
at the smallest Air Force ever in 2016, when we bottomed out at 
310,000. Just last year we finished the year at 317,000. We 
want to grow our force to 321,000 this next year. We think the 
target we're shooting for is 350,000 airmen in the United 
States Air Force. That number fills 100 percent of our current 
manning documents. That's a current mission. That's no new 
mission. As mentioned by General Allyn, it's a strategic 
defense review that looks at where we need to be. That number 
can be adjusted even up. We think 350,000 is the number for our 
airmen.
    We think we need 60 fighter squadrons, in addition to 
modernizing our nuclear force and our space forces.
    Senator Inhofe. I want to get to one other area before we 
go around, and that is when you're going through a starvation 
period, you have two problems. One is it's at the expense of 
modernization and maintenance. First of all, do you agree with 
that?
    What I'd like to have is just for each one of you the area 
of modernization that needs to be enhanced now because you've 
had to let that go, starting with you, General Allyn.
    General Allyn. As we testified last year, Chairman Inhofe, 
we've had most of our modernization programs on life support 
for the last several years. We are currently--our modernization 
program is 50 percent of what it was in 2009. In 2009, it was 
$48.5 billion. It's $24.8 billion this year, and it's 
inadequate to modernize for the near term, let alone the long-
range future force that we know we're going to require on a 
multi-domain battlefield.
    We would prioritize against our near-peer competitors to 
ensure our current platforms are the best that we can possibly 
field, and then begin to work on the new equipment that we 
would need.
    The good news about modernizing current equipment is it's 
shovel-ready today if the resources are provided.
    Senator Inhofe. Thank you.
    Admiral?
    Admiral Moran. Senator, as you know, modernization for us 
also comes in the form of maintenance. We modernize our ships 
while they're in maintenance, just upgrading radars, weapon 
systems, those sorts of things. In terms of platform 
modernization, our top priority is the Columbia-class to 
replace the Ohio-class of submarines. We're at the end of 
service life in Ohio if we don't start this year. We appreciate 
the anomaly in the current CR [continuing resolution] 
environment for Columbia.
    Second would be a close call between building to the 12th 
nuclear aircraft carrier Ford-class to get us to a total of 12. 
Then DDGs and SSNs, probably SSNs over DDGs if we had to 
prioritize them, simply because we're already very low on our 
SSN numbers, and are going lower over time. That's a key 
capability for us.
    Senator Inhofe. Okay. Generals Wilson and Walters, you 
answer for the record since we're out of time here. Keep one 
thing in mind, and that is when you're looking at the future, 
you don't know really what you have to--I always remember the 
last year I was on the House Armed Services Committee, we had a 
witness. This was in 1994. They said that in 10 more years we 
will no longer need ground troops. You don't know. You're 
predicting in the future; it's very difficult to do.
    If you want to meet the expectations of the American 
people, you have to be superior in all areas, which we're not.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thanks to the witnesses.
    First a general question for all four of you based on your 
verbal testimony. Would you agree that a comprehensive national 
security strategy would require a repeal of sequestration not 
only for defense but also for the non-defense accounts that 
directly bear upon national security?
    General Allyn. Senator Kaine, absolutely. We require a new 
national security strategy to guide both the military 
capability that's required and the other elements of national 
power that would be integrated to whatever solution we would 
need to deliver around the world.
    Admiral Moran. I would agree with General Allyn, sir.
    General Walters. I agree, sir. The entire nation's power 
needs to be brought to bear.
    General Wilson. I agree.
    Senator Kaine. Thanks, General Wilson.
    General Allyn, in your verbal testimony, in talking about 
readiness, you talked about the link between readiness and our 
ability to recruit and retain our best talent, and I'd like you 
to elaborate on that a little bit. What's the connection 
between these readiness discussions we're having and the 
ability to recruit and retain?
    General Allyn. Thank you, Senator Kaine. As I talked in the 
intro of the conversation, the Army is people. At its core, our 
primary weapon system is our soldier. Unless we can continue to 
assess the great champions that continue to join the United 
States Army every day and retain the best, we cannot sustain 
the tempo that we are executing each and every day around the 
globe.
    We have really endured the last several years of the 
drawdown on the backs of our soldiers who have been willing to 
extend the time deployed, reduce the time at home, and carry 
that load. We cannot continue to bear that burden into the 
future without severe readiness impacts. If we don't have 
soldiers manning our forces and carrying our weapons, we don't 
have anything. That is job 1 for us.
    Now, the good news is we are successfully recruiting the 
force that we need, and we are seeing very positive signs in 
retention. In response to the NDAA 2017 authorization, our 
first step was to try to retain more of the current force, and 
within the first 30 days of this effort 2,500 have said I want 
to extend on this great team. We are encouraged by that, but we 
know that this is a long-term effort, and we have to stay after 
it.
    Senator Kaine. Thank you.
    Admiral Moran, you and I talked in my office about the 
maintenance of ships, and as you point out, maintenance is 
modernization for a lot of what you do. If we're down from the 
300 and teens down to 275, doesn't that make the maintenance of 
the remaining 275 even more important?
    Admiral Moran. Yes, sir, it absolutely does.
    Senator Kaine. Talk to me a little bit about the shipyards, 
and I'll stay with Admiral Moran because there was an 
implementation guideline on the civilian workforce hiring 
freeze that was last week issued by the Deputy Secretary of 
Defense, Secretary Work, and he authorized certain exemptions 
for positions in shipyards and depots that perform direct 
management of inventory and direct maintenance of equipment. 
Nevertheless, that hiring freeze still is affecting your 
shipyard and depot workers, and many of them are nearing 
retirement. If this hiring freeze were to continue without 
adjustment, talk a little bit about the effect that that would 
have on shipyards in particular.
    Admiral Moran. Yes, Senator. I'm mindful of the fact that 
we've got several members here that have shipyards that are 
very concerned.
    Senator Kaine. Yes, I'm trying to beat the question----
    [Laughter.]
    Admiral Moran. Yes, sir. We have some pretty good 
assurances that the hiring freeze, the temporary hiring freeze 
that's been put into place, that we will be able to get 
exemptions for our depots and our yards. We are still working 
through the mechanics of that, though. The Secretary of the 
Navy, who has been delegated authority to allow for these 
exemptions, has to sign each person's exemption, or can we do 
these in groups based on the lower echelon input? We're working 
through those details, but I think you'll be pleased to know 
that we're going to get through this in the very near term.
    To your point, if it were to endure, we're back to 
sequestration, furlough levels of 2013, that was devastating to 
our force, and we don't want to go there.
    Senator Kaine. Could I have the other members of the panel 
talk a little bit about what the hiring freeze would mean if it 
continued?
    General Walters. Sir, I'll just give you a short example. 
We're doing a lot of planning to increase readiness and grow 
the force and do these things. I'm short contracting officers 
50 percent. If I can't hire contracting officers, we can put 
any plan we want in place, we can put the money in place, but I 
can't execute it, it's not going to come to fruition. That's 
one of our challenges.
    Senator Kaine. General Wilson?
    General Wilson. You mentioned shipyards; depots are the 
same way. We need to be able to--today, 96 percent of our 
civilian workforce works outside of Washington, D.C. They work 
in places like our depots or on our flight lines. If we can't 
hire, that has a direct impact to readiness. We're confident 
that we can get the procedures in place to move through this, 
but we can't have it slow down the hiring.
    General Allyn. For the Army, we've begun to triage our 
depots based on those temp and term hires that were about to 
expire. We've worked through February. We're just about through 
March, and we find that the waiver is meeting the need that we 
have for our commanders, and we have a direct link between our 
commanders and the Secretary to ensure that bureaucracy does 
not get in the way of taking care of our people.
    Senator Kaine. I'm going to use the remainder to allow 
General Walters and General Wilson to answer the question that 
Senator Inhofe asked, because I was really interested in the 
prioritization, if there were restoration of funds, what are 
some of the highest priority items that you've not been able to 
do that you would want to do, and I think this is really 
important testimony to get on the record today.
    General Walters. Yes, sir. We are like all the other 
services that have taken hits in modernization. We're at about 
50 percent of where we were even 5 years ago. It caused us to 
make decisions. Our ground combat vehicle program, our 40-year-
old amphibious vehicles, our Humvees need to be replaced, and 
we have programs for that but they're a very, very minimal 
amount, minimum sustaining rate, and it caused us to do things 
like an obsolescence program on our light armored vehicles 
instead of buying new ones. We're putting--I don't like the 
term ``band-aid,'' but we're putting that program on a light 
armored vehicle when we really should be buying a new one.
    Senator Kaine. General Wilson?
    General Wilson. Senator Kaine, just like Admiral Moran 
talked about, our first priority would be nuclear 
modernization. We delayed investment in that for far too long. 
Today we have 75 less F-35s than we had planned on in 2012. The 
F-35 program is a significant modernization program going 
forward.
    Additionally, the KC-46 and the B-21 are significant 
programs going forward. Today's modernization is tomorrow's 
readiness, and right now our average fleet is over 27 years 
old. We've got 21 of 39 fleets of our aircraft that exceed the 
27-year average. Building this new capability will help the 
modernization going forward.
    Admiral Moran. Senator, if I could add, if you don't mind, 
General Wilson reminded me that for Navy I was focused on the 
shipbuilding part, but aviation is clearly a priority, either 
in the near term buying Super Hornets to replace the Hornet 
fleet, the legacy Hornet fleet, but also we're in the same 
position. We are well behind where we wanted to be when it 
comes to the F-35. Those are two very important modernization--
--
    Senator Inhofe. I know that's true, along with the pilot 
problem, which I'm hoping members will get into.
    Thank you, Senator Kaine.
    Lieutenant Colonel Ernst?
    Senator Ernst. Thank you, sir. I appreciate that.
    Gentlemen, thank you very much for being here today. I told 
a friend earlier today that I think what I'm going to hear from 
you gentlemen today is very similar to what we heard from last 
year, and that's extremely disappointing I think for all of us. 
Thank you for working under such tight constraints.
    General Wilson, I'll start with you. The Iowa Army 
Ammunition Plant produces components for some of America's most 
advanced ammunition. Since 1941 it has played a role in 
ensuring America's forces are ready, and I noted in your 
written statement that you say we must have sufficient 
munitions to counter threats. You're stating in your opinion 
that your munition supply is low; is that correct?
    General Wilson. Yes, Senator. Today we're expending about--
well, in the ISIS fight we expended 43,000 munitions. We're 
spending about 1,500 a month. Replenishing that stock we think 
will take about a billion dollars a year of added investments 
over a significant period of time, just to replenish those 
stocks. Our preferred munitions to meet all the combatant 
commanders needs, we have a deficit across all of them that we 
need to dig our way out of.
    Senator Ernst. As far as Congress is concerned, simply by 
providing the dollars necessary, you would be able to secure 
those munitions?
    General Wilson. Yes, ma'am. We've put investments not only 
into the munitions but into what you described, the 
infrastructure that makes those munitions. All the plants that 
produce the fill for the munitions are part of the investment 
going forward. It's a significant investment we believe of 
about a billion dollars a year for about a decade, just on 
munitions.
    Senator Ernst. Very good. I appreciate that. Thank you very 
much, General.
    General Allyn, thank you. I appreciate you leading the way 
in everything that you do in your travels around the globe to 
visit our soldiers. That has been very important, and it has 
been noted in many conversations that I've had. Thank you so 
much.
    You stated that our greatest asset is our soldiers, and I 
firmly believe that. I believe that we have some of the finest 
young men and women out there. As you know, I've been a long-
time proponent of upgrading small arms capabilities within the 
Army, and I know, I know that readiness begins with the 
individual soldier. If they are not ready, none of our higher 
echelons can be ready.
    I do commend the Army's recent action on upgrading its 
handgun. I did receive a call from the chief, and I was glad to 
hear about that. The fact remains that it took far too long for 
that to happen, but we are on our way.
    Russia continues to upgrade its rifles, and this really 
needs to be a priority as well for the Army.
    Again to you, besides more money, what can we do to upgrade 
other small arms, and how can we do it faster?
    General Allyn. I know that you're aware we have a soldier 
enhancement program that is part of our program executive 
officer soldier, and we are focused on a number of initiatives 
to ensure that our soldiers have the best possible equipment as 
they go into combat in the future, as we have been able to do 
in the past.
    We have many of those programs, just like every other 
modernization program that we have. For instance, our multi-
year programs for our aviation fleet are all on the floor, 
right? They're absolutely at the minimum level to keep those 
contracts alive. We cannot operate that way. The unit cost for 
every aircraft is increased each time we do that, and yet year 
over year we're put into this dilemma.
    In our soldier portfolio I can provide for the record 
specifics, but having reviewed that in detail and visited PEO 
[Program Executive Office] soldier at Ft. Belvoir, we have a 
number of lighter, better human dynamic and next-generation 
FLIR [Forward Looking Infrared] capability that we need to get 
to the force. We've got to have money to enable that to happen, 
so I appreciate your continued support as we move forward.
    [The information referred to follows:]

    The Army is actively taking steps to accelerate development, 
procurement, and fielding of improved U.S. Army small arms capabilities 
across the board. Small arms continue to provide a critical capability 
in the overall effort to ensure the U.S. Army is and will be the 
dominant power on any current or future battlefield. A new Maneuver 
Force Modernization Strategy, which addresses soldier weapons to the 
platoon level is currently under development at the Maneuver Center of 
Excellence, and should be completed in third quarter, fiscal year 2017 
(FY17). The Army also leverages the Soldier Enhancement Program (SEP). 
The SEP is designed to evaluate existing prototypes or commercially-
available items that can enhance soldiers' capability. Specifically, 
the following initiatives are in progress: The Army completes the pure-
fleeting of the Force with the M4A1 Carbine NLT FY23; Fielding of the 
Squad Designated Marksman Rifle begins in fiscal year 2019; Fielding of 
the Precision Sniper Rifle begins in fiscal year 2020; the M3 Carl 
Gustaf 84 millimeter Recoilless Rifle is in fielding to Infantry Rifle 
platoons now and the lightweight Carl Gustaf begins fielding in fiscal 
year 2020; and, ammunition improvements are synchronized with weapon 
system enhancements to enhance range and lethality. Further, when the 
Small Arms Ammunition Caliber Study concludes in March 2017, the 
requirements for a Next Generation Soldier Weapons (NGSW) will be 
finalized. The NGSW family of small arms will replace current squad 
(rifle/carbine, squad automatic weapon, and sub-compact) weapons with 
production slated for fiscal year 2023.

    Senator Ernst. Outstanding. Thank you, General.
    Admiral Moran, thank you. I enjoyed our conversation the 
other day. We agreed that readiness is really a mutual 
obligation, something that we have to commit to in the 
Congress. You committed to continue to look for ways to make 
major acquisitions like the Ford-class carrier and the F-35C 
more efficient. That's imperative. I recognize Congress' 
responsibility to provide better budget planning and execution.
    Can you commit to me here again that you're going to hold 
programs like the Ford-class carrier accountable?
    Admiral Moran. Yes, ma'am, absolutely.
    Senator Ernst. Thank you. In our meeting you painted a very 
grim picture of our Navy's current state of readiness, and I 
think ensuring that we are being fiscally conservative with 
major programs like that is key to establishing that readiness.
    A question for you and something that we just briefly 
touched on. If our Navy had to answer to two or more of the so-
called four-plus-one threats today, could we do that?
    Admiral Moran. I hate to use the lawyer answer here and say 
it depends, because it does depend on which two of the four 
we're talking about. To answer it more specifically than that, 
I think we probably need to go into a closed hearing to really 
fully flesh that out for you. We are at a point right now, as I 
said in my opening and in my written statement, that our 
ability to surge beyond our current force that's forward is 
very limited, which should give you a pretty good indication 
that it would be challenging to meet the current guidance to 
defeat and deny in two conflicts.
    Senator Ernst. Absolutely. Thank you very much, Admiral.
    Finally, just very briefly, General Walters, you listed the 
growing concern for the end strength as one of your top 
priorities. Right now it looks like you're going to have to 
pull in 3,000 marines a year to meet those recruiting goals. Is 
that accurate?
    General Walters. To be quite accurate, Senator, we think we 
should not grow any faster to ensure our standards are met.
    Senator Ernst. Very good. Given that----
    General Walters. We'll buy their----
    Senator Ernst. Very good. The legal answer.
    [Laughter.]
    Senator Ernst. Given that women make up about 50 percent of 
our population, actually a little bit more, that's a good place 
to start. Do you have a plan for utilizing women? What role 
will they play as you try and increase your readiness and reach 
your desired end strength?
    General Walters. As you well know, the policy now is that 
all MOS's [Military Occupational Specialties] are open to women 
in the Marine Corps. We have a battalion that's starting a 
great woman right now. I can't report to you on any results of 
that. We have three female infantry down there and three in the 
staff, and that was out of 380 that were trained and three 
volunteered. We've turned the recruiters to start recruiting 
for that MOS, and we have 13 in the pipeline right now. It's 
going to be the law of small numbers for a while, I believe.
    Senator Ernst. Great. Well, I appreciate it very much, 
General. P.S., the marines need more amphibs.
    Thank you. Thank you very much.
    Senator Inhofe. Thank you.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all for being here today and for your service to 
the country.
    I just want to pick up on Senator Ernst's comments about 
handguns for the Army and point out that I was very pleased to 
see that get done and very proud to report that those handguns 
are going to be made in New Hampshire by Sig Sauer, which is an 
excellent company. You're going to get the best.
    Admiral Moran, as we discussed when we met, one of the 
things that I found very concerning was when the first meeting 
of the Navy caucus met last fall, that Admiral Richardson said 
to us that the Navy no longer plans any spending in the first 
quarter of the new fiscal year because of the ongoing 
continuous resolutions that you all have had to deal with and 
the uncertainty that that means.
    I think we are probably looking at another CR for the 
remainder of this year, and I wonder if each of you could 
identify what you think will be the most challenging impact of 
that CR as you look at what you're facing in this current 
budget situation.
    General Allyn. Thank you, Senator Shaheen. I'll start, and 
I know they'll be ready to pile on here.
    Our fiscal year 2017 NDAA authorized an increase in our 
operations maintenance account of over $4 billion. None of that 
will be executable under a continuing resolution. That will 
have severe implications to not only planned operations here in 
the homeland but OCO missions as well, contingency operations 
overseas. That will be a significant problem.
    We also have 50 new starts that are part of our President's 
Budget for 2017. None of those will get started.
    To the point that Senator Ernst made about ammunition, we 
also have a severe backlog in our war reserves which we were 
trying to get after by increasing production at our plants and 
facilitizing those plants. None of that will be possible under 
a year-long continuing resolution.
    That's just the top couple for the United States Army.
    Senator Shaheen. Thank you.
    Admiral Moran. Senator, thanks for the question. The top 
for us would be deferral of 14 ship avails, to include one 
submarine that would add to the current bow wave for backlog 
that we have, which is rather enormous. We would probably--we 
will begin to shut down two air wings completely. That means no 
flying for two air wings, and we'd go to what we refer to as 
tactical hard deck for two additional air wings, which is 11 
hours a month per pilot, just to keep them safe. Then we 
would--well, it would definitely impact the other flight hour 
accounts which do pilot production, so where we train pilots to 
become pilots. I'm about to go over to the Naval Academy 
tonight to welcome the newest selectees for naval aviation. I'd 
hate to tell them that they're not going to be able to train to 
be pilots for a while. That's what we're being faced with if we 
go to a year-long CR without trading, moving accounts around 
where something else has to give.
    Senator Shaheen. Thank you.
    General Walters?
    General Walters. Yes, Senator, I'm with the Navy on this 
one. The definition of a CR is spending at [fiscal year] 2016 
levels. Our flying hour accounts are nowhere near. I think I 
testified yesterday that if we don't get a supplemental, we'll 
probably stop flying in July. It could be more. We could burn 
through our 2016 levels because we have more RBA [ready basic 
aircraft] aircraft in 2017 than we had in 2016, and that's how 
it works. That would be the effect on us.
    Senator Shaheen. Thank you.
    General Wilson. Senator, we would have a $1.5 billion math 
problem to make up. It would impact 60 new starts. To meet that 
math problem, we'd have to directly--the only place we can go 
for money is our readiness accounts. It would be flying hours, 
WSS [weapon systems sustainment], or facilities, FSRM accounts. 
Much like the rest of the service, we'd stop flying in the 
summer, we'd backlog the depots, we'd have to delay, further 
delay any modernization of our infrastructure on our bases. The 
thing we're trying to stop or dig our way out of, readiness, 
would impact the most.
    Senator Shaheen. Thank you all.
    General Allyn. If I could, Senator----
    Senator Shaheen. Please.
    General Allyn.--just to add for all of us, you authorized 
an end strength increase. That would not be funded. We would be 
starting that hollow force revisit. At least when I joined the 
United States Army, we were coming out of that, and we would be 
starting back down that precipice.
    Senator Shaheen. Well, I think I've heard everyone on this 
subcommittee and everyone on the Armed Services Committee say 
that we can't let that happen. Shame on us if we don't take 
action to address it.
    General Wilson, I was distressed to read in your testimony 
that pilot retention has declined for five straight years. To 
what do you attribute that? Is it the uncertainty that people 
are facing, the lack of readiness to be able to train? Or is 
there something else going on?
    General Wilson. Senator, there are a lot of factors at play 
here, but let me try to give you a snapshot of a couple of 
them.
    It is lack of flying, because pilots join the Air Force to 
fly. There are different categories, but today's fighter pilots 
are flying about 75 to 80 sorties a year, and they're flying 
about 140 to 150 hours a year, total. That's significantly down 
from before. They come into the Air Force to fly.
    We've got lots of efforts underway to improve the culture 
of the squadron, to see what a 21st Century squadron looks 
like, and how do we remove the impediments that keep pilots 
from doing what they want to do. Whether it be reducing 
additional duties or their ancillary training, improving their 
quality of life, we're working on those efforts.
    The other part of it is there's an ops tempo that goes on. 
Again, if I take a fighter squadron, for example, the Shaw 
fighter squadron that flies F-16s, when they're in the bucket 
to deploy, that year they average 260 days a year gone from 
their families. On the year that they're back home, not 
deployed, they're averaging 110 days TDY [temporary duty] to do 
other things, red flags, other exercises, so they're gone a 
lot.
    At about that 11-year point, the family makes a decision do 
we continue doing this, and the airlines are hiring and they're 
paying a lot of money, and is this a better stability for us. 
We're trying to get after this problem, and I can talk more on 
the pilots because I don't think it's an Air Force problem or a 
Navy problem or a Marine problem; it's a national problem that 
we're going to have to get our arms around to get after.
    Senator Shaheen. Thank you.
    One of the issues that we've been following very closely in 
New Hampshire is what's happening with the KC-46 new air 
refueling tankers. I just learned that the delivery, that first 
delivery of aircraft has slid by about six months. Will that 
have an impact on our readiness? How will that affect what's 
happening?
    General Wilson. Senator, we all think it won't impact 
readiness per say because we're going to keep the number of KC-
135s and KC-10s, and as we bring on the KC-46, once we get to 
the 479 tankers, then we'll start one-for-one replacing KC-10s 
and taking them out of the fleet. It's not ideal, we wanted to 
be on time, but we slid a little bit. After the initial batch 
of 3 per month, then we're going to go to 1.5, 1.25. That slide 
in adjustment has made about a 6-month delay.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator.
    Chairman McCain?
    Senator McCain. I thank the witnesses, and I only wish that 
all members of Congress could hear the testimony today as we 
again fight the battle of sequestration.
    I only have one question, and I don't want to take the time 
of my colleagues. In late 1970s, some of you may recall or know 
that the Chief of Staff of the United States Army came before 
Congress and said that we had a hollow Army, and that caused 
significant repercussions throughout the Congress and the 
nation.
    I'll begin with you, General Allyn. Do we face the prospect 
of a hollow Army?
    General Allyn. Thank you, Chairman McCain. My belief is if 
we continue with a continuing resolution, and if we do not 
eliminate sequestration this year, then we will be faced with 
the likelihood of beginning that dive toward a hollow force.
    Admiral Moran. Senator, I believe that the sign of a hollow 
force is when no one wants to stay in the force, and I think 
the longer we go, to General Allyn's point, with reduced 
funding and an inability to allow our young men and women to do 
what they joined to do, to serve their country, they'll walk, 
and that will lead to a hollow force. We're under threat here 
in the next few years if we don't get our fiscal house in 
order.
    General Walters. Chairman, same for us. If we don't give 
them the new equipment, they won't stay around; and that, by 
definition, at least in my mind, is a hollow force.
    General Wilson. Chairman, I would agree with everything 
that's been said. As we look at the time period you talked 
about, the late 1970s, at the depth of the hollow force, we're 
flying less sorties and less hours today than we were then.
    The good news is we saw how we got there and we saw how we 
get out of that, so we know what's required to do that. We know 
that it takes, first of all, manpower. Once we fix the 
manpower, then we get the right training. With the right 
training, we get the weapon systems support, we get the flying 
hours that we need, we fix the infrastructure, and we can dig 
out of this, but we have to start now.
    Senator McCain. Thank you.
    Thank you, Mr. Chairman. Thank you for holding this 
hearing.
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service to our country. 
Sometimes we don't say that enough. We appreciate what you do.
    I want to just work through some anecdotes that we've 
learned about, and I'd like your thoughts on them, and perhaps 
this brings some focus to the day-to-day operations and some of 
the challenges that you have and your team has. If you don't 
feel comfortable discussing it in this category, please let me 
know.
    Admiral Moran, I'd like to start with you. Can you talk 
about the submarines that you've got right now, their 
capabilities right now and whether or not, specifically with 
the USS Boise, what the challenges are and the current 
position?
    Admiral Moran. Senator, thanks for the question. First of 
all, our submarine force is the finest in the world, 
unquestioned. We are lacking capacity in the long haul. If we 
don't turn around our procurement of Virginia-class submarines, 
we're going to be down in the low 40s by the middle of next 
decade. That's the lowest point I can recall. We ask an awful 
lot of that force.
    To give you an indication of where we are with this smaller 
Navy running harder than it has in a very long time, we are out 
in our public yards, the priority to fix ships in our public 
yards are our nukes, starting with our boomers because of the 
national strategic deterrence, followed by our aircraft 
carriers, and then we get down to the SSN world. Because of the 
capacity limitations and the workforce limitations that we've 
had, and our inability to get some of our submarines or some of 
our work assigned to the private yards, we've had to delay 
submarines like Boise for an extended period of time.
    Boise was scheduled for a 24-month availability. They are 
now on 47 month. In that time, the CO [commanding officer] has 
come----
    Senator Rounds. May I just make this point?
    Admiral Moran. Yes, go ahead.
    Senator Rounds. What you're telling me is that you've got a 
nuclear submarine that, because it doesn't meet readiness 
standards, you can't take it out and utilize it today.
    Admiral Moran. Even while it's waiting for maintenance, it 
is not certified to dive because of the length of time it's 
been parked. Yes, sir, that's true.
    The last piece of that that's important is that, much like 
Albany, another SSN, which also was extended for 48 months, 
that CO started the avail and finished the avail having never 
left the yard to operate that submarine. The XO [executive 
officer] and the chief engineer, I believe, neither one of them 
promoted, and the entire crew never deployed. We're on path to 
do that with Boise if we don't get her going. We're looking 
hard at the private yards to fix that problem.
    We have four additional, upwards of five additional 
submarines this year who are going to have to go for an 
extension to their dive certification. They're in a similar 
situation. We think we get most of those extensions by NR 
[naval reactor], but if they don't, then we have a similar 
problem with some of them as we have with Boise today.
    Senator Rounds. It's one thing to build to buy new. It's 
another thing to take care of the stuff you've got, which is 
suggesting that while we're talking about buying new, we're not 
giving the resources to even take care of the equipment that 
we've got today necessary for your operations.
    Admiral Moran. We often trade readiness dollars to pay for 
current operations and making sure our kids who are overseas on 
deployment have everything they need.
    Senator Rounds. I understand right now it's not just the 
ships themselves, it's not just the boats themselves. When you 
talk about manning them and equipping them, is it true that 
right now there have been cases in which you've had carriers 
moving back out of the areas of forward operations into the 
back areas and trading them off and literally having to stop 
midway and trading munitions from one ship to another because 
you don't have the resources right now to maintain two?
    Admiral Moran. All of the services are struggling with 
munitions stocks, and we're no different. When our carriers 
swap places, one coming home and one going on deployment, they 
often have to offload some of their munitions to fill the 
stocks of the one that's going on deployment. That is true.
    Senator Rounds. Not necessarily the best way to run an 
operation.
    Admiral Moran. Not if you're going to turn that carrier 
back around if something happens in the world like has happened 
in the last 5 years, that's true. Yes, sir.
    Senator Rounds. Thank you. Let me just ask with regards to 
the tankers right now that we've got, I don't think we can go 
anyplace in the world right now without having any one of our 
aircraft having the availability of a tanker. What's your 
current status on tankers, and what are their capabilities 
today, and what would you expect them to be in order to meet 
the ongoing needs of the Air Force?
    General Wilson. Senator, we certainly are flying KC-135s 
today. We're bringing on the KC-46, which is brand new. We'll 
start delivery this year. We're flying KC-10s to keep 479 booms 
in the air. You're absolutely correct, we've become a global 
Air Force because of our tanker force that can move us around 
the world. As I highlighted in my opening testimony, the strike 
in Libya would have never happened without 18 different tankers 
taking off from bases in the United States, Europe, and the 
Middle East to make that mission happen.
    Our tankers are getting old. That's why the KC-46 is so 
important going forward and why it improves everything. It 
improves MC [mission capable] rates to have more of them to 
fly, aircraft availability. It improves capacity. The KC-46 
modernization program is the first step to modernize the tanker 
force. Largely it was built in the 1950s, modernized along the 
way. We find tankers, KC-135s, with tail numbers of 56, older 
than I am, and I'm an old guy, out there on the ramp. As we've 
talked about, the maintainers who maintain those do Herculean 
efforts to keep all those airplanes ready.
    Senator Rounds. Let me ask you about your pilots right now. 
How long does it take you right now to train a pilot, and how 
long under optimum conditions should it take you based upon the 
availability of aircraft that are air worthy today?
    General Wilson. Senator, today, to produce a basic pilot 
takes a little over a year. From that time, then they'll go on 
to their training school. Depending on what they're doing, it 
takes anywhere from four to eight months to a year to get what 
we call mission ready. Then after that they'll go off to their 
units.
    Our training path is pretty much at capacity. We're 
producing about 1,200 pilots a year. We think we can grow that 
to about 1,400, and then we'll max out the current capacity to 
produce pilots. Our problem isn't getting pilots on the front 
end. It's basically retaining them on the back end, and then in 
the middle of that being able to absorb them, getting them all 
the flight time and training that they need. The hours of 
sorties have been coming down across the force in the last 
decade.
    Senator Rounds. I had a chance to visit the F-35 base, the 
training base in South Carolina yesterday. I noted that you've 
got up-to-date models that are flying right now. They've got 
good operational capabilities, Admiral, and that basically that 
B model right now is operational and ready to go. The one thing 
that I discovered is that you guys could use more of those in 
an expedited manner to make up the difference. That aircraft 
where for a while there were program problems, right now you're 
using some updated software in it, and they're flying, and 
they've got a good operational capability.
    The aircraft in its current condition, we can use those in 
combat today, can't we?
    General Walters. Yes, sir, we can. The software upgrades 
need to continue to give us full capability. It needs to 
deliver on time.
    Senator Rounds. I was very impressed with what you're doing 
down there, and I appreciate it, and thanks for the 
opportunity.
    General Walters. Thanks for visiting the marines down 
there, sir.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you all for your service and leadership.
    Admiral Moran, thank you very much for your commitment to 
making sure that we move ahead with a waiver of the hiring 
freeze at our shipyards. Pearl Harbor Navy Shipyard is very 
important to our national security, as well as to Hawaii.
    General Wilson, in your prepared testimony you state that 
today's Air Force is at risk of becoming a second-best hand, 
with readiness hovering near 50 percent. Can you explain for 
the American public what this means in terms of what the Air 
Force can and can't accomplish in terms of its mission? In your 
opinion, how much additional budget relative to recent budgets 
would the Air Force need, and how much time would it take to 
get readiness levels to much more acceptable levels?
    General Wilson. Let me start with--I used an example, 
Senator, of how long does it take to grow an 8-year tech 
sergeant. It takes 8 years, and that's the type of experience 
we need and I think it's going to take to get to the readiness 
levels that we need. It's not going to happen in one year or 
two years. We're looking at 6 to 8 years to bring the readiness 
level back up to 80 percent.
    When I talk about the United States Air Force being 50 
percent ready, there are pockets of the Air Force that are 
significantly below that. Let me give you a snapshot again. To 
go back to the Desert Storm timeframe, in 1991, our Air Force 
stood at about 500,000 active airmen, 134 fighter squadrons. 
Today we have 55 fighter squadrons, and that's Active, Guard 
and Reserve. Of that, 71 percent are deployed today or are 
doing COCOM-assigned [combatant command] missions, homeland 
defense of the nation or doing theater support in both Europe 
and the Pacific. Said another way, there's 29 percent left in 
the United States not fully engaged today.
    In those different units, in a case against violent 
extremists, I've got very ready crews. They're going to win in 
the Middle East. Against a high-end adversary, they're not 
training the way they should. They're not doing all the muscle 
movement, all the skills that they need to practice on a 
routine basis to be ready against any adversary anywhere.
    Senator Hirono. When you talk about a high-end adversary, 
you're talking about Russia or China?
    General Wilson. Russia or China, for example.
    Senator Hirono. Again, General Wilson, the Air Force COS 
[Chief of Staff] has stated that 50,000 airmen have left the 
Air Force while missions have grown, so there's a math problem, 
and that the Air Force is too big for the resources available 
but far too small for what the Nation demands of it.
    Can you explain the implications of reduced readiness and 
the impacts on morale and retention? I think one of you said 
it's getting them on the front end that's okay, but keeping 
them is a major problem.
    Can you talk about the Air Force's plan to increase 
readiness in future years? Also, what steps are being taken by 
the Air Force to meet the requirements for more technically 
capable recruits for areas like space, cyber, ISR, and nuclear?
    General Wilson. Senator, those are all fantastic questions. 
I'll maybe start with the last one.
    We are in competition. We want the best talent that America 
has to offer, and the good news is we're getting great talent. 
It's going to continue to be a challenge as we go forward, as 
we grow our force, because we've got to be able to attract 
America's best and brightest. They've got to see what we do is 
different, and I think we can connect to the American public 
about the value of our mission. When they see what we're doing, 
they want to serve, they want to join our team.
    To be part of that, to be part of a world-class team, we 
need to get them the right education, training, and equipment, 
and then make sure they're both personally and professionally 
fulfilled. That's what keeps them in the service. Across those 
areas we've got lots of work to do to make sure that they're 
not coming into the Air Force and working on old, outdated 
equipment, that they're working on state-of-the-art equipment. 
The training and education they get is world class. They remain 
committed, passionate, and proud about serving our nation and 
are personally and professionally fulfilled.
    Senator Hirono. For our other services, are you basically 
having retention problems also, and what are you doing to make 
sure that the troops stay in?
    General Walters. Retention should never be taken for 
granted, Senator. It's something we look at every day. When it 
comes to pilots, I think probably the Air Force is the 
bellwether for that, and we're watching very closely what 
they're doing, and we're looking for the partnerships to try to 
keep more pilots in place.
    The biggest thing we can do to retain service men and women 
is to give them the equipment they need and the training they 
need and the quality of service. The quality of life will come. 
Give them the things they need to do the job they came in for. 
If they sign up, let's get them the stuff they need.
    Admiral Moran. Senator, I agree with everything that's been 
said. I would just add that retention problems are always 
looking in the rearview mirror. It's very difficult to project 
when it's going to come without some of the canaries in the 
coal mine.
    On the pilot side, we certainly look to the Air Force to be 
the leading indicator of that. We're concerned, deeply 
concerned that they're having issues.
    When it comes to recruiting, I often look to the Army 
because they recruit more young men and women into the Army 
than any of us do. If they're having troubles, then we should 
be looking next.
    Those are the bellwethers and the canaries in the coal mine 
for us.
    We currently are doing fine when it comes to recruiting. A 
lot of young men and women want to come join the service for 
their country. It's keeping them for the long haul, especially 
those we have invested a lot of money in for their technical 
training that we really have to pay attention to.
    General Wilson. Senator, can I pile on just for a second, 
just to give you another example? If each of us were to lose--
again, I'll use fighter pilots just for an example. If I say 
I've lost 10 fighter pilots, what I really said, what I should 
be saying, that's a $100 million capital investment, because 
they're about $10 million each to train, and it takes 11 years. 
When they get out at the 11-year point, that's the loss. I've 
got to make up that capital investment, plus time, and that 
experience. We're focused hard on how to retain quality pilots 
in the Air Force, and what they've all said, let them do their 
job with the right equipment.
    Senator Hirono. Did you want to add something, General?
    General Allyn. Thank you, Senator Hirono. I would echo the 
comments that have been made. I will tell you that we are 
assessing the finest talent that we have seen in our history. 
We're getting high-quality soldiers that are joining. We are 
watching very carefully our mid-grade non-commissioned officers 
and mid-grade captains and majors who have been on this 
relentless tempo. The reason why the end strength increase is 
so important is that a smaller force cannot continue to carry 
the same load without a retention impact. We need to grow the 
force. We need to sustain the quality that we have, and we will 
not have a retention problem as we move forward if we do that.
    Senator Hirono. It's pretty hard to enable our people to do 
the jobs that they signed up for if we continue to rely on 
short-term CRs and we do not get rid of sequester, because 
those all impact readiness and modernization, all of those 
connected areas.
    Thank you very much, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Hirono.
    Senator Perdue?
    Senator Perdue. Mr. Chairman, thank you for having this 
hearing. I just want to say for the record, I'm shocked. When I 
read the testimony--and I want to thank you guys and your teams 
for everything you're doing, but I want to comment on where we 
are. I mean, this is shocking to me, that the Federal 
Government has only a few things it's supposed to do. One of 6 
reasons 13 colonies got together to start with was to defend 
and provide for the national defense. No leader would ever let 
that responsibility dwindle to this sort of capability. It's 
not the fault of these guys. God bless them. I think they're 
getting as much out of what we've given them over the last 25 
years than anybody in the world, but here's where we are.
    This is not the first time we've been there. General 
Wilson, you mentioned the late 1970s. I mean, in the 1970s, 
post-Vietnam, we defunded the military. We recapped it in the 
1980s. We defunded it again in the 1990s. We sort of recapped 
it in the 2000s. Behind 15 years at war, we burned it up, and a 
lot of that money went to operations, not equipment.
    We hear across all these services, we've got 20 years of 
catch-up here, and I don't know how you do that. General Mattis 
2 weeks ago actually said that the greatest threat to national 
security is our own Federal debt, and here's why. I mean, we 
can't fund what these guys need, and what we need for them to 
have. There's a moment in history here today--I just want to 
say it, though--that I heard both sides today say that we have 
something in agreement, and I want to document that today in 
the United States Senate. We both know that sequestration, CRs, 
and the BC caps are just devastating to what we're trying to do 
here, but it's much bigger than that, Mr. Chairman and leaders.
    I just want to tell you how much I appreciate your brave 
face today, but I'm very concerned that in the last 8 years, 
and in the next 10 years based on the baseline budget today, 
the Federal Government is borrowing over 35 percent of what it 
spends as the Federal Government. That means that we're 
borrowing the other 35 percent, the 35 percent. The problem 
with that is that our discretionary spending is about 30 
percent of our total spending. That means all of the tax money 
we get in pays for our mandatory. That means that every dollar 
we spend on your services, on the defense of the country, every 
dollar we spend on our veterans and our VA [Veteran's 
Administration], every dollar we spend on the domestic programs 
which have been holding our military spending hostage, is 
borrowed. We have to go to China to help fund what you're 
talking about doing today.
    Mr. Chairman, I don't know how to say this any clearer. We 
are in the throws, I think, of the worst military crisis we've 
had in our history, short only of the 1800s when we had to fund 
our first five frigates and we didn't have any income to do it. 
I don't care how we do this, but we've got to get serious as a 
Congress and as an administration to figure out how to do this.
    I just have a couple of questions. I read your testimony. 
It speaks for itself. General Allyn, I'd like for you to 
emphasize for the record some really telling--we had a question 
on the hollow force. I'd like to quantify that a little bit. 
You mention in here that your forces, you have about 31 BCTs 
[brigade combat teams]. Is that right?
    General Allyn. In the active force, 58 in the total force.
    Senator Perdue. Yes, sir. Of that 58, or of the 31, you 
have about 3 that could go to war tonight, that could fight 
tonight. Is that what you said?
    General Allyn. That's correct. They're fully manned, fully 
equipped, and trained for immediate deployment.
    Senator Perdue. That 3 compares to the 58. Is that correct?
    General Allyn. That's across the 58. They happen to be from 
the active force.
    Senator Perdue. Agreed.
    General Allyn. However you do the math, it's not good 
enough.
    Senator Perdue. I'm trying to find out how severe this 
really is relative to putting it in perspective. It's amazing 
to me how Congress and past administrations have allowed this 
to happen.
    Talk about consuming readiness. As we sort of build that 
back, there's a danger, and I've heard this before, and I've 
seen it in business. You can consume what you're adding back. 
By the time you get to the end of that adding back, you really 
haven't added much. I know you each have that going. Could you 
explain that to us more?
    General Allyn. Well, I think to my distinguished colleague 
from the Navy, he used the term 'supply and demand.'' It's 
really a very simple math problem. If your commitments remain 
steady or increase, as the United States Army's have during 
this drawdown, and your force is smaller, you are doing as much 
or more with less. As a result, something gives. For us, we 
would never send a soldier or a force to do a mission that 
wasn't trained and ready and fully equipped with the best that 
we can provide.
    What that means is the force that's back here is less ready 
than it needs to be, less well equipped, and for the United 
States Army we've had to implement many restrictions so that 
the forces going forward are fully manned.
    Senator Perdue. We see that. I've been on Foreign Relations 
now for just 2 years, but traveling around, meeting with your 
troops around the world--and by the way, the best American, and 
I mean the very best, is in uniform. It makes me proud to be 
sitting here, and we want to fight to help do what you're 
trying to do. They're getting what they need at the tip of the 
spear. It's everything, the mojo back here, is what you're 
saying is our problem.
    General Walters, just to be specific about one example of 
what General Allyn is talking about, in Moron, Spain, you've 
got a great contingent of marines over there. Their mission, as 
I understand it, is to protect, on a front-line basis, the 
embassies in Africa. That's one of their missions, their 
primary mission.
    General Walters. Yes, sir.
    Senator Perdue. We just had to bring half of our B-22 
squadron back. Could you explain to us why we brought that back 
and----
    General Walters. Because we couldn't sustain it, sir. We 
had to reduce the commitment to Moron and----
    Senator Perdue. What does that do to your mission 
capability?
    General Walters. Well, it puts them in a little bit riskier 
position if they--we had 12 over there because we had to send 4 
to South Sudan, a no-fail mission. Four had to take off. Doing 
that with 6 aircraft, 4 out of 6 on a 24/7 basis, is a little 
bit more risky.
    Senator Perdue. Yes, sir.
    General Walters. Now, if we had the squadron, if we had the 
airplanes, if we had the readiness, then we would keep 12 over 
there. It's the same with our--we didn't only reduce that one. 
Our CENTCOM [U.S. Central Command] commitment in Al Jaber went 
from 12 to 6 aircraft.
    Senator Perdue. Basically cut that----
    General Walters. We cut those commitments. The requirement 
was still there. We just couldn't sustain it, so we had to 
reduce the commitment to a sustainable level, and that happened 
to be six.
    Senator Perdue. General Wilson, you mentioned that your 
average pilot today, Active Duty, averages about 150 hours a 
year. Is that correct?
    General Wilson. Yes, Senator, across the fighter fleet.
    Senator Perdue. Yes, sir. It would shock you, I know, but 
it certainly shocks me to realize, Mr. Chairman, that I'm 
flying four times--a sitting United States Senator, I put four 
times the number of airplane hours as our average Air Force 
pilot. That's shocking to me, and it's not your fault, but I 
recognize how severe that puts us.
    If we're looking at your priorities--there's no way we can 
fund all this in the very short term--can you prioritize 
between your list of the B-21, KC-46, F-35? Talk about that 
just a little bit. The nuclear capability. You said nuclear was 
priority one, right?
    General Wilson. We have to modernize our nuclear force. 
When you look at the nuclear force today, our Minuteman IIIs 
were built in the 1960s, Minuteman I in the 1960s, modernized 
to Minuteman IIIs in the early 1970s. We still have components 
on the Minuteman III from the Minuteman I. We have to modernize 
those.
    Our cruise missiles were designed in the 1970s, built in 
the 1980s, to last 10 years. They're on their fifth service 
life extension for those missiles. They have to be modernized. 
We have to have missiles that can get to the target and do 
what's asked of it, and we have a plan to do that with what's 
called the LRSO [Long Range Standoff Cruise Missile].
    The B-21 bomber. Again, we're flying all of our bombers. 
Our newest bomber is 25 years old, the B-2. That's the newest 
bomber. All of our bombers are old. The B-21 will be a huge 
improvement to our combat capability.
    Nuclear first, KC-46 to follow--or, excuse me, F-35, KC-46, 
and then the B-21. Those are the programs going forward, the 
modernization programs.
    Senator Perdue. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Perdue.
    I think we also need to recognize--and this will surprise a 
lot of people. I want to distribute these out. This shows what 
has happened to our military in terms of priorities. In 1964, 
52 percent of all revenues that came into the United States 
went into defending America. That figure is now 15 percent. 
It's a much more volatile world out there.
    The only place we're going to come up with the resources is 
going to be to re-prioritize where our military is. I was a 
little bit critical of President Obama's position, that he 
didn't want to do anything with the military unless you do an 
equal amount. That's not what the Constitution tells us we're 
supposed to be doing.
    I have three things to put in, without objection, into the 
record.
    [The information referred to follows:]
      
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
      
    Senator Inhofe. Senator Kaine?
    Senator Kaine. Mr. Chairman, I could make just a response 
to your comment about the doing it equally for defense and non-
defense, because I think, just to explain how we look at it 
from our side of the aisle----
    Senator Inhofe. Sure.
    Senator Kaine.--because maybe this will help us figure a 
way forward.
    There was no necessary linkage between spending on defense 
and non-defense prior to the sequestration and the budget caps. 
You'd make your argument for non-defense; you'd make your 
argument for defense. You'd hopefully convince your colleagues.
    When the caps were voted in place, the sequester in August 
of 2011, it was, ``let's try to find a good budget deal, but if 
we don't, we will impose budget caps equally on defense and 
non-defense.'' The equality was as a result of the budget caps 
going into place in the sequester, and so we have always 
insisted on our side of the aisle that as long as the caps are 
in place, there should be equal relief.
    If sequester was repealed like that, we would be back in 
the previous state where there wouldn't be a 50-50 argument. 
Each side would make its case on the priorities that it wanted 
and may or may not succeed, but we insist on the 50-50, and 
another president did as well, because we are in a BCA [Budget 
Control Act] cap environment, and as long as the sequester is 
the law and we're not repealing the whole thing, we insist on 
50-50.
    Now that the GOP controls both houses, it would seem like a 
good time to go ahead and get rid of the caps, and then we'll 
just go back to making our case about the priorities. Living 
under the caps under this scenario, I think we all agree it 
really doesn't make any sense, and there's no 50-50 argument 
once the sequester goes away.
    Senator Inhofe. Thank you, Senator Kaine.
    Yes, Senator Shaheen?
    Senator Shaheen. I know that we have a time deadline, but I 
just thought it might be remiss of us to close this hearing 
without asking our panel to testify on the comments yesterday 
before the House panel on the BRAC [base realignment and 
closure] process and whether they support that, because there 
was testimony yesterday that some of you would like to see 
another round of base closing, and I just wanted to see if we 
could get insight into that.
    Senator Inhofe. Let's do this, and I would afford the same 
opportunity for the other senators here. Quite frankly, I 
didn't bring that up, and I didn't bring that up because I 
disagree with these guys.
    [Laughter.]
    Senator Inhofe. Here's the problem, and tell me if you 
disagree with this. I've been through every BRAC round, five of 
them now. Without exception, every BRAC round for the first 3 
years costs money. If there's ever a time in the history of our 
military that we can't afford to dilute those dollars that we 
need to try to resolve the problems that have been talked about 
today, it's now.
    The second reason is this. We've allowed in this starvation 
period our function to go down. I've always been hesitant, and 
I felt the same way back in the 1990s after we said the Cold 
War is over and we no longer need this site, we lived through 
that. The problem with that is, if you allow the mission, the 
infrastructure to go down and the resources to go down to match 
what is already artificially low, then once you rebuild you 
don't know for sure what you're going to need.
    Now, you didn't ask me; you asked them. If you would like 
to make any comments about your position on a very significant 
issue, it would be BRAC.
    General Allyn. I'll step into the breach first, Chairman, 
recognizing that I'm going to say something that you disagree 
with, but I respect your opinion. I also recognize that I've 
been up here now for the third year pleading for additional 
funding, pleading for the elimination of sequestration, and 
pleading for the stoppage of continuing resolutions.
    Given that those have not gone away, we are forced to look 
internally on where else can we save, and a BRAC is an area we 
know we can save. Yes, we do have to put money up front, but 
right now we are saving $1 billion per year from the 2005 BRAC, 
and $2 billion per year from all the BRACs in prior years. 
That's real money that we need if we don't get rid of 
sequestration and we don't get rid of continuing resolutions.
    That's the environment that we're operating in, and to us a 
billion dollars would make a huge difference. It costs us $30 
million to run an installation, whether there's a soldier on it 
or not. This is real money when you have 154 installations to 
run around the world.
    Senator Inhofe. I would say if we can afford to reach the 
point where that yield is achieved and realized, I would agree 
with you.
    Any other comments on the BRAC?
    Admiral Moran. Senator, I would just tell you I learned a 
long time ago that waterfront property is something you should 
never give away.
    [Laughter.]
    General Allyn. The Army doesn't have much of that.
    Admiral Moran. I know, and that's why I respectfully 
disagree with you.
    [Laughter.]
    Admiral Moran. We feel we're in pretty good shape in the 
Navy. The 6 percent or so of overhead that we're carrying 
really is internal to the bases. If we could do a micro-BRAC 
inside our own bases just to demolish buildings we'd like to 
demolish and not have to go through the bureaucracy of that, 
that would be far more helpful than going through another round 
of BRAC to the Navy.
    Senator Inhofe. Appreciate it.
    Any other comments?
    General Walters. Sir, we're small either coast. We're fine 
right where we are.
    Senator Inhofe. You're still using retreads, too.
    [Laughter.]
    Senator Inhofe. Senator Perdue?
    Senator Perdue. I apologize, but I cannot resist this 
moment. I came into the Senate as a debt hawk and also a 
defense hawk. We've lost the luxury of choosing sides on this. 
We have to be both. I'm very concerned that in the last 42 
years, since the 1974 Budget Act, we talk about CRs and we talk 
about sequestration and all this, but we've used 175 CRs since 
1974. That's not going to stop.
    The budget process is broken. It's one of the problems 
that----
    Senator Inhofe. Yes, it is.
    Senator Perdue. It's not a partisan comment. It's one of 
the few things Senator Kaine and I--we agree that this is 
something, if we could get to a politically neutral platform, 
you could eliminate CRs, you could eliminate debt ceiling 
conversations. This is something that we can do. I think we 
have to use the military as the platform and the reason why it 
is absolutely necessary we do it right now.
    I would implore this subcommittee to start looking at that 
as a way to put pressure back on the people who do have an 
opportunity to change that process. One-hundred-seventy-five 
continuing resolutions under all kinds of presidents over the 
last 42 years. This has nothing to do with partisan politics. 
It's something that we've got to fix. We will never solve this 
problem until we solve that problem.
    Senator Inhofe. We might start by passing appropriations 
bills.
    Senator Shaheen. Mr. Chairman, I just want to be clear for 
the record that I agree with your position, not with General 
Allyn's, much as I understand it.
    Senator Inhofe. Oh. Thank you.
    General Allyn. I wasn't coming after Portsmouth Naval 
Shipyard, ma'am. My stepfather worked there for 30 years, okay? 
I got to go to school because of it.
    Senator Perdue. In 42 years, we've averaged two-and-a-half 
appropriations bills passed per year. That's the problem.
    Senator Inhofe. Yes. It's disgraceful.
    General Wilson, last shot.
    General Wilson. Senator, I think we carry about 25 percent 
extra capacity on our bases. I think there's an opportunity to 
do some smart investment going forward. Right now, we're 
carrying a backlog of stuff that we have to pay for in this 
budget environment. I think we need to look at opportunities to 
save.
    Senator Inhofe. Okay, appreciate very much the excellent 
testimony and the attendance. Thank you so much for being here.
    We're adjourned.
    [Whereupon, at 4:08 p.m., the subcommittee was adjourned.]


    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator James Inhofe
                            force structure
    1. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, based on each of your services analysis, how big does 
each service need to be in order to carry out its current missions and 
potential contingencies in the future?
    General Allyn. As CSA General Mark Milley testified in 2016, the 
Army would need to grow to about 1.2 million in order to ensure we have 
the capacity necessary to carry out current operations and be ready to 
execute required contingency plans at moderate risk. Assuming the Army 
is authorized and funded for end strength increases, the Army will need 
a proportional increase in funding for training and equipping. Without 
this funding we cannot reduce risk or increase readiness.
    Admiral Moran. Today's strategic environment is increasingly 
demanding and the evidence is undeniable that we are engaged in a sea 
control competition with major powers that we have not faced in over 20 
years. Achieving national tasking and goals in this security 
environment requires a larger Navy, as validated by the 2016 Force 
Structure Assessment (FSA) which set a requirement for 355 ships. This 
larger force will also require additional manpower, readiness, aircraft 
and weapons. While the FSA sets a target to begin building toward the 
future force, Navy continues to investigate advanced technologies and 
innovative operating concepts to allow us to be more competitive, 
efficient and effective in the future. When these evolutionary and 
revolutionary technologies and capabilities deliver, Navy will revisit 
the FSA to ensure we deliver the Navy the nation needs.
    General Walters. The Marine Corps recently completed a year-long, 
comprehensive review of our force to determine the capabilities 
necessary to persist in the future operating environment and fight and 
win against a peer adversary. That review revealed that the Marine 
Corps needs to be at an end strength of at least 194,000 marines to 
possess these capabilities. However, due to current steady state 
demands, the Marine Corps would require end strength above 194,000 to 
provide the deployment-to-dwell ratio that would afford adequate 
training time between deployments to maintain a ready, full-spectrum 
force. Importantly, an end strength increase without an associated 
increase in modernization, training, and sustainment funding will not 
set the conditions for success against a peer adversary.
    The recent authorized end strength increase of 3,000 marines to a 
force of 185,000 is a move in the right direction. However, the most 
recently projected POM-18 controls limit the ability to modernize that 
force in a timely manner. We continue to do analysis to determine those 
risks which may be inherent with this authorized end strength and 
associated funding.
    General Wilson. To improve readiness and attain manning levels 
matching our mission requirements, we must increase our Active Duty, 
Guard and Reserve end strength. Growing to at least 350,000 Active Duty 
and commensurate growth in the Guard, Reserve and stabilizing civilian 
strength would allow us to address shortfalls in a number of key areas, 
including critical career fields such as aircraft maintenance, pilots, 
NC3, intelligence, cyber, space, and battlefield airmen.

    2. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, will this force structure be large enough to fight two 
Major Theater Conflicts near-simultaneously?
    General Allyn. This 1.2 million force structure is designed around 
the existing defense strategy and classified guidance to ensure the 
Army is capable of defeating one adversary while denying another. Even 
at a total force size of 1.2 million, the Army will face moderate to 
significant levels of risk when faced with defeating one adversary 
while denying another simultaneously.
    Admiral Moran. Defense planning guidance directed that the capacity 
and capability of the Joint Force must be sufficient to defeat one 
adversary while denying the objectives of a second adversary. The 
Navy's 2016 Force Structure Assessment identified 355 ships as the 
force size required to achieve national tasking and goals based on 
Navy's current platforms.
    General Walters. There are a number of variables that must be taken 
into account to answer this question. Force structure demands (force 
flow timelines and overall peak requirements) for two near-simultaneous 
Major Theater Conflicts vary widely dependent on the specific 
combinations considered, the level of acceptable risk articulated by 
the National Command Authority, and if OPLANS or Support for Strategic 
Analysis (SSA) scenarios are utilized as the baseline.
    General Wilson. While growing to 350,000 will make the force we 
have healthier, the Air Force still faces capacity and capability 
shortfalls to be able to meet the Defense Planning Guidance (Defeat 
plus Deny and Homeland Defense).

    3. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, what are each of the services plans for increasing end 
strength over time? How fast can each service grow?
    General Allyn. The fiscal year 2017 NDAA passed by the Congress and 
signed by the President directed the Army to increase end strength to 
1,018K (476K-AC/343K-ARNG/199K-USAR) by the end of 2017. The Army plans 
to use this increase in end strength to fully man units and grow 
certain select areas such as cyber. The Secretary of Defense has 
directed a strategic review that will determine the required end 
strength of each Service. Our current analysis states that given 
availability of funds and authorization, the Army could sustain a 
responsible end strength increase of 10,000 soldiers per year while 
sustaining the high quality and readiness of our force.
    Admiral Moran. Navy combat power is predominantly delivered through 
platforms--ships and aircraft. To effectively deliver this combat 
capability, these platforms must be properly manned with appropriately 
trained people. The Navy end strength profile is largely dependent on 
the composition and manpower needs of the platforms that force is 
supporting. Navy is developing specific accession and workforce 
management plans to support anticipated force structure scenarios, 
within established fiscal and infrastructure constraints. These plans 
consider: general population propensity for service, recruiting and 
training capacity, Sailor retention behavior, and the skills, training 
and experience required, based on the demand signal of the anticipated 
force structure. The speed at which manpower growth occurs will vary 
depending on the rate at which new platforms are procured and 
constructed, the manning needs of specific platforms as they come 
online, required skill-sets of Sailors assigned to those platforms, and 
the seniority/experience mix needed to operate at peak readiness, 
efficiency and capability. Ship construction rates will be the limiting 
factor to the rate of increase in end strength. The Navy's capacity to 
recruit and train additional personnel may require adjustments, but 
should not limit the pace of required manpower adjustments.
    General Walters. At current funding levels, the Marine Corps cannot 
grow beyond 185,000 marines without creating a hollow force. However, 
with additional funding for modernization, training and sustainment, 
the Marine Corps could grow responsibly at a rate of up to 3,000 per 
year. The current limiting factors for growth are the throughput 
capacity of some of our highly technical schools, joint school 
capacities, and the need to recruit and retain high quality people for 
the modern force.
    General Wilson. The Air Force has articulated a need for 350,000 
Active Duty airmen based upon the current Air Force mission set and 
force structure. In general, if approved, while we could grow faster, 
we believe that an increase of approximately 4,000 to 5,000 airmen per 
year (reaching 350,000 by the fiscal year 2023/2024 timeframe) would 
provide for a sustainable growth path, would meet the long-term needs 
of the force by providing stability and experience, and would allow us 
to properly balance our Air Force specialty codes.

    4. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, will each of the services be able to recruit and retain 
qualified personnel to fill the ranks of a larger force?
    General Allyn. The Army expects to recruit and retain enough 
quality soldiers to achieve the fiscal year 2017 NDAA authorized end 
strength increases to 1.018 million. Army recruiting and retention 
programs will continue to focus on maintaining quality, in particular 
retaining only high-caliber soldiers and by accessing almost all high 
school diploma graduates and bringing in no applicants with histories 
of adult major misconduct. The Army has achieved year to date fiscal 
year 2017 accession missions and projects to achieve the original 
fiscal year 2017 accession missions in all components while maintaining 
the current high quality of the All-Volunteer Force. Sustaining a 
larger, high quality force will require increased recruiting manpower 
and incentives for recruiting and retention.
    Admiral Moran. Depending on the size and pace of the expansion of 
the force, I am relatively confident that Navy is postured to 
accommodate potential growth. We would expect to experience challenges 
in meeting an increased demand signal for high quality enlisted 
recruits in the Nuclear Field, Information Warfare, Special Warfare, 
and Advanced Electronics ratings, and among medical, dental and 
chaplain corps officers. An increasingly competitive recruiting market 
and quality standards may require application of additional resources. 
As we plan for future growth we must also remain mindful of training 
infrastructure capacity--in terms of military construction, numbers of 
instructors, and available course offerings--which may also need to 
grow at a rate commensurate with planned force structure growth. 
Similarly, we continue to experience retention challenges and inventory 
shortfalls among critically-manned communities. Continued judicious 
application of targeted special and incentive pays will be critical in 
our efforts to continue meeting aggregate enlisted retention goals in 
the foreseeable future. We are closely monitoring economic indicators 
that could impact our ability to meet recruiting and retention goals as 
we grow the force. Current indicators suggest increasing demand from 
the civilian sector for our top talent over the next few years. As we 
track retention behavior, we remain laser-focused on retaining Sailors 
in the right mix of ratings and pay grades to position us to meet 
future mission requirements, while monitoring the health of the force.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. The growth is achievable based upon our recruiting, 
accession, training, and retention projections, but would require 
additional fiscal resources and personnel within our training 
enterprise to grow and sustain a larger force. As part of any budget 
submission, we would program for the requisite resources and personnel 
to support this effort. We will need Congressional support for the 
increased resource requests associated with recruiting, training, and 
retaining airmen. This would include increases in our reenlistment and 
retention bonuses as well as other special pays. Retention is critical 
to our growth plan and we must preserve and maximize the experience we 
have in the force as we access increasing numbers of young airmen. 
Additionally, to support high retention we must continue to inspire our 
airmen and ensure we maintain a high Quality of Life for our airmen and 
their families.
                            readiness goals
    5. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, what actions or resources are being applied to near-
term readiness recovery efforts?
    General Allyn. Actions being taken to improve near-term readiness 
include using increased end strength to offset personnel shortages and 
targeted increases in training dollars, flying hours, ground OPTEMPO 
hours to support higher readiness levels at home station and the Combat 
Training Centers (CTCs). A substantial portion of the Regular Army end 
strength growth to 476,000 will be used to increase manning levels in 
existing units. This increase will help offset personnel shortfalls, 
non-availability, and non-deployablity that currently have units 
training and deploying at 75 to 85 percent of their authorized 
strength. CTCs facilitate commanders' readiness assessment through 
live-fire, force-on-force, and computer-simulated exercises integrating 
all aspects of lethal and nonlethal effects tailored to the operational 
environment from platoon- to corps-level. In fiscal year 2018, we will 
execute 20 maneuver CTC rotations for our BCTs including an increase to 
Army National Guard BCTs from two to four per year. Combat Training 
Centers (CTCs) play a critical role in building decisive action 
readiness because home stations cannot fully replicate the realism and 
lethality of operations against a near-peer nation. Combat Training 
Centers are now routinely challenging units with hybrid threats and 
have increased exposure to electronic warfare, enemy unmanned aerial 
systems, cyber-attacks, indirect fire, and increased enemy use of 
precision guided munitions. Adequate preparation at home station is 
essential for a unit to benefit from CTC training. The Army continues 
to invest in training readiness at home station by sustaining training 
support services and implementing more Emergency Deployment Readiness 
Exercises. Select Reserve Component forces designated as early 
deployers for contingency operations will receive increased manpower, 
equipping, and training resource priority.
    Admiral Moran. Over the past several years, and in a very 
challenging budgetary environment, we have had to make tough choices 
between current readiness and future readiness, and have experienced 
readiness degradation caused by underfunding of our operating and 
maintenance accounts. To reverse this course in the near term, we will 
be submitting an addendum to the President's Budget 2017 budget request 
that addresses some of our most immediate and serious readiness 
shortfalls. This request for resources will add funds to the Ship Depot 
Maintenance, Flying Hours, Aviation Depot Maintenance, Aviation Spares, 
and Ship Operations accounts. These critical investments are a down 
payment on a recovery plan as we dig out from years of underfunding 
these programs and contending with funding uncertainty. If approved by 
Congress, we are confident that we will be able to begin to turn the 
corner on some of our most critical readiness challenges. Moving 
forward, funding stability at these elevated levels will be key to 
maintaining required fleet readiness.
    General Walters. Rebuilding the Marine Corps requires both near 
term actions implemented in fiscal years 2017 (FY17) and 2018 (FY18) 
and longer term efforts across the Future Years Defense Plan (FYDP). 
These changes can be viewed through the lens of manpower, modernization 
and readiness. It requires growth in service funding with a 
commensurate increase in Navy funding that supports Marine Aviation and 
amphibious ship and surface connectors. The Marine Corps for the 21st 
Century requires an end strength increase and seeks funding in fiscal 
year 2017 for the NDAA authorized endstrength of 185,000 marines in 
fiscal year 2017.
    Due to the near-term emphasis on improving the readiness of Marine 
Corps aviation and ground combat equipment to meet warfighting 
requirements, Service actions seek to sustain--and, where possible, 
accelerate--the ongoing transition to new platforms while also 
increasing depot and unit maintenance capacity. Each of these efforts 
is critical to achieving established goals for ready basic aircraft and 
ground combat equipment that support training and operational 
requirements.
    Readiness funding remains the linchpin of our ability to meet 
operational demands and provide for a ``ready bench'' prepared to 
rapidly respond to major crises. Addressing current readiness 
shortfalls requires additional operation and maintenance funding to 
enable exercises and training. Our bases, stations and installations 
are the platforms where we train and sustain our marines. They require 
increased sustainment, restoration and modernization funding. Support 
by the Congress for these initiatives facilitates the recovery of 
immediate shortfalls in manpower, modernization and readiness.
    General Wilson. The Air Force's Fiscal Year 2017 Amended Budget 
Submission (ABS) request totals $8.5 billion . . . builds on our 
readiness recovery, fills gaps, and improves lethality. It funds the #1 
readiness priority of growing Active duty end-strength from 317,000 to 
321,000, as well as essential support functions, and Military 
Construction requirements for future growth to fill critical capability 
gaps. For example, it addresses significant shortfalls in pilot 
production. It funds F-16 Flight Training Unit bed-down at Holloman Air 
Force Base, New Mexico, flight training support and maintenance 
training contracts, adversary training, and administrative support 
functions at fighter squadrons. The ABS arrests the decline of full 
spectrum readiness, continues key modernization efforts (F-35, KC-46, 
B-21), and meets a combination of forward presence and deployed 
commitments

    6. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, are there particular service areas that are more at 
risk than others, in terms of their readiness recovery efforts?
    General Allyn. The Army meets current combatant command (COCOM) 
demand for forces, but we cannot meet COCOM contingency requirements 
with ready forces in all warfighting capabilities. In support of 
current operations, the Army continues to source roughly 50 percent of 
base combatant command demand (pre-planned) and 70 percent of emergent 
demand for the Joint Force. To sustain this demand, the Army is forced 
to accept risk in end strength, capacity, readiness, and modernization. 
Armored and Stryker Brigade Combat Teams (BCTs), Patriot battalions, 
and Terminal High-Altitude Area Defense (THAAD) units are experiencing 
the most stress, as combatant commanders increase demand to assure 
partners, provide support to Counter Terrorism operations, and set the 
theater. The cost of this high operational tempo is that units cannot 
build the core Decisive Action readiness required for future 
contingency demands.
    Admiral Moran. Because of the readiness debt accrued from years of 
high operational demand, reduced budgets, and persistent uncertainty, 
the Navy's overall readiness recovery path for both afloat units and 
shore infrastructure is now more fragile. Disruptions, deviations and 
delays to readiness funding levels and maintenance schedules can 
undermine future recovery progress. Although proper funding for all 
readiness accounts is vital, ship and aviation depot maintenance along 
with aviation spare parts remain our most critical elements in the 
recovery of afloat readiness. fiscal year 2018 planned maintenance for 
our ships and aircraft is at an all-time high level, therefore, any 
deferral or cancellation of fiscal year 2017 maintenance would further 
exacerbate fiscal year 2018 planned efforts.
    General Walters. Aviation readiness, amphibious ship availability, 
and ground combat equipment readiness are three areas that present a 
greater element of risk to current readiness. The most acute readiness 
concerns are found in our aviation units. A large percentage of our 
aviation units lack the minimum number of ready basic aircraft (RBA) 
for training and we are significantly short ready aircraft for wartime 
requirements.''e Marine Corps has implemented extensive plans to 
recover readiness across every type/model/series of aircraft in the 
current inventory, while recapitalizing new aircraft to ensure future 
readiness. The key to reducing risk in aviation is recovering readiness 
by transitioning to new aircraft as quickly as possible. The Marine 
Corps is only a third of the way through its transition from legacy 
platforms. Delays in funding and fiscal constraints undermine recovery 
efforts and increase the institutional challenge of balancing current 
readiness with modernization.
    The limited inventory of operationally available amphibious 
warships results in significant operational risk for Marine Corps 
forces--and strategic risk for the nation--in the event of a major 
combat operation requiring forcible entry operations. The limited 
availability is the product of fiscally-constrained ship inventories, 
ship maintenance challenges, and combatant commander demand. The result 
has been restricted opportunities for Marine Corps units at every level 
to properly train for amphibious operations outside of dedicated Marine 
Expeditionary Unit cycles. The Marine Corps fully supports the Navy's 
2016 Force Structure Assessment, which articulates the requirement for 
a 355 ship Navy (including 38 amphibious ships) and recommends 
accelerated procurement to support this objective. Maintaining and 
modernizing our current fleet is just as important as building new 
ships. Funding maintenance and modernization enables the ships to reach 
their 40 year estimated service life, increases operational 
availability and readiness, and ensures warfighting relevance in the 
future operating environment.
    We also continue to closely monitor ground combat equipment 
readiness. Older platforms that were utilized at an accelerated rate 
due to operational deployments in Iraq and Afghanistan now require 
increased maintenance. These increased costs are just being accurately 
realized and captured, but the aviation challenges associated with 
aging platforms outlined above are being replicated in the ground 
combat equipment portfolio.
    General Wilson. Twenty-six years of constant demand has eroded Air 
Force readiness, especially for our low density, high demand core 
functions, like Personnel Recovery (PR). Today, our PR units are 
operating at an unsustainable surge operations tempo driven by high 
deploy-to-dwell between 1:1 and 1:2. As a result, the opportunity to 
train across all mission areas is limited at home station. The Air 
Force is focusing investment in training enterprise modernization and 
maximizing training opportunities with available home station equipment 
to address readiness shortfalls in this mission area. Additionally, the 
Air Force is focused on growing the force to address other high demand 
critical skills: maintenance, fighter pilot, intelligence, and 
battlefield airmen.

    7. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, how has DOD leadership helped guide service efforts and 
what, if anything, else could be done at the department level to aid 
service readiness rebuilding efforts?
    General Allyn. The Department of Defense manages global force 
requirements, including missions assigned to Army forces. Continued 
deployments are having both a positive and negative effect on building 
Army readiness. Rotations of Armored and Stryker Brigade Combat Teams 
to Europe and Korea are building readiness. These rotational units are 
conducting training aligned with their decisive action mission and are 
building proficiency across the whole unit. The Army makes more 
progress towards rebuilding unit readiness when assigned missions 
require complete units, rather than ad hoc formations. When combatant 
commands request ad hoc formations, unit readiness drops as units are 
disaggregated or assigned to perform missions that do not require the 
unit's core design capabilities. Units deployed in support of non-
decisive action operations are not increasing readiness. These units 
experience degraded readiness for contingencies against peer 
competitors when conducting missions not requiring decisive action 
proficiency. DOD leadership is helping Army readiness through guidance 
that emphasizes deployment of whole units and reducing artificial 
prescriptive policy limitations (force manning levels) that prevent 
unit-based mission assignments.
    Admiral Moran. DOD leadership has been instrumental in its support 
of regulating the number and length of deployments Navy has been 
required to provide in support of our combatant commanders. This has 
helped preserve needed maintenance time and has added the required 
schedule predictability that is essential in planning and executing 
ship and aviation maintenance. DOD leadership has also been 
instrumental in prioritizing readiness recovery and advocating for 
additional appropriations in fiscal year 2017 to support readiness. 
Though DOD's budget has been severely constrained by limited toplines 
under the Budget Control Act and Bipartisan Budget Acts, fully funding 
the readiness accounts is essential to current and future readiness 
recovery efforts.
    General Walters. There are two on-going DOD efforts to guide 
Service readiness recovery efforts. The DOD Enterprise-level Readiness 
Framework was established to develop readiness models to track enter-
rise readiness recovery, using common assumptions, annual milestones, 
and demand signal derived from the Guidance for Employment of the Force 
or the Defense Planning Guidance. The second effort is based on the 
Presidential Memorandum on Rebuilding the U.S. Armed Forces, which 
directed the Secretary of Defense to:

    <bullet>  Conduct a 30 day readiness review and submit actions that 
can be implemented within this fiscal year to improve readiness,

    <bullet>  Submit a plan of action within 60 days that addresses 
areas for improvement that include readiness,

    <bullet>  Build a larger, more capable, and more lethal joint 
force.

    The results of these ongoing DOD efforts are expected to provide 
the Services with sufficient guidance for readiness recovery that 
acknowledges the unique contributions that each Service provides to the 
Joint Force.
    General Wilson. The #1 Air Force readiness priority is people. To 
ensure we remain ready to defeat terrorists as well as sophisticated, 
well-equipped militaries, we must continue to grow the force. We need 
Congress' support to grow from 321,000 in fiscal year 2017 and to 
350,000 in the 2023/24 timeframe. Growth will be appropriately 
evaluated across all components as well as our officer, enlisted, and 
civilian workforces. Furthermore, we are targeting growth in critical 
career fields to help improve readiness. We are stabilizing and 
bolstering our remotely piloted aircraft community while continuing to 
meet combatant commander requirements. We are increasing pilot training 
capacity and adjusting our incentive pay structure to help address our 
growing pilot shortage.

    8. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, how are DOD and the services tracking progress in 
recovering readiness?
    General Allyn.The Army measures readiness at the strategic, 
operational, and tactical level against the ability of units to 
complete their core-designated missions to meet the requirements of the 
National Military Strategy (NMS). At each level there are standard 
metrics that are assessed monthly or quarterly to measure trends in 
readiness recovery and enable the Army Senior leadership to assess and 
where possible mitigate risk over time. Based on current assessments 
and trends, and assuming sustained, predictable funding and elimination 
of BCA impacts, the Army is making progress towards attaining our 
readiness goal of having the Total Force ready to meet NMS requirements 
by fiscal year 2021 to fiscal year 2023.
    Admiral Moran. Navy closely tracks the status of issues impacting 
readiness through a series of Shore, Aviation and Ship enterprises. 
Senior leadership within each of those communities routinely meet to 
discuss mitigation plans for any readiness issues and to track progress 
being made on improving overall health of the force. The Navy's four-
star led Fleet Commanders Readiness Council (FCRC) convenes monthly to 
review recovery efforts and to provide guidance on any issues impacting 
afloat and shore readiness. Issues identified during FCRCs are often 
provided to the Joint Staff for situational awareness and also support 
OSD Readiness Deputy's Management Action Groups.
    General Walters. To manage and track the progress of readiness 
recovery, the Marine Corps uses an integrated process that brings key 
elements of the Service Headquarters and the Operating Forces together 
in the Institutional Readiness Working Group (IRWG). The IRWG meets 
routinely at multiple echelons from action officer to General Officer 
to identify obstacles to readiness recovery and to propose solutions to 
those impediments. On a quarterly basis, the IRWG prepares and presents 
a brief to the Service leadership, including the Commandant of the 
Marine Corps (CMC), during the Quarterly Readiness Board (QRB). The QRB 
reviews critical actions and the progress toward readiness recovery. 
The outputs of the IRWG and the QRB support OSD and Joint Staff 
tracking of readiness. The Office of the Secretary of Defense uses the 
Readiness Management Group and the Deputy's Management Action Group 
(DMAG), Strategic Portfolio Reviews, and Program Budget Reviews. The 
Joint Staff's Chairman's Readiness System (CRS) operates on a quarterly 
basis, the principal outputs of which are: the Joint Force Readiness 
Review, Operational Plans Assessments, the annual Readiness Deficiency 
Assessment, and an input to the Quarterly Readiness Report to the 
Congress. The results of the CRS are reported by the Office of the 
Secretary of Defense in the Quarterly Readiness Report to the Congress. 
In addition to participation in these events, the Marine Corps also 
conveys its readiness to Congress through briefs and hearings.
    General Wilson. The Air Force's readiness recovery strategy focuses 
on disciplined, synchronized investment in readiness accounts in 
sequential order. The first priority is our longest-lead process, 
Active Duty end strength--up to 321,000 by the end of 2017--and 
eventually 350,000 over the next five to seven years. To that end, we 
must ensure the Office of the Secretary of Defense supports funding 
321,500 end-strength in fiscal year 2017. Next, investment in the 
training and sustainment enterprises, both of which require three to 
five years of lead time due to industrial and human processes. Finally, 
as global rotational demands permit, we will be ready to increase 
flying hour funding to facilitate more robust home-station training 
activities. In short, each readiness 'lever' must be engaged at the 
proper time and in coordination with the other levers.

    9. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, what interim benchmarks and timelines have been 
established to ensure progress stays on track?
    General Allyn. Last December, the Army published 2018 readiness 
objectives for all Army components for roughly half of our operating 
forces. The Army will publish 2019 readiness objectives for all 
operating forces this spring, and analysis is already supporting 2020 
readiness objectives. The Army refined its force generation processes 
to manage Army force readiness around expectations of Sustainable 
Readiness. The Army will optimize the force readiness posture with 
readiness objectives meeting combatant commanders' requirements, while 
simultaneously mitigating our risk of supporting contingency 
requirements specified in the Defense Planning Guidance (DPG). The Army 
standardized its Mission Essential Task Lists by unit type and 
developed objective measures of training readiness so our Commanders 
can more clearly assess readiness. Standards are based on decisive 
action combat tasks. These objective measures will enable a consistent 
view of readiness across the Total Army and simplify assumptions for 
force generation. The Army has clear readiness goals to improve overall 
readiness posture, and the details for a specific year can be provided 
in a classified venue, as needed. These goals are unattainable without 
sustained, predictable funding and elimination of the return of BCA 
impacts.
    Admiral Moran. Navy is developing specific interim benchmarks and 
timelines for recovery goals with the Office of the Secretary of 
Defense to best capture readiness metrics. Recovery goals and timelines 
remain closely tied to the Navy's Optimized Fleet Response Plan (OFRP). 
For OFRP to work as designed in providing maximum employability of 
units, one of its key lines of efforts, ship & aviation maintenance, 
must be funded to required levels in a stable manner over time to 
ensure any benchmarks or timelines that do get established are 
achievable.
    General Walters. The Marine Corps has established interim 
deadlines, but these deadlines could be impacted by budget uncertainty 
and evolving operational commitments:

    <bullet>  All OEF ground equipment was retrograded as of December 
2014. The initial target for completion of the reset of this equipment 
was two to three years after the last equipment item retrograded from 
Afghanistan. That target date, however, was extended to May 2019 in 
order to allow for the reset of additional MRAPS.

    <bullet>  The key to an aviation ``Ready bench'' is fixing and 
flying aircraft. The Marine Corps is fixing aircraft in two ways: by 
executing a Readiness Recovery Plan (current readiness), and buying new 
aircraft as fast as possible (future readiness). By aggressively 
adhering to and funding the Readiness Recovery Plans, and by making the 
necessary manpower, training and policy changes of the recovery plan, 
the Corps achieves an across the board T-2.0 readiness by June 2019, 
and no later than fiscal year 2022 have the Ready Bench capable of 
responding as the Nation's Crisis Response Force.

    <bullet>  Marine Corps Force 2025 identifies the critical 
capabilities and organizations required to ensure future readiness and 
to meet the requirements of the future operating environment, as 
described in the Marine Corps Operating Concept (MOC).

    The Marine Corps is working with DOD to establish service goals to 
reconstitute readiness to execute the 2016 National Military Strategy, 
but a stable fiscal planning horizon is necessary for success. With the 
resources available, the Marine Corps is not anticipated to 
reconstitute a ``ready bench'' within this Fiscal Year Defense Program.
    General Wilson. The Air Force uses the term ``full-spectrum 
readiness'' to describe Air Force units achieving operational 
capability in advanced warfighting skills. Given the time required to 
recruit and train airmen, the Air Force projects no substantial 
readiness improvement until fiscal year 2020-21, when conditions are 
expected to be set for readiness recovery. Unit readiness assessments 
are constantly monitored against the requirements of the National 
Military Strategy for major force elements.
                   maintenance and sustainment costs
    10. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, the increase in operational tempo has resulted in an 
increase in utilization rates for all our equipment and weapons 
platforms. How does that impact life expectancy and maintenance costs 
of those systems?
    General Allyn. Increased operational tempo reduces life expectancy 
and increases costs to sustain equipment and weapon system platforms 
significantly. We have sought to mitigate these impacts through 
programs such as Reset, Recapitalization (RECAP), and Service Life 
Extension Programs (SLEP). Sustaining resources for these critical 
programs is essential.
    Admiral Moran. For naval aircraft, service life and maintenance 
periodicity is largely defined by flying hours with additional 
considerations for fatigue from how the aircraft is flown during those 
hours. Higher operational tempo results in reaching these flying hour 
and fatigue milestones sooner than planned. This results in more 
frequent maintenance, and therefore, higher cost, as well as requiring 
extensive and expensive service life assessment and extension programs 
to meet aircraft inventory requirements. For ships, both operation and 
time-dependent factors impact service life. Major preventative 
maintenance actions are bundled into regularly scheduled depot 
availabilities, to maximize preparedness for deployments and inter-
deployment cycle readiness while also ensuring ships reach their 
expected service life. Both the bundling and periodicity of these 
availabilities are determined by design and engineering analysis based 
on assumed operational tempo and schedule compliance. During the Navy's 
period of highest operational tempo from 2001-2009, surface ships 
frequently delayed, skipped, or received shorter depot maintenance 
availabilities than planned in order to meet presence requirements. 
This practice, as cited in the Balisle Report, put our surface forces 
at risk of falling far short of their expected service life, and 
contributed to the early decommissioning of the Oliver Hazard Perry-
class frigates and the extensive modernization periods required for the 
Ticonderoga-class cruisers and some amphibious ships. Even when depot 
availabilities are executed per plan, operational tempo drives some 
maintenance costs. Since 2001, as force structure has shrunk, underway 
days per ship, both deployed and non-deployed, have steadily risen in 
response to the increasingly dynamic international security 
environment. This results in more wear-and-tear on the ships, with less 
time to conduct repairs in port outside of major availabilities, both 
of which contribute to growing corrective maintenance costs.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. The increase in operational tempo and utilization 
rates causes our equipment and weapons systems to reach the end of 
their planned service life more rapidly. This also causes maintenance 
costs to be accrued earlier than the Air Force originally planned. When 
our systems must be used beyond their planned service life, additional 
and potentially costly maintenance actions, inspections, and testing 
are required in order to ensure our systems continue to be operated 
safely.

    11. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, what does that do to each of your service's procurement 
and modernization plans?
    General Allyn. The Army must balance maintaining current fleet 
readiness by incrementally upgrading capability on legacy platforms 
with the cost and opportunity of developing next-generation equipment 
to prepare for future conflicts. The challenge we face is providing the 
best equipment for current combat operations today, while preparing for 
conflict with a near-peer in the near future. The Army has been 
challenged to modernize for the last 15 years because funding 
constraints mandated the prioritization of readiness for current 
operations while accepting risk through decreased investments in next 
generation capabilities. To achieve immediate readiness goals we 
prioritize getting the best equipment available into units with modest 
upgrades. Going forward, the Army must focus equipment modernization on 
re-establishing overmatch and simultaneously developing new military 
capabilities to deter and, if necessary, defeat emerging regional and 
global peer adversaries. This balance is evaluated in the Army's new 
Strategic Portfolio Analysis Review process. Due to funding 
constraints, the Army has cut investments for modernization and 
equipment by one-half compared to just eight years ago. The Army is 
investing in new development of prioritized programs to help close 
extremely high risk gaps against peer competitors. Today's fiscal 
environment impedes the Army's ability to achieve both a high state of 
current readiness and modernize the force to a level that would allow a 
technological over-match against potential near peer adversaries and 
meet war plan demands. To meet the demands of today's unstable global 
security environment and maintain the trust of the American people, the 
Army requires adequate, sustained long-term and predictable funding.
    Admiral Moran. Increased utilization rates magnify the historic 
tension between maintaining the fleet we have and building the fleet we 
need for the future fight. Increased rates burn through programmed and 
projected service life of our equipment faster than planned, increase 
deployment demands on our personnel, and provide additional near-term 
requirements for training to meet a higher-than-expected operational 
tempo, negatively impacting our ability to sustain our force today and 
what we can afford tomorrow. In recent years, fiscal constraints from 
the Budget Control Act (BCA) and Bipartisan Budget Act (BBA) have 
further exasperated this issue. Representative examples of mitigation 
decisions follow: Within Aviation, the challenge of end of life 
planning and inventory for legacy F/A-18A-D aircraft has required the 
Department to procure additional F/A-18E/F aircraft. In the mid-term, 
the Department is focusing on F/A-18E/F service life extension. In the 
far-term, the Department is focused on sustaining inventory capacity 
with new aircraft procurement (F/A-18E/F and F-35), and incorporating 
capability improvements to maintain combat relevancy. Within Surface, 
ships such as the Ticonderoga-class (CG-47) cruisers will be inducted 
into an emergent phased modernization program that align with ship 
retirements to prevent unacceptable reductions in available force 
structure. This innovative plan permits Navy to reapply manpower from 
ships in phased modernization to address other manning shortfalls while 
simultaneously avoiding the operating costs for these ships while they 
undergo maintenance and modernization.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. These conditions have jeopardized future Air Force 
modernization and recapitalization efforts at a time when demand for 
Air Force capability is increasing and our advantage over competitors 
is shrinking. We have attempted to balance the risk across our force to 
maintain readiness but have been forced to make unacceptable tradeoffs 
between readiness, force structure, and modernization.

    12. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, how do you plan to reverse this trend?
    General Allyn. Reversing the trend requires increased base funding 
for the Army's modernization program. In the interim, we will sustain 
prioritized upgrades of our current weapon systems and tightly focused 
new developments to close immediate capability gaps. Simultaneously, 
we'll do our best to keep our aging fleets ready through reset and 
recap programs. Reset reverses the effects of combat stress on 
equipment. Reset, Recapitalization (RECAP) or Service Life Extension 
Programs (SLEP) can improve weapon system platform performance 
capabilities and return select weapon systems to a ``zero mile/zero 
hour'' condition with original performance specifications. For example, 
the Army is enhancing reliability of UH-60 Blackhawk Helicopters, M1A2 
Abrams Tanks, and Patriot Missile systems through the RECAP program.
    Admiral Moran. The current funding levels do not support the 
readiness levels that the Navy needs to maintain in order to support 
the Defense Strategic Guidance. Underfunded accounts force hard choices 
between current and future readiness and will negatively affect force 
structure levels, degrading Navy's ability to meet scheduled and 
unscheduled operational requirements. Navy will apply additional 
resources granted by Congress to the highest priorities laid out in the 
Defense Strategic Guidance, but will take risk in our ability to fill 
lower-priority mission areas, such as presence missions outside of 
areas of conflict.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. If our weapon systems must be operated beyond 
planned service lives, additional life extension programs must be 
considered and upgrades to key components may be necessary. The Air 
Force will need to make difficult trades between modernization, force 
structure investment and readiness to ensure our aging weapon systems 
remain operationally effective, while we bring newer systems online.
                             modernization
    13. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, what are each of your service's priorities over the 
next five years for modernizing its key combat capabilities?
    General Allyn. The Army's top ten modernization priorities for the 
next five years are:

     1.  Air and Missile Defense (Short Range Air Defense (SHORAD));
     2.  Long-Range Fires;
     3.  Munition Shortfalls;
     4.  Mobility, Lethality and Protection of Brigade Combat Teams;
     5.  Active Protection Systems--Air and Ground;
     6.  Assured Position, Navigation, and Timing;
     7.  Electronic Warfare;
     8.  Offensive and Defensive Cyber Capabilities;
     9.  Assured Communications;
    10.  Vertical Lift.

    Admiral Moran. We are committed to modernization through 
investments in critical programs such as CG, DDG, and LSD-class 
modernization and upgrades to F/A-18 E/F Super Hornets. Aircraft 
carrier modernization will support current and future carrier air wings 
(to include JSF and future unmanned aircraft) in evolving operational 
and threat environments while ensuring ships reach their 50-year 
expected service life. We are building the Columbia-class ballistic 
missile submarine, and adding new capabilities to the Virginia-class 
submarine, F-35 Lightning II, P-8 Poseidon, and the development of 
unmanned systems. Through sound investment decisions, we will build 
Navy future force capability and capacity designed to overmatch the 
threat.
    General Walters. The F-35B and F-35C Joint Strike Fighter remains 
the Marine Corps' top aviation acquisition priority as we continue our 
transition from legacy F/A-18A-D, AV-8B and EA-6B platforms to the 5th 
generation strike/fighter. Additionally, the transition of our heavy 
lift rotary-wing aircraft from the CH-53E to the CH-53K remains a top 
priority. Over the next five years Marine Aviation will enter the 
heaviest years of aircraft transition and modernization in its history.
    The Amphibious Combat Vehicle (ACV), Joint Light Tactical Vehicle 
(JLTV), and the Ground / Air Task Oriented Radar (G/ATOR) are the 
Marine Corps' top ground acquisition priorities although G/ATOR will 
support the entire MAGTF in ground and aviation mission sets. While 
these programs will be in full rate production over the next five 
years, the Marine Corps will also be taking every opportunity to 
address other modernization priorities wherever possible to ensure we 
remain a Lethal Force with a 21st Century approach to combined arms 
that integrates information warfare, long-range precision fires, and 
air defense and seeks to destroy and defeat our enemies across five 
domains- air, land, sea, space, and cyberspace.
    General Wilson. The Air Force's priorities over the next five years 
include funding our Top 3 modernization programs: F-35, KC-46, and B-
21. We are also committed to investing in our key mission areas, to 
include Nuclear, Space, Cyber, Intelligence, Surveillance, and 
Reconnaissance; and modernizing legacy fighter capabilities.

    14. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, to what extent has each of your services prepared a 
long-term funding plan for your modernization efforts?
    General Allyn. This year, the Army initiated an extensive Strategic 
Portfolio Analysis Review (SPAR) which will occur annually to inform 
future resource decisions. The SPAR reviewed Army capabilities over a 
30-year period, evaluated each program's relative worth, assessed our 
strategic priorities, and identified investment and divestment 
opportunities. By prioritizing the needs of the Army, the leadership 
can more accurately identify where available modernization funding will 
be invested.
    Admiral Moran. Years of sustained deployments and constrained and 
uncertain funding have taxed the readiness of the fighting force 
requiring tradeoffs in capability, capacity, and readiness. Under 
current fiscal constraints, we have prioritized near-term readiness, 
but the fiscal realities facing the Navy make it imperative that we 
modernize and extend the service lives of our in-service ships, 
aircraft and weapons to meet warfighting requirements. The nation faces 
an increasing array of diverse threats, thus Navy must fund 
modernization programs that provide the capability necessary to defeat 
current and future threats. Absent sufficient funding for readiness, 
modernization and force structure, the Navy cannot return to full 
health, where it can continue to meet its mission on a sustainable 
basis. The Navy intends to ensure that the ships and aircraft in 
inventory are maintained and modernized so they provide the full 
measure of combat power to the combatant commanders. Navy continues to 
modernize its Ticonderoga-class (CG-47) guided missile cruisers and 
amphibious dock landing ship and lay them up for a phased modernization 
plan. Cruiser modernization ensures long-term capability and capacity 
for purpose-built Air Defense Commander (ADC) platforms. Additionally, 
an important facet of the Navy's plan is to modernize the Arleigh Burke 
class destroyers which includes Hull, Mechanical, and Electrical (HM&E) 
upgrades as well as combat systems improvements with upgraded AEGIS 
weapons systems, BMD capability, installation of the Evolved Sea 
Sparrow Missile (ESSM), integration of the SM-6 missile, and improved 
air dominance with processing upgrades and Naval Integrated Fire 
Control-Counter Air capability. This renovation reduces total ownership 
costs and expands mission capability for current and future combat 
capabilities. The Navy continues aviation recapitalization of all major 
platforms, has increased procurement of F/A-18E/F and F-35 aircraft, 
and made key modernization investments. The fiscal year 2017 budget 
request increases both the F/A-18E/F and F-35 strike fighter aircraft 
procurement in order to mitigate near-term and far-term risks to our 
strike fighter inventory and invests in priority aircraft 
modernization. Important modernization efforts include Joint Strike 
Fighter Follow-on Modernization, the E-2D Advanced Hawkeye, F/A-18E/F 
service life extension, and incremental improvements to P-8s. Critical 
to power projection from the sea, our new and upgraded airborne early-
warning aircraft, the E-2D Advanced Hawkeye, completed Fleet 
integration and deployed with USS Roosevelt (CVN 71) Carrier Strike 
Group. Finally, the Navy's modernization strategy invests in the 
modernization of current weapons to support them through their service 
lives including obsolescence upgrades to the Block IV Tomahawk during a 
mid-life recertification program which adds 15-years of additional 
missile service life; fields the Long Range Anti-Ship Missile (LRASM) 
as the Offensive Anti-Surface Warfare (OASuW) Increment 1 solution to 
meet near to mid-term threats; and develops follow-on Next Generation 
Strike Capability (NGSC) weapons to address future threats and to 
replace or update legacy weapons. This plan brings next generation 
technologies into the Navy's standoff conventional strike capabilities.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. Each year the Air Force Planning process produces a 
30-year resource allocation plan that builds the best Air Force 
possible to meet the current National Strategy, given projected Total 
Obligation Authority. The plan addresses Air Force fighter/bomber 
needs; Space, Cyber, and Nuclear modernization; and overall Air Force 
readiness, among other priorities.

    15. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, what will it cost each of your services to modernize, 
where will the resources come from, and how will the modernization plan 
be sequenced?
    General Allyn. The Army requires stable and predictable funding to 
achieve our most pressing modernization objectives. The level of 
modernization we plan for is governed by our near-term readiness needs, 
the size of the force, and the fiscal limits established by the 
administration and Congress. The Army conducted a Strategic Portfolio 
Analysis Review to establish our priorities for Army capabilities over 
a 30-year period and evaluated each program's relative worth in a 
fiscally informed manner. Air and missile defense; long-range fires; 
munitions shortfalls; and the mobility, lethality, and protection of 
our Brigade Combat Teams are the immediate focus of our modernization 
efforts. The challenge we face is providing the best possible equipment 
for combat units to fight tonight, while simultaneously preparing for 
conflict with a near-peer in the future. Given the current situation in 
the world coupled, with fiscal constraints, we are prioritizing 
equipment upgrades that will have the greatest impact against near-peer 
threats and can be in the hands of soldiers in the next 10 years. We 
are taking advantage of limited opportunities to pursue prototyping to 
fill pressing capability gaps faster by leveraging existing systems or 
technologies. Our greatest challenge is that investment in new 
development is fiscally constrained, and we are focused on extremely 
high risk capability gaps. Absent increased funding, in the near future 
we face the very real possibility of losing our qualitative overmatch.
    Admiral Moran. The President's Budget 2017 Alternate Budget 
Submission includes the Navy's best approach to addressing this complex 
challenge. Each budget cycle presents competing requirements between 
maintaining the force that we have (readiness), modernizing the force 
we have, and buying the future force we need. In our readiness analysis 
we recognize that near-term readiness-focused plus-ups must be enduring 
in order to ensure the sustainment of appropriate readiness levels. 
This sustained readiness funding will apply pressure on those resources 
available for modernization and recapitalization. As a result, under 
current funding levels, Navy will struggle to recapitalize its current 
force, and be unable to grow without additional funding. Navy is 
pursuing innovative solutions that accelerate the fielding of new 
capability. First, we are finalizing the implementation of the Navy's 
Acceleration Acquisition strategy which seeks to streamline acquisition 
for key programs of record, and accelerate the prototyping, 
experimentation, and demonstration of critical technologies that make 
have the potential to change the way we fight in the future. Next, we 
are experimenting with different analytic tools to more precisely 
define total lifecycle costs, and the impacts of individual force 
structure decisions on the elements that generate force readiness: 
Personnel, Equipment, Supply, Training, Ordnance, Networks, and 
Installations. We believe these two efforts will target the key areas 
for investment and cost reduction to support building the modern naval 
force.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. To fund the Air Force that will dominate against a 
peer adversary requires predictable and sustained investment above 
current levels. The Air Force will build the best force possible within 
the Total Obligation Authority (TOA) level received, and resources will 
come from efficiency efforts, divestitures, and increased TOA. 
Sequencing is challenging as the Air Force must carefully consider 
trades between capability, capacity and readiness and make hard choices 
within available funds to reach our 30-year plan goals.

    16. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, how are each of your services balancing the short-term 
requirement to repair or rebuild old equipment with longer-term efforts 
to replace that same equipment with next-generation equipment?
    General Allyn. The Army must balance maintaining current fleet 
readiness by incrementally upgrading capability on legacy platforms 
with the cost and opportunity of developing next-generation equipment 
to prepare for future conflicts. The challenge we face is providing the 
best equipment for current combat operations today, while preparing for 
conflict with a near-peer adversary in the near future. The Army has 
responsively provided the critical equipment to succeed in 
counterinsurgency and counterterrorism operations over the past 15 
years, but has not modernized for the higher-end of warfare. To achieve 
immediate readiness goals we prioritize getting the best equipment 
available into units with modest upgrades. The Army must focus 
equipment modernization on re-establishing overmatch and simultaneously 
developing new military capabilities to deter and, if necessary, defeat 
emerging regional and global peer adversaries. This balance is 
evaluated in the Army's new Strategic Portfolio Analysis Review 
process. The Army has half the funding for modernization and equipping 
our force compared to just eight years ago. The Army is investing in 
new development, in prioritized programs to address extremely high risk 
capability gaps. Today's fiscal environment constrains the Army's 
ability to achieve both a high state of current readiness and 
sufficient investment to modernize the force to a level that would 
allow a technological over-match against potential near-peer 
adversaries and meet war plan demands. To meet the demands of today's 
unstable global security environment and maintain the trust of the 
American people, the Army requires adequate, sustained long-term and 
predictable funding.
    Admiral Moran. The Navy has funded near term maintenance 
requirements to ensure a high level of operational readiness for 
deploying units by accepting risk in the modernization and maintenance 
of our shore infrastructure, including shipyards, aviation depots, 
ordnance storage and handling facilities, piers, runways, hangars, 
utility systems, and other support facilities. Long term 
underinvestment in these facilities is taking a toll on our ability to 
support deploying forces and require significant recapitalization 
efforts which are currently unaffordable within the existing budget.
    General Walters. Modernization, the key to future readiness, is 
essential to evolve the Marine Corps to out-pace future threats and 
establish a ``5th Generation MAGTF'' capable across all warfighting 
functions in all domains. The Marine Corps of today is largely 
optimized for the past and continues to sacrifice modernization to 
sustain current readiness for deploying units. In the current austere 
funding environment, the Marine Corps has been forced to make decisions 
that accept near-term risk by emphasizing incremental capability 
modernization over warfighter fielded capacity.
    Currently, Marine Aviation is a little over one-third complete with 
the transition of every tactical platform in its inventory. Our 
transition plan recapitalizes current squadrons with transformational 
technologies--5th generation STOVL strike/fighters, tilt-rotor 
technology, advanced heavy lift helicopters, and modernized amphibious 
based Group 3 and Group 5 Unmanned Aircraft Systems. As this transition 
is ongoing, we have completed a series of independent readiness reviews 
(IRRs) with the goals of increasing the number of Ready Basic Aircraft 
(RBA), building comprehensive strategies to recover our readiness, and 
meet flight line entitlement warfighting requirements. These reviews 
are intensive and dispassionate, and give us an in-depth look at the 
issues and concerns in each community. To date we have completed IRRs 
for the AV-8B, CH-53E, and the MV-22B while the H-1 IRR is in progress 
this year.

    <bullet>  CH-53 IRR: We are executing our CH-53E Super Stallion 
readiness recovery reset. Per the planned reset induction schedule 
there are currently 16 aircraft in reset between the East Coast, West 
Coast, and Hawaii. Three CH-53Es are complete with the reset now, and 
they are the finest performing aircraft across the entire heavy lift 
fleet; we anticipate the entire CH-53E fleet to be reset in the next 
three to four years. This reset process is breathing new life and 
reliability into the CH-53E fleet, extending the viability of our heavy 
lift fleet until CH-53K arrives.

    <bullet>  MV-22 IRR: From the outcome of the V-22 IRR we found that 
we need to have one configuration of the Osprey; right now we have 
about 77. The answer to why we have so many variants lies within how 
the acquisition and fielding of the MV-22 occurred. Always needing the 
latest and greatest forward capability, we chose to deploy the aircraft 
as soon as the first combat capability existed. Since the start of 
fielding, the aircraft has advanced in areas such as reliability, 
performance and capability. The Independent Readiness Review identified 
many factors, to include the transfer and cannibalization of these 
aircraft which can also contribute to different configurations, and 
which identified the solution as a common configuration. Common 
Configuration Readiness and Modification (CC-RAM) is a disciplined 
approach to put some of those pieces in place and reduce the complexity 
of the environment from 77 configurations to 3. One example is the use 
of a standard and more improved aircraft nacelle.

    <bullet>  AV-8B IRR: This review identified a cost-effective 
strategy through the remainder of the Harrier's service life to produce 
the required squadron T 2.0 standard. To date we have seen a 26 percent 
increase in pilot hours per month, and a 23 percent increase in 
squadron RBA throughout the AV-8B community.

    The real key to attaining next generation capabilities and 
recovering readiness is through transition. Due to our aging aircraft 
fleet, we have to focus on both current readiness while we 
simultaneously recapitalize TACAIR with the F-35B/C, complete the H-1 
transition, and soon initiate the transition to the CH-53K.
    Like Aviation, our Marine Corps ground programs which we choose to 
emphasize, at the risk to other programs, includes:

    <bullet>  The AAV survivability upgrade which will continue to 
provide a ship to shore self-deploying capability bridge until we have 
replacement for our 40 year old AAVs.

    <bullet>  The ACV 1.1 is our first step in an incremental approach 
to replacing those AAVs.

    <bullet>  The JLTV is a joint USMC/U.S. Army program to procure the 
next generation replacement for the venerable HMMWV.

    <bullet>  CAC2S and G/ATOR provide an ability to control our 
airspace enabling freedom of action to employ our organic weapons with 
the speed and tempo that makes the Marine Air Ground Task Forces 
successful.

    <bullet>  CESAS II, Intrepid Tiger II, NOTM, and MQ-21 are some of 
the new capabilities that we must buy to support the IW enablers.

    The Marine Corps is in a regular evaluation cycle centered on the 
Combat Development and Integration Campaign of Learning that seeks to 
identify near term efficiencies that will allow us to invest in the 
modernization that will eventually realize the capabilities of the 
``5th Generation MAGTF''. However, in today's funding environment, 
capability modernization can only be realized by accepting risk in 
warfighting capacity.
    General Wilson. The fiscal year (FY) 2018 President's Budget is 
currently under development. Looking back, the fiscal year 2017 budget 
request balanced short-term modernization with long-term 
recapitalization to maintain capability, capacity and readiness while 
living within fiscal constraints.
                            flight training
    17. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, are each of the service's flying hour programs properly 
sized to support full spectrum readiness requirements?
    General Allyn. Army Aviation is currently funded to train to 
platoon- and company-level collective training, which is insufficient 
to achieve decisive action, or full spectrum, readiness requirements 
against a near-peer enemy. Although sufficient to meet readiness 
requirements for current contingency operations, failure to train to 
decisive action readiness at the battalion level increases the risk to 
our aircrews, and it risks degrading mission effectiveness in a higher 
threat environment. The Army is currently facing challenges in 
achieving higher levels of collective readiness due to shortages in 
pilots and aircraft. Additionally, Army Aviation is nearing the end of 
major force structure reorganization (Aviation Restructure Initiative) 
and taking deliberate steps to address training, manning, and equipping 
constraints. In order to address our manning shortages, the Army is 
increasing flight school training throughput, increasing warrant 
officer accessions and pursuing incentives to adequately man the force. 
In order to address our aircraft shortages, the Army is leveraging 
multi-year procurement programs and requesting increased levels of 
resourcing beginning in fiscal year 2017 to fill holes across the 
Aviation structure. The Army will require sustained and predictable 
funding to achieve full spectrum aviation readiness. Funding at Budget 
Control Act (BCA) levels or extended periods operating under Continuing 
Resolutions (CR) will inhibit the Army's mitigation measures and delay 
our ability to achieve the readiness levels required against a near-
peer enemy. Additional flight hours and the capacity of trained pilots 
and mission capable aircraft to execute our combined arms training 
strategy will increase proficiency in decisive action readiness and 
reduce risk.
    Admiral Moran. The appropriate level of sustained readiness for the 
``full spectrum requirement'' in peacetime is 80 percent of that 
requirement. The flying hour program supports the Optimized Fleet 
Response Plan, a force generation construct that provides naval 
aviation forces of the ``right readiness, right cost, at the right 
time.'' Specifically, aviator and aircrew flight hour requirements are 
established to support platform specific mission proficiency through 
training flights and real world operations. Reductions in available 
funding have necessitated reduced readiness for forces early in the 
training cycle. The Navy mitigates risk through the use of a tiered 
readiness approach that limits flight hours for aviators during 
squadron maintenance and work up periods, and increases proficiency as 
units prepare to deploy. The impact of this reduced level of funding is 
the dearth of forces able to surge from homeport to support the 
deployed forces on the line in case of conflict. Increased flying hour 
funding will improve the readiness of the surge forces.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. The U.S. Air Force fiscal year 2017 flying hour 
accounts were programmed to the levels we could execute, though still 8 
percent below the minimum requirement for ready aircrew due to manpower 
and aircraft availability issues. Higher execution rates are limited by 
shortfalls in appropriately trained critical personnel (primarily 
maintenance manpower), reduced availability of older legacy aircraft 
systems, and ongoing support to the current fight. As a result, we do 
not recommend additional unexecutable funding for the flying hour 
program at this time. However, we will require plus ups to the flying 
hour program across the Future Years Defense Program as existing 
shortfalls are improved.
    The top investment priority to begin restoring full spectrum 
readiness is increasing end strength manpower. Additionally, deliberate 
increases in funding levels for weapon system sustainment, training 
resources and infrastructure are all necessary for full-spectrum 
readiness recovery.

    18. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, how does the hours our combat flight crews are getting 
today compare to the hours they were flying in the 1980s and 1990s?
    General Allyn. Due to advances in technology and training, it is 
difficult to compare flying hours from the 1980s and 1990s to the 
present. The introduction of high-fidelity simulation devices enable 
more efficient and effective live training. The Army estimates that 
aircrews flew approximately 20 hours per month during the 1980s, and 14 
hours during the 1990s. In 2016, Army aviators flew an average of 
approximately 10 hours per month, down from approximately 12.5 hours in 
2014. Over the last 15 years, Army aviation has relied heavily on 
deployed flight time to establish a foundational base of experience. 
However, deployed flight time has decreased significantly since 
operations transitioned more toward an advise and assist mission 
profile. From 2006-2014, Army aviators flew an average of 31 hours per 
month while deployed. Since 2014, aircrews have flown an average of 10 
hours per month while deployed. These reduced flight hours have 
permitted the Army to maintain sufficient rotary-wing aviation 
readiness to meet current operational requirements in the 
counterinsurgency operational environment, but they are inadequate for 
the lethality and complexity of operations against a near-peer 
adversary.
    Admiral Moran. Modern Navy aircrew are better trained and more 
ready for advanced air combat than at any time in the past; however, 
the standards required to achieve this level of proficiency are not 
supported by current funding levels. In 2016, Naval Aviation flew less 
than half the number of flight hours when compared to the highest 
flight hour execution point in 1989; 1.07 million versus 2.23 million 
flight hours. The Navy's newer planning factors for the Optimized Fleet 
Response Plan (OFRP) have reduced required training flight hours. 
Training requirements are now based on where the aircrews are in the 
training cycle, and high fidelity simulators have reduced the required 
time to train, making comparison difficult.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. USAF pilots fly less annual training hours today 
than in past decades. In the 1980s fighter pilots flew an average of 
213 hours; in the 1990s-205 hours; in the 2000s-183 hours; and previous 
12-months (Apr 16-Mar 17) 149 hours. In the 1980s bomber pilots flew an 
average of 233 hours; in the 1990s-190 hours; in the 2000s-223 hours; 
and previous 12-months (Apr 16-Mar 17) 156 hours.

    19. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, how do the hours our combat flight crews are getting 
today compare to other nations?
    General Allyn. Currently, U.S. Army aviators are flying 
approximately 10 flight hours per month. However, to achieve collective 
training proficiency for decisive action readiness against a near-peer 
adversary, we estimate a need to fly between 14 and 15 hours per month. 
NATO published standards that pilots should achieve a minimum of 140 
hours per year, or approximately 11.6 hours per month to meet basic 
individual proficiency requirements. A recent query of other nations 
(France, Germany, Italy, Australia, Netherlands, and the UK) revealed 
standards similar to those set forth by NATO. These nations would also 
require additional hours to achieve the collective level proficiency 
necessary for decisive action readiness against a near-peer enemy.
    Admiral Moran. U.S. Naval Aviators maintain an advantage over 
Russian/PLAN aviator counterparts when it comes to sheer quantity of 
flight hours (approximately 200 per year versus roughly 120 per year), 
and we are consistently upgrading and providing state of the art 
training for our aviators. However, our competitors have watched how we 
train and they are becoming more proficient, reducing the competitive 
advantage the U.S. Navy enjoys.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. Current USAF flight hours approximate the NATO 
Standard and exceeds the flight hours of potential adversaries.
      
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
      

    20. Senator Inhofe. General Allyn, Admiral Moran, General Walters, 
General Wilson, what impact does reduced flight hours have on 
readiness, experience, proficiency, and safety?
    General Allyn. Reduced flight hours inhibit the Army's ability to 
develop the experience and proficiency necessary to achieve the 
readiness levels required to defeat a near-peer enemy at an acceptable 
risk. Due to budget constraints, Army Aviation is currently funded to 
train to platoon and company-level collective training, which is 
insufficient to achieve decisive action, or full spectrum, readiness 
requirements against a near-peer enemy. The Army also faces manning and 
equipping shortages which impact achieving higher levels of collective 
readiness. Over the last 15 years, Army aviation has relied heavily on 
deployed flight time to establish a foundational base of experience. 
However, deployed flight time has decreased significantly since 
operations transitioned to an advise and assist role. From 2006-2014, 
Army aviators flew an average of 31 hours per month while deployed. 
Since 2014, aircrews have flown an average of 10 hours per month while 
deployed. Despite the reduced flight hours, however, the accident rate 
of 1.33 accidents per 100,000 flight hours from 2010 to present 
represents an all-time low. Additional flight hours and the capacity of 
trained pilots and mission capable aircraft are necessary to enable our 
aircrews to execute combined arms training, which will increase their 
proficiency in decisive action readiness and reduce risk in a conflict 
with a near-peer enemy.
    Admiral Moran. Reduced flight hour execution, as a result of fewer 
Ready Basic Aircraft on flight-lines has a direct, negative impact on 
readiness, experience, proficiency and safety. These negative impacts 
were validated in a 2015 Center for Naval Analyses (CNA) study which 
found extended periods at very low flight hours resulted in extremely 
low readiness, decreased flying experience, decreased warfighting 
proficiency and higher risk of experiencing a pilot causal factor (PCF) 
mishap. The Navy refers to this as the Tactical Hard Deck (THD). The 
same study discovered pilots are 50 percent more likely to have a PCF 
mishap when flying at THD; the risk increases even more when flying 
below THD. Hours flown below Optimized Fleet Response Plan standards 
reduce the number of tasks aircrew (Naval Aviators, Naval Flight 
Officers and Naval Aircrewmen) perform towards primary mission areas. 
Specifically, CNA found aircrews fly 25 percent fewer tactical training 
flights per month when the units are operated at THD. This reduces 
their readiness levels, as well as their experience and proficiency at 
those tasks, preventing full spectrum readiness. Naval aviation strives 
to maintain readiness levels through prioritization of units preparing 
to deploy and deployed; however, this leaves non-deployed units at home 
with fewer hours to execute and fewer aircraft to fly. These lower 
readiness levels for non-deployed units also leads to slower 
progression and attainment of aircrew milestones and directly affects 
retention within Naval Aviation. Where aviation safety is concerned, 
readiness gaps are considered to be situations in which: A. There were 
insufficient numbers of Sailors to perform maintenance functions, or; 
B. Sailors were insufficiently trained to perform maintenance 
functions, or; C. Insufficient parts or equipment were available to 
produce an adequate number of Mission Capable aircraft in order to 
provide sufficient flying time to maintain aircrew proficiency, or; D. 
Known aircraft deficiencies were not corrected in a timely manner due 
to insufficient resources. Aviation mishaps are typically caused by a 
number of causal factors and it is often difficult, if not impossible 
to say with certainty a single factor, such as a readiness gap, was the 
primary causal factor. The Naval Safety Center carefully reviewed 
Aviation Class-A Flight Mishaps (damage of $2 million or more and/or 
aircraft destroyed, and/or loss of life) for the period between fiscal 
year 2012 and fiscal year 2016 to see if there was a readiness 
component. The Naval Safety Center believes of 44 Class-A Flight 
Mishaps for the period fiscal year 2012 through fiscal year 2016, three 
of 44 mishaps (6.8 percent) had a readiness component.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. Fewer flight hours generally reduces repetition 
that build the habit patterns required to gain proficiency in flying 
tasks which prepare aircrews for combat. It also equates to a longer 
time period for inexperienced pilots to become experienced in their 
platform. Less proficient pilots that take longer to gain expertise 
will also have a more difficult time maintaining that expertise. In 
addition to being fiscally inefficient, reduced flight hours decrease 
overall Air Force readiness and increase risk to combat operations.
                           nuclear readiness
    21. Senator Inhofe. General Wilson, the Air Force is responsible 
for two legs of the strategic nuclear triad as well as tactical fighter 
aircraft assigned to regional nuclear missions. What is your assessment 
of the readiness of those nuclear forces to conduct strategic 
deterrence missions as well as to provide support to regional combatant 
commanders in the event of a regional crisis or on-going conventional 
conflict?
    General Wilson. Air Force nuclear deterrence forces, including both 
dual-capable and nuclear-only platforms, are ready to perform their 
full range of assigned missions. However, many of these systems were 
last recapitalized in the 1980s and are operating decades beyond their 
intended service lives. Should planned modernization programs be 
delayed or deferred, the Air Force's ability to provide the Nation with 
credible and effective nuclear deterrence in the future could be at 
risk.

    22. Senator Inhofe. Admiral Moran, what is your assessment of the 
readiness of the nuclear ballistic missile submarine force to carry out 
strategic deterrence patrols?
    Admiral Moran. The Navy's SSBN force and supporting facilities are 
safe, secure, and effective at meeting the requirements identified by 
the Strategic Command (STRATCOM). The SSBN force is sized and 
maintained to keep the required number of platforms properly 
positioned, postured and survivable at all times.
                               __________
               Questions Submitted by Senator Joni Ernst
                      foreign language proficiency
    23. Senator Ernst. General Allyn, the fiscal year 2017 NDAA 
conference report highlights the importance of foreign language 
proficiency in maintaining military readiness. Accordingly, the Defense 
Language Institute Foreign Language Center (DLIFLC) has had a 
requirement for copyright-covered, authentic-content foreign language 
training material in two successive years. That requirement was fully 
funded, but under-executed by $5 million, in fiscal year 2016. DLIFLC's 
budget request and requirements for fiscal year 2017 remain unchanged. 
What is the status of the approved Performance of Work Statement in the 
contracting process?
    General Allyn. DLIFLC is always required to provide authentic 
foreign language training materials. Current information technology 
provides access to authentic foreign language materials. Therefore, 
DLIFLC no longer requires a contract for this general capability. 
DLIFLC would, however, benefit from assistance with copyright 
permissions. A previous contract included both assistance with access 
to authentic foreign language materials and copyright permissions. The 
scope and cost of this contract was in excess of Army requirements. 
Because the contractor declined to tailor its contract to meet actual 
requirements, U.S. Training and Doctrine Command (TRADOC) and 
Headquarters, Department of the Army (HQDA) chose not to renew the 
contract. DLIFLC has developed a performance work statement for 
submission in late fiscal year 2017 to contract for the capability to 
gain copyright permissions for authentic foreign language materials in 
certain targeted languages at higher levels of proficiency. We expect 
this contract to go out for competition in fiscal year 2018.

    24. Senator Ernst. General Allyn, how can Congress be assured 
DLIFLC will meet this requirement through a competition this calendar 
year?
    General Allyn. As the Executive Agent for DLIFLC, the Army remains 
committed to generating readiness among linguists from all Services 
supporting Department of Defense missions. U.S. Army Training and 
Doctrine Command (TRADOC) and Headquarters, Department of the Army 
closely monitor all contracting actions. DLIFLC developed a performance 
work statement for submission in late fiscal year 2017. We anticipate 
the contract will be awarded in calendar year 2018.

    25. Senator Ernst. General Allyn, how will a delay in meeting 
DLIFLC's own stated requirements impact military readiness?
    General Allyn. Because DLIFLC already has access to authentic-
content foreign language materials, delays in this contracting action 
will have minimal impact on military readiness. Assistance with 
copyright permissions allows DLIFLC to incorporate authentic materials 
into its own organizational texts and teaching materials.
                  army improved turbine engine program
    26. Senator Ernst. General Allyn, during operations in Iraq and 
Afghanistan, the Army combined arms efforts were heavily integrated 
with assault, scout, and attack rotary wing aviation assets. In 
particular, due to the high-hot challenges in both theaters of 
operation, rotary wing aircraft were often required to limit payloads 
due to inadequate engine power for the mission or for the environmental 
conditions. The Army is pursuing the Improved Turbine Engine Program, 
or ITEP, to provide increased power, improved fuel efficiency, and 
reduced maintenance costs for the UH-60 Black Hawk and AH-64 Apache. 
Army leadership has previously pronounced ITEP as their #1 Army 
Aviation modernization program. Is ITEP still the Army's top aviation 
modernization priority?
    General Allyn. Yes, the Improved Turbine Engine Program (ITEP) is a 
top modernization priority for Army Aviation. Scheduled to enter Low-
Rate Production in 2024, the Army is programmed to start bridging its 
rotary wing high/hot capability gap in 2026. In 2018, the Army will 
select a preliminary design and award the ITEP development to a single 
vendor. Once completed, this materiel solution will reduce cumulative 
sustainment costs and offer commanders the ability to deliver an 
unrestrained aviation maneuver capability, at less than high/hot 
conditions, increased engine power and fuel efficiency can be traded 
for helicopter range, speed, or lift capacity. Enhanced helicopter 
performance bridges the high/hot capability gap, assuring that the ITEP 
remains a top modernization priority.

    27. Senator Ernst. General Allyn, do you anticipate continued 
support for this Army program for the Black Hawk and Apache fleets?
    General Allyn. Yes, the Improved Turbine Engine Program (ITEP) is 
balanced and fully funded in the Future Years Defense Program. 
Additionally, the Capabilities Development Document is scheduled for 
approval in the third quarter of fiscal year 2017. The ITEP extends the 
life of the current Black Hawk and Apache fleets and, contingent on 
funding, continues to be important to the Army.
                               __________
              Questions Submitted by Senator David Purdue
            new joint military net assessment (jmna) process
    28. Senator Purdue. General Allyn, Admiral Moran, General Walters, 
General Wilson, I understand that the joint staff is working on a new 
assessment, to be called the Joint Military Net Assessment (JMNA) that 
will include an assessment of what's needed to meet the threats and 
challenges we face, exclusive of budget limitations. What is being done 
by you and the joint staff to better assess readiness and our ability 
to meet the Mission Essential Task List (``metals'') as well as our 
operation plans (``o-plans'') at the combatant command level?
    General Allyn. The Army has adopted analytical processes to 
quantify the requirement for forces to meet Combatant Commander 
Contingency Plans, as focused by Defense Planning Guidance, in order to 
optimize a ``sustainable'' readiness force posture for contingencies. 
To enhance unit preparation for contingencies, we have adopted 
objective measures of training readiness for decisive action in unified 
land operations that will quantify unit training readiness levels. The 
Army's role will be to provide input to the new Joint Military Net 
Assessment process.
    Admiral Moran. Navy actively participates in the Joint Combat 
Capability Assessment Group, whose purpose is to identify combatant 
command top concerns with respect to supporting combatant commander 
(CCDR) O-Plans, and provides input to JMNA. Working collaboratively 
with the Joint Staff, the group not only addresses O-Plan-related 
issues, but explores potential mitigation strategies and solutions that 
can be performed at the Joint and Service-level. Navy's assessment of 
readiness to support CCDR's O-Plan METLs is a continuous refinement 
process. Assessments of capabilities supported by the status of 
resources (personnel, equipment, supply, training, and ordnance) are 
reviewed and refined as required. This ensures the information provided 
to the CCDRs, via the Defense Readiness Reporting System Enterprise, is 
meaningful and accurate.
    General Walters. The JMNA is a classified document. In general, 
HQMC continually assesses Combatant Commanders' (CCDRs) OPLANs to 
ensure the Service is properly prioritizing its organize, train, and 
equip responsibilities. OPLAN assessment and evaluation incorporates 
Joint Staff, CCDRs, and Service planner analysis with Service training, 
capability development and readiness issues. The JMNA will highlight 
Marine Corps readiness concerns and assist Services in their efforts to 
identify combat and Service support necessary to mold a force that can 
deter, respond, and defeat adversaries in crisis and contingency 
situations. Coordination with the Joint Staff will enable the Joint 
Staff to identify total force areas of duplication, mitigate 
underfunded programs of record, and provide guidance to improve 
capability and capacity development in the future. Most significantly, 
the JMNA will allow Services coordinate a holistic course to improve 
national security and Defense Department readiness across the spectrum 
of conflict.
    General Wilson. JMNA synthesizes disparate staff estimates into an 
overall assessment. Today, Air Force commanders assess their unit's 
ability to meet their designed capability and any assigned Operations 
Plans on a monthly basis in accordance with the Chairman's readiness 
system. The Joint Staff is working with the Services on recommendations 
to better assess readiness.

    29. Senator Purdue. General Allyn, Admiral Moran, General Walters, 
General Wilson, can you explain more about the new JMNA process, and 
why the joint staff has decided to take this on?
    General Allyn. I would have to defer to the Joint Staff to comment 
on their specific JMNA efforts which are in accordance with the 
Chairman's title 10 responsibilities. NOTE: JS provided this proposed 
response. JS reached out through LA channels to Sen Perdue's staff to 
ensure they have the information needed for JMNA and they understand it 
is a Joint Staff product should they have additional questions or 
concerns.
    Admiral Moran. JMNA addresses the Chairman of the Joint Chiefs of 
Staff (CJCS)'s strategic planning responsibility under title 10 U.S. 
Code Sec.  153(a)(2)(c) to ``[perform] net assessments to determine the 
capabilities of the armed forces of the United States and its allies as 
compared with those of their potential adversaries.'' The assessment 
aims to inform CJCS recommendations about strategic, programmatic, 
budgetary, and force development choices by synthesizing ongoing 
assessment efforts to integrate an overarching view of Comprehensive 
Joint Readiness. The Joint Staff can provide additional information 
about their specific JMNA efforts if needed.
    General Walters. The purpose of the JMNA is to assess the 
comprehensive readiness of the Joint Force to execute the National 
Military Strategy today and through the Future Years Defense Program 
(FYDP). The JMNA synthesizes ongoing assessment efforts to integrate an 
overarching view of comprehensive joint readiness. In particular, the 
JMNA assesses U.S. military capabilities, capacity and readiness 
against potential adversaries through the lens of the 4+1 problem sets 
and develops options for addressing gaps in key competitive areas. 
These options are intended to inform CJCS recommendations about 
strategic, programmatic, budgetary, and force development choices. The 
JMNA is a classified document. However, 2016 version is being finalized 
as the Joint Staff begins work on the 2017 version with OSD, the 
Services and Defense Department supporting establishment.
    General Wilson. Under title X, the ``CJCS is responsible for . . . 
performing net assessments to determine the capabilities of the armed 
forces of the United States and its allies as compared with those of 
their potential adversaries.'' The purpose of the JMNA is to develop an 
integrated assessment of the comprehensive readiness of the Joint Force 
to execute the National Military Strategy currently and through the 
Future Years Defense Program. It draws upon inputs from multiple 
existing Joint Staff processes in which the combatant commands and 
Services participate. For more detailed information, recommend 
contacting the Director, Joint Staff.

    30. Senator Purdue. General Allyn, Admiral Moran, General Walters, 
General Wilson, what do you expect this new assessment will find in 
terms of the difference between needs and resources?
    General Allyn. I would have to defer to the Joint Staff to comment 
on their expectations for JMNA conclusions. NOTE: JS provided this 
proposed response. JS reached out through LA channels to Sen Perdue's 
staff to ensure they have the information needed for JMNA and they 
understand it is a Joint Staff product should they have additional 
questions or concerns. Impact of Continuing Resolutions on Readiness
    Admiral Moran. The JMNA informs the Chairman of the Joint Chiefs of 
Staff with strategic, programmatic, budgetary, and force development 
recommendations. The current JMNA assessment is ongoing and classified. 
I would have to defer to the Joint Staff to comment on any expectations 
for JMNA findings.
    General Walters. The 2016 JMNA is classified. Generally, the 
assessment synthesizes existing assessments and compares U.S. military 
capabilities, capacities and operational approaches to those of our 
adversaries.
    General Wilson. The Air Force expects the JMNA will highlight 
previously identified gaps between needs and resources consistent with 
Air Force analyses. The document is still in coordination, and while 
the Air Force and other Services participated in some of the processes 
that informed the JMNA, the Services did not participate in drafting 
the document itself. As such, for more detailed information, recommend 
contacting the Director, Joint Staff.
             impact of continuing resolutions on readiness
    31. Senator Purdue. General Allyn, Admiral Moran, General Walters, 
General Wilson, when I visit bases in Georgia or talk to combatant 
commanders, one of the first things I hear is that continuing 
resolutions are hurting our military's ability to plan and spend 
wisely. Do Continuing Resolutions (CR's) make readiness more expensive?
    General Allyn. Absolutely yes. Under a CR, the Army's funding is 
limited, by appropriation, to the rate spent in the prior year (fiscal 
year 2016) through the CR period. This forces prioritization decisions 
within available funding. Contract funding is limited to the duration 
of the CR period (fiscal year 2017 CR #2 - 270 days) as opposed to the 
full period of performance (generally one year), requiring multiple, 
less cost effective contracts. Contract administration is more 
expensive (in time and money) and contract prices increase as companies 
absorb the risk of uncertain funding and unpredictable periods of 
performance. Tradeoffs are required when CR funding levels are less 
than the President's Budget Request. Programmed readiness / training is 
often deferred, scaled back, or cancelled. Uncertainty for contractors 
and higher commodity prices contribute to elevated readiness costs. The 
CR prevents new starts and production rate increases; low production 
rates often increase commodity prices and overall per unit costs.
    Admiral Moran. Yes, continuing resolutions (CR) drive 
inefficiencies into the execution of our budgets, creating redundant 
work and additional time and cost. For example, CR rules restrict 
funding obligations to only the CR period, driving the breakup of 
contract actions into multiple transactions that we otherwise would do 
once. CRs perpetuate labor intensive and cost prohibitive processes by 
increasing administrative workload throughout the Department, 
exacerbating our efforts to reduce headquarters workforce and adding 
stress/overload in contracting where we already have a critical skills 
shortfall. Two specific examples of CR impacts to cost are articulated 
below: Depending on the length of time, a CR can result in the deferral 
or cancelation of some planned execution due to a lack of time left to 
plan and execute the funding, which ultimately increases (bow waves) 
the requirements to subsequent fiscal years and often results in higher 
costs. Given the two-year planning, programming, budget and execution 
cycle, it becomes increasingly difficult to manage these shortfalls in 
the subsequent budget cycle. Navy Working Capital Fund (NWCF) rates are 
established to recoup expenses incurred by NWCF activities in carrying 
out workload requested by our Fleets. Fluctuations and uncertainty in 
the funds required to support demand for working capital funded 
activities, as well as cash reductions in the CR calculation, impact 
the net operating results (NOR) and planned cash balances in NWCF 
accounts. For example, reduced shore command activity under a CR 
impacts the cash flow at our Facilities Engineering Commands for 
utilities. Protracted CRs not only impact the NWCF cash balance but 
also drive NOR losses that will cause future rates to increase in order 
to make up for the losses.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. A CR (especially long term) can make readiness more 
expensive. CRs impact our ability to do long term planning, introduce 
contractual limitations, and delay our readiness recovery leading to 
lost productivity, manhours and potential contractual fees.

    32. Senator Purdue. General Allyn, Admiral Moran, General Walters, 
General Wilson, what would be the impact of extending the Continuing 
Resolution to the rest of the fiscal year on readiness? How would this 
compare to a fiscal year 2017 appropriations bill at President Obama's 
request levels?
    General Allyn. An extended fiscal year 2017-long CR results in a 
depleted readiness / training account for U.S. Army Forces Command 
(responsible for training oversight for 750,000 soldiers) by mid-July 
2017. A minimum of one combat training center rotation will be 
canceled, degrading deployment readiness for one BCT and negating 
critical developmental experience for hundreds of joint leaders. The 
Army will make prioritization decisions, delay or cancel new starts, 
delay or cancel contracts, and defer all collective training for non-
deploying units. Combat vehicles will no longer be maintained in 
``ready to fight'' conditions and spare part stockages will be 
depleted. Units will enter fiscal year 2018 with degraded equipment 
readiness levels. Most egregiously, all the readiness gains Commanders 
have fought to regain will begin a declining slope, immediately 
impacting near term readiness levels, and creating distrust between 
soldiers and their chain of command. An unready Army means high risk to 
mission success if deployed into combat and will result in higher 
casualties. Programmed Operation and Maintenance (O&M) funding 
increased in fiscal year 2017 ($1.4 billion in Base and $0.5 billion in 
OCO) above fiscal year 2016 levels. A year-long CR will prevent 
adequate funding for military pay, equipment, and readiness for the 
NDAA end-strength increase. These limitations have a direct, negative 
impact on the following:

    -  The CR also impacts funding for the POTUS directed OPTEMPO 
increases for C-ISIS operations, and the recently directed deployment 
of Terminal High Altitude Area Defense (THAAD) to USKF.

    -  The extended CR will prevent critical equipping in support of 
the Army's conversion of one Infantry Brigade Combat Team to an Armor 
Brigade Combat Team, impacting mission risk to two theaters in fiscal 
year 2018.

    -  Combatant Command Emergent/Urgent operational needs (ONS/JUONS): 
Counter-Unmanned Aircraft System (UAS); Offensive Cyber; Reactive Armor 
Tiles

    -  Total Force Readiness initiatives--secure and sustainable 
training and power projection platforms; cyber tools and platforms; 
communication and collaboration technology tools.
    -  The expected funding level under a year-long CR would prevent 
Army depots from rebuilding four Apache helicopters, two Blackhawk 
helicopters, several Patriot Air Defense systems, and upgrades to 
system software that is required and critical to ensure weapon systems 
communicate on the battlefield. This equipment is needed to fill 
critical gaps in our formations.

    Admiral Moran. Due to reductions from the Bipartisan Budget Act of 
2015, high operational demand for naval forces in fiscal year 2016 and 
fiscal year 2017, fiscal year 2016 execution/closeout, and changes in 
operational plans since President's Budget 2017 submission, the Navy 
currently has significant shortfalls in our readiness accounts even 
from President's Budget 2017 levels. The Navy's fiscal year 2017 
Request for Additional Appropriations (RAA) requests additional funding 
to address these shortfalls and improve warfighting readiness. In 
addition, the current conference report for the fiscal year 2017 
Defense Appropriations Act, as passed by the House, includes an 
increase in funding for Navy readiness. While the increase would not be 
enough to fully address the readiness shortfall, every additional 
investment into readiness helps. Extending the continuing resolution 
(CR) for the entire fiscal year would continue to drive inefficiencies 
into the system, for readiness and across the entire Navy portfolio. 
The instability would force CR mitigating action that could impact 
morale, recruitment and retention, and future year budgets. 
Additionally, a CR prevents any type of reprogramming action, 
therefore, where the Navy might have made choices in fiscal year 2017 
to re-prioritize funding from other sources to address our readiness 
shortfalls, this option has been unavailable.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. A year-long CR reverses the efforts made in our 
readiness recovery . . . taking us back to ``just in time'' readiness 
which increases the risk to the warfighter.
    Under a year-long Continuing Resolution (CR), the Air Force must 
absorb a $1.3 billion cut (fiscal year (FY) 2016 enacted is $1.3 
billion less than the fiscal year 2017 President's Budget request) in 
the remaining five months of the fiscal year. Impacts to people, 
readiness and modernization are unavoidable as we would need to find 
executable options to solve the shortfall.

    <bullet>  Direct impact on our people and readiness recovery

      o  Halts efforts to grow Active Duty end-strength above 317,000

      o  Peacetime flying hours would be drastically reduced (i.e., 82 
months = $1 billion)

      o  Depot maintenance inductions would be delayed, impacting 
aircraft availability in fiscal year 2017 and beyond

      o  Facility projects would be limited to life/health/safety

      o  Civilian hiring freeze continues through end of year

    <bullet>  Severely impacts our modernization efforts

      o  Acquisition new starts, including MQ-9 upgrades, Joint 
Interagency Combined Space Operations Center, and C-130 Avionics 
Modernization Program Increment 2, would require anomalies

      o  We also would not be able to keep up with the demand for 
critical munitions such as Long Range Anti-Ship Missile and Joint Air-
to-Surface Standoff Missile-Extended Range, further depleting our 
inventories.

    33. Senator Purdue. General Allyn, Admiral Moran, General Walters, 
General Wilson, what have been the impacts to readiness due to being on 
a seven-month CR for fiscal year 2017?
    General Allyn. Because the Army has fully funded training and 
readiness efforts year to date, an extended CR will result in no 
readiness funding for non-deploying, CONUS based unit training after 
mid-July. Some units in the Total Army, particularly Reserve Component 
units with Summer Annual Training events, will not reach programmed 
proficiency levels. Additional funding for modernization and 
maintenance is being deferred in order to provide full resources to 
prioritized units. Under a continuing resolution, the Army has to 
prioritize funding to deploying units, leaving soldiers and units with 
reduced training opportunities and less proficiency. The CR constrains 
the Army to fiscal year 2016 levels, which is $225 million below the 
fiscal year 2017 Presidential Budget request. Some Commanders must 
sacrifice critical field training exercises and restrict funding to 
only individual and small unit training.
    Admiral Moran. Because of the House's passage of the conference 
report for the fiscal year 2017 Defense Appropriations Act, and the 
President's submission of an fiscal year 2017 Request for Additional 
Appropriations (RAA) to Congress, the Navy has delayed taking 
continuing resolution (CR) mitigating action in hopes that Congress 
will be able to pass a fiscal year 2017 Defense Appropriations Act with 
some or part of our RAA request. At this point, the Navy has prudently 
only taken minor mitigations that are reversible. This includes 
deferring ship operations parts and supply requisitions, and reducing 
support for training ranges and schoolhouses. However, if the CR is 
extended for a full-year and additional appropriations are not 
provided, then the Navy will be compelled to take more severe 
mitigating action because of the inability to drawdown more gradually 
at the end of the fiscal year. These actions will need to be executed 
when it becomes clear that Congress will not provide the necessary 
funding to support training, maintenance, and operations through the 
end of the fiscal year, based on the funding and time available at that 
point. Navy will make every effort to protect deployed forces, with 
impacts primarily focused on our non-deployed forces. Eventually, this 
will manifest in an inability to meet some future planned Global Force 
Management commitment. The frequency and duration of these gaps will be 
a direct function of the readiness shortfalls that remain uncovered by 
a continuing CR and any reductions to the Navy's afloat readiness RAA 
requests.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. We have been able to mitigate risks and major 
impacts to readiness through Congressional approval of anomalies in the 
investment appropriation for increased production levels for munitions 
and the KC-46 contract to increase from 12 to 15 aircraft.

    34. Senator Purdue. General Allyn, Admiral Moran, General Walters, 
General Wilson, how much has the CR decreased funding for readiness 
programs for fiscal year 2017 compared to plans outlined in the budget 
request?
    General Allyn. Since the continuing resolution constrains the Army 
to approximate fiscal year 2016 enacted levels, the Army's flexibility 
to address readiness requirements is constrained compared to the fiscal 
year 2017 President's Budget Request because the Army cannot access the 
expected increased OPTEMPO funding of $225 million.
    Admiral Moran. The CR has not decreased Operations & Maintenance, 
Navy (OMN) funding because fiscal year 2016 OMN levels are slightly 
higher than fiscal year 2017, so Navy activities are continuing to 
operate and plan on the assumption that they will receive the 
President's Budget 2017 requested amount. However, reductions from the 
Bipartisan Budget Act of 2015, high operational demand for naval forces 
in fiscal year 2016 and fiscal year 2017, fiscal year 2016 execution/
closeout, and changes in operational plans since President's Budget 
2017 submission have resulted in significant fiscal year 2017 readiness 
shortfalls from our President's Budget 2017 levels. The Navy's fiscal 
year 2017 Request for Additional Appropriations (RAA) requests 
additional funding to address these shortfalls and improve warfighting 
readiness. Additionally, the Continuing Resolution prevents any type of 
reprogramming action, therefore, where the Navy might have made choices 
in fiscal year 2017 to re-prioritize funding to address our readiness 
shortfalls, this option has been unavailable.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. The Continuing Resolution funds the Air Force at 
fiscal year (FY) 2016 enacted levels, which is $1.3 billion less than 
the fiscal year 2017 President's Budget submission.

    35. Senator Purdue. General Allyn, Admiral Moran, General Walters, 
General Wilson, could you briefly, discuss the impact on your 
respective services should the BCA caps go back into effect for fiscal 
year 2018, as they are slated to do in current law?
    General Allyn. At current strength and readiness levels today, the 
Army remains at high military risk to simultaneously defeat and deny 
significant adversaries, continue to support counterterrorism 
operations and defend the homeland as called for by Defense Planning 
Guidance. A return to BCA funding levels will negate the hard earned 
readiness gains and prioritized modernization efforts achieved over the 
past four years since sequestration in fiscal year 2013. The most 
significant impact will be seen in the Army's inability to resource the 
fiscal year 2017 NDAA end-strength increases. Returning to BCA funding 
levels will once again force the Army to reduce its combat units in 
capacity and capability and start an inevitable decline toward a hollow 
force.
    Admiral Moran. A return to sequestration levels in fiscal year 2018 
and beyond would require changes to the defense strategy, which would 
then dictate the specific priorities, impacts, and reductions. 
Sequestration level funding would prevent our ability to significantly 
recover readiness or grow force structure, despite the increasingly 
complex and dynamic security environment. The Navy would likely 
struggle to support ship and air operations and maintenance, training, 
and shore infrastructure sustainment and modernization. The hard 
choices required for cuts to readiness, capability and capacity would 
result in a Navy that cannot support our current national strategies.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. Air Force readiness remains at historic lows, 
driven by 26 years of continuous combat operations and the impacts of 
sequestration. If sequestration returns in fiscal year (FY) 2018, it 
would have many of the same devastating effects that occurred in fiscal 
year 2013. Impacts to readiness and future modernization cannot be 
avoided, because those are the accounts we can dial down quickly. 
Actions required to pay the estimated sequestration bill include:

    <bullet>  Reversing readiness recovery

      o  Flying hours reduced (e.g. $1 billion redux = 82 months of 
flying)

      o  Depot Maintenance deferrals . . . increases bow-wave, reduces 
aircraft availability/readiness for war effort and peacetime training

      o  Combat Air Forces training exercises minimized . . . fewer 
pilots ready for full spectrum fight

      o  Take risk in munitions such as Joint Direct Attack Munitions, 
Small Diameter Bombs, and Hellfire missiles (e.g. $1 billion = 850 
percent reduction) . . . all used in current fight . . . current 
production max'd to keep up with demand

      o  Infrastructure risks . . . mission bed-downs and training 
delays, base operating support to minimum levels (e.g. example $1 
billion = 843 percent of Facilities, Sustainment, Restoration, and 
Modernization and 870 percent of Military Construction budget)

    <bullet>  Modernization Delays

      o  Adjust F-35 buy (e.g. $1 billion = 810 F-35s)

      o  Defer 4th/5th Gen Modifications . . . F-16s, F-15Cs, F-22s

        o  Defer B-21, Long Range Standoff Weapon, Ground-Based 
Strategic Deterrent, MC-130s, Joint Surveillance And Target Attack 
Radar System recap

      o  Defer Presidential Aircraft Recapitalization

      o  Reduce investment in Science & Technology

    <bullet>  People

      o  Cap military end strength at current levels . . . maintenance, 
nuclear, cyber shortfalls will remain, delaying readiness recovery

      o  Civilian hiring freezes . . . critical skills left unfilled

    <bullet>  Potential force structure reductions

      o  A-10 , U-2, KC-10, RQ4s, C-130Hs, EC-130s

    Living with less than planned budget levels has resulted in the Air 
Force being the smallest, oldest, and least ready in history. BCA level 
funding has devastating effects on our capability, capacity, and 
readiness.
joint surveillance target attack radar system (jstars) as an example of 
                          readiness capability
    36. Senator Purdue. General Wilson, you stated in your written 
testimony that JSTARS capabilities are, ``essential to finding and 
tracking our adversaries, conducting non-kinetic targeting, and 
ensuring Air Force weapons systems and cyber mission assurance.'' 
However, the current fleet of JSTARS has been suffering from some 
serious delays in depot maintenance. Right now, there are seven 
aircraft in the Northrup Grumman Lake Charles, Louisiana facility and 
one aircraft in depot status in Warner Robins. That's half the fleet. 
I'm also concerned that the ``service life extension plan'' (SLEP) will 
increase the cost and complexity of maintaining the aging legacy fleet, 
as opposed to bringing the recapped fleet online sooner. Can you speak 
to the readiness issues caused by unforeseen delays in depot 
maintenance at the Lake Charles facility?
    General Wilson. The Air Force has no plans to SLEP the Legacy 
JSTARS fleet. Although the Air Force is working with Northrop Grumman 
to address delays at the Lake Charles Maintenance and Modification 
Center, sustainment costs for the Legacy fleet continue to grow at an 
unacceptable rate. This is one of the key reasons the Department chose 
to recap the capability despite significant funding constraints. Given 
the funding constraints of the Budget Control Act, the Department must 
accept and work to mitigate a capacity gap as we continue to fully 
support JSTARS Recap. The Air Force is working with our industry 
partners to see if the Department can extend the service life of a 
portion of the JSTARS fleet within the current programmed funding, to 
reduce the gap between the divestiture of the Legacy platform and 
Initial Operational Capability of Recap.

    37. Senator Purdue. General Wilson, for the record, will there be a 
capability gap between divestiture of the current fleet and acquisition 
of the new JSTARS? What does that gap mean for Air Force capabilities 
and combatant commander demands?
    General Wilson. The Air Force is sensitive to the critical role 
JSTARS fills for combatant commanders and recognizes the demand for 
this capability will likely not decline. Unfortunately, there will 
likely be a capability gap as we retire legacy E-8C JSTARS. However, 
the solicitation for the JSTARS Recap contains incentives for 
contractors to accelerate fielding of JSTARS Recap to minimize this 
potential gap.
    There is no single Department of Defense (DOD) aircraft that can 
fuse Battle Management Command and Control (BMC2) with Ground Moving 
Target Indicator (GMTI) capability like JSTARS, but there are DOD 
assets that can act to partially mitigate the potential capability gap. 
Therefore, this potential gap means that the Department and combatant 
commanders will need to look across the DOD for a mix of assets to 
partially mitigate shortfalls until the new JSTARS becomes available 
for taskings.
                   marine avaiation and mv-22 ospreys
    38. Senator Purdue. General Walters, you mentioned in your written 
testimony that you recently reduced the number of MV-22 ospreys (and 
their aerial refueling aircraft, the KC-130J) assigned to your special 
purpose Marine air ground task forces (SPMAGTF) to improve the 
operational tempo and allow time for training and maintenance. Last 
April, I visited with one of your MAGTFs in Moron, Spain, and gained an 
appreciation for the importance of this mission, especially as it 
relates to crisis operations and embassy emergency response in Africa. 
Can you speak to how this move has diminished Marine readiness in that 
regard? What do you need to restore this readiness?
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
                        navy aviation readiness
    39. Senator Purdue. Admiral Moran, an article recently published in 
Defense News stated that nearly 2/3 of the Navy's strike fighters (F/A-
18 Hornets and Super Hornets) can't fly because they're either 
undergoing maintenance or are waiting for parts or their turn in the 
Navy aviation depot backlog. What mitigation efforts are in the works 
to address your $1.7 billion readiness shortfall? When will those 
efforts be put in place?
    Admiral Moran. The Navy is attacking the readiness shortfall by 
working to improve supply, engineering and maintenance planning. 
Additionally, the Navy is leveraging lessons learned from legacy Hornet 
as we modify our Super Hornet sustainment plans. As a result of the 
high number of F/A-18 Hornets and Super Hornets in an Out-of-Reporting 
(OOR) status, the Department of the Navy initiated broad measures to 
pull together key stakeholders from across the Naval Aviation 
Enterprise, including Naval Supply Systems Command (NAVSUP) and the 
Defense Logistics Agency (DLA), to identify and mitigate constraints 
and to manage readiness challenges. The focus remains on identifying 
and removing constraints to the production, engineering and material 
fronts at organic and commercial depots, as well as squadron flight 
lines, which are each key to the ability to return OOR aircraft back to 
in-reporting status. Additionally, the Navy has developed a new 
comprehensive end-of-life management strategy for the F/A-18 A-D which 
includes creating streamlined, consolidated depot events at major 
flight-hour milestones, as well as Strategic Individual Aircraft 
Reviews used to identify priority high-capability lot aircraft that are 
candidates for retention until planned sundown. The Navy is proactively 
implementing Service Life Extension Program (SLEP) modifications during 
depot level maintenance. This involves replacing targeted structural 
components within the aircraft, reducing the need for future periodic 
inspections and unplanned structural In-Service-Repairs (ISR). In the 
meantime, the Navy has engaged commercial Contractor Field Teams (CFT) 
to help reduce completion time for one-of-a-kind repairs as they arise. 
For legacy Hornets, in-reporting inventory is also impacted by 
significant supply and squadron-level maintenance challenges. Much of 
the squadron maintenance burden is associated with the demands of 
operating aircraft well past their original design service life of 
6,000 hours, with many aircraft currently beyond 8,000 hours and with 
the intent to extend life up to 10,000 hours. The end-of-life 
management strategy aims to reduce squadron level maintenance burden by 
aligning and reducing flightline maintenance tasks for the last two 
thousand hours of the aircraft's life. Naval Air Systems Command 
(NAVAIR) Logistics is simultaneously conducting an in-depth analysis of 
legacy Hornet squadrons to understand and remove additional constraints 
to readiness. The F/A-18 contains many ``fly-to-failure'' components 
and operates in highly corrosive salt-water environment. As a result, 
maintenance requirements become increasingly complex and unpredictable 
the further the aircraft extends beyond its original design life. The 
NAVAIR analysis effort is intended to assess levels of manpower, 
training effectiveness, support equipment availability, and adherence 
to maintenance procedures. The Navy is applying the lessons learned 
from the legacy Hornet while preparing to extend the service life of 
the Super Hornet fleet. Like the Hornet, the Super Hornet was 
originally designed with a service life of 6,000 hours. Compared to the 
legacy Hornet, the need for a service life extension was funded earlier 
in the program's life, providing greater opportunity to mitigate future 
impact. As the areas of the aircraft requiring attention are finalized, 
the program is developing full Service Life Extension kits to 
proactively repair or replace life-limited components in every F/A-18E/
F retained past 6,000 hours. As with the legacy Hornet, the plan is to 
replace key structural components during planned depot level 
maintenance with new metal, greatly reducing the need for follow-on 
inspections and the likelihood of future unpredictable, custom repairs. 
Making the Super Hornet SLEP kits available significantly earlier in 
the service life extension process will prevent many of the challenges 
the Navy has experienced with the legacy Hornet Extension program. 
Finally, there have been supply challenges in the Super Hornet and 
Growler fleet with specific aircraft components. In the short term, 
these issues are being addressed on a case-by-case basis with 
coordination between the fleet, NAVSUP, DLA and program management. As 
work to reduce component shortfalls continues, the Navy is 
simultaneously optimizing the maintenance strategy to ensure parts are 
repaired at the most efficient level via organic intermediate and depot 
facilities, the original manufacturer, other commercial maintenance 
facilities, or by the outright purchase of replacement parts. In the 
long term, the Navy is increasing the forecasting capability to better 
predict and compensate for component shortfalls before they become 
critical.

    40. Senator Purdue. Admiral Moran, would it be useful to open up 
Air Force depots to Navy aircraft maintenance, to help relieve the 
depot backlog?
    Admiral Moran. There is no need to utilize Air Force Depots, as 
they would face the same degraded aircraft material condition which 
results in increased demand for parts, engineering analysis and 
logistics support. In an effort to augment depot production, the 
Department of the Navy has partnered with Boeing and L3 Corporation to 
stand up additional maintenance facilities to target F/A-18 Legacy High 
Flight Hour inspections and repairs outside current Navy Organic Depot 
Facilities. Naval Aviation Depots have sufficient capacity to handle 
the remainder of the F/A-18 A-D workload through the FYDP and will 
continue to implement productivity and internal process improvements to 
accelerate throughput. The Naval Aviation Enterprise (NAE) has also 
invested in Material Readiness Teams and corrosion training at the 
squadron level to improve material condition. Better fleet corrosion 
control/preservation procedures will reduce the man-hours depot 
artisans must allocate for corrosion related repairs and further 
improve depot turn-around time.
                           readiness in space
    41. Senator Purdue. General Wilson, you said in your testimony 
that, ``In the not too distant future, our potential adversaries will 
have the capability to hold all of our military space capabilities at 
risk.'' Can you speak to what needs to be done to regain competitive 
advantage in space? What are the current space readiness issues you're 
dealing with?
    General Wilson. Our priority is to ensure the Air Force continues 
to provide resilient space effects to all warfighters and to ensure we 
are fully prepared to fight and win a conflict that extends into space. 
To do this, we are adjusting how we organize, train, and equip through 
the Space Mission Force (SMF) and Space Enterprise Vision (SEV). The 
SMF is emphasizing advanced training of our space operators while also 
giving them time to develop new tactics, techniques, and procedures 
(TTP) to protect our assets and mitigate adversary actions. This 
training and these TTPs will also drive the discussion of the rules of 
engagement and authority structure required to operate in a contested 
space environment. The SEV lays out a roadmap of future systems and 
capabilities that will provide a space force that is resilient to 
attack. We are also working to ensure that acquisition authorities are 
held at the appropriate levels to ensure we can acquire appropriately 
resilient systems while limiting unnecessary duplication of effort. 
Finally, we have started national-level policy discussions to determine 
the messages we want to send to our allies and adversaries and to 
advance policies that allow tactical commanders the ability to operate 
in a real-time ``battlefield'' environment.
                             army readiness
    42. Senator Purdue. General Allyn, you stated that only one-third 
of your Brigade Combat Teams, one fourth of your Combat Aviation 
Brigades, and half of your Division Headquarters are deemed ready. 
Further, you said that only three of your BCTs could be called upon to 
``fight tonight.'' I find this very alarming, especially as we see 
near-peer adversaries, like Russia and China, flexing their muscles. Is 
three BCTs ready to ``fight tonight'' a historic low?
    General Allyn. Although our Army is close to achieving its goals 
for C1/C2 BCTs, the definition of ready forces used by the Joint Staff, 
I feel strongly that to make readiness more robust and to be responsive 
to combatant command crisis-response, we must have more BCTs that are 
ready for immediate commitment. Therefore, the Army is taking actions 
to increase the number of C1 (fully ready) BCTs from 3 today to 6 by 
fiscal year 2018, if fiscal year 2017 requested funds are appropriated.

    43. Senator Purdue. General Allyn, if you were to see a large 
funding boost under this administration, what would it take for you to 
buy back readiness of the current Army force structure?
    General Allyn. The Army's top priority remains its warfighting 
readiness. If provided additional funding, the Army would apply the 
funds to accounts directly contributing to warfighting readiness: 
starting with our new recruits arriving thanks to the NDAA authorized 
increased end strength, ground and air operations, operations 
supporting home station training, and maintenance funding. Training 
readiness in home station and rotational forces remains a priority 
concern for the Army. Should Congress authorize and appropriate 
additional operations and maintenance funding, the Army would continue 
to rebuild readiness levels by investing in training readiness for both 
home station training and rotational forces supporting Korea, the 
Middle-East, and Europe. The Army would continue to fund Combat 
Training Center modernization, Emergency Deployment Readiness 
Exercises, and facilitate our depots and ammunition plants to enable 
increased equipment readiness and munition war stocks. If given more 
funding for institutional training, the Army would use it for initial 
military training, aviation training, and professional military 
education.

    44. Senator Purdue. General Allyn, you've also said that the Army 
risks consuming readiness as soon as you build it. Can you elaborate on 
the risk of immediately consuming readiness? How can we dig ourselves 
out of this hole?
    General Allyn. Units deployed in support of Non-Decisive Action 
operations, such as Operation Inherent Resolve (OIR) and Operation 
Freedom's Sentinel (OFS), where we perform primarily train, advise, and 
assist missions, are not increasing readiness while deployed. 
Additionally, units disaggregated due to restricted force manning 
levels or performing missions with ad hoc formations immediately 
degrade unit readiness upon deployment. Additionally, when combatant 
command force demands emerge unexpectedly, as they have already this 
year in support of OFS and OIR, the Army deploys ready forces that were 
expected to provide increased surge capacity for potential 
contingencies. The Army must be prepared to fight existential 
adversaries capable of high-end conventional warfare with trained and 
ready forces. Currently, the Army can only accomplish the requirements 
specified in the Defense Planning Guidance (DPG) at high military risk 
due to insufficient ready forces to meet multiple contingencies 
simultaneously. To improve readiness and lower risk based on the 
current challenges of sourcing demands, the Army needs to grow force 
structure, increase Army National Guard and United States Army Reserve 
integration and readiness, and continue to build Decisive Action 
proficiency. To do this, sustained, long-term, and predictable funding 
is essential.
                   depots and civilian hiring freeze
    45. Senator Purdue. General Allyn, Admiral Moran, General Walters, 
General Wilson, in the state of Georgia, we have two bases doing 
important maintenance and depot work--at Robins Air Force Base and also 
at the Marine Corps Logistics Base in Albany. I've been hearing a lot 
of concerns about how the civilian workforce freeze is impacting their 
ability to hire and get the job done--something that will ultimately 
impact military readiness if not resolved quickly. I'm concerned we'll 
start to see PDM (programmed depot maintenance) timelines shift to the 
right. I understand that Deputy Secretary Work issued guidance last 
week on how DOD will implement the civilian hiring freeze. Can you let 
us know when we can expect guidance from DOD for the base-level on the 
workforce?
    General Allyn. In accordance with guidance released by the Deputy 
Secretary of Defense on 1 February 2017, OSD allows for exemptions to 
be granted that are deemed critical in certain areas. Positions in 
depots in which incumbents perform direct management of inventory and 
direct maintenance of equipment are specified as meeting this criteria. 
Depots and arsenals are a critical part of the core industrial base of 
the nation and essential to Army combat readiness and the Acting 
Secretary of the Army has been very proactive in ensuring this remains 
our number one priority.
    Admiral Moran. In accordance with guidance released by the Deputy 
Secretary of Defense on 1 February 2017, OSD allows for exemptions to 
be granted that are deemed critical in certain areas. Positions in 
depots in which incumbents perform direct management of inventory and 
direct maintenance of equipment are specified as meeting this criteria. 
Depots and arsenals are a critical part of the core industrial base of 
the nation and essential to Army combat readiness and the Acting 
Secretary of the Army has been very proactive in ensuring this remains 
our number one priority.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. The DepSecDef ``Implementation of Civilian 
Workforce Hiring Freeze'' (Feb 1, 2017) and OUSD ``Implementation of 
Civilian Workforce Hiring Freeze--Change 1'' (Feb 17, 2017) Memorandums 
provide implementation guidance for an across-the-board hiring freeze 
directed by the President on January 23, 2017. The freeze impacts both 
appropriated fund and non-appropriated fund positions across all Air 
Force Major Commands and Installations. Except for certain actions 
(e.g., internal career ladder promotions and Pathways intern 
appointments), all functions, to include depot maintenance, require 
exemption approval of the Secretary of the Air Force. Updated DOD 
guidance (Change 2) is forthcoming, providing updated Section A 
functions and further delegation of authority for Section C exemptions 
required by law.
                               __________
                Questions Submitted by Senator Tim Kaine
                          restoring readiness
    46. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, what readiness-related accounts are you currently 
executing at maximum capacity, and if you were given more funding 
today, what would be the top near-term priorities in which you would 
invest to restore full spectrum readiness as soon as possible?
    General Allyn. The Army's top priority remains its warfighting 
readiness. If provided additional funding, the Army would apply the 
funds to accounts directly contributing to warfighting readiness: 
starting with our new recruits arriving thanks to the NDAA authorized 
increased end strength, Ground/Air OPTEMPO, Land Forces Operations 
Support (supporting home station training), and Maintenance funding. 
These accounts are also executing at maximum capacity under current 
funding. The second priority is rebuilding Total Force capacity to make 
the Army a decisive conventional force--with additional funding we will 
buy back combat power in our Brigade Combat Teams. Should Congress 
authorize and appropriate additional Operations and Maintenance 
funding, the Army's top near term priorities are to continue rebuilding 
readiness levels by investing in training readiness both in home 
station training and through our rotational forces supporting Korea, 
the Middle East, and Europe, through Combat Training Center 
modernization, through Emergency Deployment Readiness Exercises, and 
through additional maintenance.
    Admiral Moran. Due to the Bipartisan Budget Act, the Navy was 
compelled to fund afloat and shore readiness accounts below requirement 
and maximum capacity in our fiscal year 2017 President's Budget (PB-17) 
submission. In addition, emergent needs and execution since President's 
Budget 2017 submission has resulted in a critical fiscal year 2017 
afloat readiness shortfall of $1.7 billion. If more funding were 
available today, our top near-term priorities to restore readiness 
would include ship maintenance, ship operations, air operations, and 
information warfare and other operations. Funding these accounts would 
address immediate operational and maintenance requirements and restore 
near-term warfighting readiness. In addition, our shore infrastructure 
has become severely degraded and is getting worse because it has been a 
repeated bill payer for other readiness accounts in an effort to 
maintain afloat readiness. Consequently, we continue to carry a 
substantial backlog of facilities maintenance and replacement, 
approaching $8 billion.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. Air Force readiness is currently handicapped in 5-
key readiness elements: the availability of trained and experienced 
airmen in critical positions; predictable baseline funding which 
currently utilizes leveraged overseas contingency operations funding to 
meet enduring weapon system sustainment requirements; reliance on 
outdated and limited training resources; training flying hours set at 
executable level but below minimum requirements; and a sustained 
operational tempo that consumes readiness at a rate faster than it can 
be replaced. Congress can help now: 1) Support end-strength increase, 
2) Support on-going recapitalization efforts to replace aging fleets 
and right-size high-demand capabilities, 3) Permanent relief from 
Budget Control Act funding levels. The erosion of our full-spectrum 
combat readiness started well before sequestration, but has been 
exacerbated by it.

    47. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, please quantify what your current readiness backlogs 
are for training, depot maintenance, FSRM, and MILCON, and if you 
received more funding how much more could you execute within a fiscal 
year?
    General Allyn.The Army estimates existing readiness backlogs in the 
following categories: Training--$589 million Training readiness in home 
station and rotational forces remains a priority concern for the Army. 
The Army continues to assess its training needs to support both 
enduring and emerging missions, and recognizes the potential for 
unforeseen shortfalls throughout the remainder of the fiscal year. 
Depot Maintenance--The Army's deferred depot maintenance for fiscal 
year 2017 is: $1,026 million. If we were to receive additional funding 
by mid-April 2017, the Army could execute $143.7 million of that 
workload by the end of fiscal year 2017 and arrest the degradation of 
Army readiness. Specifically, we could overhaul missiles and missile 
test kits in support of an Air Defense Artillery battalion, we could 
affect post-production software updates across a wide range of systems 
and networks to improve cybersecurity and interoperability of the 
systems, we could overhaul nearly 6,000 pieces of support equipment and 
the M109A6 howitzers and M992 ammunition carriers to support nearly 
three armored brigade combat teams. Facilities Sustainment--the Army 
has a $10.8 billion restoration and maintenance backlog and has 
identified $335.9 million in projects ready to execute in fiscal year 
2017. The Army continues to address and document the state of 
facilities and evaluate restoration and modernization requirements. 
Should the Army receive funding appropriated for FSRM in excess of the 
amount cited above, the Army is prepared to identify and accelerate 
additional shovel-ready projects through September. MILCON--the MILCON 
deficit is $38 billion. The Army estimates an annual funding 
requirement of $3.3 billion to recapitalize, restore, modernize, and 
support Army readiness.
    Admiral Moran. The Department of Defense has just released the 
fiscal year 2017 Request for Additional Appropriations (RAA), which 
requests funding in addition to our fiscal year 2017 President's Budget 
(PB-17) to address current year readiness shortfalls. The RAA includes 
items that are executable in fiscal year 2017 that would address 
immediate operational and maintenance requirements and improve 
warfighting readiness, including depot maintenance, training, FSRM and 
MILCON. Quantifying backlogs in training and depot maintenance is 
challenging because in addition to quantifying the deferred maintenance 
needs through condition inspections, the backlog is impacted by Fleet 
requirements that change based on warfighting needs, operational tempo, 
and rotations in personnel. Over time, some backlogs cannot be 
recovered as maintenance or training is not received when needed. 
Emergent needs and larger-than-projected work packages for our 
shipyards and air depots also create fluctuations in the total backlog. 
This then has forced us to remove ships and aircraft from service for 
extended periods, which in turn increases the tempo for the rest of the 
fleet, which causes the fleets to utilize their ships and airframes at 
higher-than-projected rates, which increases the maintenance work, 
which adds to the backlog, and so on. The cyclical nature of the 
backlogs makes it difficult to quantify. Currently, the Navy estimates 
our FSRM backlog as approaching $8 billion based on our identified 
requirements. However, that backlog grows to over $40 billion under the 
assumption of improving restoration of all facilities to a condition 
index of 100 (the maximum), as indicated in the fiscal year 2015 
Financial Report. In developing the fiscal year 2017 RAA, the 
Department focused primarily on addressing near-term warfighting needs 
and on those efforts that could be responsibly executed within this 
fiscal year. The Navy's fiscal year 2017 RAA includes $171 million for 
FSRM projects focused on warfighting readiness support, $50 million in 
MILCON for planning and design, and $21 million to offset cost growth 
and complete previously authorized MILCON projects. Although the Navy 
has additional FSRM projects that are executable in fiscal year 2017, 
they do not represent the Secretary of Defense's highest priorities for 
fiscal year 2017. The Navy plans to consider these projects in our 
future budget submissions. The Navy is currently working with the new 
Administration to determine defense priorities and requirements for 
fiscal year 2018 and the Future Years Defense Program, and is also 
currently working with the Office of the Secretary of Defense on an in-
depth readiness review. fiscal year 2018 funding requirements and 
executability are partially dependent on the final disposition of the 
fiscal year 2017 budget. The details of the fiscal year 2018 
President's Budget will be released to Congress in the next few months.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.

    General Wilson.

    Training Backlog:

    <bullet>  $10.1 million in essential requirements necessary to 
support Air Force end-strength growth from 317,000 to 321,000:

      o  Funds tech training requirements including: Basic Military 
Training (BMT) supplies and equipment necessary to support an increase 
in accessions (031B - 84711F); technical training requirements, 
Advanced Distributed Learning Service (ADLS), and temporary duty to 
school to ensure technical courses have the required materials for 
course completion and expansion to handle additional trainees as the 
Air Force grows.

    <bullet>  $112 million in requirements to bridge the gap in both 
fighter and Remotely Piloted Aircraft (RPA) pilot shortfalls:

      o  +$3.0 million funds F-35 contract maintenance training 
instructors required to train F-35 crew chief, avionics, and armament 
initial accessions training requirements. This is necessary to train 
340 airmen to maintain the F-35 Fleet. (032D-89731F).

      o  +$17.9 million funds Introductory Flight Training support 
contract (IFT), required for all new pilot candidates to enter 
Undergraduate Pilot Training (UPT) or (RPA) training. Impacts 986 
undergraduate pilots and 154 RPA pilots training necessary to reach 
critical pilot production levels to achieve readiness levels. (032B-
84748F).

      o  +$65.0 million funds F-16C/D Fighter Training Unit (FTU) 
squadron beddown for additional 31 F-16s at Holloman Air Force Base, 
New Mexico. Includes 1-year maintenance contract plus costs necessary 
to run the unit. Additional fighters increase the ability for the FTUs 
to generate more warfighters. (011D-27597F).

      o  +$20.25 million for fighter squadron contract admin support. 
Provides ability to increase mission and readiness focus as fighter 
pilot manning in operational squadrons drops below 95 percent. Total 
Requirement: $4 million to United States Air Forces in Europe (USAFE) 
PE 27603F; $6.25 million to Pacific Air Forces (PACAF); $8 million to 
test/weapons instructor course/Air Education and Training Command 
(AETC).

      o  +$6.0 million for adversary air funding. Provides adversary 
training for 4th/5th gen forces. Contract adversary air allows fighter 
pilots to return to the line and focus on full spectrum readiness 
training and allows an increase in pilot production/upgrades.

    Depot Maintenance Backlog: Depot maintenance backlog is defined as 
those aircraft deferred from entering depot maintenance for either a 
Programmed Depot Maintenance (PDM) or a planned major modification. 
Currently, only three weapon systems reflecting 40 PDM or programmed 
major modifications inputs are considered backlogged: A-10, F-22 and 
TH-1H.
    A-10: The cost to complete A-10 backlog is approximately $70 
million. This is an unfunded requirement and should depot capacity 
become available, the program office would use out-of-cycle requests to 
fund inductions falling in or near the year of execution. Estimated 
time for total backlog to be completed is at least four to five years, 
likely longer based on depot capacity.
    F-22: F-22 currently has 13 aircraft backlogged (4 Structural 
Repair Program II & 9 Inlet Coating Repair (ICR)) for fiscal year 2017. 
This backlog is expected to grow to 17 aircraft by the end of fiscal 
year 2018. Cost to complete F-22 backlog is 8$40 million (touch labor + 
Contract Logistics Support (CLS) support costs). Estimated time for 
total F-22 backlog to be completed is by the third quarter of fiscal 
year 2019, if the user, Air Combat Command (ACC), continues funding the 
ICR speedline service through fiscal year 2019.
    TH-1H: Seven of 28 PDM aircraft are backlogged. All are at home 
station. No additional funding required to complete backlog. Backlog 
will be complete by fiscal year 2019 with an estimated three to four 
backlogged aircraft completed per year.
    Infrastructure Backlog FSRM and MILCON: The backlog in FSRM and 
recap MILCON has grown beyond $25 billion, which includes facilities 
and infrastructure maintenance, repair, and recapitalization 
requirements. An additional $1 billion per year investment in 
infrastructure will arrest the current decline.
    Increasing FSRM funds would have a direct tangible impact on 
readiness, ensuring the Air Force's network of globally positioned 
bases are fully capable of projecting airpower and maintaining our 
trans-regional access.
    Based on where we are today in the fiscal year, the Air Force can 
execute over $800 million in FSRM and facility operations, as well as 
$500 million in MILCON over and above what has already been requested 
in the fiscal year 2017 President's base budget. This does not define 
our overall annual execution capacity, but is primarily driven by the 
timely receipt of funds with respect to the fiscal calendar and time 
limits associated with individual appropriations.

    48. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, what specifically would a fully-funded whole ``ready'' 
force look like, and how much time would it take to achieve?
    General Allyn. A fully-funded, whole and ready Army is organized, 
manned, equipped, and trained to the levels necessary to fight as 
prescribed in the National Military Strategy. In order to achieve a 
ready force, the Army must improve home station training; add Combat 
Training Center (CTC) rotations; increase manning levels; increase 
professional military education; increase training support systems; 
modernize ranges (including cyberspace ranges), simulation centers, and 
virtual training centers; and increase constructive training. With the 
right resources and force structure, the Army could achieve a fully-
funded and ready force by fiscal year 2023. This time frame allows unit 
leaders to experience vital training and readiness repetitions during 
multiple CTC rotations and joint deployment exercises at various levels 
of command.
    Admiral Moran. A fully-funded whole ready force would include 
sufficient funding to meet Fleet requirements for today's Navy, in 
addition to investing in the readiness, capability and capacity needed 
for the future Navy. A whole force would have sufficient funding to 
take care of our Navy Team, recover current readiness shortfalls, 
maintain the ships and aircraft we have today, and build a larger and 
more capable Navy the nation needs. Specifically, some key elements of 
this force would include fully funding current fiscal year 2017 
shortfalls in ship maintenance, ship operations, air operations, and 
information warfare and other operations. Healthy ship and air depot 
maintenance requires continued hiring and training of skilled 
workforces to maintain our ships and aircraft. Healthy aviation 
readiness would also require restoral of stocks of necessary parts and 
spares, and procurement of additional F/A-18E/F aircraft to mitigate 
the near-term strike fighter shortfalls and provide more aircraft to 
allow our pilots to fly the hours they need to maintain proficiency. 
Restoral of Permanent Change of Station moves would improve the 
readiness of our people. Shore infrastructure, which is critical to our 
ability to support deploying forces over the long term, has become 
severely degraded and would require almost $8 billion to recover the 
backlog in facilities sustainment, restoration, and modernization. At 
the same time, we cannot restore the fleet to full health without also 
updating our platforms and weapons to better address current and future 
threats, and evaluating the right size of the Navy so that it can 
sustain the tempo of operations that has become the norm. The Navy is 
actively working on plans for the future fleet with Secretary Mattis 
and his team, and we look forward to discussing those plans with you 
when they are approved. The time needed to achieve a whole ready force 
is dependent upon not only sufficient funding, but also on stable and 
predictable funding. The longer the Navy receives stable, predictable 
full funding, the faster and more efficiently the Navy would be able to 
achieve a whole ready force.
    General Walters. The 2016 National Military Strategy describes 
readiness as the ability of the Joint Force to respond to a contingency 
while maintaining flexibility and resiliency. It further describes 
comprehensive readiness as the assessed ability to meet the warfighting 
requirements today and in the future against the five priority 
challenges and unanticipated contingencies. With that context, a fully 
``ready'' Marine Corps requires the ability to generate forces in 
sufficient capacity and with operationally relevant capabilities 
against a near-peer adversary in support of the national strategy of 
Defeat/Deny. As an element of the Joint Force, the Marine Corps 
provides forces that are naval, expeditionary, agile and lethal in 
nature. The 21st Century MAGTF is capable of successfully competing 
against an adversary in all warfighting functions and across all five 
domains of land, sea, air, space, and cyberspace. Institutional 
readiness in the Marine Corps depends upon the proper balance between 
the five readiness pillars: High Quality People, Unit Readiness, 
Capability & Capacity to Meet Combatant Commander Requirements, 
Modernization; and Infrastructure Sustainment. Readiness improvement is 
constrained by inconsistent and insufficient funding to support the 
five pillars. The Marine Corps is working with DOD to establish service 
goals and timeframes to reconstitute readiness to execute the 2016 
National Military Strategy, but a stable fiscal planning horizon is a 
prerequisite for success. With sufficient resources, this level of 
readiness could be achieved no earlier than the end of FY2022.
    General Wilson. Today, we remain the finest Air Force in the world. 
However, our relative advantage over potential adversaries is closing 
rapidly and in some cases it has closed. We must be prepared to win 
decisively, and that means we must ensure America's airmen are 
resourced and trained to fight alongside the Army, Navy, Marines, and 
Coast Guard--the joint military team--to meet national security 
obligations.
    The USAF readiness recovery strategy focuses on disciplined, 
synchronized investment in readiness accounts in sequential order. The 
first priority is our longest-lead process, Active Duty end strength--
up to 321,000 by the end of 2017--and eventually 350,000 over the next 
five-seven years with commensurate growth in the Guard and Reserve. 
Next, investment in the training and sustainment enterprises, both of 
which require three to five years of lead time due to industrial and 
human processes. Finally, as global rotational demands permit, we will 
be ready to increase flying hour funding to facilitate more robust 
home-station training activities. In short, each readiness `lever' must 
be engaged at the proper time and in coordination with the other 
levers.
                         federal hiring freeze
    49. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, last week, Deputy Secretary of Defense Bob Work issued 
implementation guidance on the civilian workforce hiring freeze 
directed by the president. The guidance authorized exemptions for 
``positions in shipyards and depots'' that ``perform direct management 
of inventory and direct maintenance of equipment.'' What types of 
workers and mission functions are still excluded?
    General Allyn. In accordance with guidance released by the Deputy 
Secretary of Defense on 1 February 2017, OSD allows for exemptions to 
be granted that are deemed critical in certain areas. Section A of the 
guidance specified 16 categories of personnel whose functions were 
determined by the Secretary of Defense to be necessary to meet national 
security or public safety responsibilities. Examples of these positions 
are those directly supporting the execution of contingency missions and 
operations, cybersecurity or cyberspace operations, space operations or 
planning, medical positions, first responder firefighter and law 
enforcement positions, child care workers, positions providing direct 
support to the prevention of child abuse, sexual assault, domestic 
violence, and suicide nuclear reactor and nuclear weapon safety 
personnel, mortuary affairs, positions required to be filled by foreign 
nationals, positions funded by foreign military sales and civilian 
mariners. On 7 March 2017, a 17th category was added to this section 
which covered essential military installation and base operating 
services, infrastructure sustainment, and family readiness programs 
including Morale, Welfare, and recreation activities and any other 
positions paid with non-appropriated funds. If a Command determines 
they have a position that is not specifically exempted from the hiring 
freeze but it is deemed critical to mission readiness, they must submit 
an exemption request with written justification detailing the 
criticality of the requested position for approval by the Acting 
Secretary of the Army.
    Admiral Moran. Although there is a defined exemption for Shipyards 
and Depots in the DOD Guidance on the Hiring Freeze, there is also a 
strict requirement that positions be considered individually by the 
Secretary of the Navy. Therefore, Budget Submitting Office Commanders 
(BSO) (Flag Officer/General Officer or Senior Executive Service 
members) are responsible for certifying compliance with the DOD 
guidance and must exercise careful scrutiny to hold true to the 
criteria in the guidance for all positions. Positions which support the 
Shipyards and Depots can be filled if the BSO Commander certifies that 
the position meets an exemption category and the SECNAV approves.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. In keeping in line with the President's memorandum 
and Department of Defense guidance, the Air Force has identified 
certain functions necessary to meet national security or public safety 
responsibilities that cannot afford to be impacted by the temporary 
hiring limitations. For all other exemption categories, the hiring 
freeze extends to all civilian vacancies regardless of mission, 
position type, or funding source to include non-appropriated fund 
positions. This creates significant challenges to the Air Force, as 
these positions directly deliver combat power for depot-level 
maintenance, supply chain management, and the associated acquisition 
management programs which are essential to our ability to support the 
warfighter.

    50. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, if every year you are losing depot workers to 
retirement and attrition, how are you going to be able to increase 
readiness if you need more funding and end strength, yet are unable to 
hire more civilians to work?
    General Allyn. The Army plans to use the exemption authority for 
depot positions performing direct management of inventory and direct 
maintenance of equipment. In accordance with guidance released by the 
Deputy Secretary of Defense on 1 February 2017, OSD allows for 
exemptions to be granted that are deemed critical in certain areas. 
Positions in depots in which incumbents perform direct management of 
inventory and direct maintenance of equipment are specified as meeting 
this criteria. Depots and arsenals are a critical part of the core 
industrial base of the nation and essential to Army combat readiness 
and the Acting Secretary of the Army has been very proactive in 
ensuring this remains our number one priority. Any worker at these 
types of installations deemed critical to the mission function by its 
commander are recommended for exemption to the Acting Secretary of the 
Army.
    Admiral Moran. As functions necessary to meet National Security or 
Public Safety responsibilities, the Secretary of Defense has delegated 
authority to the Secretary of the Navy, and other service secretaries, 
to exempt positions that perform direct labor/maintenance and inventory 
management functions in shipyards and depots from the hiring freeze. 
Furthermore, the Secretary has established a framework for Service 
Secretaries to provide individual exemptions for those positions that 
are critical to defense operations. Therefore, the Department of the 
Navy (DON) has executed a rapid response plan to enable Commands to 
seek exemptions in accordance with the Department of Defense guidance. 
The DON plan ensures integrity of decisions and streamlines processes 
to the maximum extent practicable in support of the priority work of 
our Department and its missions. Navy is aggressively pursuing 
exemptions to minimize long term readiness impacts, while evaluating 
the size and makeup of the Service's civilian workforce, including 
those at the shipyards and depots, pursuant to the Presidential 
Memorandum.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. Our civilian airmen play a critical role in our 
ability to supply warfighters with the weapon systems needed for 
today's and tomorrow's fights. As you mention, it is instructive to 
consider the Air Force Sustainment Center and our depots, where 
approximately 88 percent of their workforce are civilians who directly 
deliver combat power for America through depot-level maintenance, 
supply chain management, and power projection for legacy and 5th 
generation weapon systems. It is also worth noting our depots' 
attrition rate results in over 200 civilians departing on a monthly 
basis.
    The depots have a mature and deliberate strategic workforce 
planning process that takes into consideration programmed dollars, 
training curves, forecasting of recruiting needs and analysis of the 
current workforce. Through this methodology, the depots plan and target 
graduating students and other skilled workers to replenish the 
workforce, as well as identify the need to offer incentives and/or 
other forms of marketing strategies.
    Fortunately, OSD's guidance provides a means to approve exemptions 
to the hiring freeze, based on impact to national defense and public 
safety. Along those lines, we've worked hard to establish a process to 
conduct a thorough, yet expedient, review of potential hiring freeze 
exemptions, while meeting the spirit and intent of the Presidential 
Memo. We've streamlined our exemption review process as any associated 
hiring delays for critical positions at the depots will hamper our 
ability to execute this vital mission.

    51. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, which readiness-related functions are at the most risk 
because of this hiring freeze?
    General Allyn. There are vacancies for civilian personnel who 
support training readiness at the installation and command level, 
including at ranges and live-fire facilities. These vacancies require 
approximately 300 soldiers to perform these tasks and functions daily 
as borrowed military manpower. As a result, these soldiers are unable 
to train with their units, reducing unit and individual readiness for 
combat. Commands are not able to hire against legitimate needs. If the 
hiring freeze continues, there is a high potential for reduced training 
participation throughout the remainder of the year.
    Admiral Moran. The Navy's readiness-related functions most at risk 
because of the hiring freeze are those not covered by Section A of the 
Secretary of Defense's implementation memorandum, but still critical to 
the production process at our shipyards, aviation depots, and 
intermediate level maintenance activities. These functions include 
human resources and training personnel required to bring on board new 
production workers exempted from the hiring freeze, and production 
support functions including contract management, engineering, finance, 
quality assurance, and project management. The hiring freeze could also 
make it more difficult to attract and retain the future workforce 
across all skill sets, and slow replacement for losses through normal 
attrition. Recurring hiring freezes further reduce morale across the 
federal workforce and hinder our ability to recruit and retain highly-
skilled employees as an employer of choice as we try to recover from 
previous years of budget uncertainty. The Department of the Navy has 
executed a rapid response plan which ensures the integrity of decisions 
and streamlines processes to the maximum extent in support of the 
priority work of our Department and its mission. The full impacts to 
readiness will depend on the ultimate length of the hiring freeze.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. The civilian hiring freeze will negatively impact 
Air Force in sortie generation, cyber operations, Nuclear Command, 
Control, and Communications, depot operations, and space operations. 
Men and women in uniform depend on the unwavering elite support and 
innovative contributions of dedicated and skilled civilian airmen--most 
civilians work as key enablers to operations across mission areas. They 
sustain critical infrastructure, manage major acquisition programs and 
emergency services, and deploy to support combatant commanders. Our 
civilian workforce is a major component of the best Air Force in the 
world.
    From 2006 to 2011 the Air Force identified manpower reductions and 
recapitalized, modernized, and rebalanced the ``total force'' into a 
smaller, more lethal and agile force. In the past few years, Air Force 
Headquarters also reduced their manpower by 20 percent. Currently, 
there are 180,000 Air Force civilian positions world-wide, with 12,000 
personnel actions in abeyance pending exemption.
                           energy resiliency
    52. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, last month, the Air Force described an incident in the 
past (via open source media) in which a RPA mission based in the U.S. 
was flying a targeting mission overseas. Because of a routine 
maintenance power outage stateside, the RPA feed temporarily lost power 
and the target was able to get ``away and is able to continue plotting 
against the U.S. and our allies.''
    Improving energy resiliency on military installations and forward 
operating bases is a priority, which is why section 2805 of the fiscal 
year 2017 NDAA gave DOD new authority to program and purchase assets 
like secure microgrids and other technologies to improve energy 
resiliency against outages that are either weather-related or man-made 
like cyber-attacks. Understanding you can't disclose fiscal year 2018 
budget details yet, but to what extent, if any, have you used section 
2805 to plan or program to improve energy resiliency in the fiscal year 
2018 budget request? If not, why not?
    General Allyn. The Army's approach to installation energy and water 
resilience is holistic. It includes reducing risk to critical missions, 
assured access to resource supply, improving infrastructure reliability 
and effectively operating utility systems. Identifying and addressing 
gaps in energy resilience is embedded across all of our energy 
programs. Army has two energy resilence projects planned, due to the 
change in the language in Section 2805 of the fiscal year 2017 NDAA.
    Admiral Moran. Section 2805 of the fiscal year 2017 NDAA amended 
section 2914(a) of title 10 to state: ``The Secretary of Defense may 
carry out a military construction project for energy resiliency, energy 
security, or energy conservation, not previously authorized, using 
funds appropriated or otherwise made available for that purpose.'' This 
amendment widened the aperture for considering energy conservation 
improvement program (ECIP) projects on the merits of energy resiliency 
and energy security in addition to energy conservation.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. While the Air Force has not utilized the authority 
provided under Section 2805 of the fiscal year 2017 NDAA yet, the Air 
Force is planning to incorporate this new military construction 
authority into future projects to address the Air Force's more critical 
energy construction needs. That said, the Air Force is taking a 
holistic, enterprise-wide approach to ensuring critical missions and 
capabilities remain functional during long-term or widespread energy 
disruptions. This includes leveraging existing tools and using all the 
authorities provided by Congress to develop resilient energy 
demonstration projects, with a sustained focus on missions and 
installations. In fact, recent actions, such as the creation of the 
Office of Energy Assurance and its Resilient Energy Demonstration 
Initiative, demonstrate the Air Force's desire to use all the 
authorities provided to it by Congress to enhance its energy assurance.

    53. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, given Secretary Mattis' quote ``unleash us from the 
tether of fuel'' and his recent statements to SASC that combat units 
``face unacceptable limitations because of their dependence on fuel'' 
and his desire to ``push those limits further'' because ``our efforts 
to resupply the force with fuel made us vulnerable in ways that were 
exploited by the enemy'', what specific steps are you taking to improve 
combat capabilities for the warfighter through operational energy 
improvements and to increase energy resiliency on installations and 
forward operating bases?
    General Allyn. The Army is delivering enhanced energy resilency on 
select Army installations. Examples include micrgrids, redundant 
transmission lines, hardened sub-stations, advanced switching gear, 
battery storage, and one-site power generation, including renewable and 
alternative energy sources.
    Admiral Moran. The Navy has undertaken deliberate initiatives 
intended to increase combat capability through improved energy 
efficiency: Maritime: In order to achieve greater reach and longer time 
on station for the operational fleet, the Navy has implemented several 
improvements to reduce energy and maintenance costs including 
technologies such as: solid state lighting; stern flaps and hybrid 
electric drives for amphibious ships; combustion trim loop modification 
for steam ships; and automated cleaning of gas turbines while on line. 
Additionally, the Office of Naval Research (ONR) is developing new 
energy efficient power conversion technology; advanced high power 
control architectures; energy and power dense energy storage 
technologies; advanced energy efficient hull forms; and lightweight 
high strength materials for more fuel efficient and capable naval 
platforms. Aviation: In order to achieve enhanced combat capability 
through energy efficiency initiatives, Naval Aviation is expanding the 
use and enhancing the fidelity of flight simulators where appropriate 
(to reduce fuel use), promulgating best practices of SMART tanking and 
minimizing use of auxiliary power units (APUs) when appropriate, and 
developing efficiency modifications for the F-35 and F-18 engines to 
increase combat radius and reduce tanking requirements. ONR is 
separately conducting research into variable cycle advanced technology 
(VCAT), which would enable additional aircraft engine efficiencies for 
further increased combat radius and reduced tanking requirements. 
Expeditionary: ONR is supporting research to increase energy resiliency 
and decrease energy demands for forward-deployed and distributed 
forces. This effort includes recently completed research into advanced 
solid oxide fuel cells with increased efficiency to reduce 
expeditionary fuel demands. ONR is also leading important research into 
higher power, lightweight, and flexible solar cells, while optimizing 
our ability to utilize solar energy in expeditionary power systems. 
Additionally, ONR is researching advanced grid technologies to add 
efficiency, stability, and resilience to expeditionary power by 
integrating a variety of power generation sources (solar, military 
generators, or even locally scavenged equipment) available on the 
future battlefield. Future research will explore more efficient, ultra-
compact, ultra-lightweight, and near maintenance free power generation 
sources in support of warfighters at the tactical edge. Installation 
Energy Resiliency: In order to increase energy resiliency on 
installations, Navy is reducing energy consumption in our facilities 
while improving our utility infrastructure. Navy is using utility 
condition assessments and mission analyses to prioritize funding for 
our most critical facilities. Navy is also building partnerships with 
the private sector, allowing the Navy to leverage third party financing 
to further improve installation energy resiliency. ONR is also 
conducting research to enhance the cyber-security and efficiency of 
power grids.
    General Walters. The Marine Corps is improving combat capabilities 
by increasing efficiency of systems, improving the understanding of 
energy on the battlefield, and changing the energy related behavior of 
individual marines. For example, we recently transitioned fuel 
efficiency technologies developed by the Office of Naval Research's 
Fuel Efficient Medium Tactical Vehicle Replacement program to the 
Program Executive Office (Land Systems). This technology has the 
promise of improving the fuel mileage of the Marine Corps' most 
ubiquitous vehicle by 8-10 percent. The Marine Corps is also working 
with the Army to develop an energy metering and monitoring capability 
that will provide actionable information to commanders that will enable 
more efficient movement and usage of energy on the battlefield. In 
addition, we are inserting energy into the training and education 
programs ranging from driver training of Lance Corporals up through 
post graduate education for our officers. This holistic training and 
education plan will incorporate an energy ethos across the entire 
Marine Corps.
    Marine Corps Installations have adopted a proactive approach 
towards improving their energy security posture by reducing dependence 
on external suppliers of vital energy resources through conservation, 
efficiency, and on-site generation. Assessments have been performed 
across all Installations to identify remedial actions to mitigate 
unacceptable energy security risks. Micro-grid capabilities which 
provide the ability to control and distribute power are currently 
deployed aboard multiple installations (Miramar, Yuma, and 29 Palms) 
and will continue to be utilized when determined to be lifecycle cost 
effective or to provide flexibility and security to mitigate 
unacceptable risk.
    General Wilson. The Air Force is working to unleash us from the 
tether of fuel and improve combat capabilities by emphasizing energy 
initiatives associated with flying operations and building installation 
energy resiliency at U.S., overseas, and forward operating bases. These 
include: long-term investments in advanced engines and aircraft 
designs; emphasizing flying operations fuel savings through more 
efficient mission planning (i.e., reducing ``fuel carry'' weight) and 
upgraded aircraft; upgrading range equipment; reducing engine idle 
times; optimizing demand; assuring supply; and improving resiliency of 
the installation energy that powers bases. This is accomplished through 
an improved understanding of mission-thread vulnerabilities. The Air 
Force is hardening critical nodes and diversifying energy sources which 
will provide sufficient and resilient, dedicated power and agile 
transmission systems capable of mitigating the risk of long-term damage 
to the electric power grid.

    54. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, how, if at all, do you consider the maneuver and 
operational forces' energy needs and vulnerabilities during training 
exercises, operational plans, and wargames (for energy needs and 
vulnerabilities, and risks at the tactical, operational, and strategic 
levels)?
    General Allyn. Army units are designed, equipped, and trained to 
rely on their own sources of power and are not dependent on external 
power sources. Army units deploy with power generation capabilities to 
training exercises, where they operate in a degraded environment. 
Energy needs and vulnerabilities, and realistic logistics challenges 
for maneuver and operational forces are a part of all operational 
planning and are fully exposed in all war games and training exercises.
    Admiral Moran. The Navy works with the Defense Logistics Agency 
(DLA) and the respective combatant commander to forecast necessary fuel 
requirements and distribution to support operational forces. 
Additionally, Navy is continuously working with DLA to review the 
strategic positioning of fuel and the infrastructure needed to support 
training, surge force and operationally deployed ships and aircraft.
    General Walters. The Marine Corps conducts modeling and simulation 
to analyze energy supportability in operational plans and at lower 
levels in order to identify vulnerabilities and risk. Measures to 
mitigate those risks are generated and inserted into wargames in order 
to ascertain the effectiveness of the proposed mitigation measures. 
Those measures found to be impactful are then inserted into live force 
experimentation for validation and follow on requirements development. 
This process systematically and deliberately ensures that the Marine 
Corps is investing wisely to develop the critical capabilities 
required.
    General Wilson. Overall, the Air Force is developing better tools 
and processes to analyze energy vulnerabilities at all levels: base, 
mission, campaign, and operations. On the installation side, the Air 
Force is participating in service and national level wargames, such as 
the North American Electric Reliability Corporation's (NERC) GridEx, to 
look at how long-term disruptions to the nation's electrical grid would 
impact the Air Force's critical infrastructure and potentially 
jeopardize its ability to conduct its mission. On the operational side, 
service and combatant command war games and studies have concluded that 
while U.S. forces are considerably more lethal than in the mid-1990s, 
they consume more fuel. The aggregate impact of increased consumption 
by the joint force is significant and needs to be fully accounted for. 
Additionally, ``red'' attacks on fuel storage and resupply systems 
should be factored into training exercises, operational plans, and 
wargames. Assumptions used in operational planning and wargames about 
the availability and capabilities of key joint energy enablers 
supporting the near- and long-term fight need to be validated. The 
entire battlefield energy ecosystem needs to be looked at as a system 
of systems in order to fully recognize the energy-related risks on 
operational plans.

    55. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, how can our acquisition systems better incorporate the 
use of energy in military platforms, and how, if at all, are 
assessments of future requirements for the maneuver and operational 
forces taking into account energy needs as a key performance parameter?
    General Allyn. Army Science and Technology in collaboration with 
our partners in industry, is developing and demonstrating more 
efficient power plants and drive trains for Army air and ground 
platforms that provide the technology options for future acquisition 
efforts. The Energy Key Performance Parameter (KPP) is required for all 
new programs and addresses risks to operating and sustaining these new 
systems in combat. KPP includes both fuel and electric power demand 
considerations in systems, including those for operating ``off grid'' 
for extended periods when necessary, consistent with strategic analysis 
products.
    Admiral Moran. The Department of the Navy's (DON's) energy strategy 
emphasizes energy security and force capability enhancement for 
platform and weapons systems, as well as for non-tactical shore 
operations. Mandatory calculation of Fully-burdened Cost of Energy 
(FBCE), establishment of an energy component of the affordability 
target, energy consideration in acquisition plans, energy consideration 
in the acquisition governance gate review process and energy review of 
legacy systems have been implemented as energy considerations by using 
a uniform measure of calculation by all DON System Commands. The energy 
needs of future weapons systems are analyzed on the system level and as 
we see their role in strike groups. At the systems engineering level, 
the energy Key Performance Parameter is integrated with the other 
performance parameters to optimize and balance range, endurance, speed, 
and payload. The Navy then uses the Operational Energy Supportability 
Analyses to examine the energy supportability of the weapons system in 
the context of a larger warfighting capability, like a Strike Group, to 
ensure that we have the energy supplies and sustainment necessary. The 
development of the evolutionary MQ-25 Stingray is a very effective 
example. It is a system we are developing that helps address future 
tanking requirements for F/A-18 Super Hornet and F-35 squadrons.
    General Walters. All new acquisition programs have energy Key 
Performance Parameters and Key System Attributes built into their 
requirements. The inclusion of theses energy measures in the 
requirements process ensure that these attributes are built into the 
systems we acquire. In addition, the execution of Energy Supportability 
Analyses provides identification of the energy related impact of a 
system on warfighting capability at the higher level. We are also 
integrating energy needs into assessments as part of service level and 
Title 10 wargames to better identify energy induced risk areas and 
future requirements.
    General Wilson. In developing future requirements, the Air Force 
supports and embraces the Joint Capabilities Integration Development 
System (JCIDS) Manual mandatory Energy Key Performance Parameter (KPP) 
requirement, which will enable enhanced combat capability by balancing 
energy requirements and performance for relevant threats. Furthermore, 
the Air Force will ensure our capability planners incorporate energy as 
a design criteria as described in Air Force strategy, instructions, 
policy directives, and guidebooks which reinforce the JCIDS mandate.

    56. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, as you acquire new systems and modernize existing ones, 
how, if at all, is the fully burdened cost of energy factored into 
related acquisition decisions?
    General Allyn. The fully burdened cost of energy (FBCE) is factored 
into acquisition decisions. Army Regulation 70-1, ``Army Acquisition 
Policy,'' states: ``All new Army acquisition programs (including new 
program starts and increments) with end items that consume energy shall 
include the FBCE needed to operate the system in their total ownership 
cost analysis.'' To follow this policy, the Deputy Assistant Secretary 
of the Army for Cost and Economics (DASA-CE) estimates the FBCE through 
detailed scenarios and apportionment to provide the analysis and 
evaluation of alternatives for each program. Program managers use these 
results to determine system of-systems energy requirements to support 
acquisition program design trades.
    Admiral Moran. On June 20, 2011, the Assistant Secretary of the 
Navy for Research, Development & Acquisition (ASN(RD&A)) issued a 
memorandum that provided guidance for platforms and weapon systems 
concerning the use of energy-related factors in acquisition planning, 
analyses, development and competitive source selections. This 
memorandum also mandated the use of fully-burdened cost of energy 
(FBCE) calculations in program planning and specifically in the 
Analysis of Alternatives phase to inform system trade-off decisions and 
differentiate between competing systems. The memorandum specified that 
the Navy systems commands would develop a uniform method for 
calculating FBCE to support their respective acquisition programs. 
These methods have since been finalized and approved by the Office of 
ASN(RD&A), and are based on methodology and guidance previously 
developed by the Office of the Under Secretary of Defense for 
Acquisition, Technology, and Logistics. The inclusion of energy 
evaluation factors in the acquisition process enables the Department of 
the Navy to make progress towards leadership goals for energy 
efficiency and alternative energy and meet legal mandates (e.g. Energy 
Independence and Security Act of 2007, National Defense Authorization 
Act of 2010).
    General Walters. Fully burdened cost of energy analysis is 
conducted as part of the analysis of alternatives for major acquisition 
programs as directed by Department of Navy acquisition policy. In 
addition a Marine Corps Order directs the Marine Corps to consider 
energy performance tradeoffs with other performance factors when 
conducting modernization and upgrades to legacy programs.
    General Wilson. The Air Force supports and utilizes the DOD-wide 
procedures, frameworks, and analytic tools that enable a better 
understanding and management of the effect of energy demand on force 
capability, vulnerability, and the enterprise's Total Ownership Costs. 
We also will ensure the acquisition workforce carefully considers 
energy procurement, delivery, logistics, infrastructure, and 
sustainment, as well as the force protection necessary to achieve these 
missions throughout the acquisition lifecycle.
                             climate change
    57. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, since the 2010 QDR, DOD has identified climate change 
as a threat to both its operations and installations. Just last month, 
the National Intelligence Council stated that climate change and global 
health issues pose imminent and long-term threats through 2035. The GAO 
found that the Military Services have experienced limitations on access 
to training ranges due to thawing permafrost in Alaska, extreme weather 
events in Southern California, and reduced live-fire activities due to 
unusually dry conditions at ranges. Secretary Mattis recently stated to 
SASC that ``the Department should be prepared to mitigate any 
consequences of a changing climate.'' Would you agree that climate 
change poses a threat and makes it more difficult for DOD to train and 
execute its missions?
    General Allyn. Extreme weather events remain a concern for Army 
installations and all Senior Commanders plan for these potential 
conditions, mitigate the risk where possible, and rehearse response 
plans to potential crises.
    Admiral Moran. DOD Directive 4715.21, Climate Change Adaptation and 
Resilience of January 14, 2016 provides DOD with the resources 
necessary to assess and manage risks associated with the impacts of 
climate change. To date, training range operators and users have not 
documented any difficulty in range use attributable to climate change. 
There has also been no impact to Navy missions, considerations for 
climate change impacts are however being incorporated with strategies 
and plans.
    General Walters. As indicated within our submission to the 2017 
Congressional Sustainable Ranges Report (SRR) and previous SRR reports, 
we recognize ``climate change has potentially wide-ranging effects, 
especially in the coastal areas where the Marine Corps trains and 
operates. The Marine Corps is concerned that such effects could alter 
the capabilities of installations over time; therefore, these risks 
must be analyzed, monitored, and addressed in installation planning''.
    The Marine Corps utilizes a comprehensive approach to integrate 
climate change adaptation and resilience considerations for 
installation ranges and training areas. Climate change factors are 
incorporated into our existing assessments and planning processes for 
ensuring continued access to ranges and training areas and supporting 
infrastructure. Encroachment management policies include potential 
climate change impacts and related trends in natural hazards as a 
potential threat to the viability of, and access to, ranges and 
training areas. In addition, potential climate change impacts and other 
potential natural hazards to critical infrastructure are included in 
the threat hazard and vulnerability assessments supporting Marine Corps 
mission assurance policies.
    We realize climate vulnerabilities is not a one-time occurrence. It 
is an iterative, recurring process involving periodic review of 
experienced weather and other climate-related events and trends, and 
evaluates potential mission impacts, while our understanding of climate 
science also continues to improve over time. Risk management decisions 
for each installation rely upon an assessment of local conditions and 
regionally-specific current/expected conditions.
    The Marine Corps will continue to address all areas of 
encroachment. Our ranges and training areas will be required to support 
training of marines and Marine Corps units in an expanding array of 
mission-essential tasks that require ever-increasing amounts of 
training space and increasingly sophisticated range resources.
    General Wilson. Bottom Line: Weather and climate conditions affect 
the operational environment in which the Department of Defense must 
train and operate. Anticipating how climate conditions will affect the 
future operations can inform the way we prepare, plan and posture our 
force structure. The Air Force already experiences impacts from 
changing climate conditions, such as coastal erosion, which threatens 
numerous strategic radar sites in Northern Alaska to recurring flood 
concerns at littoral bases like Joint Base Langley-Eustis. 
Additionally, changes in climate conditions have the potential to 
impact military test, training, operations, and readiness; for example:
    <bullet>  Resource competition could create geopolitical 
instability which would increase response demands;
    <bullet>  Increased humanitarian aid requirements could result from 
more intense and frequent extreme weather events;
    <bullet>  Infrastructure is more likely to be impacted when ice 
caps recede, sea levels rise, permafrost thaws, and increased floods 
and droughts.

    58. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, what steps have you taken, if any, to plan and mitigate 
the threat and effects of climate change, particularly given the 
significant investment this country has made in our military 
installations, shipyards, and depots?
    General Allyn. We are assessing the vulnerability of Army built and 
natural infrastructure to the effects of a changing climate. For 
example, the Army is evaluating the water needs, usage, and capacity 
required to support mission execution on our installations.
    Admiral Moran. Coastal installations and the communities in which 
our sailors, marines, civilians and their families live are vulnerable 
to sea levels and storm surge. The resilience of these installations 
and communities is essential to future readiness associated with all 
naval mission areas. The Navy is incorporating various sea level change 
studies and the National Oceanic and Atmospheric Administration's 
Digital Coast SLR and Coastal Flooding tool into its existing processes 
and policies for managing the shore. For both current military 
construction projects and restoration and modernization projects >$7.5 
million that are located within a 100-year floodplain, the Navy 
requires an assessment of the vulnerability of mechanical and 
electrical subsystems to flood hazards and the implementation of 
necessary mitigation efforts to address these vulnerabilities. The Navy 
is also reviewing the Unified Facilities Criteria to identify needed 
updates to ensure that the direct and indirect physical effects of 
changes to sea level are incorporated into design and planning 
documents across the entire project lifecycle.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. The Air Force continues to integrate climate 
considerations more broadly into our policies, plans, and operations to 
better manage risks and effects of altered operating environments. 
Specific to ensuring sustainability and resilience of our 
installations, we incorporate consideration for the effects of changing 
climate conditions in our installation planning processes. This 
includes facility and infrastructure planning as well as emergency 
management planning. As our understanding of the range of future 
climate conditions improves, our planning will improve to better inform 
our investments from basing decisions to force structure to 
acquisitions.

    59. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, how are you incorporating the risks from climate change 
and related shocks and other shifts in water, food and weather 
disasters into your strategies and plans?
    General Allyn. The Army will continue to work with Geographic 
Combatant Commanders (GCCs) on planning that ensures DOD is prepared to 
conduct operations today and in the future as well as address the 
effects of a changing climate on our readiness.
    Admiral Moran. Considerations for climate change impacts are being 
incorporated with strategies and plans in accordance with DOD Directive 
4715.21, ``Climate Change Adaptation and Resilience,'' January 14, 
2016. For example, the Department of Navy and Coast Guard's maritime 
strategy, ``A Cooperative Strategy for 21st Century Seapower,'' 
addresses risks from climate change, such as enhanced storms, rising 
sea levels, and coastal flooding. In addition, the ``U.S. Navy Arctic 
Roadmap 2014-2030,'' outlines a deliberate Implementation Plan for 
anticipating, and preparing for, the impacts of climate change in the 
Arctic as that region becomes more accessible. The Navy may be called 
upon more often to provide Defense Support of Civil Authorities (DSCA) 
and Humanitarian Assistance and Disaster Relief (HA/DR), both 
domestically and overseas, in the face of more frequent and more 
intense natural disasters. The Navy is prepared and able to conduct 
pre-planned and emergent DSCA and HA/DR missions within the resource 
constraints and priorities of fleet operations. However, there is an 
opportunity cost in training, presence, and security cooperation 
activities when assets are diverted from current missions to respond to 
other contingencies.
    General Walters. As outlined in DOD Directive 4715.21, ``Climate 
Change Adaption and Resilience,'' the Marine Corps takes a holistic 
view of climate change into consideration. We do this when we review 
our installations' infrastructure; identify requirements associated 
with Humanitarian Assistance/Disaster Relief (HA/DR) plans and Defense 
Support of Civilian Authorities (DSCA); consider the impact of the life 
cycle of our weapons systems, platforms, and equipment; consider the 
impact to our training ranges and the subsequent impact to the 
effectiveness of the training; work with local authorities on 
developing plans for response to weather emergencies; identify 
requirements for personal protection equipment and medical protection 
measures necessary for operating in various climates and geographic 
locales; actively pursue measures to reduce our ecological and energy 
footprint; etc.
    For a geo-specific O-Plan response, I defer to the Geographic 
Component Commanders.
    General Wilson. The Air Force 30-year plan methodically integrates 
the best available estimates of future threats, and forecasts of 
economic, scientific, and environmental factors based on current 
strategy and future forecasts. As developments occur and risks from 
man-made or other environmental shocks can be quantified and included 
in the forecast, the Air Force will incorporate them in our long range 
plan.

    60. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, are your component commands identifying water and food 
shortages, humanitarian and weather disasters, as challenges or events 
in their input to the UFR/IPLs and other requirements generation 
process? Are they incorporating these risks and opportunities into 
theater engagement and partner development?
    General Allyn. Our Army Service Component Commands support the 
efforts of the combatant commanders, who plan and execute their Theater 
Campaign Plans, Theater Security Cooperation Plans and contingency 
plans such as those for humanitarian assistance and disaster relief.
    Admiral Moran. Conducting humanitarian assistance and disaster 
relief (HA/DR) is one of the missions of the Defense Strategic Guidance 
(DSG). As such, component commands identify, plan and budget for 
requirements to support HA/DR as part of the Planning, Programming, 
Budgeting and Execution (PPBE) process. Expanding and strengthening 
partnerships is a priority of CNO's Design for Maintaining Maritime 
Superiority in order to execute all DSG missions. For HA/DR 
specifically, the Navy does include HA/DR planning and exercises into 
theater engagement and partner development with our Joint Services, 
interagency partners, and international partners. The U.S. Navy-led 
Pacific Partnership exercise is the largest annual multilateral HA/DR 
preparedness mission conducted in the Indo-Pacific region.
    General Walters. Yes, in our planning processes, we consider 
requirements for combating the effects of climate change, as well as 
requirements for operating in regions impacted by climate change. This 
includes our annual budget development processes, the IPL, and the 
unfunded priority list.
    More specifically, when we identify and develop requirements to 
support Marine Air-Ground Task Force (MAGTF) Humanitarian Assistance/
Disaster Relief (HA/DR) missions, we want the MAGTF to be self-
sustaining. While we are there to provide stability and address the 
immediate concerns of an impacted populace, oftentimes the engineering 
equipment and various utility capabilities we bring for MAGTF 
sustainment is instrumental in providing relief. This can range from 
drilling new wells, building brides, or containing infectious disease 
outbreaks. For example, Tactical Water Production Systems (TWPS), 
material handling equipment (MHE), and medical equipment and supplies 
can be essential in providing relief.
    For theater engagement and partner development, I defer to the 
Geographic Component Commanders.
    General Wilson. Each year, the Air Force major commands review 
combatant command contingency and operation plans for their area of 
responsibilities to identify and elevate gaps and risks for funding 
considerations. In addition, the Air Force organizes, trains, and 
equips its personnel to respond to variety of contingency operations 
including natural disasters and humanitarian assistance. The Air Force 
applies this training during humanitarian missions and theater 
engagements throughout the year, which enables airmen to train partner 
nations on the risks and challenges associated with climate change and 
natural disasters. The Air Force applied this concept during the 
humanitarian and disaster relief efforts in the aftermath of Typhoon 
Haiyan in the Philippines in 2013.

    61. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, what additional support do you need, if any, from 
Congress to fully identify and respond to the impacts of climate 
change?
    General Allyn. As a global force, we must be ready to respond and 
deliver mission success in all environments and conditions. We continue 
to assess, incorporate and manage the effects of altered operating 
environments on our capabilities and capacity. This includes force 
structure, basing, military operations, capacity building, stability 
operations and the demand for Humanitarian Assistance/Disaster Relief 
and Defense Support to Civil Authorities in short and long-term plans. 
To be able to meet the demands of today's unstable global security 
environment, we require sustained, long term, and predictable funding. 
The most important steps that will have both positive and lasting 
impact is the repeal of the 2011 Budget Control Act, ensuring 
sufficient funding to train, man and equip the authorized force.
    Admiral Moran. The Navy appreciates Congress' support of our 
current efforts. The Navy has been evaluating the effects a changing 
climate may have on our built infrastructure, people, systems, and 
missions. For example, Navy coastal installations are especially 
vulnerable to changing sea levels and storm surge. The Navy is managing 
risk by incorporating tools and vulnerability assessments into our 
processes and policies, and updating design and planning documents for 
facilities projects. The Navy will engage Congress as appropriate to 
sustain mission capability.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. The Air Force welcomes Congressional support in 
addressing gaps and risks associated with the climate change should the 
need arise in the future. We will work with the appropriate bodies to 
identify areas for additional support.
                                  brac
    62. Senator Kaine. General Allyn, Admiral Moran, General Walters, 
General Wilson, what is your position on BRAC?
    General Allyn. The Army has indicated its need for BRAC repeatedly 
in testimony. Should the Department receive BRAC authority we will use 
it effectively to eliminate excess and reinvest funds on higher 
priorities.
    Admiral Moran. The Navy's readiness-related functions most at risk 
because of the hiring freeze are those not covered by Section A of the 
Secretary of Defense's implementation memorandum, but still critical to 
the production process at our shipyards, aviation depots, and 
intermediate level maintenance activities. These functions include 
human resources and training personnel required to bring on board new 
production workers exempted from the hiring freeze, and production 
support functions including contract management, engineering, finance, 
quality assurance, and project management. The hiring freeze could also 
make it more difficult to attract and retain the future workforce 
across all skill sets, and slow replacement for losses through normal 
attrition. Recurring hiring freezes further reduce morale across the 
federal workforce and hinder our ability to recruit and retain highly-
skilled employees as an employer of choice as we try to recover from 
previous years of budget uncertainty. The Department of the Navy has 
executed a rapid response plan which ensures the integrity of decisions 
and streamlines processes to the maximum extent in support of the 
priority work of our Department and its mission. The full impacts to 
readiness will depend on the ultimate length of the hiring freeze.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
    General Wilson. I strongly support the Department of Defense 
requests for Base Realignment and Closure (BRAC) authority. Even with 
growth to a 350,000 Active Duty force, the Air Force projects it will 
have 24 percent excess infrastructure capacity, so we've got ample 
margin to reduce infrastructure, grow our force and be capable of 
surging should the need arise. Without BRAC authority, the Air Force 
will continue to spend our limited budget on infrastructure we don't 
need, rather than mission-critical readiness, modernization, and 
infrastructure we do need.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                  advanced combat helmet generation ii
    63. Senator Shaheen. General Allyn and General Walters, I 
understand there are several contracts currently under consideration or 
soon to be released, including combat helmets--notably the Advanced 
Combat Helmet Generation II (ACH Gen II) for the Army. These contracts 
are designed to provide next generation, advanced protective equipment 
for our men and women in uniform and are critical to the readiness of 
the service branches.
    It has come to my attention that a helmet manufacturer with a 
questionable past performance record has submitted a proposal to 
compete for this contract. This company was subject to a Department of 
Justice Inspector General report (attached) highlighting ``findings of 
fraud and other irregularities related to the manufacture and sale of 
combat helmets,'' which found that over 126,000 Advanced Combat Helmets 
(ACH) were not manufactured to contract specifications by Federal 
Prison Industries (FPI), defective and recalled from circulation. This 
action resulted in over $19 million in unnecessary costs to the Federal 
government and severely endangered our warfighters in the field.
    General Allyn and General Walters, what steps are being taken by 
the Army and Marines to ensure that current and upcoming Request for 
Proposal responses for personal protective equipment (PPE), 
specifically helmets, are evaluated on a ``best value'' basis and not 
on Lowest Price/Technically Acceptable (LPTA) guidelines and that past 
performance is accounted for in these evaluations?
    General Allyn. The Army's strategy for acquiring personal 
protective equipment, to include helmets, is to promote competition and 
award contracts based on well defined, validated and tested 
requirements. Past performance is one of several evaluation factors 
that the Army thoroughly assesses to determine confidence in an 
offeror's ability to perform. There are two approved Best Value 
contracting methods: LPTA and Trade-Off. LPTA is not being used for the 
ACH Generation II contract you mentioned. Instead, the Army will award 
using a Trade-Off contract between technical and price evaluation 
factors. Regardless of contract type, products must always meet the 
highest standards for soldier safety, proven by formal testing to Army 
validated requirements. I assure you the Army will continue to ensure 
soldiers have the best protection available.
    General Walters did not respond in time for printing. When 
received, answer will be retained in committee files.
                               __________
              Questions Submitted by Senator Mazie Hirono
                  refueling capability in the pacific
    64. Senator Hirono. General Wilson, you testified to the importance 
of refueling tanker capabilities to support the global reach of Air 
Force missions. The current tankers the Air Force has are old and the 
new KC-46 tankers are not scheduled to arrive in the fleet until 2019. 
What is the Air Force's plan for refueling capabilities in the Pacific 
until the new KC-46 tankers arrive?
    General Wilson. With the acquisition of the KC-46, the Air Force 
plans to grow the tanker fleet from 455 to 479 aircraft as the KC-46 
comes online. Until the new KC-46 tankers arrive, the Air Force will 
follow the current process to provide refueling capabilities in the 
Pacific and all theaters. If theater assigned assets are insufficient 
to meet requirements, the theater geographic combatant commander will 
submit a request for forces (RFF) to the Joint Staff, and the Joint 
Staff will follow the global force management allocation plan (GFMAP) 
process to provide forces based on availability and prioritization. 
Multiple analyses confirm tanker requirements during times of 
contingency, including contingencies in the Pacific, can be met with a 
tanker fleet of 479 aircraft. By growing the tanker fleet from 455 to 
479 aircraft with the addition of the highly capable KC-46 aircraft 
included in that mix, the Air Force will be able to maintain sufficient 
air refueling capacity in the Pacific.
                               diversity
    65. Senator Hirono. General Allyn, while the graduation of the 
first females from Ranger School and the opening of all MOSs to all 
soldiers is a great step for diversity in our armed forces, what is the 
Army doing to mentor junior officers and enlisted personnel from these 
and other diverse groups to ensure that they have the opportunity and 
guidance to someday become senior leaders in the Army?
    General Allyn. The soldier 2020 formal education plan provides 
leaders with? the opportunity and knowledge to mentor leaders and 
soldiers assigned to previously closed units. As one example, the 
Infantry School brought recent Infantry Basic Officer Leader Course 
(IBOLC) graduates, both male and female, to the United States Military 
Academy's SMA Branch Week. This opportunity provided recent 
perspectives by both genders as it relates to combat arms training. 
During Branch Night, IBOLC graduates interacted with recently branched 
Infantry cadets to share personal experience and mentorship.
                             retention rate
    66. Senator Hirono. General Walters, you testified that retention 
should not be taken for granted and that you need to provide marines 
and sailors the tools required to do their jobs. If the Marine Corps 
are authorized to increase its end strength numbers, what steps will 
you take to ensure that the quality of marines recruited and the 
training they receive will maintain the Marine Corps standard when you 
grow the force to meet requirements?
    General Walters. We have no intention of changing our minimum 
standards for the recruitment of potential marines. The current Marine 
Corps recruiting force is designed to access up to 38,000 total force 
(regular and reserve) with 63 percent scoring in the top three tiers of 
the Armed Forces Qualification Test (DOD standard is 60 percent) and 95 
percent graduating from high school (DOD standard is 90 percent). The 
Marine Corps has accessed its annual mission at or above the USMC 
standards consistently through years of both increasing and decreasing 
end strength.
    As we look to increase our end strength we are paying close 
attention to the training this force will need to meet the challenges 
of future operating environments. The complexity that we expect to 
characterize these operating environments will require adaptive and 
innovative marines that are able to out think their foes and overcome 
the chaos found in combat. As such, we are conducting detailed analysis 
to ensure our training and education establishment is prepared to make 
the necessary adjustments to grow the force responsibly. We will need 
to change the way we approach training and education, increase our use 
of technology and simulation to give our marines an immersive 
experience that replicates the demands of combat, provide better live 
fire ranges, and develop methods that will improve their decision 
making ability. All of this speaks to the need to ensure that we 
provide the resources necessary to transform our training and education 
so that we will not only be able to train increased numbers of marines, 
but also provide them with demanding training that ensures they are 
ready to answer the Nation's call.
                              eagle vision
    67. Senator Hirono. General Wilson, as you know, Eagle Vision is a 
deployable ground station for collecting and disseminating unclassified 
commercial satellite imagery. It can provide imagery products to 
warfighters and first responders in a timely fashion. The products can 
also be released quickly to allies due to the commercial nature of the 
imagery.
    I have been an advocate of this system and have discussed the 
importance of this program with past and present Air Force and National 
Guard Bureau leadership.
    One concern I have had is that over the years the Air Force has not 
funded this program to a level necessary to maintain the capabilities 
which made it so valuable in the first place. As a result of the 
reduced funding levels, important system capabilities such as electro-
optical imagery, and synthetic aperture radar have either been 
diminished or completely eliminated. Maintenance, training and system 
upgrades have also been impacted.
    While the Air Force continues to face a challenging fiscal 
environment, it is my hope that key decision makers keep in mind the 
tremendous capabilities and flexibility that this system provides. The 
Eagle Vision system provides a significant return on investment 
especially if it is fully funded to reduce maintenance risks and other 
capabilities are restored.
    It has been alleged that the demand signal for the Eagle Vision 
products are diminishing. I would caution that we have to be aware of a 
potential self-fulfilling prophecy. Underfunding the program leads to 
maintenance and sustainment risks, reductions in training, and reduced 
variety of imagery available leading to a diminished overall system 
capability. If is the system becomes less capable no matter the reason, 
the demand will likely decrease.
    I hope that the Air Force will continue to recognize the value of 
this capability and will continue to support this system which provides 
invaluable support in domestic disaster relief operations as well as 
for international efforts with our friends and allies.
    Can you provide an update on where you are in terms of fiscal year 
2017 funding for the program? Also, while I understand that you can't 
discuss the actual fiscal year 2018 budget, can you keep me informed of 
any changes you are considering for the Eagle Vision program?
    General Wilson. The Fiscal Year (FY) 2017 President's Budget (PB) 
requested $14.6 million in programmed funds for Eagle Vision. This 
budget provides $8.8 million of operations and maintenance (O&M) 
funding and $5.8 million of procurement funding. An additional $4.96 
million in O&M is required to minimally fund Eagle Vision Electro 
Optical (EO) operations in fiscal year 2017 and the Air Force will 
internally fund the shortfall with execution year funds. The programmed 
$5.8 million in Procurement provides funding for the System Program 
Office and equipment upgrades to include hardware and software for the 
ground sites. The programmed $8.8 million in fiscal year 2017 O&M funds 
Air National Guard technician payroll, training, travel, imagery 
production equipment, licensing and supplies for the Air National Guard 
and Active Duty to keep the Eagle Vision sites operational. It also 
funds the EO imagery contract through 31 July 2017 and one contractor 
support position.
    Programmed fiscal year 2017 O&M funds a portion of the maintenance 
and sustainment (M&S) contract. Funded parts of the M&S contract are 
ground site architecture, software support, data acquisition, antenna 
maintenance and limited notice support for ground sites. Contractor 
travel, system engineering and information assurance requirements of 
the M&S contract are partially funded. The Air Force plans to use $4.96 
million of internal execution year funds to fully fund the EO and M&S 
contracts through all of fiscal year 2017. In the future, Eagle Vision 
will continue to compete for funding in a constrained fiscal 
environment and will seek to maximize capability within resource 
constraints.


 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 29, 2017

                           U.S. Senate,    
                  Subcommittee on Readiness
                            and Management Support,
                               Committee on Armed Services,
                                                    Washington, DC.

                THE HEALTH OF THE DEPARTMENT OF DEFENSE
 INDUSTRIAL BASE AND ITS ROLE IN PROVIDING READINESS TO THE WARFIGHTER

    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
Room SR-232A, Russell Senate Office Building, Senator James 
Inhofe (chairman of the subcommittee) presiding.
    Subcommittee members present: Senators Inhofe, Rounds, 
Ernst, Perdue, Kaine, and Hirono.

           OPENING STATEMENT OF SENATOR JAMES INHOFE

    Senator Inhofe. Senator Kaine and I have a policy where we 
start on time. If everybody does that, then everybody shows up. 
If they do not, they will not show up. So we are going to go 
ahead and do that.
    I will have an opening statement, and you will have an 
opening statement, and then we will get ready to hear the 
presentations. This is going to be very, very significant, this 
hearing.
    Today, we are joined this afternoon by Lieutenant General 
Larry Wyche--I am sure that you been around to see most of 
these members; Vice Admiral Grosklags; Vice Admiral Thomas 
Moore; Lieutenant General Michael Dana, the Deputy Commandant 
of the Marine Corps; Lieutenant General Lee Levy, who is out in 
my State of Oklahoma at Tinker Air Force Base.
    I thank the witnesses for agreeing to testify today, and I 
also thank Ranking Member Senator Kaine for his leadership and 
partnership on this issue. We work very well together. We are 
old friends.
    Just last month, the subcommittee received testimony from 
the service Vice Chiefs on the current readiness of Armed 
Forces. Now that is what we heard the last time in the first 
committee hearing that we had, and I remember one of the 
witnesses was reflecting back in the 1970s when we had a hollow 
force.
    I think, even though it is not all that well-defined, I 
think we have a hollow force today. I am very much concerned 
about it.
    I think this is a very significant hearing to hear from you 
folks, and I look forward to your testimony.
    Senator Kaine?

                 STATEMENT OF SENATOR TIM KAINE

    Senator Kaine. Thank you, Mr. Chairman.
    Thanks to all the witnesses. I do appreciate your service 
and appreciate you being here today as we take testimony that 
will help us as we start to work on the Fiscal Year 2018 NDAA 
[National Defense Authorization Act]. We want to do it in such 
a way that we can restore full spectrum readiness as soon as we 
can.
    As my chair mentioned, we do work well. We had a hearing 
last month, and the Vice Chiefs laid out how the DOD 
[Department of Defense] continues to suffer from unacceptable 
levels of full spectrum readiness, and we heard a mantra worth 
repeating today, that DOD needs more predictable and stable 
funding. Readiness is a function of many things. Predictability 
is one of the key ingredients.
    The five witnesses today are going to help us understand 
the direct correlation between the readiness of maintenance 
facilities and the degraded operational readiness measured in 
terms of decreased training, flying, and steaming days.
    Specifically, I am hoping to hear from witnesses about the 
impact that unpredictable funding has on workload planning and 
how the condition of a degraded shipyard or depot impacts the 
ability to retain skilled employees, engineers, and workers.
    We have recruiting and retention bonuses for men and women 
in uniform, and for good reason. We need to make sure that we 
find ways to better retain and reward those serving at home and 
abroad.
    We often hear about how military platforms need 
modernization, and yet so does the infrastructure that 
maintains those platforms. So the deferred maintenance backlogs 
at shipyards, ammunition plants, air logistics centers, 
arsenals, and depots continues to grow and has been left 
unaddressed for a very long time.
    We have technology challenges as we hope to modernize our 
organic industrial base. I think we should pay more attention 
to key enablers, this important set of institutions, workforce, 
and technology.
    This subcommittee and the DOD should work together to 
explore news ways for the shipyards and depots to recruit and 
retain the highly skilled workforce they need now and in the 
future.
    Some of the models that we are using to support 
cybersecurity and laboratory R&D [research and development] 
workforce can be used here as well. For example, 
apprenticeships, internships, the scholarship for service 
program for civilian service in the DOD, and exchanges with 
private industry all have a place to play in getting us that 
workforce.
    We need to make better use of our innovative partners like 
DOD labs, universities, industry, and even places like DARPA 
[Defense Advanced Research Projects Agency] to develop the new 
technologies to improve efficiency.
    I had a great meeting, Mr. Chair, with General Dana 
yesterday. We talked about the growth of 3D printing as 
something that is really changing some of our functions in a 
good way.
    One of the first directives that the new administration put 
out that has concerned me was the Federal hiring freeze, making 
a difficult problem worse, and I will ask about that today. 
There were some exemptions, yet even with exemptions, the 
hiring freeze impacts and even flies in the face of common 
sense, whether it is a child care worker in Germany, or a 
commissary worker stocking shelves in Virginia, or an engineer 
who does not have direct touch with platforms but nevertheless 
is critical to the development of platforms, some of this 
impact has been felt.
    The hiring freeze, in my view, is an unnecessary layer of 
red tape at a time when we should be encouraging the next 
generation of Americans to weld holes at shipyards, manufacture 
gun tubes at an arsenal, write software code for the most 
advanced fighter aircraft on the planet.
    So we have to put ourselves in the shoes of high school 
grads and college undergrads. The hiring freeze that was 
announced was 90 days with TBD to follow, but if you are a 
youngster with a lot of talent and you are thinking about what 
you want to do, when you look at a Federal workforce that is 
going to be dramatically affected by hiring freezes, you would 
probably be smart to think about other lines of work.
    The bottom line is that the civilian workforce is just as 
dedicated to men and women in uniform. Many of them wore combat 
helmets before they were part of the civilian workforce, and we 
rely on them, as many in the defense industrial and production 
facilities, to help us succeed.
    Finally, I would just suggest again what I have been 
suggesting since I came to the Senate in January 2013. One of 
the first votes I cast in February was to turn off the 
sequester. It was originally a deal to force us to find a 
budget deal, and it was sort of an interesting philosophy. In 
order to force ourselves to do something smart, we will agree, 
if we do not, to do something stupid.
    I never really thought that was a good management 
technique, and when I came into the Senate, I said, let's turn 
it off and let's just make our budgets about advocating for 
priorities. When we decide upon priorities, we will do budgets 
based on priorities rather than priorities based on budgets or, 
worse, priorities based on budgetary uncertainty.
    I think especially it is kind of an interesting time, a new 
administration, all levers of power, executive and both Houses, 
in the control of one party. We could get rid of the sequester 
caps on both defense and nondefense and then just make our case 
about what we think the Nation should spend in these areas. I 
would hope that we might have that discussion in the full 
committee.
    But for purposes of today, we are going to hear good 
testimony that will go into the record and help us as we get 
into the NDAA process.
    I am glad my chair has called this committee, and I look 
forward to your testimony.
    Senator Inhofe. Good. Thank you, Senator Kaine, just so it 
will be in the record, when we first heard about the hiring 
freeze, of course, the exception being the military, we 
immediately got that corrected.
    Just take our depot in Oklahoma that General Levy is very 
familiar with. They only have one uniformed officer in the 
whole place. They have a couple thousand employees. You cannot 
make ordnance. You cannot fight a war if you are not making 
ordnance.
    So those areas had to be corrected immediately and were 
corrected immediately.
    Now, we are going to hear from each one of you guys, and we 
will ask you to try to confine your statements to 5 minutes, 
and your entire statements will be made a part of the record.
    So we will start with Lieutenant General Larry Wyche, a 
Deputy Commanding General of the United States Army Materiel 
Command.

  STATEMENT OF LIEUTENANT GENERAL LARRY D. WYCHE, USA, DEPUTY 
    COMMANDING GENERAL, UNITED STATES ARMY MATERIEL COMMAND

    LTG Wyche. Senator Inhofe, Ranking Member Kaine, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify on the readiness of the Army's organic 
industrial base. On behalf of our Acting Secretary, the 
Honorable Robert Speer, and our Chief of Staff, General Mark 
Milley, thank you for your support and demonstrated commitment 
to our soldiers, our Army civilians, families, and veterans.
    It is an honor for me to appear today along with my 
distinguished colleagues from the Navy, Marine Corps, and Air 
Force.
    Since the War of 1812, our Nation has reaped the rewards of 
the unique capabilities that reside in our organic industrial 
base. Today, 23 ammunition plants, depots, and arsenals produce 
combat readiness by manufacturing, repairing, and resetting our 
military's equipment.
    Our organic industrial base directly employs a skilled 
workforce of more than 22,000 people. Many of them are highly 
skilled artisans and craftsmen who deliver readiness while 
supporting operations impacting all 50 States.
    The organic industrial base is often referred to as 
America's national security insurance policy. As with all 
insurance policies, there must be sufficient coverage in 
advance of crises and the confidence that the policy will be 
delivered and honored.
    The organic industrial base represents the very best 
protection, paying dividends in the form of readiness now while 
providing the capabilities to regenerate equipment and unit 
readiness at the offset of future crises.
    The Army's organic industrial base serves to mitigate risks 
by providing strategic depth and scalable response during times 
of crises by producing materiel, which include ammunition, 
explosives, trucks, artillery tubes, tanks, helicopters, and 
much more. Our manufacturing base has always delivered state-
of-the-art technology and equipment to our globally engaged 
forces.
    The two greatest challenges that we face today in our 
organic industrial base are budget caps mandated by the Budget 
Control Act of 2011 and the lack of consistent and predictable 
funding, as evident by repeated continuing resolutions. The 
longer the Army operates under the budget cap in an 
unpredictable fiscal environment, the more difficult it is to 
sustain production and retain a skilled workforce.
    We recognize the commitment and steadfast support by the 
committee over the last 16 years. Without your support, the 
organic industrial base could not have surged when called upon 
in support of Operations Iraqi Freedom and Enduring Freedom.
    I would like to thank each distinguished member of this 
committee for allowing me to offer this testimony today. Your 
continued steadfast support enables us to maintain and 
modernize our organic industrial base while simultaneously 
preserving and developing the workforce required to provide 
value to our Nation in the form of readiness.
    General Milley states it so succinctly. The number one 
priority for the Army is readiness. The foundation of Army 
readiness is a responsive industrial base.
    Thank you.
    [The prepared statement of General Wyche follows:]

                 Prepared Statement by LTG Larry Wyche
                              introduction
    Chairman Inhofe, Ranking Member Kaine and distinguished members of 
the Subcommittee, thank you for the opportunity to testify on the 
readiness of the Army's Organic Industrial Base. On behalf of our 
Acting Secretary, the Honorable Robert Speer, and our Chief of Staff, 
General Mark Milley, thank you for your support and demonstrated 
commitment to our soldiers, Army civilians, families and veterans.
    Since the War of 1812, our great Nation has reaped the rewards of 
the unique capabilities resident in our Organic Industrial Base (OIB) 
to manufacture and repair the equipment and materiel needed to equip 
and sustain our Armed Forces. Today, 23 ammunition plants, depots and 
manufacturing arsenals produce combat readiness by manufacturing, 
repairing and resetting our military's equipment. These depots, plants 
and arsenals possess specialized core competencies and are operated by 
a workforce of highly-skilled artisans, some of whom are the 2nd and 
3rd generation of a family dedicated to the defense of our nation. 
These patriots and the facilities in which they work provide a unique 
set of capabilities that enable readiness and the projection of 
national power.
    The OIB is often referred to as America's National Security 
Insurance Policy. As with all insurance policies, there must be 
adequate coverage in advance of a crisis and confidence that the policy 
will be honored. The OIB represents the very best protection--paying 
dividends, in the form of readiness now, while providing the capability 
to regenerate equipment and unit readiness at the outset of the future 
crises. The OIB directly employs more than 22,000 people in operations 
that span all 50 states. The annual economic impact of the OIB on local 
economies is in excess of $3.696 billion. As an example, McAlester, 
Radford and Iowa Ammunition Plants, as well as the Anniston Army Depot, 
collectively introduce $205.1 million into their communities each year.
    The Army's Organic Industrial Base serves to mitigate risk by 
providing strategic depth and scalable response during times of crisis. 
Whenever called upon, the OIB delivers equipment to the tactical point 
of need that is maintainable and affordable within the tactical 
commander's available resources (soldiers, time and dollars). From 
small arms, ammunition and explosives, to trucks, radars, optics and 
main battle tanks, our manufacturing base has always delivered state-
of-the-art technology and equipment to our globally engaged forces.
                               challenges
    The two greatest challenges we face today with our OIB are budget 
caps mandated by the Budget Control Act of 2011 and a lack of 
consistent and predictable funding as evidenced by repeated continuing 
resolutions. Sequestration's legacy of imposing cuts without 
consideration of national security requirements must be brought to an 
end. Our military's readiness is held hostage to it. Also, continuing 
resolutions have fostered an era of unpredictable funding that 
adversely affects the OIB. A year-long continuing resolution will 
preclude the Army from funding Depot Maintenance at the level needed to 
rebuild 4 Apache helicopters, 2 Black Hawk helicopters, several Patriot 
Air Defense systems, as well as upgrades to weapon system required to 
ensure interoperability on the battlefield.
    Additionally, the longer the Army operates under the budget caps 
and in an unpredictable fiscal environment, the more difficult it is to 
sustain production at levels that maintain workforce skill sets. 
Exploiting best business practices in our industrial operations 
requires consistent levels of funding that facilitate long term 
planning.
    Furthermore, parts of our manufacturing and facilities 
infrastructure are near the end of their life cycles. We need your 
continued assistance with modernization and replacement. Since fiscal 
year 2005, more than $2 billion has been invested in automation and 
robotics to enhance production and ammunition out-load capabilities, as 
well as attain energy self-sufficiency. Given the value of the OIB's 
infrastructure, keeping it in good order offers a good return on 
investment.
                         maintaining readiness
    We recognize and are extremely appreciative of this committee's 
steadfast support through the past 16 years of war. Without your 
support, the OIB could not have surged when called upon in support of 
Operations Iraqi Freedom and Enduring Freedom, to reset nearly four 
million items of equipment--a workload three times that of the workload 
during the Vietnam War. To put this in operational terms, that equates 
to resetting 105 Brigade Combat Teams.
    The capabilities of our adversaries continue to evolve.
    General Milley states it most succinctly; ``The Army's number one 
priority is readiness.'' A foundation of Army readiness is a vibrant 
and responsive industrial base. We cannot afford to let our warfighting 
capabilities fall into decay because within the OIB reside one-of-a-
kind resources that cannot be easily revived or replicated, and 
certainly not in time to respond to a national crisis. Now more than 
ever, we must enhance our readiness through continued investment in our 
organic capabilities in order to ensure our force can conduct and 
sustain a combined arms fight in unified operations. In that way we can 
deter our adversaries and, importantly, win decisively without undue 
risk to the force.
    For example, Nitrocellulose is a key compound used in making 
explosives. The Radford Army Ammunition Plant is the only known 
manufacturer of nitrocellulose in North America. McAlester Army 
Ammunition Plant is so proficient at manufacturing certain munitions 
that the Navy and the Air Force ask them to produce ordinance to meet 
both their wartime and training requirements. Watervliet Arsenal is the 
only manufacturer of large caliber cannon tubes in this hemisphere. 
Every howitzer at Ft. Sill has a gun tube produced at Watervliet. In 
fact, in 2013 as the Army was preparing to upgrade the M109A6 self-
propelled howitzers to the A7 configuration, corrosion was discovered 
in the bore evacuators on the cannon barrels. The Army determined that 
nearly 75 percent of these Paladin howitzers in the inventory were non-
mission capable due to bore evacuator corrosion. In nine months' time, 
Watervliet repaired 157 of the 171 barrels that were repairable and 
replaced 73 of the 88 that were not. The skilled and determined 
workforce, combined with the unique capabilities resident in the 
arsenal, averted a crisis.
    Since 2003, Army equipment reset requirements have generated $29.5 
billion in work for the OIB. Orders from the U.S. Air Force, Navy and 
Marine Corps have generated another $5.7 billion in revenue. In 2015 
alone, the Army's Organic Industrial Base provided $698 million in 
joint depot work and $504 million in joint parts, demonstrating its 
impact on not only Army readiness but the readiness of all our Armed 
Forces. The output of our depots, plants and arsenals not only provides 
strategic depth but produces direct economic impact on a supply chain 
of over 11 thousand vendors--many of which are small businesses.
    While we are asking for your support, it is important to note that 
we are working feverishly to maximize the impact of the resources you 
have provided. In the past four years, the Army has reduced its 
inventory of secondary items by 9.2 billion. The OIB has realized $4.5 
billion in financial benefits like cost avoidance through continuous 
process improvement projects since 2011.
    As retrograde and reset operations slow, the Army must find 
innovative ways to reshape itself and leverage its investments with 
partners from other parts of DOD, government and the private sector 
when missions, goals, and requirements align. Preserving the workforce, 
optimizing processes and aligning workload to unit readiness and 
sustainment needs must be prioritized as we divest obsolete systems and 
equipment. Simultaneously, we must continue to develop the capabilities 
required to meet future requirements.
                                closing
    This committee, more than anyone else, knows that the world is more 
dangerous and unpredictable than it has ever been. While our nation's 
greatest minds work hard to predict the future we are continually 
surprised by the unpredictable. In every instance of crisis, the OIB 
has responded by providing solutions to meet unanticipated demands. If 
the OIB is to continue to deliver when our nation needs it most, we 
must invest now. Consistent and predictable funding to preserve, 
maintain and modernize our critical capabilities provides the last line 
of defense against the unknown, while we continue to produce readiness 
that guarantees that we will win wherever and whenever our nation 
calls.
    I would like to thank each distinguished member of the Committee 
for allowing me to offer this testimony today. Your continued steadfast 
support enables us to maintain and modernize the OIB, and 
simultaneously preserve and develop the workforce required to provide 
value to our nation in the form of future readiness and deterrence.

    Senator Inhofe. Thank you, General Wyche.
    We will now hear from Vice Admiral Grosklags, Commander, 
United States Naval Air Systems Command.

 STATEMENT OF VICE ADMIRAL PAUL A. GROSKLAGS, USN, COMMANDER, 
            UNITED STATES NAVAL AIR SYSTEMS COMMAND

    VADM Grosklags. Thank you, Mr. Chairman, Ranking Member 
Kaine, distinguished members of the subcommittee.
    I appreciate the opportunity to be here with you today to 
discuss specifically, in my case, naval aviation and some of 
the readiness challenges that we face. I know those challenges, 
as you mentioned in your opening statement, are no surprise to 
this subcommittee, as both the Vice Chief and the Assistant 
Commandant testified to that effect about a month ago.
    About our aviation depots specifically--and we call them 
Fleet Readiness Centers, so I might use those terms 
interchangeably. They are a critical element in our overall 
readiness recovery plan. They are continuing a steady recovery 
from fiscal year 2013 primarily and the impacts of furloughs 
and hiring freezes associated with sequestration, to your 
point, Senator Kaine. But also, they are recovering from years 
of limited and uncertain funding.
    Today, they are also increasing their workload. The demand 
on them actually has never been higher. Sixteen years of 
wartime activity, the challenging material condition of the 
aircraft that are coming in the front door as well as the 
extension of our aircraft service lives well beyond what we had 
originally planned to utilize them to. A case in point that I 
think most of you are familiar with are our F-18 A through D 
models.
    While we will always remain challenged as long as we are 
flying with our F-18 A through D models in terms of keeping 
them ready, we have stabilized that particular depot production 
line. We have become predictable in our delivery of those 
assets back to the fleet. By the end of this Year, beginning of 
next calendar year, we will have met the fleet's requirement 
for in-service or in-reporting
F-18s.
    So while we are turning the corner there on F-18s, as I 
mentioned earlier, the overall workload continues to increase, 
as we see increasing demand signals for V-22s, H-1s, other type 
model series, as well as component repair VR [virtual reality] 
supply system.
    But it is also important that we all recognize that getting 
our depots back up on step really only addresses one piece of 
the readiness equation. We have to be equally focused on our 
supply support, our maintenance planning, our maintenance 
publications, our support equipment, the training and 
qualifications of our sailors and marines who maintain these 
aircraft, and I could go on.
    But those things are just as important as our depot 
capability. The funding for those efforts is through a variety 
of individual line items. We collectively tend to call those 
our enabler accounts. As the Department has struggled to 
balance our competing requirements and limited resources for 
the last number of years, funding in these accounts has been 
severely constrained, and I can tell you that readiness has 
suffered as a direct result of that lack of funding.
    In our fiscal year 2017 request, the Department has taken a 
major step forward toward addressing the required funding for 
these enabler accounts. The request for additional 
appropriations further augments that request and our recovery 
efforts. Because of that, if we end up operating under a full-
year continuing resolution, there will be a significant 
negative impact to our ability to continue our overall naval 
aviation readiness recovery efforts.
    As you said, Senator Kaine, in your opening, stable, 
predictable, and sufficient funding is absolutely critical to 
our readiness recovery efforts. I look forward to working with 
the subcommittee to that end, and I look forward to your 
questions.
    Thank you.
    Senator Inhofe. Thank you, Admiral Grosklags.
    We will now hear from Vice Admiral Thomas Moore, United 
States Navy, Commander United States Naval Sea Systems Command.

  STATEMENT OF VICE ADMIRAL THOMAS J. MOORE, USN, COMMANDER, 
            UNITED STATES NAVAL SEA SYSTEMS COMMAND

    VADM Moore. Thank you, Mr. Chairman. Mr. Chairman, ranking 
member, distinguished members of the subcommittee, on behalf of 
the 73,000 men and women in the Naval Sea Systems Command, I 
thank you for the opportunity to discuss the health of the 
industrial base and its critical role in maintaining the 
readiness of our fleet.
    The Naval Sea System Command's number one priority is the 
on-time delivery of ships and submarines to the fleet. At any 
given time, about one-third of the Navy's fleet is undergoing 
either a major depot maintenance availability in one of our 
four naval shipyards and private sector surface ship repair 
shipyards or conducting pier-side intermediate maintenance.
    Our naval shipyards and our private sector partners are the 
cornerstone of that effort to deliver our ships and submarines 
on time. The 33,850 men and women who work in our naval 
shipyards and the workers in our private sector partners today 
are true national assets.
    The high operational tempo in the post-9/11 era combined 
with reduced readiness funding and consistent uncertainty about 
when these reduced budgets would be approved have created a 
large mismatch between the capacity of our public shipyards 
today and their required work. This mismatch has resulted in a 
large maintenance backlog which has grown from 4.7 million man 
days to 5.3 million man days between 2011 and 2017.
    Today, despite hiring 16,500 new workers since 2012, the 
naval shipyards are more than 2,000 people short of the 
capacity required to execute the projected workload, stabilize 
the growth and the maintenance backlog, and eventually 
eliminate that backlog.
    [The information referred to follows:]

    ``The high operational tempo in the post 9/11 era combined with 
reduced readiness funding and consistent uncertainty about when these 
reduced budgets will be approved have created a large maintenance 
mismatch between the capacity in our public shipyards and the required 
work. This has resulted in a large maintenance workload, which has 
grown from 4.7 million man-days in 2011 to a planned 5.3 million man-
days in 2017. Today, despite hiring 16,500 new workers since 2012, 
Naval Shipyards are more than 2,000 people short of the capacity 
required to execute the projected workload, stabilize the growth in the 
maintenance backlog and eventually eliminate that backlog.''

    This man day shortfall coupled with reduced workforce 
experience levels--and today, half of my workforce has been in 
naval shipyards for less than 5 years--and shipyard 
productivity issues have all impacted fleet readiness through 
the late delivery of ships and submarines.
    However, although we face many challenges, the challenges 
are not insurmountable. Years of sustained deployments and 
uncertain funding have created a readiness debt that we must 
begin to address today.
    In our naval shipyards and private sector, that begins with 
defining the full maintenance requirement, matching the budget 
to that requirement, ensuring the capacity to perform work 
matches that workload, and improving the productivity of our 
workforce through improved training and infrastructure 
investments that must be made to modernize our naval shipyards.
    We can and we must tackle each of these issues today and 
sustain that focus into the future. Only then will our 
industrial base be able to provide the readiness required of 
our Navy today and into the future.
    I look forward to your questions.
    Senator Inhofe. Thank you, Admiral Moore.
    [The combined prepared statement by Vice Admiral Paul A. 
Grosklags and Vice Admiral Thomas J. Moore follows:]

Combined Prepared Statement by Vice Admiral Paul A. Grosklags and Vice 
                        Admiral Thomas J. Moore
    Mr. Chairman, Ranking Member Kaine, and distinguished members of 
the Sub-Committee, we appreciate the opportunity to testify on the 
current state of Navy readiness and the challenges we face today and in 
the future.
    Before we discuss Navy's readiness challenges and our plans to 
address them, it is important to understand our present situation. 
Globally present and modern, our Navy provides timely, agile, and 
effective options to national leaders as they seek to advance American 
security and prosperity. Today, however, the ongoing demand for naval 
forces continues to grow, which will require the Navy to continue to 
make tough choices. In the classic trade space for any service 
(readiness, modernization and force structure), readiness has become 
the bill payer in an increasingly complex and fast-paced security 
environment. To address these realities, the Navy has identified 
investments to restore the readiness of the fleet today to shore up 
what we have. At the same time, we cannot restore the fleet to full 
health without also updating our platforms and weapons to better 
address current and future threats, and evaluating the right size of 
the Navy so that it can sustain the tempo of operations that has become 
the norm. The Navy is actively working on plans for the future fleet 
with Secretary Mattis and his team, and we look forward to discussing 
those plans with you when they are approved.
    To characterize where we are today, we would say it's a tale of two 
navies. As we travel to see our sailors in the United States and 
overseas, it is clear to me that our deployed units are operationally 
ready to respond to any challenge. They understand their role in our 
nation's security and the security of our allies, and they have the 
training and resources they need to win any fight that might arise. 
Unfortunately, our visits to units and installations back home in the 
United States paint a different picture. As our sailors and Navy 
civilians, who are just as committed as their colleagues afloat, 
prepare to ensure our next ships and aircraft squadrons deploy with all 
that they need, the strain is significant and growing. For a variety of 
reasons, our shipyards and aviation depots are struggling to get our 
ships and airplanes through maintenance periods on time. In turn, these 
delays directly impact the time Sailors have to train and hone their 
skills prior to deployment. These challenges are further exacerbated by 
low stocks of critical parts and fleet-wide shortfalls in ordnance, and 
an aging shore infrastructure. So while our first team on deployment is 
ready, our bench--the depth of our forces at home--is thin. It has 
become clear to us that the Navy's overall readiness has reached its 
lowest level in many years.
    There are three main drivers of our readiness problems: 1) 
persistent, high operational demand for naval forces; 2) funding 
reductions; and 3) consistent uncertainty about when those reduced 
budgets will be approved.
    The operational demand for our Navy continues to be high, while the 
fleet has gotten smaller. Between 2001 and 2015, the Navy was able to 
keep an average of 100 ships at sea each day, despite a 14 percent 
decrease in the size of the battle force. The Navy is smaller today 
than it has been in the last 99 years. Maintaining these deployment 
levels as ships have been retired has taken a significant toll on our 
Sailors and their families, as well as on our equipment.
    The second factor degrading Navy readiness is the result of several 
years of constrained funding levels for our major readiness accounts, 
largely due to fiscal pressures imposed by the Budget Control Act of 
2011. Although the Bipartisan Budget Act of 2015 provided temporary 
relief, in fiscal year 2017 the Navy budget was $5 billion lower than 
in fiscal year 2016. This major reduction drove very hard choices, 
including the difficult decision to reduce readiness accounts by over 
$2 billion this year.
    The third primary driver of reduced readiness is the inefficiency 
imposed by the uncertainty around when budgets will actually be 
approved. The inability to adjust funding levels as planned, or to 
commit to longer-term contracts, creates additional work and drives up 
costs. This results in even less capability for any given dollar we 
invest, and represents yet another tax on our readiness. We are paying 
more money and spending more time to maintain a less capable Navy.
    We have testified before about the maintenance and training 
backlogs that result from high operational tempo, and how addressing 
those backlogs has been further set back by budget cuts and fiscal 
uncertainty. Our attempts to restore stability and predictability to 
our deployment cycles have been challenged both by constrained funding 
levels and by operational demands that remain unabated.
    Although we remain committed to return to a seven month deployment 
cycle as the norm, the need to support the fight against ISIS in 2016 
led us to extend the deployments of the Harry S Truman and Theodore 
Roosevelt Carrier Strike Groups to eight and eight and a half months, 
respectively. Similar extensions apply to the Amphibious Ready Groups 
which support Marine Expeditionary Units. This collective pace of 
operations has increased wear and tear on ships, aircraft and crews 
and, adding to the downward readiness spiral, has decreased the time 
available for maintenance and modernization. Deferred maintenance has 
led to equipment failures, and to larger-than-projected work packages 
for our shipyards and aviation depots. This has forced us to remove 
ships and aircraft from service for extended periods, which in turn 
increases the tempo for the rest of the fleet, which causes the fleets 
to utilize their ships and airframes at higher-than-projected rates, 
which increases the maintenance work, which adds to the backlogs, and 
so on.
    Reversing this vicious cycle and restoring the short-term readiness 
of the fleet will require sufficient and predictable funding. This 
funding would allow our pilots to fly the hours they need to remain 
proficient, and ensure that we can conduct the required maintenance on 
our ships. It would also enable the Navy to restore stocks of necessary 
parts, getting more ships to sea and better preparing them to stay 
deployed as required.
                            naval shipyards
    One of the key components of Navy readiness for our public and 
private repair shipyards is our ability to effectively plan and execute 
maintenance on ships and submarines. This is reflected in the Navy's 
Optimized Fleet Response Plan (OFRP), which places maintenance at the 
beginning of the OFRP cycle in recognition of the fact that our 
deployed readiness is dependent on our ability to complete the required 
maintenance on time and on schedule before ships enter their training 
and deployment cycle. As the Vice Chief of Naval Operations testified 
last month, our shipyards are struggling to deliver ships out of 
availabilities on time and back to the Fleet. When we do not get it 
right it strains our ability to train and deploy our forces
    Naval Sea Systems Command's number one priority is the on-time 
delivery of ships and submarines to the Fleet. At any given time, about 
one-third of the Navy's Fleet is undergoing either a major depot 
maintenance availability in one of our four Naval Shipyards and private 
sector surface ship repair shipyards or conducting pier side 
intermediate maintenance. Regardless of where the work is taking place, 
NAVSEA is working every day to improve maintenance throughput so that 
our warfighters have the platforms and weapon systems they need to 
defend our nation.
    Our long term success in delivering ships and submarines out of 
maintenance on time depends on three important elements: determining 
the full maintenance requirement, aligning the maintenance budget to 
this requirement so we can match the capacity in our shipyards to the 
workload, and improving the overall productivity of our maintenance 
workforce through improved training, processes, tools and 
infrastructure.
    Long-term continuing resolutions, as we have seen over the past 
eight years, coupled with a constrained budget environment have 
exacerbated our ability to effectively plan and execute ship 
maintenance. Receiving the complete budget mid-way through the year 
leads to significant inefficiencies, such as delays in material and 
parts procurement for future availabilities, and results in significant 
missed opportunities in the year of execution. A stable, predictive 
funding environment is imperative to support the effective planning and 
preparations for both current and future maintenance requirements.
    The high operational tempo in the post 9/11 era combined with 
reduced readiness funding and consistent uncertainty about when these 
reduced budgets will be approved have created a large maintenance 
mismatch between the capacity in our public shipyards and the required 
work. This has resulted in a large maintenance backlog which has grown 
from 4.7 million man-days to a planned 5.3 million man-days between 
2011 and 2017. Today, despite hiring 16,500 new workers since 2012, 
Naval Shipyards are more than 2,000 people short of the capacity 
required to execute the projected workload, stabilize the growth in the 
maintenance backlog and eventually eliminate that backlog. This 
shortfall, coupled with reduced workforce experience levels (about 50 
percent of the workforce has less than five years of experience) and 
shipyard productivity issues have impacted Fleet readiness through the 
late delivery of ships and submarines. The capacity limitations and the 
overall priority of work toward our Ballistic Missile Submarines 
(SSBNs) and Aircraft Carriers (CVN) have resulted in our Attack 
Submarines (SSNs) absorbing much of the burden, causing several 
submarine availabilities that were originally scheduled to last between 
22 and 25 months to require 45 months or more to complete. These delays 
not only remove the submarines from the Fleet for extended periods of 
time, but also have an impact on the crews' training and morale. This 
situation reached a boiling point this past summer when in order to 
balance the workload, the Navy decided to defer a scheduled maintenance 
availability on the USS Boise (SSN 764) that will effectively take her 
off line until 2020 or later. Although the Navy has not made a final 
decision on Boise, she will likely be contracted to the private sector 
at additional cost to the Navy in 2019.
    The Naval Shipyards have seen a large influx of new hires over the 
past five years. As of today, half of my public shipyard workers have 
less than five years' experience. With further growth anticipated in 
the coming years, we are taking steps to accelerate the training 
process. For example, all Naval Shipyards have implemented, and are 
expanding the use of, Learning Centers with realistic mockups in a 
``safe-to-learn'' environment. New employees are now able to support 
shipyard-unique work within one to four months of being hired, rather 
than one to two years under traditional training methods.
    In addition to hiring enough people to execute the workload, we 
must also invest in our Naval Shipyard infrastructure. Many of our 
Naval Shipyards have buildings and equipment that are degraded or 
obsolete. With today's exceptionally complicated ships and systems, we 
are finding that our infrastructure does not meet the needs of a modern 
day repair facility. NAVSEA has identified future facility 
modernization and improvements required to support newer classes of 
ships, including the Virginia- and Columbia-class submarines and Gerald 
R. Ford-class aircraft carriers. The Naval Shipyards' outdated 
Information Technology and Cybersecurity departments are also a 
critical component of this effort.
    The challenges faced by the private sector yards that perform 
maintenance on our surface ships are very similar to our Naval 
Shipyards. They, even more than the Naval Shipyards, are impacted by 
the uncertainty around when budgets will actually be approved. Despite 
these challenges, we have seen improvements in private sector 
maintenance. We are driving stability into our processes by working 
with third-party planners to increase our ability to conduct advanced 
planning, and the shift to competitively awarded fixed-price contracts 
has reduced cost and added discipline to the process that has limited 
growth and improved on-time performance by 40 percent since 2014.
    Although we face many challenges, they are not insurmountable. 
Years of sustained deployments and uncertain funding have created a 
readiness debt that we must begin to address today. In our Naval 
Shipyards and private sector, that begins with defining the full 
maintenance requirement, matching the budget to that requirement, 
ensuring the capacity to perform work matches the workload, and 
improving the productivity of our workforce. We can and we must tackle 
each of these issues today and sustain that focus into the future. Only 
then will we provide the readiness required of our Navy today and into 
the future.
                 naval aviation fleet readiness centers
    The Navy and Marine Corps are addressing Naval Aviation readiness 
through seven inter-related Lines of Effort (LOE)--(1) Fleet Readiness 
Center (FRC) Capability and Capacity, (2) Depot-level In Service Repair 
of aircraft, (3) FRC Supply and Component Repair, (4) Aircraft 
Utilization, (5) Aircraft Material Condition, (6) Flight Line Supply, 
and (7) Flight Line Maintenance.
    Sustained improvement in the readiness of our Naval Aviation forces 
requires successful execution of multiple ongoing activities across 
each of these LOEs.
    Full and predictable resourcing of these readiness improvement LOEs 
is essential to re-building Naval Aviation readiness to the level 
required to support COCOM mission execution objectives.
    Specifically, we must maintain a focus on (1) investment in the 
facilities and workforce at our FRCs, (2) achieving full funding of our 
``enabler'' sustainment accounts (listed at end of this statement), and 
(3) maximizing funding for supply support.
    Naval Aviation's FRCs execute Maintenance, Repair and Overhaul 
(MRO) activities for a broad range of Aircraft, Engines, Components and 
Support Equipment (SE)--providing these products directly to our 
sailors and marines in support of mission readiness. The capability and 
capacity of our FRCs are still recovering from prior years of limited 
sustainment account funding, and effects of fiscal year 2013 
sequestration driven furloughs and associated hiring freeze. While 
working to regain previous levels of output on all product lines, 
meeting production throughput requirements remains challenged by an 
increased workload demand driven by the degraded material condition of 
inducted aircraft and components resulting from 16 years of war-time 
activity combined with the effects of extending aircraft service lives.
    To increase production output by reducing turn-around-time, our 
FRCs are implementing continuous process improvement initiatives, 
including best commercial practices such as Critical Chain Project 
Management, across all of our aircraft and component production lines.
    In fiscal year 2017 our FRCs are increasing their workforce size as 
a continuation of recovery from fiscal year 2013 reductions and in 
direct response to increased aircraft and component workload. Approved 
exemptions to the current hiring freeze for depot artisan and 
production support personnel is enabling us to continue hiring; 
however, normal workforce attrition, regional competition with 
industry, and regional economic conditions combine to challenge our 
hiring plans in some locations.
    Two issues that will continue to negatively impact our ability to 
meet current and future FRC workload demand are (1) aging facilities 
and support equipment, and (2) predictability of funding. Accurate 
planning of FRC workload requirements 12-24 months in advance is 
critical to ensuring we have the right people, facilities, and tooling 
in place when an aircraft or component enters the MRO process. The long 
term continuing resolutions we have faced in recent years, particularly 
when already operating in a very constrained funding environment, 
directly impact our ability to effectively plan, and then efficiently 
execute, aircraft and component repair schedules.
    Creating a path to full resourcing of those accounts which support 
FRC production and overall aircraft readiness on the flight line is 
critical. These accounts support activities ranging from procurement of 
new and repaired spare parts to maintaining the currency of technical 
and repair manuals used in the FRCs and on the flight line. As we have 
painfully experienced over the last 5-7 years, being underfunded and 
``unbalanced'' in these accounts has resulted in significantly 
decreased flight line readiness.
    The maintenance, engineering, and logistics professionals working 
at our FRCs and supporting sustainment efforts across Naval Aviation, 
including our sailors and marines on the flight line, continue to do an 
amazing job of optimizing readiness within the constraints of aging 
equipment, increasing demand, and constrained / uncertain resources. We 
look forward to working with Congress to remove barriers to their 
success.
Naval Aviation Sustainment Accounts
    Flying Hour Program (1A1A/1A2A)--Aviation Depot Level Repairables, 
consumables, fuel Air Systems Support (1A4N)--Engineering 
Investigations, tech pub updates, maintenance planning, Reliability 
Centered Maintenance, Bill of Material updates, etc
    Aircraft Depot Maintenance (1A5A)--Scheduled aircraft, engine, 
component repairs; In-Service Repairs
    Aircraft Depot Operations (1A6A)--Cost Reduction Initiatives, 
Preservation
    Aviation Logistics (1A9A)--Performance Based Logistics / Contractor 
Logistics Services for F-35, V-22, E-6, KC-130
    Technical Data and Engineering Services (1A3A)--Field tech reps, 
Maintenance Readiness Teams
    Equipment Maintenance (1C7C)--Support equipment rework, calibration 
of test equipment
    Aviation Spares (APN-6)--Procurement of interim and outfitting 
spares

    We will now hear from Lieutenant General Michael Dana, U.S. 
Marine Corps and Deputy Commandant Installations and Logistics 
for the Marine Corps.

 STATEMENT OF LIEUTENANT GENERAL MICHAEL G. DANA, USMC, DEPUTY 
 COMMANDANT, INSTALLATIONS AND LOGISTICS, UNITED STATES MARINE 
                             CORPS

    LtGen Dana. Thank you, Chairman Inhofe, Ranking Member 
Kaine, distinguished Senators.
    The first thing I would like to start off with is a thank 
you. I have Master Gunnery Sergeant Baughman here. That is 25 
years of Marine Corps experience. I have 36 years.
    What I want to pass to you is, in this entire time I have 
been in the Marine Corps, the American people and Congress have 
taken care of us. Everything from Desert Storm to Somalia, to 
Iraq and Afghanistan, we have gotten everything we need, and we 
greatly appreciate the support.
    I wanted to preface my comments by saying that, because we 
do have a few asks. We are combat ready to go. We are the fight 
tonight force. But there are four things I would like to cover 
quickly.
    First, the accelerated aging of our equipment set. I said 
to Senator Kaine yesterday, normally vehicles, MTVRs [Medium 
Tactical Vehicle Replacements], trucks that would go 1,200 to 
1,500 miles in a peacetime environment, we were racking up 
15,000 to 18,000 miles per vehicle, so that accelerated aging 
induces a cost.
    Good news for the depot. Senator Perdue, sir, thanks for 
the great support there. But it generates work.
    Second is the complexity of today's systems. If you look at 
when I came in, in 1982, an M151 jeep, very simple, four 
cylinders, 16 to 18 miles a gallon. The problem was it was not 
very survivable, so we came up with the MRAP [Mine-Resistant 
Ambush Protected].
    But the MRAP is a system of systems, and many of the combat 
platforms we have today are systems of systems, so you need 
more maintenance, more technicians, more money to keep those 
systems moving.
    Next is the gradual decline in depot funding. We 
appreciate, we greatly appreciate, the 80 percent that we get, 
in some cases 84 or 88. But we are very confident in our 
requirements. So when we generate 100 percent requirement for 
our equipment set, anything less than that leads to a gradual 
decline in readiness for that year.
    Last is the decline of our facilities. We have 29,000 
facilities in the Marine Corps; 4,300 of those are in poor or 
fair condition.
    Like the Commandant, because he is the Commandant, he has a 
plan, and we are executing that plan. It is an installation 
reset strategy, which I talk to you more in detail more later, 
sir. But the bottom line is, he wants us to help ourselves 
before we ask you for help. So when we come to you for 
requirements, sir, it is a hard and fast, fact-based 
requirement.
    I look forward to the questions. Thanks for having us here 
today.
    [The prepared statement of Lieutenant General Dana 
follows:]

        Prepared Statement by Lieutenant General Michael G. Dana
    Lieutenant General Dana was promoted to his current rank and 
assumed his duties as Deputy Commandant for Installations and Logistics 
in September 2015.
    Lieutenant General Dana was commissioned a Second Lieutenant in 
June of 1982 following graduation from Union College in Schenectady, 
New York.
    From 1983-1986, Lieutenant General Dana was assigned to 2nd Tank 
Battalion, deploying with Battalion Landing Team 1/8 to the 
Mediterranean. In 1986 he was assigned as the Combat Cargo Officer 
aboard USS Duluth (LPD-6), deploying to the Western Pacific with 
Battalion Landing Team 1/9 embarked.
    From 1988-1991, Lieutenant General Dana served as the Logistics 
Officer for Battalion Landing Team 3/1 and as a company commander and 
S-3 with 1st Landing Support Battalion from 1992-1994 (Desert Storm/
Operation Restore Hope). From 1996-1999 he served with the Standing 
Joint Task Force at Camp Lejeune, as an ISAF Plans Officer in the 
Former Republic of Yugoslavia and as the II MEF G-4 Operations Officer. 
After a tour with MAWTS-1, Lieutenant General Dana commanded MWSS-371 
from 2000-2002.
    From 2003-2005 he was assigned to III MEF, serving as the G-7/3D 
MEB Chief of Staff, III MEF Deputy G-3, and OIC of the MARCENT 
Coordination Element at Camp Arifjan, Kuwait.
    From 2005-2007, Lieutenant General Dana commanded MWSG-37, 
including a deployment to Iraq from 2006-2007. From 2010-2012 
Lieutenant General Dana served as the Commanding General, 2d Marine 
Logistics Group, including a deployment to Afghanistan from 2011-2012. 
He was then assigned as the Assistant Deputy Commandant for Logistics 
(LP) until October 2012.
    Joint assignments include service with EUCOM, NORTHCOM and, most 
recently, PACOM. Lieutenant General Dana is a graduate of Amphibious 
Warfare School, Marine Corps Command and Staff College, School of 
Advanced Warfighting and the Naval War College.
                              introduction
    Chairman Inhofe, Ranking Member Kaine and distinguished members of 
the Senate Armed Services Subcommittee on Readiness, thank you for the 
opportunity to appear today and to report on the readiness of your 
United States Marine Corps.
    I have the privilege to lead an Installations & Logistics (I&L) 
team that delivers the installations, logistics, and ground equipment 
readiness that ensures the Marine Corps remains capable of ``Making 
Marines and Winning our Nation's Battles''. We are grateful for the 
continued support of Congress and of this subcommittee for your 
appreciation of this pivotal role to our nation's defense and in 
ensuring we remain ready when the nation is least ready.
                        your marine corps today
    Today, your Marine Corps continues to operate at the same tempo as 
it has over the past 15 years. With a dynamic and complex operating 
environment, the Joint Force requires and actively employs our 
expeditionary capabilities. During the past year, your marines executed 
approximately 185 operations, 140 security cooperation events with our 
partners and allies, and participated in 65 major exercises. Nearly 
23,000 marines remain stationed or deployed west of the International 
Date Line to maintain regional stability and deterrence in the Indo-
Asia-Pacific region. Our Marine Expeditionary Units (MEUs) support the 
joint force by executing counterterrorism (CT) operations in Iraq and 
North Africa, providing humanitarian assistance and disaster relief 
(HA/DR) support in Japan and Haiti, and remain forward deployed to 
respond to crises and emerging threats.
                           marine corps risk
    As we operate around the globe today, fiscal constraints and 
instability have impacted our readiness. As resources have diminished, 
the Marine Corps has protected the near-term readiness of its deployed 
and next-to-deploy units in order to meet its operational commitments. 
Since the conclusion of OIF and OEF, the Marine Corps has not had the 
benefit of an ``inter-war'' period to reconstitute and modernize our 
force. Fifteen years of continuous combat has placed tremendous stress 
on the force, our Installations, our equipment, and our readiness.
                  installation and logistics overview
    In support of Marine Corps operations, our bases and stations are 
collectively the ``launching pad'' that produces and deploys ready, 
trained forces. Further, our enterprise ground equipment management 
efforts provide an end-to-end, total life cycle process to account for 
and maintain-sustain our gear to ensure a high state of readiness.
    In terms of total Marine Corps Force serviced on our Installations, 
there are over 180,000 marines, 176,000 dependents, 29,000 civilians, 
and 140,000 retirees. The support ranges from 23,000 housing units, 600 
barracks, 56 fitness centers, 43 child development centers, 5,284 miles 
of road, 146 hangars, 58 runways and close to 15,000 buildings. We are 
responsible for the management of a $3.8 Billion annual portfolio of 
programs, systems, and projects in support of marines and their 
military equipment and supplies valued at over $30 billion and real 
property valued at over $70 billion.
                    installation risk and condition
    The state of facilities is the single most important investment to 
support training, operations, and quality of life. The Marine Corps has 
24 bases and stations valued at over $52 billion. We greatly appreciate 
the approximately $1.5 billion a year we received from 2007-2014; this 
investment supported new barracks, new aviation platforms, and 
improvements to our infrastructure. However, since 2015 our MILCON 
budget has averaged approximately $570 million per year, well below our 
requirements. Based on the current fiscal landscape, we foresee $5.4 
billion in requirements with only $1.1 billion in available funding 
over the next 6 years. At the current level of investment, it would 
take over 204 years to recapitalize our infrastructure.
    In addition to MILCON funding, our installations require the 
requisite amount of Facilities, Sustainment, Restoration, and 
Modernization (FSRM) money. Due to historic funding challenges, we have 
seen our FSRM backlog grow to $9 billion. The effect of this shortfall 
is that of 29,000 facilities in the Marine Corps, 15 percent or 4,300 
facilities are in poor or failing condition. Overall Facilities 
Condition Index (FCI) across the Marine Corps is 82 percent (Fair).
    At current funding levels, we are able to complete new construction 
projects supporting the ``Rebalance to the Pacific'', the fielding of 
new aviation platforms such as the F-35 and V-22, and renovating some 
of our worst barracks; however, without additional investments there 
will be long term impacts on support to training, operations, 
logistics, and ultimately readiness. Many projects to replace existing 
inadequate and obsolete facilities that directly support operational 
forces are unaffordable. We are deferring critical infrastructure 
required to support training, operations, and logistics.
    To offset these challenges, the Commandant of the Marine Corps 
signed an Infrastructure Reset Strategy in November 2016 to reverse the 
ongoing decline in Marine Corps Facilities
    condition and close the growing gap between facilities requirements 
and available resources. The Commandant's vision is to sustain 
infrastructure and installations as capable, resilient, right-sized 
platforms to generate force readiness and project combat power.
    Although we have a comprehensive strategy, we will continue to 
prioritize investment of limited resources based on mission and 
condition. Further, current levels of investment will cause the 
condition of our facilities to degrade as we defer sustainment and it 
will lead to more costly repairs and restoration costs. We do 
appreciate the additional $154 million provided this year for hangars 
at Miramar. We would appreciate Congress' continued support of our 
optimization and modernization efforts.
                  ground equipment risk and condition
    The prioritization of current readiness also comes at the expense 
of equipment modernization, which equates to future readiness. Further, 
the high op-tempo of the last 15 years of operations has strained our 
equipment set and has caused accelerated aging. While our equipment has 
performed well, the dual challenges of equipment age and continued 
wear-and-tear has led to ground equipment readiness challenges. 
Adequate maintenance funding is stretched to maintain readiness across 
the depth of the force.
    Due to the tremendous support of Congress, the reset of our 
equipment is 92 percent complete. While this is a significant 
accomplishment, the constrained fiscal environment has prevented us 
from reconstituting and modernizing the force. Our most important 
ground legacy capabilities continue to age as modernization efforts are 
not moving quickly enough.
    We have extended the service life of older platforms such as the 
Light Armored Vehicle (LAV) and Amphibious Assault Vehicle (AAV) well 
beyond expected retirement dates; both platforms remain operational due 
to the extraordinary sustainment efforts of our marines and civilians, 
as well as continued investment in service-life extension programs. Our 
AAVs are now more than four decades old. Our AAV Survivability Upgrade 
(SU) Program will sustain and marginally enhance the capability of the 
legacy AAV, but this does not remove the need to modernize this nearly 
obsolete platform. Additionally, the average age of LAV's within our 
inventory is 26 years; the oldest vehicle is 34 years old. As of today, 
there is no program identified to replace this capable, but outdated 
platform and we continue to incur increasing costs to extend its life.
    Although resourcing of depot and field level maintenance has kept 
pace with requirements over the last decade with both baseline and OCO 
funding, sufficient funding is required in the future to maintain 
ground equipment readiness due to the aging of our equipment . Four 
critical weapon systems (AAV, LAV, Tank, and M777 Howitzer) account for 
approximately 70 percent of the Marine Corps' depot maintenance budget 
and these costs are steadily rising. For instance, the AAV depot 
sustainment plan cost $49 million in fiscal year 2011 and now costs $82 
million.
    Our High Mobility Multipurpose Wheeled Vehicles (HMMWV) is another 
example of the ground equipment readiness challenges we face today. 
Thirty years ago, the HMMWV was not developed through the prism of 
asymmetric warfare and improvised explosive devices (IED). Increased 
weight on the chassis with the armored variant and a challenging 
operating environment has led to higher sustainment costs. Continued 
support for our procurement requests to purchase the Joint Light 
Tactical Vehicles (JLTV) to replace our HMMWVs is appreciated. Another 
challenging subset of equipment is high demand/low density (HD/LD) 
items, primarily communication assets and specialized tool sets, which 
support the ability of units to operate in dispersed locations.
    Our Depot Production Plants at Albany and Barstow are an essential 
component to our ground equipment readiness strategy and have been 
instrumental in maintaining the readiness of our equipment. However, we 
can only fund our depot maintenance account to 80 percent of the 
identified requirement which has led to a backlog. To offset this, we 
are instituting a refined conditions based methodology to better inform 
future maintenance actions.
    Our constrained maintenance funding has made it difficult to keep 
up with the level of maintenance required. Critical, aging weapons 
systems, such as tanks, AAVs, and artillery, are increasingly costly to 
maintain resulting in readiness levels near 70 percent. To maintain 
readiness levels across our entire equipment set, available readiness 
funding is stretched. Your support of our readiness funding requests 
will improve combat equipment availability in support of operations and 
training. As we look to the future, our enterprise ground equipment 
management efforts will align USMC material requirements with available 
resources to ensure the Marine Corps is the most cost effective and 
cost efficient steward of the US taxpayer dollar.
    The Marine Corps has a plan to regain and sustain unit readiness; 
and with your continued support, we can achieve our organizational 
readiness requirements leading to a balanced Marine Corps that is 
healthy and is able to train and operate with needed equipment for all 
assigned missions.
                               innovation
    While we are focused on readiness for today, we are innovating to 
achieve readiness in the future. We are implementing unmanned 
platforms, 3D printing and predictive supply/maintenance capabilities 
to optimize tactical distribution, modernize the supply chain, and 
increase equipment readiness. Within our Installations, we are moving 
towards ``smart cities'' and advanced transportation technologies to 
reduce operating costs. Across the Installations and Logistics 
portfolio, we are leveraging the rapid advancements in technology 
available today. Most importantly, we are committed to delivering these 
future capabilities to ensure sustainable readiness.
                               conclusion
    On behalf of all of our marines, sailors--many deployed and in 
harm's way today--and their families and the civilians that support 
their service, we thank the Congress and this committee for this 
opportunity to discuss the key challenges your Marine Corps faces. Your 
support of our funding requests will provide the ``ready bench'' our 
Nation requires and the infrastructure the force needs to train and 
sustain itself. Our future readiness relies upon sufficient procurement 
and modernization funding. With the support of the 115th Congress, we 
will move forward with our plan and vision to ensure your Marine Corps 
is organized, manned, trained and equipped to make marines and win our 
Nation's battles.

    Senator Inhofe. Thank you, General Dana.
    Now Lieutenant General Lee Levy II, United States Air 
Force, Commander of the Air Force Sustainment Center, United 
States Air Force Materiel Command, and very busy at Tinker Air 
Force Base.

     STATEMENT OF LIEUTENANT GENERAL LEE K. LEVY II, USAF, 
  COMMANDER, AIR FORCE SUSTAINMENT CENTER, UNITED STATES AIR 
                     FORCE MATERIEL COMMAND

    Lt. Gen. Levy. Good afternoon, Chairman Inhofe, Ranking 
Member Kaine, distinguished members of the subcommittee. Like 
General Dana and my colleagues to the right, thank you for 
allowing us this opportunity to testify before you on the 
readiness of our United States Air Force.
    On behalf of our Acting Secretary, the Honorable Lisa 
Disbrow, and our Chief of Staff, Dave Goldfein, thanks for your 
support and demonstrated commitment to our airmen, our Air 
Force civilian families and veterans.
    Without apology, your United States Air Force has delivered 
global vigilance, global reach, and global power for the 
Nation. We are always in demand, and we are always there. We 
supported joint and coalition forces throughout every 
operation, and we have secured the homeland through continuous 
surveillance and air defense.
    We have done all this with a force that is now 30 percent 
smaller than at the outset of Desert Storm and aircraft and 
infrastructure that continues to age and present new 
challenges. Literally, we are finding ways to do more with 
less.
    Your total force airmen, Active Duty, National Guard, Air 
Force Reserve, and our dedicated civil servants, are amazing, 
and they continue to seek new and innovative ways to get the 
job done.
    Make no mistake, your United States Air Force is ready to 
fight tonight. But I am concerned about our ability to sustain 
our Air Force to fight tomorrow.
    Threats to the Nation and our vital national interests 
continue to evolve and adapt present formidable challenges that 
threaten us and our allies. As we develop advanced airspace and 
cyber capability for tomorrow, we must continue to adapt our 
readiness, sustainment, and logistics enterprise as well.
    As General Wyche said, the organic industrial base is the 
Nation's insurance policy. It underpins our readiness to fight 
not only tonight but be prepared to fight and sustain into the 
future. The Air Force Sustainment Center underwrites this for 
our Air Force joint partners and allies.
    Our command has responsibility for nuclear sustainment and 
supply chain management for two-thirds of the Nation's nuclear 
triad. Nuclear deterrent operations are the bedrock of our 
national security.
    Our command also has responsibility to set, open, and 
sustain theaters in times of peace and conflict, and we are 
doing this with weapons systems across our Air Force that are 
on average age 27 years old.
    The defense industrial base is brittle. We find an ever-
diminishing vendor base for sustaining our platforms and 
increasing challenges recruiting the kind of talent our Air 
Force simply must have for the future. A fifth-generation Air 
Force must have a fifth-generation workforce.
    From the logistics sustainment portfolio perspective, all 
of the service destinies are interconnected. This is not a 
zero-sum game. Our Nation's warfighting capabilities rise and 
fall together. We all must be fully functioning teammates. When 
we enter the battlespace, we rely on one another.
    For example, at Tinker Air Force Base, headquarters of the 
Air Force Sustainment Center, we are home for and sustain the 
Navy E-6B Mercury fleet. We are a critical link in our Nation's 
nuclear command-and-control architecture. We ship munitions 
from McAlester Army Ammunition Plant, from Tinker Air Force 
Base.
    You may be familiar with the boneyard at Davis-Monthan Air 
Force Base in Arizona. While some call it that, I prefer to 
think of it as a national reservoir of aerospace capability.
    To that end, they are regenerating their F-18s from long-
term desert storage to help with the Department of Navy's 
TACAIR [Tactical Air Support] challenges that you heard about a 
moment ago, while our team at Warner Robins Air Logistics 
Complex just outside of Macon, Georgia, are working hard making 
wing spars for that hard-to-replace-part for the F-18 in a 
public-private partnership to help the Department of Navy 
readiness.
    I could offer dozens more examples. While logistics and 
sustainment by itself will not win a war, it will absolutely 
lose you a war.
    The airmen of the Air Force Sustainment Center are 
predominantly civilian. Our ability to hire takes months due to 
an antiquated hiring system. In an era when software engineers 
are becoming as essential to weapons systems sustainment as jet 
engine technicians, we simply must have a better system for 
recruiting and hiring our total force airmen for tomorrow.
    We compete with industry for a scarce commodity, STEM 
[science, technology, engineering, and mathematics] graduates 
that the Nation already does not produce enough of. This 
competition for talent has readiness implications for today and 
for tomorrow.
    Our Nation needs to increase its investment in force 
structure, readiness, and modernization. We find when we do 
that, we have a full-spectrum ready airspace and cyber force to 
meet today's challenges and tomorrow's.
    Our citizens expect this from us. Our combatant commanders 
require it of us. With your continued support, our airmen and 
your United States Air Force will continue to deliver it.
    Thank you for having us today, and I very much look forward 
to your questions.
    [The prepared statement of General Levy follows:]

        Prepared Statement by Lieutenant General Lee K. Levy, II
                              introduction
    Chairman Inhofe, Ranking Member Kaine, distinguished Members of the 
Subcommittee, thank you for the opportunity to testify on the readiness 
of your United States Air Force. On behalf of our Acting Secretary, the 
Honorable Lisa Disbrow, and our Chief of Staff, General David Goldfein, 
thank you for your support and demonstrated commitment to our airmen, 
Air Force civilians, families, and veterans.
    This year the United States Air Force celebrates its 70th birthday. 
Since established as a separate service in 1947, our Air Force has 
secured peace through the full spectrum of conflict with a decisive 
warfighting advantage in, through, and from air, space, and cyberspace. 
Since Desert Storm in 1991, for the past 26 years, we have been 
operating in a continuous state of combat and combat support. 
Essentially, we have been in a steady state of war for the last 37 
percent of the history of our service. Without pause, the United States 
Air Force has delivered global combat power to deter and defeat our 
nation's adversaries; we supported joint and coalition forces at the 
beginning, middle, and end of every operation; and we have secured our 
homeland through continuous surveillance and air defense. We have done 
all of this with a force that is shrinking in size, with a fleet that 
is now an average age of 27 years old, and infrastructure that 
continues to age and present new challenges. But our Total Force 
Airmen--Active Duty, National Guard, Air Force Reserve and our 
dedicated civil servants--are amazing and they will continue to seek 
new and innovative ways to get the job done. Make no mistake, the 
United States Air Force is ready to fight tonight, but I am concerned 
about our ability to sustain our Air Force to fight tomorrow. Threats 
to this nation and our interests continue to evolve, adapt, and present 
formidable challenges that threaten our nation and our allies. As we 
develop advanced air, space, and cyber capabilities for tomorrow, we 
must continue to adapt our readiness, sustainment, and logistics 
enterprise as well.
    As the Commander of the Air Force Sustainment Center, I am 
extremely proud to represent the nearly 43,000 Total Force Airman 
across 23 locations in 18 states and several overseas locations that 
are laser focused on providing the best sustainment and logistics 
capabilities for the available funding to meet the challenges of 
tomorrow. Literally, we are finding ways to do more with less.
    Since its creation as part of Air Force Materiel Command's 
reorganization in 2012, the Air Force Sustainment Center has delivered 
combat power for America through a globally integrated, agile logistics 
and sustainment machine spanning from factory to flight line and back, 
representing and supporting all aspects of Logistics. We directly 
support every combatant commander, service, and many interagency 
partners as well as 63 allied countries with depot-level maintenance, 
supply chain management, and power projection for legacy and 5th 
generation weapons systems. By achieving the right results the right 
way through our disciplined ``Art of the Possible'' leadership and 
constraints-based management methodology, we continue to yield 
significant results. Since 2013, we significantly reduced by an average 
of 70 days each the time it takes to inspect, repair, and return 
bomber, fighter, mobility, and special mission aircraft to operational 
units. Across the entire Air Force Sustainment Center, we delivered 
back to the operational commands 69 more aircraft in fiscal year (FY) 
2016 than fiscal year 2012 and we reduced critical parts shortages by 
28 percent from fiscal year 2012 to fiscal year 2016. Since 2013, 
through cost savings or cost avoidance, the Air Force Sustainment 
Center has returned $2.4 billion to the Air Force to invest in other 
areas of readiness or modernization. But we cannot continue to rely on 
savings within our current budgets to fund our future modernization and 
sustainment requirements.
    The Air Force Sustainment Center is more than the three ``depots'' 
in Georgia, Utah, and Oklahoma. Our world-class Air Logistics Complexes 
at Robins, Tinker, and Hill Air Force Bases are interconnected 
``engines of readiness'' for the Air Force as well as joint partners 
and allies, and they work as one team to deliver combat effects. The 
Active Duty, Reserve, Guard, civilian, and contractor airmen that make 
up the Air Force Sustainment Center deliver combat power to warfighters 
by adding service life to weapons systems and creating additional 
capabilities through modernizations and upgrades.
    Additionally, the Air Force Sustainment Center is the Air Force 
global supply chain manager for planning, sourcing, managing, and 
delivering over $8 billion of parts annually to the combatant commands. 
As both the wholesale and retail provider of supplies and parts, the 
supply chain is the shock absorber for Air Force readiness.
    The Air Force Sustainment Center is critically involved in, and 
essential to, sustaining our nation's nuclear enterprise--not just for 
the United States Air Force but for the United States Navy as well. 
This mission area is our number one responsibility and our sustainment 
of components for each leg of the nuclear triad is vital to our nation 
maintaining a credible nuclear deterrent. We directly enable bombers, 
inter-continental ballistic missiles, dual capable fighters, air 
launched cruise missiles, and Navy command and control aircraft that 
communicate with submerged nuclear assets.
    To continue to provide Air, Space, and Cyber supremacy in today's 
evolving global security environment, our Air Force requires sustained, 
long-term, and predictable funding. If Budget Control Act-level funding 
returns in fiscal year 2018, it will have severe impacts on our airmen 
and readiness. The most important actions this Congress can take to 
ensure the world's most powerful Air Force will continue to dominate 
the skies tomorrow will be to repeal the 2011 Budget Control Act and 
ensure sufficient funding to modernize our weapons systems and 
infrastructure. We appreciate your support to build the force up to 
about 321,000 in 2017, yet we will remain stretched to meet national 
security requirements. We are currently working with the Secretary of 
Defense to develop the fiscal year 2018 Presidential Budget to address 
manning shortfalls in key areas. We must increase our Active Duty, 
Guard and Reserve manning levels in key skill areas to meet the 
emerging mission requirements while continuing to support enduring 
combat operations.
                        challenges to readiness
    The Air Force Sustainment Center--with its organic industrial 
base--is the nation's readiness and war sustaining insurance policy. We 
are proud to sustain America's first and most agile response to crisis 
and conflict, underwriting every joint operation. We provide critical 
enablers in the air, space, and cyber domains and those demand signals 
are going to continue to increase over time. But we continue to 
experience significant readiness challenges in funding, workforce 
hiring, and aging infrastructure and weapon system sustainment.
    Recently, the Vice Chief of Staff of the United States Air Force, 
General Wilson, testified to this committee and stated: `` . . . being 
`always there' comes at a cost to our airmen, equipment, and 
infrastructure; we are now at a tipping point. Sustained global 
commitments combined with continuous fiscal turmoil continue to have a 
lasting impact on readiness, capacity, and capability for a full-
spectrum fight against a near-peer adversary.'' Those costs have unique 
implications within the Air Force Sustainment Center.
                 civilian workforce hiring initiatives
    The Air Force Sustainment Center depends on a 79 percent civilian 
workforce. Our civilian airmen bleed equally blue as those that wear 
our uniforms and they serve and sacrifice for our nation as well. As we 
evolve and adapt our weapons systems and concepts of operations, we 
must evolve and adapt our workforce. A 5th Generation Air Force 
requires a 5th Generation workforce. Requirements for a Science-
Technology-Engineering-Math (STEM) educated workforce and advanced 
manufacturing and technical skills are ever increasing. We no longer 
just buy airplanes; we buy highly integrated, sophisticated software 
packages that come in sophisticated airframes. Each weapon system we 
procure brings with it an increasing requirement for software 
development and maintenance to perform almost every function on the 
aircraft, from controlling flight controls, interfacing with weapons, 
navigation and communication, recording system health and status, etc. 
All of this ``cyber'' capability must be designed so it is resilient to 
sophisticated cyber warfare. Our requirements for scientists and 
engineers to sustain these software-intensive weapons systems are 
increasing dramatically. In addition to developing and sustaining new 
weapons systems, our engineers must also find ways to sustain our aging 
legacy systems. From understanding airframe stress, metallurgy, non-
destructive inspection techniques, and reverse engineering parts, it 
takes a talented pool of engineers to help us sustain our legacy Air 
Force. As we bring new weapons systems on line and continue to sustain 
our legacy fleet, our civilian engineers are a pivotal component of 
readiness. As we project a steady increase in the technical workforce 
needed to support critical warfighting systems, any government actions 
that make it more difficult to recruit and retain a skilled workforce 
are detrimental to our readiness.
    An antiquated civilian hiring system also constrains our ability to 
effectively compete with industry for a qualified workforce. The 
ability to hire engineers to sustain our Air Force is a strategic issue 
for our nation. We are experiencing a sustained annual growth in our 
requirements for the number of software engineers by 10-15 percent. 
While we aggressively try to hire qualified engineers, we simply cannot 
get enough qualified applicants to meet our demand. Most recently, to 
hire 465 new scientists and engineers, we expanded our recruiting 
efforts across 85 universities in 24 states. This year, our hiring 
target is 528 new scientists and engineers. To meet this growing 
demand, we continue to devote significant resources to our recruiting 
efforts. However, over the past two years, we did not meet our hiring 
goals, resulting in being short 569 hires at the end of fiscal year 
2017. Without these engineers, our ability to sustain our Air Force 
today and into tomorrow is in jeopardy. Our nation's Air Force is 
rapidly transitioning into an information-age fighting force and our 
ability to sustain and rapidly modify key software in our weapons 
systems will prove to be a decisive capability in the conflicts of 
tomorrow.
    Two key programs have yielded great benefits in hiring and 
retaining our scientist and engineer workforce. First, the Defense 
Acquisition Workforce Development Funds have been a valuable resource 
supporting our efforts to recruit, hire, retain, train, and develop our 
scientist and engineer workforce. Second, last year, the Air Force 
Materiel Command implemented the DOD Civilian Acquisition Workforce 
Personnel Demonstration Project (AcqDemo) for the acquisition 
workforce, including scientists and engineers. Although we are just 
getting started, AcqDemo provides vital flexibilities that enable us to 
offer competitive salaries and compensate our technical workforce 
according to performance. The Air Force Sustainment Center appreciates 
your continued support of these programs.
    Manning shortfalls impact our ability to keep pace with our current 
workloads as well as prepare for future workloads like the KC-46A. Our 
scientist and engineer hiring efforts presume a healthy supply of 
graduates with the right degrees. Especially in the area of software 
developers and cyber experts (electrical engineers, computer engineers, 
and computer scientists) we must continue to expand this pipeline. As a 
nation, we must continue the full-court press to attract, excite, and 
educate the next generation of STEM patriots. Last year, volunteers 
from the Air Force Sustainment Center donated over 6,000 hours to STEM 
outreach initiatives. Through funding in the Department of Defense for 
STEM outreach programs, such as STARBASE, we provided $700,000 in 
fiscal year 2016 to support competition teams, sponsor events, and do 
classroom enhancements. Continued fiscal support for K-12 STEM 
outreach, scholarships, and internships like the DOD SMART scholarship 
program, will help expand the supply for STEM graduates that will 
enable the Air Force Sustainment Center to hire the technical workforce 
we need in the future.
    Our workforce challenges are not just with engineers and 
scientists. We also rely on a very large labor force of highly skilled 
technicians and mechanics. The populations of trained mechanics is 
simply not available in the same quantities as in the past. While we 
work very closely with vocational training centers around our Air 
Logistics Complexes, we must still rely heavily on former military 
technicians that separate or retire from Military Service and seek a 
government civilian position. The 180-day waiting period to hire 
military retirees also reduces our ability to hire required personnel.
                            other challenges
    In addition to workforce challenges, the unpredictable state of 
defense appropriations over the past few years significantly impacts 
our ability to hire personnel and work with industry partners. Many 
companies are not eager to invest in advanced technology or sustain 
existing sustainment capacity when the future of defense funding is 
volatile and uncertain. Many talented personnel are deterred from 
working for the government when they hear about furloughs and other 
uncertainties. Industry partners are disincentivized to bid on 
contracts when budgets are unpredictable or it is not cost-effective 
for them to manufacture small quantities of parts. As a result, we 
receive fewer bids or ``no-bids'', which translates into less 
competition, increased costs, and operational impacts to our 
warfighters. A smaller industrial base is also creating diminishing 
manufacturing and repair sources for many of our aging weapon systems.
    The Air Force Sustainment Center works closely with industry 
leaders to leverage technology and advanced manufacturing and repair 
capabilities to help us sustain our Air Force. We must lean on industry 
partners to develop engine test capabilities for the future. We watch 
major Maintenance Repair and Overhaul (MRO) and Supply Chain companies 
adapt and evolve to meet the demands of their customers, and we learn 
what we can from their experiences, while they continue to learn from 
us. We must continue to reduce barriers to collective innovation that 
will benefit commercial business as well as government systems. 
Currently, there are barriers to collective innovation because of 
statutes that prevent collaboration with industry and academia to 
utilize depot resources for collaborative problem solving.
                 shaping future logistics capabilities
    The future of warfare is hybrid and multi-domain. Air dominance is 
not a national birthright. Our adversary's increased capabilities in 
advanced air defense systems and 5th generation aircraft compel us to 
find more ways to sustain our Air Force through agility and global 
integration. Additionally, we currently do not have the ability inside 
Air Force logistics to deconflict and prioritize competing requirements 
and then articulate those risks back to the
    combatant commanders. This gap presents risk because the 
responsible combatant commanders must absolutely understand realistic 
and risk-based options and alternatives to be mission effective. Having 
multi-domain logistics command and control will help shape operational 
schemes of maneuver and determine whether or not we have the agility to 
adapt across multiple domains in multiple geographic locations 
simultaneously. The necessary processes, decision support tools and 
visibility are necessary for us to be successful. Our adversaries do 
not limit their thinking by lines on a map or combatant commander 
boundaries. Their perspective is hybrid, global, and multi-domain. Our 
ability to command and control logistics capabilities from opening and 
sustaining theaters across the globe and resetting the forces will be 
paramount. Global Logistics agility and the management of scarce assets 
can only be achieved via a robust global logistics command and control 
architecture and supporting networks.
    The current state of logistics has a theater-centric focus. It is 
reactive with no common operating picture for logistics, leading to 
ineffective global asset utilization. The multi-domain logistics 
command and control is an enterprise-level view of Air Force logistics 
to optimize warfighter support. By implementing multi-domain logistics 
command and control, we will no longer think about one combatant 
command area at a time. It will create complete global asset visibility 
and decision support tools to best assign and allocate limited global 
resources to meet immediate theater needs. This new way of operating 
will allow us to integrate with global and theater planning, articulate 
risk to the combatant commanders, provide intelligent logistics command 
and control in anti-access and area denial environments, prioritize and 
synchronize resources, set and re-set the theaters, and interact with a 
global distribution network.
    We do not currently have a command and control system that allows 
us to have resilience and mission assurance. This will be essential to 
the combatant commanders in future warfighting.
                                closing
    The Air Force Sustainment Center continues to deliver combat power 
to our combatant commanders. We can fight and win tonight. But we must 
continue to adapt and rely on additional investments and resources to 
ensure we are ready to deter and defeat potential adversaries tomorrow. 
As the logistics enterprise evolves and adapts, we must have a multi-
domain logistics command and control capability that will be able to 
utilize limited resources across multiple theaters in multi-domain 
conflict. High velocity combat support to the warfighter through pre-
positioned resources and the ability to swing logistics forces from one 
point of need to another point of need will be essential. General Eric 
Shinseki once said, ``If you don't like change, you'll like irrelevance 
even less.'' We, as the Air Force Sustainment Center, simply cannot 
afford to be irrelevant because the risks are just too great . . . the 
Air Force and the nation rely on us.
    Since 1947, the Air Force has relentlessly provided America with 
credible deterrence and decisive combat power in times of peace, 
crisis, contingency, and conflict. However, our relative advantage over 
potential adversaries is shrinking and we must be prepared to win 
decisively against any adversary. We owe this to our nation, our joint 
teammates, and our allies. The nation requires full-spectrum ready air, 
space, and cyber power, now more than ever. America expects it; 
combatant commanders require it; and with your support, airmen will 
deliver it.

    Senator Inhofe. Thank you, General Levy.
    Let's start with you because I can remember, 30 years ago, 
we were talking about the core competencies and organic 
capability. At that time, I thought it was rather arbitrary to 
come up with a 50/50. Well, that was 30 years ago, and we still 
are 50/50, but it seems to have worked. A lot of people have 
not stopped to think about why it is necessary to keep this 
core capability.
    So, just briefly, anyone who wants to answer the question 
as to why it is significant that we have that core capability, 
feel free to respond.
    LTG Wyche. Senator, I will start with talking about several 
one-of-a-kind capabilities within the organic industrial base 
that is unique to our organic industrial base, and that is 
Watervliet. Watervliet produces large caliber cannon tubes for 
the Navy, for the Marines. At Fort Sill, Oklahoma, all of the 
houses there have these gun tubes. Those gun tubes are only 
made in this hemisphere.
    So that is a very unique capability that you just cannot go 
and get out in industry, and that is why we need to reserve 
those unique core capabilities within the organic industrial 
base, Senator.
    Senator Inhofe. That is good.
    General Levy?
    Lt. Gen. Levy. Yes, sir. So we find 50/50 to be 
extraordinarily useful, particularly when coupled with the core 
statute, because we think about what General Wyche said in his 
opening comments. The organic industrial base is the Nation's 
insurance policy.
    That logistics and sustainment infrastructure exists to 
provide for the Nation in times of war, to behave as that 
buffer and ability to surge. When we find there is a healthy 
relationship between industry and the organic industrial base, 
what we find is that both sides improve their performance, 
drive down overall sustainment costs, and deliver best-value 
capabilities for the warfighter while at the same time 
preserving that critical insurance policy, if you will, that 
ability to surge for the Nation.
    It also drives--and I mentioned in my remarks the 
brittleness of the defense industrial base. It also drives a 
certain level of what I like to sometimes refer to as 
coopetition, the healthy relationship between commercial firms 
and the government activities in parts of the marketplace where 
there might only be one vendor.
    Senator Inhofe. Yes. That is a huge point there, because we 
went through a period of time when we experienced such things. 
This has been a moving target.
    I do appreciate that. It is an insurance policy, I think we 
will all agree.
    For clarification, Admiral, when you were talking about 
your
F-18 program, you were talking about just the Navy and not the 
Marines. Is that correct?
    VADM Grosklags. Sir, actually, speaking of both.
    Senator Inhofe. You were? Because our testimony that we 
heard when we had the other hearing, that I referred to in my 
opening statement, the Marines, 62 percent of their F-18s were 
down. What kind of percentage do you have, if you exclude 
those, out of the rest of the Navy?
    VADM Grosklags. I can tell you that I agree with that 
number for the Marine Corps. For the Navy, it is comparable.
    What I was referring to specific on the comment I made 
about the depots and kind of reaching the peak of our depots 
throughput requirement was a difference between outer reporting 
aircraft, which are in our depots or long-term storage, versus 
those on the flight line, which is the number that you are 
referring to.
    Of the flight-line aircraft, there are approximately 60 
percent of those today that are not----
    Senator Inhofe. Yes, I think that is right.
    You know, General Levy, Congress was skeptical about the 
creation of the Air Force Sustainment Center. I think the 
concerns that were expressed at that time are pretty much 
answered by this time, but you are the one who was in a good 
position to respond as to why it is necessary and its success.
    Lt. Gen. Levy. Yes, sir. Thank you for the opportunity to 
address that.
    I will tell you that, from our view, the Air Force 
Sustainment Center creation has been a tremendous success.
    Let's just talk money, for example. In the 4 years since 
the Air Force Sustainment Center was created and we have begun 
to operate Air Force logistics as one common enterprise, we 
been able to return $2.4 billion back to our United States Air 
Force. That is validated by the Air Force audit agency. That is 
money that goes back to addressing readiness and critical 
modernization challenges that our Air Force has.
    From a performance perspective, we have managed to cut flow 
days and improve safety and quality on all of our platforms. We 
now have B-1s at the shortest amount of flow days ever. We have 
now taken over the ability to do things, for example, when 
businesses go out of existence at Robins. There was a vendor 
that went out of business that makes critical parts for the C-
5. The Air Force Sustainment Center team at the Warner Robins 
Air Logistics Complex was able to rapidly internalize that and 
keep the C-5 readiness at the level we need it to be at.
    We were able to, for example, with the KC-135, the KC-135 
MRO [maintenance, repair and overhaul], go from three sources 
of repair, two commercial and one organic, to one source of 
repair, organic. Now every KC-135 in the United States Air 
Force, about 76 a year, receive their program depot maintenance 
at the Air Force Sustainment Center at Tinker Air Force Base.
    All three of those locations, at Hill Air Force Base, 
Tinker Air Force Base, and Robins Air Force Base, operate as an 
enterprise. So if an F-15 comes into Robins for repair, the 
engine comes to Tinker and the landing gear goes Hill.
    By operating as an enterprise, we find efficiencies. We 
find synergies. We drive our performance. As importantly, we 
drive down costs to our Air Force.
    Senator Inhofe. Yes. It was different. I remember back when 
they had five ALCs [Air Logistics Centers] and then we made the 
step down to three, so I think that is very significant. That 
is an excellent answer.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    A question for Admiral Moore about shipyard challenges. 
Shipyards are critical to maintaining fleet readiness and also 
supporting forward presence. While there have been a number of 
success stories at our shipyards, there are also a lot of 
challenges that we have heard about: loss of experienced 
workers, lengthy periods required to rebuild, lost experience, 
aging infrastructure, and IT systems. I have two questions.
    First, what actions is the Navy taking to address long-term 
challenges at the shipyards that could affect our ability to 
complete maintenance on schedule? Second, how do we determine 
and measure the health of shipyard infrastructure? I have heard 
some of you guys use the term fester factor when describing how 
a ship is doing, but how do you measure how a shipyard is 
doing, in terms of being able to perform its maintenance tasks?
    VADM Moore. Yes, sir. Thank you for the question.
    So to the first question, I think following the sequester 
in 2013, we have had a significant challenge, as you discussed, 
in getting our ships and submarines out on time.
    It is a combination of things. We certainly have run the 
ships hard since 9/11. We have had an inexperienced workforce. 
To your second question, which I will get to, the 
infrastructure is really not a 21st Century shipyard 
infrastructure.
    Then, frankly, we just did not have enough people in the 
shipyards to do the work that was required to get done.
    We have taken some significant action over the course of 
last year. There is more work to be done, and I think we are 
starting to see the loss days go down a little bit. So, first 
and foremost, we have to understand what work has to be 
accomplished on our ships and submarines, so we really have 
worked hard to go back and look at our class maintenance plans, 
look at the work that is required, and define what that 
requirement is, and then go back to the Pentagon and explain to 
them what work needs to get done.
    Then we have to be able to recognize that we just do not 
have enough workforce in the naval shipyards. So it is not 
necessarily--it is not just a matter of them working harder. 
They are great national assets to us, but if you do not have 
enough workers to get the work done, you are inevitably going 
to get the ships late.
    So we have started to hire. We have hired 16,500 new 
workers over the last 5 years. We are still about 2,000 people 
short, and I am working very hard with the CNO to get to that 
number, and we need to get there.
    Along with that is a recognition, as you hire all these 
people, a young workforce, that you have to get them trained. 
In the past, it would typically take 4 to 5 years to take a new 
shipyard worker and get them to kind of a journeyman level 
where you could trust them to go work on a nuclear submarine or 
carrier. Today, we have invested a lot of money in our training 
system so that a young worker coming in today, it takes them 
about 1 to 2 years, to the point that they can actually provide 
real wrench-turning on the ship. I think that is something that 
is really, really important to us. So improved training and the 
hiring processes we have.
    To your second question on the health of the 
infrastructure, across-the-board, we have a long list of things 
that need to get accomplished in the shipyards today. I have to 
be able to figure out how to go make the case to make the 
investments in the naval shipyards.
    If I am at Newport News Shipbuilding, I incentivize them 
and they can incentivize themselves to go buy new welding 
equipment, new cranes, et cetera, because it helps them on the 
bottom line. It improves their cost performance.
    In the naval shipyards, we do not have the same mechanisms. 
So if you were to go look at the shops and things, you know, I 
need new welding equipment. I need workflow processes that are 
better. I need improvements to the dry docks across-the-board.
    Those investments in the naval shipyards are going to be an 
important component to our ability to get the workforce to be 
more productive. It is pretty hard to demand a worker to get 
more productive when he is working with tooling that is 15 to 
20 years old where his counterpart in the private sector is 
using something that is a lot more state-of-the-art.
    So it is a holistic plan that we have to work across-the-
board on. You have raised an important issue with the 
infrastructure piece. It is something that we have tended to 
ignore and just focus on getting the right number of people in 
naval shipyards. But I would argue just getting the right 
number of people in naval shipyards by itself is not enough. 
You have to give the workers the tools necessary to get the 
work done.
    Senator Kaine. I just have a minute left. But others, could 
you weigh in on the workforce challenge?
    In other subcommittee hearings, we have heard about losing 
pilots to commercial aviation. In terms of hiring your own 
maintenance workers across your various portfolios, do you face 
increased competition from the private sector? Talk a little 
bit about the workforce challenges that Admiral Morris just 
described.
    LtGen Dana. Sir, I would say for the Marine Corps, in our 
depots, we are blessed with a great workforce.
    You mentioned this in your opening statement. To keep them, 
what we are trying to do, and we are actually working on it, is 
in terms of giving them additional skillsets--we talked a 
little bit about innovation in the workplace and at the depots 
with added manufacturing and 3D printing, being able to do CAD 
[computer-aided design] diagrams. We are partnering with local 
colleges in the Albany, Georgia, area--we are going to do the 
same in Southern California, also at some of our bases on 
coastal Carolina--to provide these workers skillsets that they 
can use elsewhere.
    I know that sounds somewhat counterintuitive, but we feel 
that if we are showing that we are taking care of that 
workforce, giving them those additional skillsets to excel in 
the 21st Century environment, then they will stay with us out 
of loyalty.
    VADM Grosklags. Sir, if I may really quickly, of our major 
three fleet readiness centers in North Carolina, Florida, and 
San Diego, San Diego is really the only one we have a challenge 
with in terms of hiring people. We have underexecuted our 
hiring plan there for several years in a row, and it is largely 
due to competition for the workforce as well as the high cost-
of-living out there.
    So we have turned to basically hiring bonuses, which has 
had a significant impact, positive impact, over the last 6 
months.
    The NDAA language this year in 2017 that is going to give 
us some direct hiring authority we believe will be very helpful 
once we fully implemented that.
    The other thing we are actually looking at trying to 
implement with OPM [Office of Personnel Management] is some 
increase in locality pay.
    So we are making progress. But in that type of high-cost 
environment where just up the road in the Los Angeles area you 
have a very competitive aerospace industry, that is a challenge 
for us.
    Lt. Gen. Levy. Senator, I would also offer that it is the 
entire team. So we tend to talk about the depot artisans, the 
jet engine mechanics, or the shipyard workers. But, frankly, it 
is the entire team. It is the engineers. It is the firemen. It 
is the entire ecosystem. The quarterback without the rest of 
his or her team is simply not going to be effective.
    So the challenge is hiring across the variety of skillsets. 
But I will tell you, while we talk about things such as pilot 
shortages and other critical skillsets, I mentioned in my 
opening remarks, we simply do not produce enough engineers in 
the Nation. We have a challenge hiring them and keeping them.
    I have 3,600 engineers in the Air Force Sustainment Center. 
That is more than the Air Force Research Laboratory. We are in 
a close-in battle with industry to recruit and retain that kind 
of workforce, and they are absolutely essential.
    So it is really about the entire ecosystem for us.
    We also find that much like we talk about pilot shortages, 
we see shortages in some of the aircraft skills--avionics, 
electricians, jet engine mechanics--because many of those men 
and women come to us from Military Service. With the Military 
Services being smaller, producing fewer and fewer American 
youth going into those lines of work to begin with when they 
come out of high school or going through vo-tech [vocational-
technical], that presents some additional challenges for us.
    But we partner very closely with all the colleges and 
universities and the vo-techs in the neighborhood of our 
primary installations. Actually, from an engineering 
perspective, we recruit nationwide to try to find the very best 
talent because in a software-driven Air Force, as we move to 
that Information Age Air Force from that Iron Age Air Force, we 
have to have that kind of talent.
    Senator Kaine. Mr. Chairman, I am over my time, but could 
General Wyche just answer the question too?
    Senator Inhofe. Sure.
    Senator Kaine. Thank you.
    LTG Wyche. Senator, in regards to the hiring freeze, it 
does create some challenges for us.
    Now we are able to meet our mission requirements. If that 
hiring freeze is extended beyond 90 days, it will have an 
impact on us recruiting a workforce, getting them in place, so 
they can continue to deliver those weapons systems.
    Senator, you can recall back in 2013 when I was at Fort Lee 
when we went through sequestration. That was not a good time 
for our employees at Fort Lee and our Army.
    With regards to the industrial base, we lost 7,000 
employees. At McAlester alone, they lost 167 employees that 
never returned to McAlester because they went to other 
industries such as the oil industry. We are at that point where 
we are just beginning to recover from that.
    So we are working through those, but the hiring freeze does 
have some challenges that we are working through.
    Senator Inhofe. Thank you, Senator Kaine.
    Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, gentlemen, for being here and testifying today 
on our industrial base and the critical role that it plays in 
our military readiness. I recently visited Iowa Army Ammunition 
Plant, which is a government-owned, contractor-operated 
facility in my home State, and their ability to rapidly 
increase workload and provide a stable supply of ammunition is 
a key part to our national security.
    However, due to their dependence on the Army to modernize 
the facility, their techniques, the manufacturing techniques, 
are behind. This is not something I blame the contractor for. 
They have put forth a proposal for the Iowa ammunition plant 
that could save the Army and taxpayers $18 million per year, 
paying for itself in less than 5 years.
    The cost-saving decisions currently sit with the Army, so, 
General Wyche, this is for you. What is the Army doing to 
modernize its GOCOs [government-owned contractor-operated] in 
order to help drive down production costs and cut overhead?
    LTG Wyche. Senator, we are doing a couple things.
    First, we have identified the requirements, and we know 
that, to maintain the facilities, just to keep them from being 
degraded, it would cost us approximately $100,000 a year and to 
get them at an acceptable level with the modernized 
capabilities, it would cost us another $300 million for the 
next 10 years.
    Senator Ernst. Okay.
    LtGen Dana. Ma'am, if I could help out my Army brother on 
this, because they help us with ammo.
    Senator Ernst. Yes, sir.
    LtGen Dana. I made a trip to Lake City, which is one of the 
large ammunition plants in the Midwest. What is just 
fascinating about that facility is half the facility had 
equipment from 1942. I own a lot of weapons, not in DC, by the 
way, but I blowup my own ammo.
    Senator Ernst. Do not admit that now. Right.
    LtGen Dana. But if you look at how they work in the plant, 
it is just like they did in 1942 with the primers and the 
primer powder. It is very dangerous work.
    But then the other half, because the Army's great 
initiative is they went to automated in the plant, so they 
retrained that workforce to go for the guys and gals doing it 
for 30 years one way to where they are doing automated 
machinery, and they are doubling the output.
    One of the questions was, how can the industrial base meet 
that requirement for ammunition? Well, I think the Army is 
doing a great job at that.
    Senator Ernst. Yes. Hopefully we can modernize and get to 
that point where we are not losing that workforce but we are 
stabilizing the supply as well as growing that supply with 
demand as necessary. I appreciate that.
    In 2015, the GAO came forward with three recommendations to 
ensure we sustain the critical capabilities found at our 
arsenals. The first issue is implementing guidance for make-or-
buy analysis when it comes to DOD procurement. The second was 
to identify fundamental elements of a strategic plan for the 
arsenals. The third is to develop and implement a process for 
identifying critical capabilities at arsenals and the workload 
needed to sustain those capabilities.
    The Department has concurred with all of those 
recommendations, but as of this morning, they have not followed 
through with any of those recommendations or produced the 
reports necessary.
    I have been through the Rock Island Arsenal, and I really 
witnessed what the men and women are doing at that arsenal to 
contribute to our national security. This is taking a long 
time.
    General Wyche, again, when will we see the reports that 
have been required, specifically the critical capabilities 
assessment and the guidance on make or buy?
    LTG Wyche. Senator, that particular area of make or buy, I 
would have to come back to you on the record with that 
particular answer, because I am not prepared to answer that 
question.
    [The information referred to follows:]

    The Assistant Secretary of the Army for Acquisition, Logistics and 
Technology, the Army Materiel Command, and the Department of the Army 
Deputy Chief of Staff for Logistics are working together to update both 
the GAO and Congress on these topics. The initial response to the GAO 
report was submitted by the Army on 5 January 2016. The GAO submitted a 
follow up inquiry on the Army's efforts/actions to implement GAO Report 
16-086 recommendations. The Army Materiel Command is working with the 
Assistant Secretary of the Army for Acquisition, Logistics and 
Technology on the response for submission to the Office of the 
Secretary of Defense in mid-May. Additionally, we are also 
collaborating on the NDAA 2017, section 326 report to Congress. Section 
326 requires the Secretary of the Army to submit to the congressional 
defense committees a strategy to revitalize the Army organic industrial 
base. This report includes several Arsenal-related requirements 
including an assessment of OIB manufacturing sources, an assessment of 
the processes used to identify OIB critical capabilities and sustaining 
workloads, and a description of manufacturing skills needed to sustain 
readiness.

    Senator Ernst. Okay. I would appreciate that, because that 
is very concerning, especially to the folks at the arsenals.
    LTG Wyche. Yes.
    Senator Ernst. They would like to see those reports as soon 
as possible.
    Thank you.
    Thank you, gentlemen.
    Senator Inhofe. Thank you, Senator Ernst.
    Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you very much for testifying. I feel as though, with 
the sequester and with the budget caps, et cetera, that we are 
just doing a lot of catch-up, so I thank you for what you are 
doing with what we have provided to you.
    Many of you have mentioned how hard it is to recruit or 
retain our workforce, that is a critical part of our industrial 
base, and at the same time how important it is that the men and 
women who do the work have modern equipment.
    So, of course, at Pearl Harbor Naval Shipyard, I am always 
concerned about whether or not they have the tools with which 
to do the job. I am just thankful that you continue to 
emphasize those aspects.
    General Levy, you were one of the people who mentioned 
about recruiting and retaining. I am just wondering, the people 
with STEM backgrounds, are you doing anything special to 
recruit women?
    You can start, and then any of the rest of you, because 
women drop out of the STEM fields at every point of the 
continuum, and unless we do something very specific targeting 
women and girls and minorities in these areas, it is just not 
going to change very much.
    So are you doing anything in particular recruiting women?
    Lt. Gen. Levy. Yes, ma'am. Thank you for asking that 
question.
    I often tell people, how long does it take to grow a STEM 
worker for an air logistics complex? About 21 years, from about 
here all the way until he or she graduates from university and 
is ready to come be one of our civilian airmen.
    So we have a variety of programs where we do outreach to 
females and to minority or disadvantaged areas. In fact, last 
year alone, my engineering community did 60,000 hours' worth of 
community outreach to try to develop interest in STEM 
curriculum throughout different parts of the communities where 
our bases are located. Obviously, it tends to be in the area 
where our facilities are located.
    Senator Hirono. Did you say you are starting at an early 
age as in middle school, elementary school?
    Lt. Gen. Levy. No, ma'am, as in elementary school.
    Senator Hirono. That is great.
    Lt. Gen. Levy. Because if you do not imbue them with that 
desire for STEM early, and if you do not give them the passion 
for learning and the intellectual curiosity, and, also, if the 
state educational systems do not have the ecosystem that 
delivers things like high school physics and calculus and that 
sort of thing, then they are certainly never going to go to 
university and be an engineering graduate.
    We also financially support as well as support with 
volunteer time the STARBASE program at all three of our primary 
installations, which is another science and technology--I would 
sort of refer to it as a learning camp for young boys and 
girls, to get them interested in STEM career fields and 
hopefully spark that interest.
    Senator Hirono. Are you doing similar kinds of outreach for 
the Army and the Navy?
    VADM Grosklags. Senator, if I could, our program with 
NAVAIR [U.S. Navy Naval Air Systems Command] is very similar to 
what General Levy just described. The other thing I would add 
is, through our Executive Diversity Council at NAVAIR, we have 
separate advisory groups, one for women, one for Hispanics, one 
for African-Americans, one for Asian-Pacific islanders, and on. 
Part of those advisory groups' major focus is exactly on 
recruiting within either those ethnic or gender groups. We have 
had very good success in doing that.
    As somebody alluded to earlier, then we have to keep them. 
One of our challenges is keeping them because it is a very 
competitive marketplace.
    Senator Hirono. Yes. I realize that.
    Anybody else?
    LTG Wyche. Yes, Senator. We have several outreach programs 
at each one of our 23 arsenals where the commanders are 
personally engaged. They are visiting colleges, identifying 
those potential students who would like to come work at our 
arsenal.
    One program that we are really excited about is the AMC 
[Army Materiel Command] 1,000 program. That is a program where 
we set a goal to hire 1,000 summer interns, 1,000 per year for 
the next 5 years. In the last 2 years, we have been able to 
reach that goal, so we are very excited about that program.
    Senator Hirono. So your summer intern program, are they 
targeted to minorities and women?
    LTG Wyche. Yes, they are. Yes, they are.
    Senator Hirono. I congratulate you for your efforts. 
Because I know this is such a needed area not just of course 
for our military but across the country, we have a need for 
hundreds of thousands of people with STEM backgrounds, so I do 
have a couple of bills that I have introduced. I will send you 
copies. The focus is on supporting more minority and women in 
these fields.
    In the few seconds that I have left, Mr. Chairman, the 
President has called for a significant increase in the number 
of ships, so I wanted to ask, this is for Admiral Moore, how 
would a Navy of 355 ships impact the current capacity of our 
public shipyards?
    VADM Moore. Thank you, Senator, for the question. We have 
already started to look at what that would take. The plan to 
get to 355 that we have laid out in our force structure 
assessment gets us there in the mid-2030s, and so we will need 
to grow the size of our naval shipyards. We will have to grow 
the size of our private sector that is building the equipment 
today.
    We are also going to have to remember, up at the 
headquarters level, where we are providing technical support 
and oversight and technical manuals, et cetera, we are going to 
have to grow all those. So the time frame between now and 2035, 
as long as there is a stable and predictable budget that goes 
along with that, we can manage to grow the workforce.
    The Navy has been at that size before, and we were able to 
maintain the force back then. If it is done in a sustained way, 
we can certainly grow the workforce to get there. We have 
already taken the steps to make those plans as we start to grow 
the force.
    Senator Hirono. So if you already have these kinds of plans 
and what it would take to get to this number, could you share 
those with our committee?
    VADM Moore. Sure. Yes, ma'am.
    [The information referred to follows:]

    The Navy is growing our organic shipyard workforce to 36,100 full 
time equivalents (FTE) across the four Naval Shipyards to meet our 
existing workload projections which peak in fiscal year 2021. The 355-
ship Navy will add nine additional submarines and one carrier above 
what is in the Navy today. To properly support a 355-ship Navy, we will 
have to modernize our four naval shipyards and possibly increase the 
size of our workforce beyond 36,100. The Navy's Shipyard Infrastructure 
Optimization Plan lays out a two-decade investment plan required to 
provide the Shipyards the Navy needs. Focused on three major areas--dry 
dock recapitalization, facility layout and optimization, and capital 
equipment modernization--the Shipyard Infrastructure Optimization Plan 
is designed to improve shipyard performance to meet fleet requirements 
based on the size of today's Navy. However, the process and 
infrastructure efficiencies realized by executing the plan will allow 
our shipyards to better support a 355-ship Navy. Going forward, the 
Navy will continue to annually assess future workload requirements and 
make adjustments to FTE numbers required to balance capacity in view of 
any new maintenance requirements, changes in ship operations, or 
changes to shipbuilding and/or ship inactivation plans. We are moving 
ahead with the Shipyard Infrastructure Optimization Plan to address our 
most pressing modernization requirement so we can deliver ships out of 
maintenance, on-time.

    Senator Hirono. Thank you, Mr. Chairman.
    Senator Inhofe. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service to our country. I 
think sometimes we get in the middle of a discussion on 
everything else and we forget that it is gentlemen like you 
that make this whole thing work, and we appreciate what you do 
and we appreciate what your teams do.
    One of our challenges is that we need to be in a position 
to supply you with the materials and equipment that you need. 
When you make reports back to us indicating that there are 
times in which you need equipment that you have right now that 
you are not able to maintain appropriately because the funding 
is not there, it is something that we have to highlight.
    I would like to begin with talking about the USS Boise.
    I know that in your opening statements for the record, 
Admiral Moore, you had based the fact that you had to make a 
determination as to whether or not a nuclear-powered submarine 
would basically remain at dock because we did not have the 
dollars available to get it in and to get it up to speed to 
actually be able to dive again.
    Can you share with us just exactly what is going on with 
that, why would we have that kind of problem with a nuclear 
submarine? How in the world would we ever justify having an 
asset of that value sitting at dock and not having the 
resources available to maintain it in a seaworthy condition?
    VADM Moore. Yes, sir. Thanks for the question, Senator.
    In the Boise situation, what happened is--and this issue is 
with the naval shipyards. It is we did not have enough 
workforce to go to get the work done. Our typical behavior in 
the past--and there are a couple submarines in the yards right 
now, USS Asheville, USS Hawaii, and USS Albany, who is also in 
Norfolk.
    An availability that would have typically taken 22 months, 
we inducted them into the shipyards anyway knowing that we did 
not really have the workforce to work on the availability. So 
the net result was that the submarine would stay in the 
shipyard for 48, 49 months.
    If you are the crew of the Asheville or the Albany and you 
have been told, hey, this is 22-month availability, and you are 
in that naval shipyard for 4 years plus, you can imagine what 
it does to morale and retention.
    In the case of the USS Boise, we were faced with a similar 
situation. We did not have the capacity at Norfolk Naval 
Shipyard to do the work.
    When I came in as the Naval Sea Systems Commander, one of 
the things that I talked with Navy leadership about was, hey, 
look, we have to be realistic that we do not have the capacity 
to get the work done. When we face something like Boise, we 
have to recognize that sticking it in and just letting it sit 
there pier-side for 4 to 5 years is really not the way to do 
it.
    In the Boise case, we made a decision to not put it in the 
shipyard because I did not want it to sit there for 4 to 5 
years. The downside of that is nuclear submarines have very 
specific maintenance that has to be done on them in order for 
me to certify that the ship is safe to submerge.
    You are exactly right. We have taken a submarine, even 
though it is an Active Duty submarine, to essentially it is not 
available for the Nation's use.
    We have to be able to get out in front of this. We have to 
be more predictive about the----
    Senator Rounds. Admiral, I appreciate your comment, but 
what I am curious about is why did we find ourselves in that 
position? Is it a matter that we did not have the money to pay 
the bills to get it done?
    VADM Moore. Yes, it is----
    Senator Rounds. Or is it a matter that we did not have the 
capabilities, and we just did not see it far enough in advance?
    VADM Moore. We did not have the capacities, so there are 
two things.
    One, we should have been more forward-looking and 
anticipate--we know when these submarines are going to come 
in--and be able to say, hey, I do not have the workforce 
necessary to get that work done, because it takes me 2 years--
from the time you give me a dollar to go hire a worker, it 
takes me 2 years to get that person----
    Senator Rounds. So does that mean we did not get the money 
to you in time?
    VADM Moore. No, I think it is not a matter of you not 
getting the money to us in time. It is a matter of competing 
resources within the Navy and the Navy's decision on what was 
going to be in the budget at the time.
    In particular, when we submitted the budget for fiscal year 
2014, that is probably when we would have needed the resources, 
the money, in order for me to go hire up to where I needed to 
be at Norfolk Naval Shipyard in 2016.
    It is a terrible situation on Boise, and we need to make 
sure that, going forward, we get the capacity in the shipyards 
right and we work with our private sector partners at Electric 
Boat and Newport News Shipbuilding in a one shipyard concept so 
that if we know we are not going to have the capacity to get it 
done, we work with them so that, in fact, if they have the 
capacity, they can do the work.
    In this particular case, Electric Boat is going to do the 
work probably on the boat, but it is going to be in 2019. So we 
are going to take a submarine and set it pier-side for about 3 
years.
    Senator Rounds. So that means then that the captain who was 
perhaps on his way through a process in which he spends time 
someplace besides at sea, it impacts not only his ability to 
move forward with his career but everybody on that ship is now 
delayed as well. Is that a fair assessment?
    VADM Moore. Yes, sir. Absolutely.
    Going beyond just to the personnel level of the ship and 
crew itself, we are going to take a submarine, if you are 
assigned to that submarine for the next 3 years, you are not 
going to go out to do what we have trained you and what you 
love to go do. So that is something we have to go work on, and 
we cannot let the Boise example happen again.
    Senator Rounds. Thank you, Mr. Chairman. My time has 
expired.
    Senator Inhofe. Thank you, Senator Rounds.
    Senator Perdue, you are now recognized.
    Senator Kaine is now presiding.
    Senator Perdue. Thank you, Mr. Chairman.
    Gentlemen, I want to echo what Senator Rounds has said. A 
lot of times we get to the problem without thanking you guys. I 
would like, just as importantly, for you to take it back to 
your teams as well, that it is not lost on us that we have 
lived in utter peace here in the homeland for quite a number of 
years, even though we have been deploying. We know what is 
involved in that.
    So we thank you all for that.
    I have two concerns. I am an old supply chain guy, so I 
have sat in your seat. I understand what you are up against. 
This did not just start in the last couple years. I mean, we 
have had three periods of disinvestment in the military in the 
last 50 years, the 1970s, the 1990s, and the last decade. But 
this time, it is really serious because it comes on the back of 
the recaps that happened before then, each of those times. It 
actually started from a higher point.
    So the disinvestment in the military this time actually 
started from a depleted point to start with. We burned up a lot 
of our equipment. Deployments were longer. We ended up in a 
weaker position before this disinvestment started.
    I have two concerns. One is our organic workforce, what I 
call your depot and your shipyard workforces. Two is the supply 
chain.
    The supply chain is two things, I think. One is your 
ability and your shipyards and depots to turn around 
maintenance. But the bigger one, in my mind, is, as our 
platforms--and this is true across-the-board, whether it is 
air, sea, or whatever. I mean, the assets that we have, the 
major platforms are all maturing at very similar times. The 
startups have been delayed such that, if I look at it honestly, 
we do not talk about this much, but we have a gap in capacity 
that is anywhere from 1 to 2 years in some platforms to as much 
as 10 years in other platforms.
    It is a major problem. The optempo that we were 
experiencing in the last decade contributes to that.
    I have two quick questions.
    General Levy, I know you have talked about this last year 
in committee and in private about your workforce. Because of 
those conversations, I think in the NDAA last year, there was a 
direct hire authority put in place.
    How long does it take you to hire a systems engineer or 
mechanic, a scientist, today?
    Lt. Gen. Levy. That is a great question. Thank you, 
Senator.
    So, first, I would like to say thanks for the direct hire 
authority that was signed into law in the NDAA.
    Senator Perdue. Where are we in implementing that?
    Lt. Gen. Levy. So the OSD [Office of the Secretary of 
Defense] draft policy or draft guidance was submitted to the 
services on the 20th of March, required back to them on the 3rd 
of April. Then once they approve that, then the services will 
begin implementing the direct hire authority. As you recall, 
there was a 2-year authorization.
    We look forward to coming back to you all in the future, 
telling you how the direct hire piece of this is working. So we 
are not there yet, because that is recently enacted 
legislation.
    Senator Perdue. These are policies inside the service, 
correct?
    Lt. Gen. Levy. Yes, sir. So enacted in the NDAA, signed in 
December.
    Senator Perdue. Right.
    Lt. Gen. Levy. That is a new authority for all of us.
    Senator Perdue. Right.
    Lt. Gen. Levy. So OPM had to write some guidance. They 
distributed it to OSD, who then has now created some guidance. 
They have asked the services to comment, with the comments 
being due on the 3rd of April. I expect that we will be able to 
have the guidance to do the direct hire in the weeks ahead.
    Senator Perdue. So how long does it take you to hire those 
guys today?
    Lt. Gen. Levy. So, today, it takes, on average, 148 days to 
hire somebody. In fact, I pulled the numbers this morning 
because this is important to me, right? This is very much 
central. The human beings that work on these platforms, whether 
they are engineers or jet engine mechanics or firemen or 
somebody who works at a daycare center, they are all equally--
--
    Senator Perdue. When you identify retaining somebody, and 
this is true in business as well as military, finding somebody 
and retaining them are two different things. You find somebody. 
If it takes 148 to onboard them, you lose a lot of candidates 
during that process.
    Lt. Gen. Levy. Yes, sir.
    Senator Perdue. You have to. So you are perpetually finding 
new candidates to start another clock of 148 days.
    Lt. Gen. Levy. Yes, sir.
    Senator Perdue. That is a disaster waiting to happen.
    Lt. Gen. Levy. It is very difficult to close that circle.
    Senator Perdue. I will tell you, in business, to hire these 
people today is 30 to 45 days tops--tops--90 days for a CEO 
[Chief Executive Officer]. Someone at your level in business 
today, if I started a search as a board member, it would be 90 
days. If I did not have an answer in 90 days, I would be after 
somebody's job.
    This is how far out we are in terms of being competitive. 
So tell us what we need to do. As you onboard that procedure, 
please keep us involved, because this is one where you have a 
great standard to look at, because these are the very places 
you are competing.
    I am going to be out of time, but, Admiral Moore, I want to 
get it to one other question, and that is the supply chain. As 
these big platforms--the reason I want to ask you, you have the 
aircraft carriers, you have the SSBNs, these are major, major 
platforms over long periods of time.
    The Federal Government does not have a capital budget. We 
just do not. I do not know how we actually commit industries to 
build these huge platforms without a long-term plan.
    So the inconsistent start-stop of these budget 
conversations that we have in Congress, tell us the impact that 
that is having on this domestic supply chain for these major 
platforms. You can talk about the air platforms too, the F-35, 
the F-22, and the follow-on maintenance that is required to 
keep those things going.
    LtGen Dana. Yes, thanks, Senator, for the question.
    A lot of times, we focus most of our effort on when we have 
budget unpredictability at the tier 1 yards, the people who are 
actually building the ships and the submarines or who are doing 
the maintaining. I would tell you, if you are a Northrop 
Grumman or an Electric Boat, then you have the cash reserves to 
kind of absorb a little bit of that.
    But where it has the bigger impact is at the tier 2, at the 
supply chain, the people providing the cabling, the pumps, the 
valves.
    The unpredictability in the budgets absolutely has 
significant challenges for us in terms of being able to 
maintain somebody that is providing a pump or a valve or you 
name it to a ship or a submarine. They do not wait around long. 
If it is unpredictable, they will go do something else, because 
they are running in a cash flow environment that does not allow 
them to absorb losses for very long.
    So it is certainly a major concern to us, and it is 
something I would like to focus on when we talk about the 
budget unpredictability, is that these are the people that 
really get impacted.
    When they drop out of the business, it just means less 
competition, which it is kind of a vicious cycle. It drives our 
costs up in the end.
    Senator Rounds. I thank all of you.
    Thank you, Mr. Chairman.
    Senator Kaine. [Presiding.] I do have one second round 
question.
    Do you have any other questions you wanted to ask?
    Senator Perdue. We would be here all day, sir.
    Senator Kaine. If you want to keep going, you can. I have 
one quick one that is kind of a wrap-up, but feel free, since I 
have to stay here.
    [Laughter.]
    Senator Perdue. Senator Kaine and I have closed plenty of 
these committee meetings together. He has a marine that is in 
harm's way today, and I know how serious he takes this.
    I grew up at Robins Air Force Base, and I have been to 
Albany many times. I still have the mud from the Columbus area 
under my nails. I know where you guys have had footprints.
    I am very concerned about--we have now moved into, it looks 
to me like, a military position posture where deployment is 
going to be sort of the watchword of the day. We closed 15 
bases in Europe in 2015. I think that number is correct. We 
have not had a major BRAC [Base Realignment and Closure] here, 
in terms of our facilities matching the requirement.
    In your opinions, and I would welcome anybody to onboard 
this question, and that is, with regard to our footprint here 
in physical plants, General Dana, you said, and you summed it 
up best. You said, here are the problems: aging equipment, 
complexity of today's systems, decline in depot funding, and 
decline in our facilities.
    So the question I have is, are our facilities in the United 
States and abroad matching this 4-plus-1 mission requirement it 
looks like you guys are geared up to try to deal with today 
that is so different than the 1-1 mission requirement we had 
over the last 50 years.
    LtGen Dana. Yes, sir. Thanks for that question. We have 
33,000 marines forward-deployed right now, 22,500 west of the 
dateline and----
    Senator Perdue. He has one of them.
    LtGen Dana. Yes, sir. We had that very discussion 
yesterday.
    As you look at our infrastructure, I cannot speak for the 
other services, but in terms of the Marine Corps, we think we 
are in a good place in terms of the number of facilities we 
have, especially if we go to an above 185 force, to be 
determined by funding, of course.
    But in terms of the infrastructure itself, I mentioned that 
we had many facilities that were in poor and failing condition. 
I just quickly want to talk about this, as we are looking very 
hard, sir, at the entire portfolio. We have one command, Marine 
Installation Command, that looks at all of our facilities and 
develops a consolidation, demolition, refurbishment, and new 
build plan that the Commandant makes a decision on how that 
goes.
    So in the past, it was somewhat stovepiped. You talked 
about your command and your command. Same thing with us on the 
installation side. So we are making those dollars go the 
furthest when we create literally a master plan for the entire 
Marine Corps and how it beds down.
    Senator Perdue. Do you guys outsource to each other?
    LtGen Dana. Yes, sir, at Fort Leonard Wood, and other 
places. Yes, sir.
    Senator Perdue. What I am asking, if you have depot 
limitations in certain places, certain depots, I mean, I look 
at the F-18s, for example. We have a lot waiting on major depot 
maintenance. But there are other depots that might have excess 
capacity.
    I know you look at this all the time in terms of the cost 
of making that depot apply to another need, but is that 
ongoing? Are those things you guys are always----
    LtGen Dana. Yes, sir. We do our tanks at Anniston. They do 
a great job.
    Lt. Gen. Levy. Our helicopters are done at Corpus Christi 
Army Depot. We do Marine F-35 and Navy F-35 work at Hill Air 
Force Base in Utah.
    We talked earlier about the F-18 work that we are doing for 
the Navy not only at Davis-Monthan, at the boneyard, but also 
asked Robins Air Logistics Complex.
    We do the Navy E-6 work at Tinker Air Force Base. We do 
Navy and Marine F-35 engines at Tinker Air Force Base.
    So, yes, sir, there is a lot of crosspollination that 
occurs.
    LtGen Dana. Not only the physical part but we do a lot of 
sharing ideas. Lee invited me out to Tinker, and that is an 
absolutely 21st Century depot, great processes, reduction in 
cycle time. We got a lot of lessons from that for Albany and 
Barstow.
    Senator Perdue. Well, General Wyche and General Levy owe 
you two beers after today. You have been bragging on all these 
guys today.
    Thank you, Senator Kaine.
    Senator Kaine. Thank you, Senator Perdue.
    Just really one last question, and it is a good closer.
    So in your current lane, what is it that most keeps you up 
at night? In any particular order, we would love to hear from 
you.
    LTG Wyche. Senator Kaine, I will start with the lack of 
predictable, consistent funding, because when we do not get 
that, we not cannot plan our workload. We cannot plan our 
production schedules. That is very important to us. Equally as 
important, it creates concerns among our employees, because 
they want stability in their lives.
    Senator, back to your comment on the supply chain, there is 
concern also in the supply chain. We monitor approximately 
4,000 suppliers that we build with. In our analysis, we have 
identified 1,000 of those suppliers at medium- to high-risk to 
going bankrupt. That is a very important as we continue to 
provide the readiness for our Army.
    Senator Kaine. Admiral Grosklags?
    VADM Grosklags. We will just go down the row here, sir. Two 
things, if I might, one on-topic and one perhaps slightly off-
topic.
    The readiness of the naval aviation forces is number one. 
We alluded to some numbers earlier----
    Senator Kaine. We had some powerful testimony about that at 
the last hearing.
    VADM Grosklags. Yes, sir. I will not go into a lot of 
detail on that. You are well aware of it.
    The challenge I mentioned in my opening statement and that 
General Wyche just mentioned is about stable funding and 
getting the funding up to the level we need. We have clear data 
that shows, as funding started to decline back in the 2009-2010 
time frame, our readiness on the flight line, mission-capable 
aircraft, full mission-capable aircraft, dropped in exact 
correlation with that reduction in funding for those NAVAIR 
accounts that I mentioned earlier. So that is one.
    The other one is also related to the other part of my 
business, which is the buying of new stuff, the acquisition 
piece. There, we are just too slow. It continues to bother me 
that we cannot collectively accelerate that process. There are 
a number of initiatives that we are working on that I would be 
happy to share with you at another time.
    Senator Kaine. Great. Thank you.
    Admiral Moore?
    VADM Moore. Yes, Senator. I think the thing that keeps me 
up at night is not having another Boise. We have the smallest 
fleet we have had in a long time. Getting these ships and 
submarines back out to the fleet, out there in the operating 
force, is critical to the Navy's readiness, to the Nation's 
readiness.
    When we have something like Boise or we deliver George W. 
Bush late, 5 months late out of availability, the impact of 
that is that the young men and women out there wearing the 
uniform are having to deploy longer and stay on station longer.
    So it is not lost on me that, at the end day, it is my job 
to get these things out on time. It really impacts our ability 
to keep these young men and women safe and get them back on 
deployed turnaround times that make sense.
    Senator Kaine. Thank you.
    General Dana?
    LtGen Dana. Sir, two quick things.
    First, we track 19 platforms in the Marine Corps, shoot, 
move, and communicate. Only one of those, an assault amphibian 
vehicle, is being replaced. Where I am going with this is 
deferred modernization, because we need new systems in the 
future because, as I talked about accelerated aging, these 
systems are going to wear out at some point.
    The second one, not exactly my lane, the gentlemen to my 
right have this lane, but as you look at the capability 
development system in the military, which is a Robert S. 
McNamara, very Ford Motor Company type system, it is not 
keeping up.
    I went to Singularity for a week, to the executive course. 
You look at those folks out there, they are turning product in 
weeks and months and maybe 18 months. I mentioned yesterday 
Local Motors, a company here locally that literally, from idea 
to design to fielding of the equipment, they are doing it in 
anywhere from 3 to 13 months.
    That is the future, because the enemy in the future, we are 
coming out of an Industrial Age where it is all big iron. Now 
we are going into space and cyber five-dimension fight instead 
of a three-dimension fight. We are going to need to be able to 
manufacture capabilities a lot faster.
    Thanks for the opportunity to comment.
    Senator Kaine. Thank you.
    General Levy?
    Lt. Gen. Levy. Thank you, Senator.
    To General Dana's point, our adversaries also iterate that 
fast, in terms modernization. Our adversaries can go from 
concept to hardware on the ramp in 18 to 24 months. So from a 
modernization perspective, we all have a pretty considerable 
need for modernization, but it is not just the new platforms. 
It is the speed at which we field them.
    To your direct question, Senator, about what keeps me awake 
at night, it is stable and predictable funding. Since I manage 
the supply chain for the United States Air Force, when I do not 
know when I am going to get my money, I cannot tell suppliers 
when I am going to spend that money.
    To General Wyche's point, we drive businesses out of 
business. That is not what we are here for. But when the 
average fleet age of the United States' platforms is 27 years 
old, and 21 of 39 fleets could qualify for antique plates in 
your State, sir, that tells me that the supply chain and the 
ability to have that available to us to sustain those older 
platforms is absolutely essential. The funding that drives the 
human beings, the infrastructure, the MILCON, all of the 
components that it takes to generate that readiness, that all 
stems from a stable and predictable funding stream.
    So that coupled with the modernization challenges for our 
Air Force are the two things that really give me pause.
    Senator Kaine. Senator Perdue has heard me give this 
lecture in Budget, and he and I are kind of on the same page 
about this. On budgets, I am a real certainty--having been a 
mayor and governor, I learned that anybody can adjust to a 
number more than they can adjust to a question mark. Even if 
they do not like the number, they can adjust to a number. But a 
question mark is tough, especially if the question mark is not 
only a question mark about the amount but about when I may know 
when the question mark is going to be filled in with an amount.
    I continue to believe we made an enormous mistake at the 
end of the last calendar year. We were very close to having an 
omnibus bill done that would have been, essentially, a 10-year 
full appropriation not only in the defense category but in 
everything else.
    The incoming administration--I can understand why they did 
this, they are about to take the helm, and they want their 
thumbprint on it rather than somebody else's. But they said do 
not do it, go ahead and adjourn on the 10th of December even 
though you have the time to do an omnibus, and do a CR through 
April 27.
    Well, what that did is it put them in a box where, when 
they came in, they had to then turn around and do a budget for 
the rest of fiscal year 2017 and work on a 2018 budget. A new 
administration working on just a fiscal year 2018 budget is 
plenty to take on their shoulders, but they complicated the 
work by telling us to recess and go home on the 10th of 
December when we could have gotten an omnibus bill done and 
still had plenty of a fine Christmas vacation.
    So we made a big mistake, and what we ended up doing was 
not giving you certainty. So we have this CR that goes through 
the 27th, and we are sitting here, Senator, I do not really 
know exactly what is going to happen come the 27th of April. We 
are in the middle of the discussion about the fiscal year 2018 
budget too.
    So we ought to be giving you and giving everybody more 
certainty. Even if you do not like it, even if you wish the 
number was different than the number we give you, at least we 
can give you something that you can plan and adjust around.
    That really has been on us. This is something that I know 
Senator Perdue shares my views about this, being both on Budget 
and Armed Services. We owe you better than what we are giving 
you on the predictability score. Hearings like this kind of 
have a way of reminding us that we have to step up our game a 
little bit.
    So thank you so much for what you do, for your testimony, 
and we will look forward to taking this into account as we are 
working on the NDAA.
    The hearing is adjourned.
    [Whereupon, at 3:31 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator James Inhofe
            maintaining and sustaining aging weapons systems
    1. Senator Inhofe. LTG Wyche, VADM Grosklags, VADM Moore, LtGen 
Dana, and Lt. Gen. Levy, what are the challenges of maintaining aging 
weapon systems with regards to engineering, parts, supply chain, costs, 
etc.?
    LTG Wyche. Maintaining aging weapon systems leads to higher than 
programmed costs for the Army. The Army is keeping systems longer than 
they were initially designed, resulting in obsolescence. Fewer vendors 
manufacture replacement parts requiring larger inventory/stock levels 
and increased storage costs. Examples include the M-113 Armored 
Personnel Carrier and the M109A6 Paladin, which still uses the Vietnam-
era chassis.
    VADM Grosklags. Maintenance, repair and overhaul (MRO) of aging 
weapons systems and associated sub-systems presents a number of 
challenges, including age/use based structural fatigue, parts 
obsolescence, component reliability and inventory availability; each of 
which has an impact on portions of DOD's maintenance and sustainment 
system. For example, structural fatigue can lead to cracking or other 
material degradation (corrosion) that must be mitigated. To do so can 
require extensive engineering analysis and subsequent logistics 
decisions regarding make, buy or repair of the analyzed item. With 
aging systems, the make, buy or repair decision can be particularly 
challenging depending on vendor availability, access to technical data 
packages, materiel inventory levels, or access to commercial/organic 
repair sources of repair and support equipment. In total referred to as 
Diminishing Manufacturing Sources and Material Shortages (DMS/MS). If 
any of these elements are immature, not available or must be 
reconstituted to affect a make, buy or repair action, it adds 
significant cycle-time to weapons system or sub-system sustainment with 
commensurate increases in system down-time and cost.
    VADM Moore. The maintenance, repair, and overhaul of aging weapon 
systems and associated subsystems present a number of challenges. With 
regard to parts support, age-based structural fatigue, parts 
obsolescence, component reliability, and inventory availability impact 
portions of the Navy's maintenance and sustainment schedules for each 
ship, submarine, and aircraft carrier. For example, structural fatigue 
to a component or system can lead to cracking, corrosion, or other 
material degradation that creates risks which must be analyzed for 
mitigation. This work requires engineering analysis and subsequent 
logistics decisions regarding whether to make, buy, or repair the 
component or system. Modernization of weapon systems presents similar 
challenges. Engineering and other studies must be conducted to 
determine if a system should be modernized, retired, or replaced. Until 
these actions are taken, the Navy risks maintaining systems that may 
have outlived their effectiveness. Such decisions can be particularly 
challenging depending on vendor availability, access to technical data 
packages, material inventory levels, or access to commercial and 
organic sources of repair and support equipment. An additional 
challenge is that the original equipment manufacturer often does not 
support aging weapon systems. Companies that provided the original 
weapon systems may have gone out of business or are now producing newer 
weapon systems and no longer support the older systems. Any repairs 
that require engineering for such systems adds significant costs to 
sustainment and increases the overall down-time of that particular 
weapon system or item. In total, this is referred to as diminishing 
manufacturing sources and material shortages. If any of these elements 
are immature, not available, or must be reconstituted, it adds 
significant cycle time to the sustainment of a weapon component/system 
or subsystem, with commensurate increases in system downtime and cost. 
Compounding the parts support challenge is the diminishing workforce 
expertise for older weapon systems. The life span of many naval ships 
varies and numerous weapon upgrades or replacements occur during their 
service lives. Due to turnover of personnel within the Naval Shipyard 
workforce during such a time period, the experience and expertise level 
required may not be available for the aging systems.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
    Lt. Gen. Levy.

      1.  Many of the AF's aging aircraft still utilize obsolete 
technology or equipment that is extremely costly to upgrade/replace. In 
many instances, the original manufacturer is no longer in business or 
no longer wishes to manufacture these obsolete items. The 448th Supply 
Chain Management Wing (448 SCMW) has a Diminishing Manufacturing 
Sources and Material Shortages program for managing these issues.

      2.  Proprietary data is a major limiter. Having no or limited 
data rights reduces our ability to source new suppliers and often 
leaves us with reverse engineering as our only option.

      3.  Evolving market dynamics for some defense unique products may 
lead to industry consolidation, restructuring, or exit strategies that 
affect DOD's ability to sustain a supply chain for aging weapon 
systems. The low demand for some unique military parts is not enough to 
sustain competition. In some cases, the demand is so low that it's not 
cost effective to manufacture parts or require Minimum Buy Quantities 
above the actual requirement. The reality is that our aging systems are 
less profitable than other prime businesses.

      4.  Effective global supply chain integration and management are 
critical to DOD program success. While globalization brings many 
benefits to both defense firms and the Department, this cross-border 
collaboration has also increased the potential threat of global supply 
chain disruption, counterfeit parts, sabotage, and theft of critical 
American defense technology. This shifting landscape of defense 
production may require new tools and authorities to address prospective 
security threats and to safeguard the value and integrity of American 
technology.

    2. Senator Inhofe. LTG Wyche, VADM Grosklags, VADM Moore, LtGen 
Dana, and Lt. Gen. Levy, have each of the services been working 
together and with DOD and industry on sharing best practices, revising 
processes and readiness plans, cutting costs? If yes, please provide 
examples.
    LTG Wyche. The Army routinely shares and seeks methods to garner 
efficiencies, control costs and provide a quality product in accordance 
with the agreed upon schedule. A current example of coordination with 
our Sister Services is the UH-60 Blackhawk Helicopter Recapitalization 
program at Corpus Christi Army Depot. This program is currently being 
executed by employing the `Art of the Possible' Lean Six Sigma focused 
process. The Army adopted this process from the United States Air Force 
at Warner Robbins Air Force Base in Georgia. Corpus Christi Army Depot 
is currently in the first year of utilizing this concept, but we 
envision reducing Repair Cycle Time from over 500 days (currently) to 
320 initially with a stretch goal of 280 Repair Cycle Time. The 
Headquarters, Army Materiel Command and its LCMCs regularly conduct 
Industry Forums with the private industry to discuss warfighter and 
industry needs, areas of concern, and collaborate on future initiatives 
important to sustaining the joint warfighter.
    VADM Grosklags. Yes. The services do work together sharing best 
practices with each other and with industry. Benchmarking repair 
processes among organic depots is common. Recently, Fleet Readiness 
Center Southwest in San Diego, CA visited the Air Force Logistics 
Center (ALC) in Oklahoma City, OK to study the Air Force's use of 
Critical Chain Project Management in aircraft production. With regard 
to specific aircraft, while investigating challenges with CH-53 
sustainment, USN/USMC reviewed the Army's CH-47 helicopter reset 
program after years of operations in Iraq. This successful exchange led 
the Navy to employ a similar Depot maintenance approach for its CH-53 
helicopter program. At the component level, inter-service cooperation 
involves the Navy and Marine Corps in cooperation with the U.S Air 
Force to study and prototype the USAF consumable sparing model for use 
in support of the MV-22 aircraft. At both a formal and informal level, 
the services belong to organizations such as the National Defense 
Industrial Association (NDIA), Aerospace Industries Association (AIA) 
and others which are in place to promote ``best policies, practices, 
products and technology for warfighters.'' This cooperation and sharing 
can be seen in such forums such as the recent Sea, Air and Space 
Symposium and at the DOD Maintenance Symposium held annually at 
locations throughout the United States. Finally, Naval Air Systems 
Command visits occur routinely with Original Equipment Manufacturers 
(OEMs) and other industry partners such as American Airlines, Sikorsky, 
Boeing and others to gain an understanding of best and current 
practices employed to maintain and sustain a global aircraft Fleet.
    VADM Moore. The Navy has been working with DOD and Industry on 
sharing best practices, revising processes and readiness plans, and 
cutting costs in a variety of ways. Naval Sea Systems Command (NAVSEA) 
has within its Acquisition and Commonality Directorate two critical 
programs through which this occurs: the NAVSEA Enterprise Commonality 
Office and the National Shipbuilding Research Program. The NAVSEA 
Enterprise Commonality Office focuses on working across the NAVSEA 
enterprise to advocate for cross-platform commonality and variation 
reduction in order to reduce the fleet's total ownership cost while 
maintaining capability. The office develops the necessary policies and 
guidance to implement commonality initiatives, and institutionalize 
commonality principles and practices across the Command. The National 
Shipbuilding Research Program (NSRP) provides a framework for shipyards 
building and repairing naval vessels to share best commercial and naval 
practices and execute research and development opportunities that will 
reduce the total ownership cost of U.S. Navy ships, other national 
security customers and the commercial sector. NSRP is a Navy-sponsored 
collaboration of 11 U.S. private shipyards, five NAVSEA-affiliated 
Program Executive Offices, the United States Coast Guard, and the 
NAVSEA Enterprise Commonality Office. A key NSRP product is the 
Strategic Investment Plan, developed jointly by Industry and Navy 
leaders from the input of Industry experts and the results of 
benchmarking studies conducted to identify technology gaps and the need 
for process improvements. Research projects to close gaps and improve 
processes have been carried out over the years by 11 shipyards, 24 
universities, over 290 shipbuilding suppliers, and Navy subject matter 
experts across 43 states.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
    Lt. Gen. Levy. The Air Force Sustainment Center (AFSC) has been 
working together with DOD and Industry through Depot Maintenance Inter-
service Support Agreements and Public-Private Partnerships (PPPs). 
Working together with DOD and Industry: The AFSC negotiated its first 
Enterprise Partnership Agreement (EPA) with Boeing in 2013, and has 
since expanded its EPA portfolio to include 18 Industry partners. This 
innovation in partnering strategy allows the three Air Logistics 
Complexes to execute Implementation Agreements in an expeditious 
manner, thereby reducing administrative cost and increasing efficiency. 
The EPAs cover both products and services, including software, 
commodities, new technology implementation, and other elements as 
required. In an article referencing the signing of the first AFSC EPA 
with Boeing, Mr. Bill Kobren, Director of Logistics & Sustainment 
Center at Defense Acquisition University stated, ``this enterprise-
level agreement appears to represent an important PPP initiative, 
aligning with the broader partnering vision and industrial integration 
strategy articulated in the DOD Weapon System Acquisition Reform: 
Product Support Assessment, the Air Force's Product Support Enterprise 
Vision, and the overarching Partnering Agreement (PA) construct 
discussed in the DOD Public-Private Partnering for Sustainment 
Guidebook.'' https://dap.dau.mil/career/log/blogs/archive/2013/11/07/
enterprise-partnership agreement.aspx The AFSC is further engaging with 
Industry through 121 PPP workloads, all of which are uniquely 
different. Examples include:

    <bullet>  F-22 Power Systems (Boeing)
    <bullet>  F-22 Storage Management Systems (Boeing)
    <bullet>  F-35 Air Vehicle Maintenance (Lockheed Martin)
    <bullet>  B-2 Advanced Composites Manufacture/Repair (Northrop 
Grumman)
    <bullet>  C-130J Depot Activation (Lockheed Martin)
    <bullet>  C-17 Airframe and Avionics (Boeing)
    <bullet>  C-17 Valves & Actuators (Parker Aerospace)
    <bullet>  F117 and F119 Engine Heave Maintenance (Pratt & Whitney)
    <bullet>  AE Series Engines (Rolls-Royce)

    Sharing Best Practices: The Public Private Partnering (PPP) Metrics 
Team. This team, composed of DOD and private industry partnering 
experts, established a metrics table that was incorporated into the DOD 
Public Private Partnering for Product Support Guidebook in October 
2016. These metrics are cross referenced against relevant DOD 
Partnering Objectives to identify which metrics best support each 
respective objective. Having metrics to gauge partnering performance 
that apply to both DOD and Industry is a best practice that assists in 
determining partnership effectiveness. (Metrics tables are available in 
the DOD Public Private Partnering for Product Support Guidebook, pages 
38-46.) The Warner-Robins Air Logistics Complex (WR-ALC) Corrosion 
Control team collaborated with Boeing and C-17 System Program Office 
(SPO) Engineering to develop a process to chemically strip composite 
components resulting in the first ever chemical depaint process for C-
17, reducing depaint flow days at WR-ALC by over 40 percent. The WR-ALC 
team visited Boeing paint and depaint operations and worked with Boeing 
Production and Management teams and Boeing Quality Assurance (QA) to 
share best practices in painting, stenciling, sanding, and various 
corrosion control processes resulting in numerous improvements to 
equipment, tools, and processes. The joint team developed the resin 
application process resulting in a standard process to restore resin-
starved composite surfaces prior to painting. In addition to 
establishing a monthly Corrosion Control telecom, the team collaborated 
to rewrite work instructions to streamline the wash and lube processes 
resulting in more efficient aircraft flow at both locations. Working 
Together with Other Services: The Navy MQ-4C Triton and the Army MQ-1C 
Gray Eagle platforms. AFSC activated the Power and Discrete Controller 
(PDC) for Global Hawk in 2011. In 2015 the Triton Program Manager 
approached WR-ALC concerning the organic activation of Triton's PDC. 
Both platforms were manufactured by Northrup Grumman. The activation 
for the Triton PDC will be able to leverage facilities, equipment, 
tooling, training, and tech data from the Global Hawk activation. 
Battery Repair for the Air Force Predator/Reaper program expanded to 
include Battery Repair for the Army Gray Eagle platform. The concurrent 
activation included facilities, equipment, tooling, training, and the 
majority tech data needed for the Army workload. As a result, the Army 
experienced minimal cost for tech order modification. WR-ALC 
Commodities Maintenance Group has initiated agreements with the US Navy 
Fleet Readiness Center-Southeast (FRC-SE) in Jacksonville, FL to 
establish a formal Continuity of Operations plan for both the WR-ALC 
and FRC-SE to share industrial capability/capacity during times of need 
(surge requirements, piece of equipment goes down, etc.).

    3. Senator Inhofe. LTG Wyche, VADM Grosklags, VADM Moore, LtGen 
Dana, and Lt. Gen. Levy, what impact does aging infrastructure have on 
each of the services' ability to increase or sustain readiness?
    LTG Wyche. Among the challenges of an aging infrastructure is the 
fact that those facilities built for WWII (60 percent of AMC's overall 
real property inventory) were not designed for sustaining the Army's 
current and future equipment using modern industrial processes. In 
older facilities, production lines are often configured to fit the 
facility, with the corresponding impacts on efficiency and cost 
effectiveness. The Command's vision for the OIB infrastructure is 
modern, flexible, and efficient facilities which are designed to enable 
current and future industrial best practices. AMC's approach to this 
challenge is two-fold. Where older facilities are structurally sound, 
but have failing facility components (e.g. HVAC, electrical, roofing, 
etc.), the Command seeks opportunities where is more economically 
prudent to restore or modernize these facilities vice replacing them. 
Using operating funds, this approach often addresses the problem more 
quickly and at less cost. The results often reset the service life of 
these facilities. In other cases, the cost-effective or operationally-
effective solution is to fully recapitalize the facilities. These 
facilities are designed to house modern industrial processes and 
facility standards (e.g. Quality of Work Environment improvements such 
as fire safety, lighting, HVAC, latrines, etc.), to be adapted quickly 
for new or expanded demands, and to reduce overhead costs particularly 
in terms of energy. With known demands across the AMC's capabilities, 
AMC estimates an annual need for $100 million in Restoration & 
Modernization (R&M) and $300 million for MCA. Aging facilities limit 
the OIB's ability to ramp-up production to meet the Warfighter's needs.
    VADM Grosklags. The age and capability of existing infrastructure 
does not support the complexity of new system requirements (i.e. 
increased power, HVAC cooling for equipment test benches and larger 
servers, security requirements, etc.). The majority of Commander, Fleet 
Readiness Center support infrastructure consists of obsolete ``World 
War II era'' facilities in support of functions, systems and 
technologies for which they were not designed. Approximately 76 percent 
of the Depots' production and manufacturing footprint (square footage) 
is more than 40 years old (Naval Facilities Command (NAVFAC) useful 
life). Approximately 51 percent of overall facilities footprint is more 
than 67 years old (NAVFAC Physical Life). Changes in aircraft size and 
complexity over the last 20 years present new challenges. The Super 
Hornet is larger than the older F/A-18. The MV-22 replaced the CH-46 
and is considerably larger and more complex. The F-35, the multiservice 
next generation aircraft, presents new maintenance requirements. 
Considering the changes in the aircraft and our dated facilities, many 
aspects of maintenance have become more challenging and complex 
maintenance tasks are more difficult or limited at best.
    VADM Moore. With respect to our Naval Shipyards, the age of 
facilities is not a definitive indicator of the ability of a facility 
to serve its intended function. Facilities constructed for a use that 
is no longer relevant and that are repurposed for other uses can imply 
a loss of efficiency to conduct mission. For this response, the term 
``aging infrastructure'' refers to buildings no longer used for their 
original purpose and have materially degraded due to a lack of 
sustainment and recapitalization. Aging facilities, dry docks, and 
equipment infrastructure degrade the Shipyards' ability to support 
fleet schedule and readiness requirements. Using Navy Figure of Merit 
assessment methodology, Naval Shipyard mission-essential facilities are 
in worse condition (average score 65) than the overall Navy's shore 
infrastructure (average score 80). Naval Shipyard facilities are WWII 
vintage and were built for conventional ship construction vice modern 
nuclear ship repair processes. The average age of Naval Shipyard 
facilities is 62 years, with some up to 200 years old. Average Naval 
Shipyard capital equipment (acquisition cost greater than $250K) age is 
21 years old and increasing; this is six years greater than the 
industry-standard effective service life average age. Naval Shipyard 
capital equipment is typically obsolete, unsupported by the original 
equipment manufacturers, and at operational risk. Continued reliance on 
this significantly aged Naval Shipyard infrastructure increases 
submarine and aircraft carrier availability costs and places schedules 
at risk. This risk is caused by the mismatch in capacity and workload 
at the shipyards, and having aging infrastructure does not help to 
increase capacity. This results in passing workaround costs to the 
fleet and ultimately impacting Operational Availability when equipment 
downtime or degraded facilities impact critical path maintenance 
requirements. NAVSEA and the Naval Shipyards are working with CNIC, 
NAVFAC, and the fleet to develop an aligned, integrated, and defendable 
strategic infrastructure plan for the Naval Shipyards. This study's 
objective is to streamline shipyard industrial processes to optimize 
availability schedules and execution. The study is expected to be 
completed by the end of fiscal year 2017. Shipyard layout, material 
handling equipment, logistics flow, new technology insertion, and 
overall process density all impact the work efficiency. This analysis 
will not be constrained by the current layout of utilities, logistics, 
buildings, or equipment and will provide a prioritized, consolidated 
list of Naval Shipyard infrastructure investments (MILCON, SRM special 
projects, and OPN capital equipment) needed to improve throughput and 
return on investment at the Naval Shipyards and their detachments. For 
the Regional Maintenance Centers, the private-sector contractor 
facilities used are monitored through maintenance of Master Ship Repair 
and NAVSEA dry-dock certifications. While private facilities have aging 
challenges similar to those of the Naval Shipyards, investment 
decisions for maintenance and modernization of these facilities are 
funded and executed by the respective private contractors.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
    Lt. Gen. Levy. Air Force Policy Directive (AFPD) 10-2, Readiness, 
defines AF readiness as the ability of United States Air Force forces 
to deliver their designed capabilities without unacceptable delay. 
Additionally, it states that the AF will effectively manage its 
resources by providing for the training, morale, health, and fitness of 
its personnel and will provide the equipment, supplies, and 
infrastructure required to execute all tasks related to the AF mission. 
The average age of AFSC infrastructure now exceeds 40 years. The AF has 
primarily funded only New Mission MILCON requirements since fiscal year 
2009. With the growing list of unfunded Existing Mission MILCON 
requirements and an increasing backlog of facility maintenance, repair, 
and construction requirements ($2.5 billion in AFSC alone), management 
of aging facilities has become a daunting task of operational risk 
management. Commanders at all levels are being forced to forgo facility 
projects which may increase morale, improve efficiencies, reduce 
customer cost, potentially create energy savings, and increase 
readiness in order to ensure work areas are safe, usable, and available 
for employees and that basic readiness requirements are being 
maintained. AFSC readiness is tied more closely to its infrastructure 
than many other AF units. As facilities continue to age without being 
modernized or replaced, AFSC has no choice but to rely on these older 
facilities which are repair intensive and not as flexible as new 
facilities. AFSC Air Logistics Complexes (ALCs) and Air Base Wings 
(ABWs) cannot efficiently/effectively function without usable 
facilities to support mission/readiness requirements. As facilities 
increase in age and funds to sustain/repair them decrease, the number 
of backlogged repair requirements increase. Each new unfunded 
requirement exponentially increases the risk of mission failure and 
decreased readiness. The impact of aging facilities to AFSC readiness 
is clearly represented in the following examples: At Oklahoma City Air 
Logistics Complex (OC-ALC) an aging boiler deaerator tank, which 
supplies steam, chilled water, and compressed air to over 13 depot 
maintenance facilities, failed. This single failure shut down critical 
chemical cleaning and plating lines, driving a production delay that 
cost the ALC $74,000 in indirect time and $20,000 in overtime to make 
up for the lost production. At Warner-Robins Air Logistics Complex (WR-
ALC) numerous structural issues identified in a building constructed in 
1944 require production personnel to vacate the area when wind speeds 
reach 35 knots (40 mph). This joint use facility is a wooden structure 
and houses the AF's only aircraft fire bottle overhaul workload. There 
have been six (6) evacuations since the initial finding in April 2015 
resulting in a work stoppage that affects readiness for both the ALC 
and ABW. Bottom line: As facilities continue to age and are not 
modernized or replaced, AFSC faces an increasing challenge to comply 
with this Directive and deliver capabilities without delay.

    4. Senator Inhofe. LTG Wyche, VADM Grosklags, VADM Moore, LtGen 
Dana, and Lt. Gen. Levy, sustainment costs account for greater than 70 
percent of the life-cycle costs of a weapon system. Is weapons system 
sustainment being adequately incorporated into initial acquisition 
planning for new weapon systems to ensure these systems can be 
efficiently and effectively maintained over their life cycles?
    LTG Wyche. While two primary mechanisms are in place to incorporate 
sustainment considerations into early acquisition planning, their 
inconsistent application in Army materiel system efforts may sub-
optimize life cycle sustainment. The first mechanism is found in the 
current Joint Capabilities Integration Development System, which 
contains a mandatory Sustainment Key Performance Parameter (S-KPP) that 
includes two primary components (operational availability and materiel 
availability) and two supporting Key System Attributes (KSA) 
(reliability and operations and support costs). When all elements of 
this KPP are applied to a developmental system it should drive higher 
reliability and lower sustainment costs. Part of the Army's challenge 
is having the ability to see itself and ensure compliance in meeting a 
system S-KPP. Although the Army Requirements Oversight Council process 
has been reinvigorated in the past few years, the S-KPP has been waived 
to a lower KSA (or waived altogether) in several requirements documents 
as a means for accelerating the acquisition strategy to deliver needed 
capabilities to the Army more expeditiously. The second mechanism is 
the Life Cycle Sustainment Plan (LCSP), which the Army requires for all 
acquisition category level Army programs. DOD and Army recognize the 
importance of the LCSPs to assess system cost along its lifecycle. 
Critical reviews of LCSPs, combined with emerging results of the Army's 
Operational and Sustainment Reviews (OSRs), have improved the content 
and staffing process of Army LCSPs and emerging results from OSRs are 
providing insights into the type of data collection needed within 
programs to better inform the life cycle cost picture of Army systems. 
Finally, the Army Materiel Command has partnered with the Assistant 
Secretary of the Army for Acquisition, Logistics, and Technology to 
develop Army policy to clearly define roles, responsibility and 
criteria for programs to transition to sustainment. This policy will 
enable detailed planning, and forecasting to ensure adequate funding as 
programs transition from production and deployment to sustainment.
    VADM Grosklags. The Department of the Navy (DON) designed its 
acquisition process, commonly referred to as the Navy Gate Review 
process, to ensure there is no gap between the Requirements and 
Acquisition organizations so that the Navy understands the relationship 
between requirements, technical feasibility, and cost. The process 
requires the Navy/Marine Corps operational requirements leadership and 
acquisition leadership to agree, and repeatedly affirm that agreement 
throughout the development, acquisition, and sustainment of a system. 
The DON Gate Review process was designed to ensure that cost and 
affordability are managed with the same discipline and rigor as 
traditional performance requirements. The DON's Program Managers 
address the basic principles to get the requirement right, perform to a 
stable plan, and make every dollar count at each Gate Review wherever 
they are in their program's life cycle so that sustainment and its 
associated costs are no longer an afterthought. DON acquisitions 
emphasize stable designs as well as modularity and open architecture to 
reduce cost, extend service life, and increase acquisition agility, 
including a focus on operating and support (O&S) cost early in design. 
Earlier engagement on O&S and disposal costs enables Program Managers 
to more fully evaluate system affordability and possible trade space 
leading to better understanding of Total Cost earlier in the process, 
which in turn allows better informed decisions. The DON's Program 
Managers are tasked with understanding what drives those costs and 
formulating a `should cost' strategy to meaningfully reduce program 
cost or risk without substantively impacting key requirements 
regardless of what phase the program is in.
    VADM Moore. The Department of the Navy (DON) designed its 
acquisition process, commonly referred to as the Navy Gate Review 
process, to ensure there is no gap between the requirements and 
acquisition organizations so that the Navy understands the relationship 
between requirements, technical feasibility, and cost. The process 
requires the Navy/Marine Corps operational requirements leadership and 
acquisition leadership to agree, and repeatedly affirm that agreement 
throughout the development, acquisition, and sustainment of a system. 
The DON Gate Review process was designed to ensure that cost and 
affordability are managed with the same discipline and rigor as 
traditional performance requirements. The DON's Program Managers 
address the basic principles to get the requirement right, perform to a 
stable plan, and make every dollar count at each Navy Gate Review 
wherever they are in their program's life cycle so that sustainment and 
its associated costs are no longer an afterthought. DON acquisitions 
emphasize stable designs as well as modularity and open architecture to 
reduce cost, extend service life, and increase acquisition agility, 
including a focus on operating and support (O&S) cost early in design. 
Earlier engagement on O&S and disposal costs enables Program Managers 
to more fully evaluate system affordability and possible trade space 
leading to better understanding of total cost earlier in the process, 
which in turn allows better informed decisions. The DON's Program 
Managers are tasked with understanding what drives those costs and 
formulating a ``should cost'' strategy to meaningfully reduce program 
cost or risk without substantively impacting key requirements 
regardless of what phase the program is in.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
    Lt. Gen. Levy.Yes, the AF Lifecycle Management Center (AFLCMC) 
stood up a Logistics (LG-LZ) Directorate that is focused on ensuring 
that product support is adequately planned and implemented for all of 
our acquisition programs. AFLCMC/LG-LZ has developed and continues to 
develop and deploy standard processes, tools, templates, and training 
across the 12 product support elements, Lifecycle Sustainment Plans and 
Product Support Business Case Analyses (BCAs). The LG-LZ provides 
subject matter expert (SME) support to the program offices to assist 
them with their product support planning to ensure their plans are 
adequate and executable. The LG-LZ also reviews and coordinates on the 
Lifecycle Sustainment Plans (LCSPs) that must address all product 
support elements in their sustainment planning. AFLCMC also has 
assigned Product Support Managers (PSMs) within each of the Programs. 
The PSMs report directly to the Program Manager (PM) and are 
responsible for product support planning for that specific program. 
AFLCMC/LG-LZ also works closely with SAF/AQD to ensure adequate, clear, 
and concise policies are in place that require the appropriate product 
support planning within the acquisition process. AFLCMC has done a 
tremendous job in transitioning from the three previous product centers 
focused on acquisition to one integrated Lifecycle Management Center.
                           civilian personnel
    5. Senator Inhofe. LTG Wyche, VADM Grosklags, VADM Moore, LtGen 
Dana, and Lt. Gen. Levy, is the existing OPM hiring process sufficient 
to meet your manning needs?
    LTG Wyche. No, although there are many existing OPM hiring 
authorities such as temporary, term and Schedule A hiring authorities, 
Veterans' Recruitment Appointment, and the recently approved NDAA 
fiscal year 2017 Direct Hiring Authority (DHA) that allow the Army 
Materiel Command (AMC) Defense Industrial Base facilities to meet 
manning needs and enhance our ability to attract and hire highly 
qualified candidates. However, these authorities cannot always address 
an immediate need for a flexible workforce. For example, at 
reimbursable sites with a six-year contract, current hiring authorities 
can only be used to hire temporary personnel for up to four years. 
Therefore, the sites are put in a dilemma to either hire a permanent 
workforce and risk having to conduct reduction-in-force at the 
conclusion of the workload or be subject to pre-planning within a few 
years to rehire and retrain new personnel to fulfill contract 
requirements. The largest hurdle for AMC activities is the USAJOBS 
application tool, because it is the only existing federal hiring 
application system for all job seekers. For the blue collar applicants, 
this system is not user-friendly, difficult to navigate, time consuming 
and more complex than the skills they are required to have in the 
positions for which they are applying. There is also a lengthy process 
from the closing of the vacancy announcement to the onboarding date, 
including extensive delays due to security clearance requirements. All 
of these items impact readiness when trying to meet immediate and 
sporadic mission surges.
    VADM Grosklags. Yes, the current hiring authorities and 
flexibilities authorized by OPM are sufficient.
    VADM Moore. Yes, the current hiring authorities and flexibilities 
authorized by OPM are sufficient.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
    Lt. Gen. Levy. No, the hiring process takes entirely too long. 
Hiring actions for the Air Force Sustainment Center (AFSC) take on 
average 150 days for external hires and 80 days for internal hires. AF, 
Air Force Materiel Command (AFMC), Air Force Personnel Center (AFPC), 
and AFSC have to drive more process improvements into the hiring 
timelines, measure results with 100 percent accuracy (we are still not 
there yet), and expand flexibilities within laws, regulations, policy, 
etc. Specific areas AFSC is trying to improve are as follows:

      1.  The AF must take the initiative and work with stakeholders to 
map the security clearance process, as it hinders our employees from 
performing their workload from hiring date until their clearances are 
approved.

      2.  The AF needs to work with stakeholders to figure out a way to 
pay alternative medical facilities to do drug testing and physicals. 
Right now the regulation states we can, but Financial Management (FM) 
has no methodology to pay those providers directly for services 
rendered, as those that are hired are not yet part of the government 
system.

      3.  Funding needs to be available and invested to move on-
boarding and Engineering (EN) recruiting from an enhanced version of an 
internal Microsoft capability (SharePoint) onto an acceptable iCloud 
for enterprise-wide accessibility. These state-of-the-art designs can 
benefit the AF and give significant returns on investment, but are 
hindered by lack of Human Resource (HR) system development outside of 
the Defense Civilian Personnel Data System (DCPDS) which houses all 
civilian personnel documents.

    6. Senator Inhofe. LTG Wyche, VADM Grosklags, VADM Moore, LtGen 
Dana, and Lt. Gen. Levy, are your services utilizing the new hiring 
authorities in the fiscal year 2017 NDAA?
    LTG Wyche. AMC is working closely with the Department of the Army 
to review and provide feedback on the implementation guidance on the 
following two authorities: Temporary Direct Hire Authority (DHA) for 
Domestic Defense Industrial Base Facilities (Sec 1125) and Temporary 
Personnel Flexibilities for Domestic Defense Industrial Base Facilities 
Civilian Personnel (Sec 1132).
    VADM Grosklags. The Fleet Readiness Centers (FRCs) are not 
currently utilizing the new hiring authorities in the fiscal year 2017 
NDAA, as we are awaiting implementing guidance. DOD/DoN implementing 
guidance is anticipated to be issued in the near future, which would 
allow FRCs to utilize the new hiring authorities, potentially in time 
for upcoming graduations.
    VADM Moore. The Department of the Navy is still creating service-
specific instructions. However, NAVSEA has not been negatively impacted 
in its hiring efforts and appreciates Congress' interest and concern on 
this matter.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
    Lt. Gen. Levy.AFSC is positioned to use Direct Hiring Authority 
(DHA); however, we have not received the delegation of authority from 
the Office of the Secretary of Defense (OSD) to actually hire 
employees. AF anticipates the OSD delegation will be made available in 
June 2017 and subsequent delegations (AF, Major Commands) will follow 
soon after.

    7. Senator Inhofe. LTG Wyche, VADM Grosklags, VADM Moore, LtGen 
Dana, and Lt. Gen. Levy, what more can Congress do to enable you to 
hire the civilians you need to increase readiness?
    LTG Wyche. Maintaining and increasing readiness is the Department's 
top priority. The Department has numerous human resources flexibilities 
at our disposal to attract, recruit, and retain a highly skilled and 
diverse workforce, and we continuously review our authorities to ensure 
the right workforce planning and development strategies and 
flexibilities are in place. Improving personnel practices is a 
priority, and the Department will continue to study and pursue 
opportunities to streamline processes and reduce recruitment times. The 
Department appreciates Congress' interest in assisting in this 
endeavor.
    VADM Grosklags. The fiscal year 2017 NDAA direct hiring authorities 
will provide the Fleet Readiness Centers (FRCs) the ability to reduce 
cycle time and improve the time it takes to staff workload 
requirements. In considering all depots under the Commander, Fleet 
Readiness Centers, FRC-South West (FRC-SW) has experienced the greatest 
struggle in being able to adequately staff to support current depot 
workload requirements. Recent salary surveys for FRC-SW have indicated 
a need to increase the salary rates for several occupational series to 
remain competitive with local, private sector employers. The disparity 
in pay has resulted in a depletion of local skilled labor candidate 
pools. The Naval Air Systems Command has submitted a Federal Wage 
System Special Rate Request for San Diego, California, through the 
Department of Navy Office of Civilian Human Resources (OCHR). Approval 
of the Federal Wage System Special Rate Request for San Diego would 
afford the ability to offer higher starting salaries to candidates; 
thereby, increasing the offer acceptance rate of positions directly 
supporting fleet readiness.
    VADM Moore. With the hiring efforts of the last two fiscal years, 
the four Naval Shipyards have processes and procedures in place to 
support the recruiting, hiring, onboarding and initial training 
necessary to meet the identified mission. As always, the Navy 
appreciates the support of the Congress; however, improved Department 
of Defense budget stability would help the Naval Shipyards in their 
ability to maintain a steady hiring rate, which would allow them to 
better manage attrition and fluctuations in workload. Likewise with the 
Navy's Regional Maintenance Centers (RMC), improved Department of 
Defense budget stability would help to improve the RMCs' ability to 
meet their civilian staffing requirements and maintain a steady hiring 
rate, which in turn would allow them to better manage attrition and 
workload increases. Without a stable budget, the hiring processes for 
the RMCs are in a continual state of starts and stops, which hinders 
them from reaching their optimal manning levels.

    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.

    Lt. Gen. Levy. Maintaining and increasing readiness is the 
Department's top priority. The Department has numerous human resources 
flexibilities at our disposal to attract, recruit, and retain a highly 
skilled and diverse workforce, and we continuously review our 
authorities to ensure the right workforce planning and development 
strategies and flexibilities are in place. Improving personnel 
practices is a priority, and the Department will continue to study and 
pursue opportunities to streamline processes and reduce recruitment 
times. The Department appreciates Congress' interest in assisting in 
the foregoing.

    8. Senator Inhofe. LTG Wyche, VADM Grosklags, VADM Moore, LtGen 
Dana, and Lt. Gen. Levy, what is the overall status of staffing at our 
depots, shipyards, arsenals, and ammunition plants?
    LTG Wyche. Staffing shortfalls at AMC depots, arsenals, and 
ammunition plants exist in all areas of our operations. Many sites are 
understaffed to support mission requirements due to increased workload, 
attrition and challenges in recruiting that have resulted in an 
imbalance in the permanent and term workforce composition. Retirements/
separations and time limited appointments leave a knowledge vacuum that 
can jeopardize current and future customer support. It is estimated 
that approximately 20 percent of the workforce in the top fragile and 
critical skill sets are eligible for retirement. Employees on time-
limited appointments that have many years of experience are likely to 
seek more stable employment. In many locations, large numbers of 
personnel actions are on hold or were paused, due to recruitment 
challenges and most recently the hiring freeze and its exemption 
process. Many sites are operating at roughly 90 percent of their 
onboard strength against their requirements. While management can use 
some of the available hiring and retention flexibilities, the inability 
to offer more permanent or longer term employment hinders them from 
having a more stable workforce.
    VADM Grosklags. The following is the status of civilian staffing at 
our three aviation depots (Fleet Readiness Centers--FRCs): SITE On 
board as of 30 June 2017 (NWCF Only) Target (NWCF Only) Shortfall FRC 
Southwest 2,906 3,317--411 FRC Southeast 3,616 3,780--164 FRC East 
3,548 3,564--16 TOTAL 10,070 10,661--591 The fiscal year 2017 NDAA 
direct hiring authority will be a powerful lever in addressing this 
shortfall at FRC SW.
    VADM Moore. The four Naval Shipyards are predicted to end fiscal 
year 2017 with a total end strength of 34,068 full-time employees 
(FTEs). This is above the 33,850 FTEs projected for fiscal year 2017 
and allows the Navy to more rapidly increase its Naval Shipyard 
workforce to the required 36,100 FTEs by fiscal year 2020. The Navy's 
four Regional Maintenance Centers (RMC) have a current end strength of 
2,896. With 2,793 civilian personnel currently onboard, the RMCs' 
aggressive hiring plans with their processes and procedures that 
support the recruiting, hiring, onboarding and initial training 
necessary to meet the identified mission have been largely successful, 
despite the challenges of uncertain budgets and are currently tracking 
to fill by the end of the year.

    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
    Lt. Gen. Levy. See chart below:

                                   CIVILIAN MANNING REQUIREMENTS (5 May 2017)
----------------------------------------------------------------------------------------------------------------
                                                                                              Warner
                                                                      Ogden Air   Oklahoma    Robins
                                              Program  Element  Code              City Air     Air       TOTAL
                                                       (PEC)          Logistics  Logistics  Logistics     REQS
                                                                        Center     Center     Center
                                                                       (OO-ALC)   (OC-ALC)   (WR-ALC)
----------------------------------------------------------------------------------------------------------------
Working Capital Fund (WCF)--
  Unit Manning Document (UMD)...............  78211A                       8036      10403       7554      25993
----------------------------------------------------------------------------------------------------------------
Other--UMD..................................  Multiple                       32          3          4         39
----------------------------------------------------------------------------------------------------------------
Total UMD Authorizations....................  N/A                          8068      10406       7558      26032
----------------------------------------------------------------------------------------------------------------
WCF Assigned to UMD MPCN....................  78211A                       7549       9441       6723      23713
----------------------------------------------------------------------------------------------------------------
Other Assigned to UMD MPCN..................  Multiple                       28          3          4         35
----------------------------------------------------------------------------------------------------------------
Total Assigned to UMD MPCN..................  N/A                          7577       9444       6727      23748
----------------------------------------------------------------------------------------------------------------
Percentage of Assigned vs UMD...............  N/A                           94%        91%        89%        91%
----------------------------------------------------------------------------------------------------------------
WCF--Overhire (Psuedo)--78211A..............  78211A                        747        420        197       1364
----------------------------------------------------------------------------------------------------------------
Other Overhire (Psuedo) Assigned............  Multiple                        2          2          2          6
----------------------------------------------------------------------------------------------------------------
Total Overhire (Psuedo) Assigned............  N/A                           749        422        199       1370
----------------------------------------------------------------------------------------------------------------
Total Assigned (UMD & psuedo)...............  ALL                          8326       9866       6926      25118
----------------------------------------------------------------------------------------------------------------
DELTA.......................................  ALL                          -258        540        632        914
----------------------------------------------------------------------------------------------------------------
Percentage of Assigned vs Target w/           N/A                          103%        95%        92%        96%
 Overhires (OH).
----------------------------------------------------------------------------------------------------------------

                          software maintenance
    9. Senator Inhofe. LTG Wyche, VADM Grosklags, VADM Moore, LtGen 
Dana, and Lt. Gen. Levy, how are each of you integrating software 
maintenance into your core depot-level maintenance and repair 
operations?
    LTG Wyche. The Army is currently working initiatives to integrate 
software maintenance into our core depot-level maintenance and repair 
operations. First, we are in the process of establishing our software 
depot maintenance core capability. During this previous budget cycle 
for fiscal year 2019-23, we developed a process to determine the depot 
maintenance core requirements for software. Our goal is to ultimately 
be able to report the needed core hours in the Biennial Core Report to 
Congress. This process also includes establishing Army regulatory 
guidance on software depot maintenance core capabilities. Second, we 
are in Phase III of our manpower initiative to move contractor manpower 
needed to support software workload to organic support. Phase I and 
Phase II has resulted in 96 authorizations with total cost avoidance of 
$103.9 million.
    VADM Grosklags. The Naval Air Warfare Center Aircraft Division and 
Naval Air Warfare Center Weapons Division were designated by the 
Secretary of the Navy as Centers of Industrial and Technical Excellence 
(CITE-10USC2474)) which facilitates their ability to partner across 
private (and public) sectors to execute depot-level maintenance and 
product support for software for the Naval Aviation Enterprise (NAE). 
The NAE initiates its software maintenance planning prior to award of 
contract with the conduct of a decision tree analysis for determining 
which Computer Software Configuration Item (CSCI) will generate a Core 
sustaining workload (10USC2464). As a part of the request for proposal, 
specifically sections L and M of contract and statement of work, we ask 
the vendor to identify the enablers e.g. data rights, development and 
test environments, test procedures, according to a Software 
Sustainability Package (SSP) Data Item Description. The SSP is to be 
used in conjunction with a Contract Line Item Numbers (CLINs) or CLIN 
Options to procure the executable software and source files for a CSCI 
and is the primary software sustainment document for each CSCI which 
could be maintained by non-original equipment manufacturers (OEMs). 
During the latter stages of program development, a business case 
analysis is conducted to determine how each CSCI will be maintained and 
by whom, e.g. OEM, organic (Government), third party vendor. A software 
support activity is stood-up at one of the Warfare Centers to provide 
for the sustainment of the software for both organic development and 
acquisition management of CSCIs.
    VADM Moore. The Navy integrates software maintenance in accordance 
with its Joint Fleet Maintenance Manual that directs all surface ship 
and submarine software maintenance be integrated into depot-level 
maintenance and repair availabilities. New or updated software updates 
are done by the Original Equipment Manufacturer (software developer) in 
concert with a designated Naval Warfare Center to ensure proper 
integration into Navy platforms.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
    Lt. Gen. Levy.The AF considers software maintenance as a part of 
depot level maintenance. As such, the AF has been reporting software as 
part of the annual AF 50-50 report, the biennial core logistics 
capabilities (CORE) report, and executing the workload within the AF 
Working Capital Fund for over 30 years. The Air Force Sustainment 
Center (AFSC), with support from Air Force Materiel Command (AFMC) 
Logistics Directorate and SAF/AQD, continues to review the CORE 
software requirements to ensure that the organic enterprise has the 
expertise and capacity to support the warfighter. The AF software CORE 
requirement for fiscal year 2017 is 4.271 million man-hours with AFSC 
estimated to produce 4.888M man-hours across the three Air Logistic 
Complexes (ALCs). The ALCs provide subject matter expertise to assist 
program offices to design for maintainability and depot activation. 
AFSC works with the program offices to embed depot software engineering 
personnel with the Original Equipment Manufacturers (OEM) during 
Engineering Manufacturing and Development (EMD) for software intensive 
major weapon systems to ensure low risk transitions to organic depot 
sustainment by IOC+4. The AF maintains centers of excellence at each 
depot focused on the weapon systems that they are assigned. This allows 
the AF to build and maintain the knowledge base to support legacy 
systems, and build support for new weapon systems as they are developed 
and deployed.

    10. Senator Inhofe. LTG Wyche, VADM Grosklags, VADM Moore, LtGen 
Dana, and Lt. Gen. Levy, how does each service plan to address the 
growing importance of software maintenance on your depot-level 
sustainment operations?
    LTG Wyche. We are committed to ensuring the Strategic Readiness of 
Command, Control, Communications, Computers, Intelligence, Surveillance 
and Reconnaissance (C4ISR) solutions through synchronization and 
integration of life cycle sustainment priorities with C4ISR Program 
Executive Officer/Program Manager requirements. The continued budget 
constraints and lack of consistent funding has created concerns when it 
comes to emerging and sustaining software requirements. In order to 
address some of the concerns, we are combining our Enterprise License 
Agreements with higher headquarters in order to reduce costs; working 
with the Assistant Secretary of the Army for Acquisition, Logistics, 
and Technology community to develop sustainable solutions, identify 
depot maintenance efforts that are focused on readiness, and working to 
grow the organic software maintenance capabilities. In Phase III of our 
manpower initiative, we have regionalized some of the support teams 
which have resulted in either cost savings or cost avoidances. As we 
move forward and new systems come into the portfolio, it is critical 
that predicable and consistent funding becomes available. In addition, 
The Army's science and technology community is addressing the growing 
importance of software maintenance by employing modular open systems 
architecture, which will allow for faster, more flexible hardware and 
software upgrades for depot-level sustainment operations. This effort 
is known as hardware-software convergence. Older systems used single-
purpose hardware and software which lacked flexibility and competed for 
limited resources on a given platform. Army depots are updating older 
hardware and hardware-based architecture to newer, virtually-replicated 
functions in software that will reduce overall lifecycle costs, 
increase platform interoperability and reduce platform size, weight, 
power and cooling requirements. Modular open systems architectures 
enable a ``plug and play'' environment wherein new capabilities can be 
seamlessly integrated into older platforms. For example, the Army will 
benefit from its incorporation of modular open systems architecture in 
the Future Vertical Lift program through reduced burden on Army 
aviation depots at Corpus Christi Army Depot. This architecture reduces 
Army depot requirements to sustain additional components on platforms 
and eliminates redundant Government off-the-Shelf (GOTS) items, saving 
time, money and other logistical burdens. Congress' continued attention 
to the Defense Department's use of modular open systems architecture is 
appreciated.
    VADM Grosklags. The Naval Air Systems Command (NAVAIR) has been 
addressing the growing importance of software maintenance as a depot-
level requirement for some time. The Secretary of the Navy designated 
our two primary Warfare Centers as Centers of Industrial and Technical 
Excellence (CITE-10USC2474) to enhance partnering for depot maintenance 
and product support. We have implemented formal policies, processes, 
and procedures through Standard Work Packages to ensure thorough life 
cycle software sustainment support for our weapon systems, especially 
for software. Our Software Engineers are engaged early and upfront in 
the development of the software for new weapon systems and typically 
stay with that Program through fielding and operational employment. 
Software Engineers support the NAVAIR Programs with software 
development contract management to ensure the efficient and effective 
transition from development to sustainment is planned and can be 
executed. We're investing in critical infrastructure to include 
laboratories and software support activities to leverage capabilities 
and capacity to ensure the most efficient, effective, and responsive 
software maintenance support. We continue to invest in the development 
of the workforce and have developed and delivered classroom and on the 
job training in the areas of open architecture standards, 
implementation of the Agile development process, complex algorithm 
development, safety and secure coding standards. We're focusing on the 
early procurement of technical data/intellectual property and a 
software supportability package to enable us to reproduce, recreate, or 
recompile critical software for the sustainment of the weapon system. 
We continue to emphasize the importance of software maintenance and 
sustainment because, unlike hardware, the software is the enabler to 
integrating and interoperating among multiple systems and subsystems in 
the matrix of our ever evolving battlespace.
    VADM Moore. The Navy Joint Fleet Maintenance Manual (JFMM) outlines 
the process and requirements to deliver alterations to the Fleet to 
include software maintenance updates and these address the growing 
importance of software maintenance on our depot-level sustainment 
operations. Navy software Original Equipment Manufacturer (OEM) 
developers continue to move to common software libraries that enable 
continuous software maintenance in stride with the development of 
warfighter capability enhancements. The testing, certification, and 
delivery of these software maintenance updates are planned periodic 
warfighter improvements to enable a reduction in the overall cost. An 
increasing number of Navy OEM software developers have adopted the 
Agile software development process that allows for improved government 
involvement and engagement in the software development process as well 
as improved software quality that reduces software maintenance 
requirements.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
    Lt. Gen. Levy. Software maintenance workload continues to grow 
significantly in both new and legacy weapon systems. In order to 
sustain our modern weapon systems, Air Force Sustainment Center (AFSC) 
is institutionalizing the involvement of depot organic software 
engineers and computer scientists in all aspects of the Software 
Development Lifecycle (SDLC) to include requirements analysis, design, 
implementation, integration, and test, including platform level 
software integration capability. AFSC's goal is to utilize organic 
resources to sustain all sub-systems for CORE workload designated 
systems which are projected to experience change throughout the weapon 
system's lifecycle. The highly integrated nature of modern systems 
requires system architectural knowledge to properly consider impact of 
software changes to the overall system. The AF continually evaluates 
the right mix of organic and contract support of software centric 
systems. The AF works hard to develop effective partnerships with 
industry to leverage the strengths of the depots and private industry 
to deliver war winning cost effective capability to the war fighter. 
AFSC continues to place emphasis on infrastructure investment; 
cybersecurity; Scientist, Technology, Engineering and Math (STEM) 
development and recruitment programs; and industry leading process 
methodologies, like the Agile Software Development framework, to ensure 
the organic workforce has the resources, capacity, technical 
competence, and tools necessary to support emerging weapon systems.
                               munitions
    11. Senator Inhofe. What is your assessment of the state of the 
munitions industrial base?
    LTG Wyche. LTG Wyche, VADM Grosklags, VADM Moore, LtGen Dana, and 
Lt. Gen. Levy, the munitions industrial base faces significant 
challenges in meeting current operational requirements. Mortar, 
artillery, missile and bomb requirements pose the greatest challenges. 
This is primarily due to facility capacity and workforce capabilities. 
Today's organic ammunition facilities and infrastructure were created 
during the buildup prior to World War II. Although some modernization 
efforts have been accomplished, we need additional modernization 
funding in order to maintain and revitalize critical production base 
capabilities. Workforce challenges include impacts from sequestration, 
which resulted in a loss of corporate knowledge and our inability to 
retain certain desired skill sets. The current hiring freeze has 
further compounded our workforce challenges.
    VADM Grosklags. The Department is concerned about the overall 
health of the munitions industrial base. Since the end of the Cold War, 
the munitions development and production market has declined. This 
decrease has resulted in aggressive competition for a limited number of 
new munition program opportunities. Within the munitions sector, two 
key prime contractors, Raytheon Missile Systems (a division of the 
Raytheon Company) and the Lockheed-Martin Company account for 
approximately 85-90 percent of the Department of Defense's (DOD) 
munitions procurement funding. While there are small pockets of 
progress in expanding the munitions industrial base, as the Department 
of the Navy's successful efforts to mature Orbital-ATK from a small 
business operation to a prime contractor for the Advanced Anti-
Radiation Guided Missile program, other similar efforts are not on the 
horizon. While many industrial sectors that support our national 
security requirements are also supported by commercial markets, the DOD 
munitions industrial sector is mostly defense-unique. As a result, the 
munitions industrial base faces a number of challenges such as 
sustaining munition design and engineering teams, and sustaining 
munitions sub-tier suppliers. The munitions industrial sector is 
routinely impacted by shifts in DOD demand as a result of various 
factors, but mostly due to budget fluctuations/constraints, the 
initiation or drawdown of conflicts, and the reprogramming of resources 
from munitions accounts to pay for other higher priorities due to the 
fungibility of munitions accounts. As a result of these concerns (and 
others), the Deputy Assistant Secretary of Defense for Manufacturing 
and Industrial Base Policy (DASD(MIBP)) is initiating a new munitions 
industrial base resiliency study. One of the study goals is to inform 
the development of a DOD-wide munitions strategy to ensure the 
munitions industrial base remains healthy and is poised to meet 
warfighter demands in a cost effective and timely manner. The 
Department of the Navy (along with all other Services) is participating 
in this effort. DASD(MIBP) anticipates this study to complete within 
the next twelve months.
    VADM Moore. The Department is concerned about the overall health of 
the munitions industrial base. Since the end of the Cold War, the 
munitions development and production market has declined. This decrease 
has resulted in aggressive competition for a limited number of new 
munition program opportunities. Within the munitions sector, two key 
prime contractors, Raytheon Missile Systems (a division of the Raytheon 
Company) and the Lockheed-Martin Company account for approximately 85-
90 percent of the Department of Defense's (DOD) munitions procurement 
funding. While there are small pockets of progress in expanding the 
munitions industrial base, as the Department of the Navy's successful 
efforts to mature Orbital-ATK from a small business operation to a 
prime contractor for the Advanced Anti-Radiation Guided Missile 
program, other similar efforts are not on the horizon. While many 
industrial sectors that support our national security requirements are 
also supported by commercial markets, the DOD munitions industrial 
sector is mostly defense-unique. As a result, the munitions industrial 
base faces a number of challenges such as sustaining munition design 
and engineering teams, and sustaining munitions sub-tier suppliers. The 
munitions industrial sector is routinely impacted by shifts in DOD 
demand as a result of various factors, but mostly due to budget 
fluctuations/constraints, the initiation or drawdown of conflicts, and 
the reprogramming of resources from munitions accounts to pay for other 
higher priorities due to the fungibility of munitions accounts. As a 
result of these concerns (and others), the Deputy Assistant Secretary 
of Defense for Manufacturing and Industrial Base Policy (DASD(MIBP)) is 
initiating a new munitions industrial base resiliency study. One of the 
study goals is to inform the development of a DOD-wide munitions 
strategy to ensure the munitions industrial base remains healthy and is 
poised to meet warfighter demands in a cost effective and timely 
manner. The Department of the Navy (along with all other Services) is 
participating in this effort. DASD(MIBP) anticipates this study to 
complete within the next twelve months.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
    Lt. Gen. Levy. In fiscal year 2018, the munitions industrial base 
will be funded to produce at their current maximum capacity to help 
replenish preferred munitions (Small Diameter Bomb I [SDB-I], Joint 
Direct Attack Munition [JDAM], Hellfire) expended in overseas 
contingency operations and to increase inventory stockpiles. The DOD is 
continuing to take the necessary actions to increase industry 
production capacity for weapons with sustained high demand levels. 
However, industry still needs a clear demand signal of consistent 
funding across the FYDP and strategic investment to continue required 
industrial base growth and plan for future production levels of 
preferred munitions.

    12. Senator Inhofe. LTG Wyche, VADM Grosklags, VADM Moore, LtGen 
Dana, and Lt. Gen. Levy, what is the current ability of the industrial 
base to support a rapid buildup of inventories?
    LTG Wyche. The ability to ramp up quickly is largely dependent on 
the type of parts and the vendors who support those items. We do have 
supply chains that are easier to ramp up and respond but the vast 
majority of our supply chains are much slower to expansion. Demand 
signal and consistent/predictable funding are key inputs to improving 
the reaction of the supply chain to requirements. The munitions 
industrial base would have significant challenges if required to 
support a rapid buildup of inventory. Analysis of the projected 
increases to the Army's requirements, based on current planning 
guidance, show that we do not have the surge capacity to produce or 
procure the required quantity of mortars, artillery, demolition items, 
medium caliber munitions, missiles, or bombs. There is also a large 
amount of unserviceable ammunition stored in our storage depots, we 
need to pursue methods to demilitarize the unserviceable ammunition in 
storage. Facility capacity and the availability of additional trained 
personnel are both factors that limit our surge capability.
    VADM Grosklags. Munitions programs are more readily adaptable to 
production line and tooling investments as compared to large aircraft 
or ships programs. However, the rapid buildup of munitions inventories 
remains challenging because of material lead-times, skilled work-force 
development timelines, supply-chain response times and design/
production requirements that ensures our munitions operate effectively 
and safely in severe warfighting operating environments (e.g. across 
the electromagnetic spectrum, aircraft/shipboard environments, etc.). 
The Department of Defense provides resources to the munitions 
industrial base to ramp-up production in preparation for Major Combat 
Operations and when the Nation is engaged in conflict; DOD quickly 
reduces those resources when hostilities diminish or cease. Frequently, 
the DOD reprograms resources from munitions accounts to pay for other 
higher priorities as these accounts are more `fungible'. This cycle of 
rapid ramp-ups followed by declines of demand and production adds risk 
and significant capacity management challenges to munitions prime 
contractors and their critical sub-tier suppliers. This risk is 
exacerbated because many sub-tier suppliers do not have the diversity 
of programs or products from other non-defense markets to support their 
design and production skills. The Deputy Assistant Secretary of Defense 
for Manufacturing and Industrial Base Policy (DASD(MIBP)) has attempted 
to better manage these industrial base challenges with assessments of 
data from their Sector-by-Sector, Tier-by-Tier (S2T2) data repository. 
S2T2 is a carefully compiled data base of vendor capability, supply 
chain issues and manufacturing details regarding the production of 
critical components, platforms and technologies. DASD(MIBP) analysis 
consistently identifies the munitions sector as being under stress and 
at risk to meet the demands of future warfighting requirements. 
DASD(MIBP) is initiating a new munitions industrial base resiliency 
study in fiscal year 2017. One of the study goals is to inform the 
development of a DOD-wide munitions strategy to ensure the munitions 
industrial base remains healthy and is poised to meet warfighter 
demands in a cost effective and timely manner. The Department of the 
Navy (along with all other Services) is participating in this effort. 
DASD(MIBP) anticipates this study to complete within the next twelve 
months.
    VADM Moore. Munitions programs are more readily adaptable to 
production line and tooling investments as compared to large aircraft 
or ships programs. However, the rapid buildup of munitions inventories 
remains challenging because of material lead-times, skilled work-force 
development timelines, supply-chain response times and design/
production requirements that ensures our munitions operate effectively 
and safely in severe warfighting operating environments (e.g. across 
the electromagnetic spectrum, aircraft/shipboard environments, etc.). 
The Department of Defense provides resources to the munitions 
industrial base to ramp-up production in preparation for Major Combat 
Operations and when the Nation is engaged in conflict; DOD quickly 
reduces those resources when hostilities diminish or cease. Frequently, 
the DOD reprograms resources from munitions accounts to pay for other 
higher priorities as these accounts are more `fungible'. This cycle of 
rapid ramp-ups followed by declines of demand and production adds risk 
and significant capacity management challenges to munitions prime 
contractors and their critical sub-tier suppliers. This risk is 
exacerbated because many sub-tier suppliers do not have the diversity 
of programs or products from other non-defense markets to support their 
design and production skills. The Deputy Assistant Secretary of Defense 
for Manufacturing and Industrial Base Policy (DASD(MIBP)) has attempted 
to better manage these industrial base challenges with assessments of 
data from their Sector-by-Sector, Tier-by-Tier (S2T2) data repository. 
S2T2 is a carefully compiled data base of vendor capability, supply 
chain issues and manufacturing details regarding the production of 
critical components, platforms and technologies. DASD(MIBP) analysis 
consistently identifies the munitions sector as being under stress and 
at risk to meet the demands of future warfighting requirements. 
DASD(MIBP) is initiating a new munitions industrial base resiliency 
study in fiscal year 2017. One of the study goals is to inform the 
development of a DOD-wide munitions strategy to ensure the munitions 
industrial base remains healthy and is poised to meet warfighter 
demands in a cost effective and timely manner. The Department of the 
Navy (along with all other Services) is participating in this effort. 
DASD(MIBP) anticipates this study to complete within the next twelve 
months.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
    Lt. Gen. Levy. The munitions sector is primarily a defense-unique 
industrial sector. This sector is routinely impacted by significant 
shifts in DOD demand as a result of various factors, but mostly due to 
the initiation or drawdown of conflicts. Resupply of key munitions used 
in conflicts, as well as surge requirements for those munitions during 
conflicts stress the industrial base. Numerous bottle-necks with 
critical sub-tier suppliers preclude a rapid response to these 
increases in requirements, causing delays in deliveries and increased 
cost to the Department. The munitions industrial base has supported 
recent DOD efforts to increase production capacity for high-demand 
weapons. However, the time period between identification of a 
production requirement and delivery of completed weapons can be from 
two to five years. During this interval, funds are programmed into an 
upcoming Air Force budget, funds are appropriated, a production 
contract is awarded, production commences, and delivery is completed. 
This lengthy process limits the industrial base's ability to respond 
rapidly to major changes in production requirements. Investments are 
being made in the current industrial base to be able to meet projected 
munitions requirements over the next few years. However, this capacity 
can only be preserved if stable base funding can be maintained.
                               __________
              Questions Submitted by Senator Mazie Hirono
                             hiring freeze
    13. Senator Hirono. Vice Admiral Moore, an exemption to the 
Administration's civilian hiring freeze was granted for various 
positions including certain positions at our nation's public shipyards? 
Can you provide an update on how the waiver process is working and do 
you see any residual effects of the hiring freeze which could impact 
your ability to continue building a balanced and skilled workforce?
    VADM Moore. The hiring freeze waiver process has been working well 
for the four Naval Shipyards. The Naval Shipyards have submitted and 
been approved for more than 7,500 waivers with no denials. There was an 
initial reduction in onboarding of new employees as the Department of 
Defense and Navy built and promulgated their hiring freeze waiver 
processes and procedures, but at this point any necessary timelines for 
waiver approvals have been incorporated into the hiring process, job 
offers are moving forward, and the 4 Naval Shipyards are back to 
regular onboarding of new employees.
                   importance of milcon to readiness
    14. Senator Hirono. LTG Wyche, VADM Grosklags, VADM Moore, LtGen 
Dana, and Lt. Gen. Levy, each of the Services has requested additional 
MILCON funding in the Supplemental Budget Request submitted by the 
President. Is the current level of MILCON impacting the Services' 
ability build the required capacity to increase readiness; and if so, 
what MILCON projects are most important to increase readiness?
    LTG Wyche. Current MILCON Army (MCA) funding is not adequate for 
meeting the modernization needs of the Army's Organic Industrial Base. 
Since Sequestration, budgets have forced the Army to accept risk in 
many areas. In terms of MILCON, the past several POM cycles has seen 
historic lows in MCA funding. The Army Materiel Command has been 
successful in mitigating risk in some cases through the use of major 
renovations using R&M funding. But since fiscal year 2010, AMC has 
averaged just $70 millionper year in projects. In order to modernize 
the capacities and capabilities for the AMC, the Command estimates 
needing $300 million in MCA investment per year.
    VADM Grosklags. The current level of MILCON funding is limiting the 
ability of the Fleet Readiness Centers (FRCs) to increase capability/
capacity to the levels necessary to support customer demands, new 
technologies and capabilities of emerging fleet aircraft. FRCs has the 
F/A-18 Avionics Repair Facility Replacement, Naval Air Station (NAS) 
Lemoore, CA and the F-35B Vertical Lift Fan Test Facility, Marine Corps 
Airs Station (MCAS) Cherry Point, NC in the President's Budget 
submission for funding in fiscal year 2018.
    VADM Moore. The following Naval Shipyard MILCON projects are 
planned for fiscal year 2017: Activity Project Number Project 
Description Est. Cost ($000) Portsmouth NSY 371 Nuclear Facilities 
Utilities Improvements $30,119 Puget Sound NSY & IMF 400 Submarine 
Refit Maintenance Support Facility (Phase 2) $21,476 Puget Sound NSY & 
IMF 438 Nuclear Environmental Monitoring Facility $6,704 Per title 10 
U.S.C. 2476, the Naval Shipyards are funded to meet the statutory 6 
percent minimum investment for the Navy's maintenance depots. While 
this is adequate to maintain existing mission-essential infrastructure 
functionality, it does not provide appreciable productivity 
improvements across all four Naval Shipyards. For fiscal year 2018 the 
Navy has identified approximately $134 million in MILCON requirements 
to positively impact naval shipyard readiness, listed in priority order 
below: Activity Project Number Project Description Est. Cost ($000) 
Portsmouth NSY 293 Paint, Blast & Rubber Facility Consolidation $61,692 
Norfolk NSY 257 CVN and SSN Ship Repair Training Facility $72,990.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
    Lt. Gen. Levy. See chart below:
    The current level of Military Construction (MILCON) funding forces 
Air Force Sustainment Center (AFSC) leaders to fund new facilities in 
support of emerging /new weapon systems before replacing existing 
mission facilities. Facilities with unsafe / unusable work areas or 
facilities that do not meet basic readiness requirements are often 
unfunded, leaving commandersto find Maintenance and Repair (M&R) funds 
to keep facilities usable. Funding in this manner increases readiness 
as it relates to new mission, but leaves commanders struggling to 
sustain or increase readiness of existing mission requirements.
    This bias is best represented by MILCON funding related to AFSC's 
Air Logistics Complexes (ALCs). Since fiscal year (FY) 2012, 
approximately $212 million in funding has been approved for new mission 
depot MILCONs. In contrast, there have been zero current mission depot 
MILCONs funded in the same timeframe. The Air Base Wings (ABWs) have 
not fared much better. Unless a facility is beyond repair (condemned) 
or directed by AF Leadership, funding for existing mission requirement 
has not been approved.
    Annually, AFSC submits approximately 60 combined new and existing 
mission MILCON requirements. Most of these requirements have been 
submitted multiple years but remain unfunded. Mission accomplishment 
and readiness is directly tied to each of these requirements. In many 
cases, facilities have declined to non-reparable conditions or workload 
has surpassed thefacility's capability to support it. For example, 
Ogden Air Logistics Complex (OO-ALC) has submitted a requirement for a 
Secure Software Facility since fiscal year 2012. This is the first of 
five (5) phases based strictly on known software workload requirements 
and has an expected payback of less than 15 months. Because this $29 
million MILCON has not been funded, OO-ALC has been forced to lease 
temporary facilities and contract workload at an annual cost almost 
twice that of the MILCON requirement to meet mission needs/readiness!
    AFSC submits its list of MILCON requirements for consideration at 
AFMC each year. In the latest MILCON submission for fiscal year 2019, 
61 projects were prioritized and submitted for funding. These 
requirements support all mission/readiness needs across AFSC's three 
ALCs and ABWs. AFSC's top 15 Existing Mission MILCON requirements for 
fiscal year 2019 are shown in the following table:

          Fiscal Year 2019 Existing Mission MILCON Requirements
------------------------------------------------------------------------
                                                                ($ in
    Priority                                                  millions)
------------------------------------------------------------------------
 1               Robins              Commercial Truck Gate         9,800
------------------------------------------------------------------------
 2               Tinker              Commercial Vehicle           13,400
                                      Visitor Control
                                      Facility
------------------------------------------------------------------------
 3               Robins              Aircraft Fire Bottle          9,800
                                      Maint Fac
------------------------------------------------------------------------
 4               Robins              Control Tower/Base Ops       13,200
                                      Fac
------------------------------------------------------------------------
 5               Hill                Consolidated                 20,600
                                      Transportation
                                      Facility
------------------------------------------------------------------------
 6               Hill                F-16 Emergency Power         19,400
                                      Unit Overhaul
                                      Facility
------------------------------------------------------------------------
 7               Robins              Depot Quality Control        17,700
                                      Lab
------------------------------------------------------------------------
 8               Hill                Install New PCC Apron         9,200
                                      (Hot Pad 8)
------------------------------------------------------------------------
 9               Tinker              ADAL Depot Aircraft           8,000
                                      Maint Fuel Dock
------------------------------------------------------------------------
10               Hill                Upgrade Industrial            7,900
                                      Waste Treatment Plant
------------------------------------------------------------------------
11               Tinker              Upgrade Building 3001        21,000
                                      Infrastructure P4
------------------------------------------------------------------------
12               Tinker              Visitor's Quarters           23,000
------------------------------------------------------------------------
13               Tinker              Natural Gas Main              3,950
                                      Extension
------------------------------------------------------------------------
14               Hill                Secure Core Software         28,300
                                      Facility
------------------------------------------------------------------------
15               Robins              Add to Software               7,000
                                      Support Fac Bldg 229
------------------------------------------------------------------------
Note: Add/Alter (ADAL), Portland Cement Concrete (PCC)


               bottlenecks in the defense industrial base
    15. Senator Hirono. LTG Wyche, VADM Grosklags, VADM Moore, LtGen 
Dana, and Lt. Gen. Levy, the industrial base plays an important role in 
research and development as well as design, production, delivery, and 
maintenance of weapon systems, vehicles, airplanes, and subsystems for 
the U.S. military. What types of bottlenecks exist in the defense 
industrial base that will make it difficult to increase readiness?
    LTG Wyche. The primary bottlenecks continue to be the late release 
of funding to the Organic Industrial Base customers. This results in 
them providing funds to the Organic Industrial Base activities later in 
the fiscal year resulting in decreased throughput and increased 
carryover. Carryover should be redefined to remove procurement (3-year 
money) and other Department of Defense from annual carryover rules. 
Decreased supply availability and backorders will drive the Army to 
continue to have excess inventory (serviceable and unserviceable) and 
will result in our inability to purchase and store critical repair 
parts required to support the joint warfighter. Also, it has been 
increasingly difficult to maintain a steady skilled workforce for the 
Organic Industrial Base facilities. If Organic Industrial Base sites 
were granted permanent direct hiring authority for justifiable 
requirements, the hiring of additional skills would alleviate issues in 
maintaining the human skills sets of core capabilities. The restricted 
ability to realign resources from lesser priority programs will impact 
the repair schedule and the inability to meet mission timelines. For 
example, the Opposing Forces (OPFOR) equipment at our Combat Training 
Centers has been neglected basically since before the war begin in 
2003. Their primary vehicles, the Opposing Force Surrogate Vehicle, are 
outdated and are a readiness challenge and do not provide our forces a 
realistic combat training scenario. In order to improve readiness and 
support the increased training intensity the Opposing Force Surrogate 
Vehicle must be repaired. This cannot be done under the continued 
budget constraints levels. The Army has also determined that there is a 
valid need for additional Brigade Combat Teams. The first brigade 
combat team to be built is the 15th Armored Brigade Combat Team and 
this is generating a requirement to send Paladins (howitzers) and Field 
Artillery Ammunition Support Vehicle (ammunition supply vehicles) to 
Anniston Army Depot for maintenance. It is imperative that the Army 
rebuilds its combat capability to ensure it can meet the challenges 
arising around the globe.
    VADM Grosklags. Increasing readiness is not necessarily a result of 
industrial base bottlenecks but rather a function of a stable design, 
manufacturing, and operation & sustainment programs and budgets. With 
resource stability, a trained/high performance work-force, continuity 
of operations, and prudent investments in manufacturing and depot 
tooling/robotics, the defense industrial base can sustain, and if 
necessary, surge to meet current and projected future warfighter 
readiness demands.
    VADM Moore. Sustained readiness is a function of stable design, 
manufacturing, and operation & sustainment programs and budgets. With 
resource stability, a trained/high performance work-force, continuity 
of operations and prudent investments in manufacturing and depot 
tooling/robotics, the defense industrial base can sustain, and if 
necessary, surge to meet current and projected future warfighter 
readiness demands. The ``bottlenecks,'' or, more accurately, limiting 
factors, to the defense industrial base's ability to increase 
readiness, especially in the short term, are the size of our highly 
skilled, public and private sector repair workforce, ``floor space'' to 
perform the work (e.g. dry docks for ships), and the vendor base for 
repair parts. All of these factors require years of lead time, and 
significant advanced funding, to increase capacity. The funding 
uncertainty of continuing resolutions every year exacerbates the 
effects of those limiting factors, resulting in reduced private sector 
capacity.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
    Lt. Gen. Levy. Unpredictability caused by continuing resolutions 
and changes in mission inhibits industrial interest in supporting DOD, 
thus creating a bottleneck of total defense industrial capacity. 
Unstable funding for sustainment and a lack of proper enterprise weapon 
systems planning creates bottlenecks in material shortages/obsolescence 
issues, as well as provisioning and data rights, which in turn have 
significant impacts on future planning and potentially readiness. In 
the organic industrial base, AFSC has a robust Diminishing 
Manufacturing Sources Material Shortages (DMSMS) management plan for 
items highly likely to face obsolescence issues. Pricing is risky on 
these items, creating huge spikes in material costs within the 
production lead time, which impact profits on certain firm fixed price 
contracts, causing some disinterest in getting involved in supporting 
the government requirements. In transitioning from acquisition to 
sustainment with new weapon systems, initial provisioning and 
government ownership of technical data are limiting factors and a 
recurring bottleneck to organic sustainment. We can't afford to 
continue managing data rights tactically. Air Force doctrine calls for 
disparate parts of different functions to be brought together 
intelligently to achieve unity of effort and unity of command in order 
to obtain the best effects. The government wants to ``own'' the 
technical baseline by working to solve the technical data problem at 
the strategic level. Within our laws, regulations, and policies, the 
disparity of understanding exists in the industrial base as to what 
rights we should or should not have or how to go about enforcing our 
rights to obtain the correct data packages from our industrial 
partners. Creating stable funding for the future and having better 
sustainment and acquisition planning early in the lifecycle of weapons 
systems will help eliminate bottlenecks and keep our force ready.
                      ground equipment challenges
    16. Senator Hirono. LTG Wyche and LtGen Dana, are there any 
specific ground equipment readiness challenges that are impacted by the 
defense industrial base?
    LTG Wyche. Fiscal uncertainty and lack of a demand signal that 
drove us to this poor supply availability makes it difficult to 
optimize our processes; resulting in higher operating costs, production 
delays and increased carryover. The lack of a demand signal over an 
extended period of time, extended contract lead times for critical 
items, and obsolescence all impact ground equipment readiness. We 
believe we are largely past the major lead time hurdles and we have our 
buying activities focused on further reducing lead-times. The Defense 
Logistics Agency is pursuing a number of system wide omnibus contracts 
with our Original Equipment Manufacturers to reduce lead-times and to 
aid with replacement of obsolete parts.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.

    17. Senator Hirono. LTG Wyche and LtGen Dana, what is the 
operational tempo at your installation depots and do you anticipate a 
backlog in Depot level maintenance for any specific reason?
    LTG Wyche. The OIB is currently work-loaded to meet requirements 
and positioned to surge in support of Contingency Operations. Backlog 
is workload that has not yet been funded and the Army does have a 
number of unfunded hardware and software requirements. Without proper 
depot maintenance funding, the Army will not be able to perform 
aviation rebuilds or receive the required missile recertification and 
upgrades to system software that are required and critical to ensure 
weapon systems communicate on the battlefield. Furthermore, the Army 
has other depot maintenance funding requirements generated by 
unforeseen/unplanned missions. The restricted ability to realign 
resources from lesser priority programs will impact the repair schedule 
and the inability to meet mission timelines.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
                   national guard's role in readiness
    18. Senator Hirono. Lieutenant General Levy, what role can the Air 
National Guard play in increasing readiness?
    Lt. Gen. Levy. The critical role of the ANG towards our nation's 
readiness is well known and acknowledged. Their transition from a 
strategic reserve to an operational force that fights seamlessly with 
the joint force is an enabling factor in our nation's capabilities. 
There is more to be done within the Total Force Association (TFA) arena 
in regards to the AFSC's internal readiness and its ability to 
strengthen the readiness of the warfighter. The AFSC already benefits 
from a limited but highly successful partnering with the ANG. The 126th 
Supply Chain Operations Squadron (ANG) at Scott AFB, IL and the 192d 
Supply Chain Operations Flight (ANG) at Langley AFB, VA, provide 
integral and critical support to the AFSC's 635th Supply Chain 
Operations Wing, maintaining the same standards of operational 
readiness and cross-component operational capabilities for daily and 
surge operations as their Active Duty counterparts. This same kind of 
relationship could be explored for our Air Logistics Complexes (ALC). 
For instance, establishing associations with ANG Squadrons at each 
Depot could leverage the experience and capability of ANG maintainers 
in order to provide responsive blue-suit wartime surge capability, help 
grow and preserve our critical aircraft maintenance career fields, (a 
true core-competency of the ANG), and most importantly, augment our 
critical Expeditionary Maintenance (EDMX) and Aircraft Battle Damage 
Repair (ABDR) requirements as well as other areas. While not 
traditional unit-equipped squadrons, they could be built upon wartime 
task-able Unit Type Codes (UTCs) fulfilling requirements of a gaining 
Major Command (MAJCOM), necessary for legitimate Air Reserve Command 
(ARC) mission establishment. Such a concept, of course, is reliant on 
availability of ANG manpower and their willingness to place it 
accordingly. The AFSC stands ready to explore this readiness enhancing 
potential Total Force partnership with the ANG. In addition, ANG units 
also have exceptional field level capabilities that are being explored 
to augment AFMC's existing expertise for surge requirements especially 
related to legacy aircraft parts and structural repairs.

    19. Senator Hirono. Lieutenant General Wyche, what is your opinion 
of the Guard's role in Army readiness?
    LTG Wyche. The National Guard plays a vital and integral role in 
total Army Readiness with 78 percent of Army Sustainment Force 
Structure residing the Reserve Component and much of that Force 
Structure is at the National Guard states and territory level. The 
National Guard has fully participated in contingency operations for 15 
years and is currently ramping up additional Brigade Combat Teams to 
make them available for the Chief of Staff of the Army utilization as 
needed around the globe. There are challenges to raise and maintain the 
Readiness of additional combat forces from the National Guard. The 
Total Army Enterprise is working together to ensure those forces are 
ready because National Guard Readiness is Army Readiness.
                        innovation in readiness
    20. Senator Hirono. LTG Wyche, VADM Grosklags, VADM Moore, LtGen 
Dana, and Lt. Gen. Levy, what steps have each of you taken to work with 
industry leaders to bring advanced technologies and manufacturing 
techniques back into the Department and integrated those concepts into 
the Department of Defense's industrial base?
    LTG Wyche. Both the Private Industry and the Organic Industrial 
Base are equally critical to providing readiness to the Army and our 
partners within the other services. Public-Private-Partnerships improve 
capabilities and performance through cooperative agreements. Through 
these 200 active partnerships, industry can take advantage of the 
critical capabilities and skill sets developed by the Army's Organic 
Industrial Base and the Organic Industrial Base can take advantage of 
the advanced technologies and manufacturing techniques offered by 
industry. Private Industry continues to play a very significant role 
providing equipment for our great Army. Our Original Equipment 
Manufacturers produced the Abrams Tank, Bradley Fighting Vehicle, AH-64 
Apache Helicopter, UH-60 Blackhawk Helicopter and more recently the 
Mine Resistance Ambush Protected and Route Clearance Vehicles. The 
Organic Industrial Base is thoroughly integrated with private industry 
and has been properly equipped to sustain each system previously 
mentioned. The Headquarters, Army Materiel Command and its LCMCs 
regularly conduct Industry Forums with the private industry to discuss 
warfighter and industry needs, areas of concern, and collaborate on 
future initiatives important to sustaining the joint warfighter.
    VADM Grosklags. Efforts to modernize Navy depots and the organic 
industrial base are essential to improve readiness. Advanced Digital 
Manufacturing (ADM) technologies like 3D printing can accelerate how 
maintenance, repair and overhaul (MRO) activities sustain Navy and 
Marine Corps aircraft. Digital manufacturing technologies can shorten 
the ``design to production cycle,'' optimize new designs and enable 
cost-effective, on-demand manufacture of components or those for which 
no parts are available. In the last two years Naval Air Systems Command 
(NAVAIR) has been developing processes to print 3D metal ``flight-
critical'' components that meet required design and safety criteria. 
NAVAIR flew its first metal flight critical component, a titanium 
engine nacelle link and attachment on the MV-22B in July of 2016. 
NAVAIR is scaling up integration of digital manufacturing with Navy 
organic depots and industry counterparts. Integration includes 
investments in standards, qualification and certification approaches 
for repairs, tooling, support equipment, and end use components. For 
example, in March 2017 NAVAIR approved and put into the U.S. Government 
supply system a 3D printable H-1 Helicopter Helmet Visor Clip. The 
original part, a small clip that supports the helmet visor, was a $200 
item that had a month long procurement lead time. It can now be made 
``on-demand'' for a recurring cost of $0.75 per unit. The standards 
being developed are not unique to NAVAIR. NAVAIR is working across the 
Department to align and leverage the work that the Naval Sea Systems 
Command, U.S. Marine Corp, U.S. Air Force, and U.S. Army are doing to 
employ 3D printing and other ADM technologies. Additionally, NAVAIR has 
reached out to original equipment manufacturers and commercial vendors 
to understand how they are employing 3D/ADM in similar applications. 
The standards in development intended to enable use of this technology 
across the Department of Defense industrial base. ADM technology does 
not stand alone. It requires an investment in digital infrastructure, 
digital data, and cyber security to full leverage. Modernizing our 
depots and organic industrial base must include the investments in 
improving, managing and securing our digital data.
    VADM Moore. Efforts to modernize Navy shipbuilding and the organic 
industrial base are essential to improve readiness and the Navy has 
worked with industry to integrate advanced technologies and 
manufacturing techniques into the industrial base. The National 
Shipbuilding Research Program (NSRP), managed through the Naval Sea 
Systems Command (NAVSEA), provides a collaborative framework for 
shipbuilders and maintainers to share best practices and is designed to 
reduce the total ownership costs in both the Government and private 
sectors. NSRP participants include the five NAVSEA-affiliated Program 
Executive Offices, the United States Coast Guard, and 11 major private 
shipbuilding firms. The program supports soliciting, selecting and 
executing shipbuilding, ship repair and maintenance, and ship 
modernization research and development projects. In addition, NSRP 
serves a critical role by providing a public forum for industry-wide 
networking, technology transfer and discussion of current Navy and 
industry areas of interest. The transfer of the technologies and tools 
NSRP project teams are developing for both the shipbuilding industry 
and the Navy is at the core of the program's mission. Another important 
function NSRP serves is fostering strong relationships with industry 
and Navy associations and organizations, including the American Society 
of Naval Engineers, Marine Machinery Association, Navy League, Naval 
Submarine League, ShipTech, and Society of Navy Architects and Marine 
Engineers. In addition to NSRP, NAVSEA uses its Small Business 
Innovation Research and Small Business Technology Transfer (SBIR/STTR) 
Programs to fund innovative small businesses to develop technology, 
processes, and products to meet critical warfighter needs, including 
maintenance reductions and improvements, total ownership costs, and 
obsolescence concerns. The NAVSEA SBIR/STTR Program serves as an on-
ramp for the small business industrial base to participate in NAVSEA 
technology development, and NAVSEA has an excellent record of 
transitioning SBIR/STTR Phase I and Phase II technology development 
efforts to SBIR Phase III and into DOD acquisition programs. The NAVSEA 
SBIR/STTR Program conducts outreach events that engage small businesses 
and associated organizations, universities and laboratories, and large 
prime contractors to expand the country's industrial base. Starting in 
August 2015, NAVSEA has hosted a Small Business Industry Day at its 
headquarters at the Washington Navy Yard to increase small business 
participation and interaction between the command and underserved 
companies. NAVSEA is hosting the 2017 Small Business Industry Day on 
August 8.
    LtGen Dana did not respond in time for printing. When received, 
answer will be retained in committee files.
    Lt. Gen. Levy. The Air Force Sustainment Center (AFSC) continually 
pursues advanced technologies and manufacturing techniques to 
incorporate into the sustainment environment by partnering with 
industry and academia. There is a structured pipeline through which 
promising technologies are developed, manufacturing readiness is 
improved, and mature systems are incorporated into the production 
environment. The Technology Development and Insertion Process (TDIP) 
team collects and prioritizes technology needs from AFSC organizations. 
The AFSC TDIP portfolio has over 100 ongoing efforts between industry 
and the technology needing organization. These projects vary greatly 
from maximizing efficiency, increasing process controls, increasing 
safety, developing smarter software, lowering energy or waste of our 
process and more. Limited key examples include: Maturation of Advanced 
Manufacturing for Low-cost Sustainment (MAMLS): AFSC is a member of the 
Sustainment Advisory Committee for this program executed though the 
America Makes cooperative agreement. Structured as a public-private 
partnership with member organizations from industry, academia, 
government, and non-government agencies, America Makes is the national 
accelerator for additive manufacturing (AM) and 3D printing (3DP) and 
is the nation's leading and collaborative partner in AM and 3DP 
technology research, discovery, creation, and innovation to increase 
our nation's global manufacturing competitiveness. Laser Depaint: 
Exercising commercial off the shelf robotics and lasers in the new 
application of aerospace coatings (paint) removal. This multi-year 
effort is close to fully operational on F-16s, with follow-on work and 
approval for A-10s, missile transport trailers, and munition trailers. 
Additionally, handheld lasers developed through this effort are in use 
in the field and will be further qualified for depot operations. 
Additive Manufacturing: Polymer 3DP capabilities are currently in use 
creating tooling, dies, molds, fixtures, drill templates, shop aids, 
and prototype parts. Efforts are on-going to bring metal 3DP 
capabilities on-line, both organically and through industry partnering. 
Immediate implications are to the agility and speed with which parts 
and support equipment can be produced to drastically decrease 
production time. Robotics: Focused on four major goals--1) remove 
personnel from hazardous environments, 2) perform tasks that personnel 
cannot do, 3) improve effectiveness/efficiency/quality, and 4) replace 
custom-built, one-of-a-kind, proprietary systems. Examples currently 
implemented include: 35,000 psi water blasting, High Velocity Oxygen 
Fuel (HVOF), Cold Spray, C-130 Prop grinding, Flash-Jet paint removal, 
Shot Peening, Plastic Media Blasting, and Low Plasticity Burnishing 
(LPB). Advanced Metal Finishing Facility (AMFF): Utilizes remotely 
operated computer controlled technology to conduct over twenty metal 
finishing operations. These enhancements include production preparation 
areas that remove operators from the processing environment; resulting 
in a 95 percent reduction in hazardous chemical exposure inherent to 
electroplating operations. Smart Manufacturing: Suite of sensors 
monitoring production machinery parameters such as pressure, flow, 
lubricating oil degradation, and vibration parameters enables 
Conditions Based Maintenance. Hailed as a ``success story'' by 
professional organizations, this program demonstrated the potential 
benefits of ``smart'' manufacturing technologies. Additional Advanced 
Technologies Being Pursued: Reconfigurable Machining Centers, Voice 
Directed Inspection System, Confined Space Monitoring System, Energy 
Conservation Projects, Networked Sensor Systems, Honeycomb Sandwich 
Structure Inspection, Automatic Water Stripping, Advanced Corrosion 
Resistant Coatings, High Precision X-Ray Plating Technologies/Chromium 
Reduction, In-Situ Coating Property Sensor, Plume Opt Powder Injection, 
3D Printed Masking for Plasma Spray, Sonic Infrared Crack Detection, 
Conforming Anodes and Masking, Strip Solution Optimization, Advance 
Machining Process for Shrouded Turbine Blades, Counterfeit Electronics 
Detection, Exoskeleton Suit, Advanced Nondestructive Inspection, Laser 
Scanning, and Predictive Maintenance systems.
                       skilled labor on shipyards
    21. Senator Hirono. Vice Admiral Moore, reports show that skilled 
welders and technically skilled machinist can make upwards of $300,000 
in the private sector. Are you facing a challenge in trying to recruit 
and retain these highly skilled team members in the wake of the 
outstanding private sector opportunities which are available to them? 
Besides the opportunity to serve our country and work on vital national 
assets, what are you able to offer these highly qualified and sought 
after individuals?
    VADM Moore. Yes, it is an issue in terms of technically skilled 
mechanics. For example, in the Tidewater area of Virginia, Norfolk 
Naval Shipyard (NNSY) has lost skilled mechanics to the private sector, 
which offers up to about $34.00 an hour for highly skilled welders 
versus about $27.00 an hour for a top-step, nuclear pipe welder at 
NNSY. Naval Shipyards will be submitting a request for tiered 
incentives (i.e., higher pay levels, special-act awards, incentives, 
etc.) based on critical skills and advanced qualifications as a 
retention tool and recognition of skill mastery by the end of the 
calendar year. Additionally, NNSY has submitted requests for approval 
of Direct Hire Authority for targeted skills (i.e., experienced/
journeyman level machinists, welders, et al).
                       role of private shipyards
    22. Senator Hirono. Vice Admiral Moore, according to Vice Chief of 
Naval Operations Admiral Bill Moran, the attack submarine Boise has 
been sitting pier side for about 47 months for a maintenance cycle that 
usually takes about 24 months to complete. This has led the Navy to 
solicit bids from private shipyards for this maintenance cycle. How can 
we capitalize on the private sector to help get maintenance back on 
schedule?
    VADM Moore. For clarification, Vice Chief of Naval Operations, 
Admiral Bill Moran's comment was referring to the USS Albany (SSN 753) 
Engineered Overhaul (EOH). USS Albany's EOH was planned to complete in 
28.3 months, but is now projected to complete in 47.3 months. USS 
Boise's (SSN 764) certification for Unrestricted Operations (URO) 
expired in June 2016 and she has been moored pier side since then 
because Norfolk Naval Shipyard, and the other naval shipyards, lacked 
the capacity to perform the EOH. There are two main avenues the Navy 
can take to capitalize on the private sector to help get maintenance 
back on schedule. First, the Navy can contract out entire 
availabilities to the two nuclear qualified private shipyards, General 
Dynamics-Electric Boat (GDEB) and Huntington Ingalls Industries-Newport 
News Shipbuilding (HII-NNS), when temporary peaks in workload exceed 
the naval shipyards' capacity. The Navy has done this in the past and 
is in the process of conducting a limited competition between GDEB and 
HII-NNS for USS Boise's EOH. The Navy has recently contracted to the 
private sector to conduct the following submarine depot maintenance 
availabilities: USS Montpelier (SSN 765) fiscal year 2016 Interim Dry 
Docking, awarded to GDEB in May 2015; USS Columbus (SSN 762) fiscal 
year 2017 EOH, awarded to HII-NNS in August 2015; and USS Helena (SSN 
725) fiscal year 2018 Drydock Selected Restricted Availability (DSRA), 
in process for award to HII-NNS, expected July 2017. The private sector 
capacity to do this work is limited by their dry dock space and 
competing workload from the Navy's CVN and submarine new construction 
programs. While more flexible than the government, the private 
shipyards face similar challenges as the naval shipyards in rapidly 
growing their capacity because of the time required to recruit and 
train skilled workers. Second, the Navy can contract out some of the 
work on availabilities conducted in the naval shipyards to the private 
sector. This is an approach the Navy is starting to use more to address 
the workload-to-workforce mismatch over the next few years in parallel 
with hiring. It opens up the potential vendor base beyond the two 
nuclear qualified shipbuilders and can help address specific skill 
shortages in the naval shipyards that would otherwise drive delays. 
However, this approach also has drawbacks. The work is more costly than 
comparable work performed by the naval shipyards' organic workforce, 
and requires additional government resources for contract oversight and 
support services.

    23. Senator Hirono. Vice Admiral Moore, what role does the private-
public partnership play in ship maintenance and the Navy's ability to 
effectively plan and execute maintenance on ships?
    VADM Moore. Public-private partnerships play a critical role in 
planning and executing ship maintenance. Naval Shipyards, NAVSEA 
introduced the concept of One Shipyard in 2001, describing an 
industrial base workload and resource enterprise set up to achieve the 
most efficient ship maintenance for the fleet under a ``surge, sustain 
and reconstitute'' operational construct. One Shipyard focused on 
schedule and quality through standardized processes, resource sharing 
among public shipyards, and partnering with private shipyards. Other 
vital elements included a corporate approach to material support and 
the resolution of critical skill shortages. The concept has matured, 
and today the Naval Shipyards and private shipyards effectively partner 
to routinely share both work and resources to efficiently deliver fleet 
maintenance. Four Naval Shipyards collaborate with one another and with 
private industrial organizations to improve industrial processes, 
implement best practices and to obtain new technology for industrial 
work. Further collaboration occurs through Carrier Team One, Submarine 
Team One, National Shipbuilding Research Program, Commercial Technology 
for Maintenance Activities, such as the National Centers for 
Manufacturing Sciences program, NAVSEA Warfare Centers, Manufacturing 
Technology, Repair Technology, and implementation of solutions from 
private industry trade shows.

    24. Senator Hirono. Vice Admiral Moore, has the current means and 
methods of surface ship maintenance execution in Pearl Harbor supported 
the Fleet's requirements for cost, schedule and quality?
    VADM Moore. Yes. Surface ship maintenance is moving in the right 
direction when it comes to both schedule and cost performance. The 
quality of the work meets fleet requirements. The Navy is implementing 
contracting, planning and execution processes improvements nationwide 
and we are seeing positive results in Pearl Harbor. On-time delivery 
performance is on par with our four major homeport areas. Historically, 
cost performance at Pearl Harbor as measured by growth and new work has 
been higher than CONUS port averages, but has shown significant 
improvement with above average performance over the last three years as 
evidenced by a cost growth reduction of 33 percent.

    25. Senator Hirono. Vice Admiral Moore, has the current means and 
methods of surface ship maintenance execution in Pearl Harbor provided 
stability and predictability to the Pearl Harbor industrial base?
    VADM Moore. Pearl Harbor Naval Shipyard and Intermediate 
Maintenance Facility (PHNSY & IMF) and the Hawaii Regional Maintenance 
Center (HRMC) work closely with Commander, Pacific Fleet (COMPACFLT), 
Commander Naval Surface Forces, Pacific (CNSP), Commander, Naval Sea 
Systems Command (NAVSEA), and Commander, Navy Regional Maintenance 
Center (CNRMC) representatives, on the Fleet Availability Scheduling 
Team (FAST) to schedule surface ship maintenance. The FAST projects the 
ship operating schedules and estimates the future windows for repair 
availabilities according to the Optimized-Fleet Response Plan (OFRP). 
The team adjusts the repair periods for individual ships to ensure that 
the workload for each port is executable. It also balances the need to 
meet O-FRP requirements with the desire to level the workload for the 
port as much as possible and, thereby, provide stability for the 
industrial base in each port. The FAST product is a workload schedule 
that is provided to the Pearl Harbor industrial base for its planning 
purposes.

    26. Senator Hirono. Vice Admiral Moore, does the Navy view 
industrial base predictability and stability as integral to the 
maintenance of surface ships at Pearl Harbor?
    VADM Moore. Industrial base stability and workload predictability 
are critical to maintaining our ships affordably and in a quality 
manner at all of our industrial ports, including Pearl Harbor. Stable 
and accurate workload forecasts are key to fostering an environment of 
well-planned, well-managed, and well-executed maintenance 
availabilities. Maintaining stable workloads also allows for the 
necessary number of skilled trade workers to be hired, trained, and 
available as needed to support the projected workload. Key to ensuring 
a stable workload is maintaining sufficient funding each year to meet 
the fleet's maintenance requirements.
                      long-term tdy requirements.
    27. Senator Hirono. Vice Admiral Moore, in January 2016 your 
predecessor Admiral Hilarides wrote a letter to the per diem committee 
on behalf of the Navy requesting an immediate waiver for naval shipyard 
civilian workers from the change in long term TDY per diem policies. Do 
you agree with the waiver request? Some relief was provided by the most 
recent NDAA. Can you provide information on how this waiver process is 
working? Are waivers being processed in a timely and efficient manner 
to support these long term assignments?
    VADM Moore. Yes, NAVSEA agrees with the waiver request previously 
submitted by VADM Hilarides. Revisions to the Joint Travel Regulations 
by the Per Diem, Travel, and Transportation Allowance Committee have 
been completed, including the most recent changes authorized in NDAA 
2017. With the Acting Secretary of the Navy delegating waiver approval 
authority to the 3-star Flag Officer or civilian SES equivalent, NAVSEA 
updated its travel instruction accordingly. The Commander, Pacific 
Fleet and Commander, United States Fleet Forces Command are in the 
process of issuing instructions to their cognizant Naval Shipyards for 
waiver requests for full rate per diem. NAVSEA has not received any 
waiver requests to day for personnel assigned to the NAVSEA budget 
office, but is committed to processing any future requests in a timely 
manner.

    28. Senator Hirono. Vice Admiral Moore, how has the implementation 
of this policy change impacted the readiness of our fleet, recruiting 
and retention at our shipyards and the morale of these important 
members of the Navy team?
    VADM Moore. Activity Project Number Project Description Est. Cost 
($000) Portsmouth NSY 371 Nuclear Facilities Utilities Improvements 
$30,119 Puget Sound NSY & IMF 400 Submarine Refit Maintenance Support 
Facility (Phase 2) $21,476 Puget Sound NSY & IMF 438 Nuclear 
Environmental Monitoring Facility $6,704 Per title 10 U.S.C. 2476, the 
Naval Shipyards are funded to meet the statutory 6 percent minimum 
investment for the Navy's maintenance depots. While this is adequate to 
maintain existing mission-essential infrastructure functionality, it 
does not provide appreciable productivity improvements across all four 
Naval Shipyards. For fiscal year 2018 the Navy has identified 
approximately $134 million in MILCON requirements to positively impact 
naval shipyard readiness, listed in priority order below: Activity 
Project Number Project Description Est. Cost ($000) Portsmouth NSY 293 
Paint, Blast & Rubber Facility Consolidation $61,692 Norfolk NSY 257 
CVN and SSN Ship Repair Training Facility $72,990.

    29. Senator Hirono. Vice Admiral Moore, while ensuring that every 
taxpayer dollar is used wisely and efficiently should always be a top 
priority for government decision makers, can you talk about any 
unintended consequences which have resulted as this policy change has 
been implemented? This could be related to additional tasking to staff 
to work on waivers, processing of travel claims, availability of 
willing experts to go work in places over the long term, the cost of 
using more people to fill the same long term assignment, morale etc.
    VADM Moore. Whenever a Department of the Navy civilian is on travel 
for temporary duty (TDY) that extends beyond 30 days, the reduced per 
diem rules apply. The employee will receive reduced per diem for Meals 
and Incidental Expenses (M&IE) at the rate of 75 percent of locality 
per diem rates for the locality of the TDY with a duration of 31-180 
days and 55 percent for TDY of 181 days or more. Similarly, the 
employee will receive reduced per diem for lodging of 75 percent of the 
locality rates for TDY of 31-180 days and 55 percent for TDY of 181 
days or more. These reduced per diem rates for long-term travel for 
temporary duty (TDY) extending beyond 30 days have resulted in 
unintended consequences including required additional administrative 
work to process travel orders and travel claims, and to process 
waivers. It has also resulted in reduced availability of subject matter 
experts to engage in long-term TDY because of the additional cost that 
must be borne by the traveler on top of being away from home for 
extended periods of time. In the face of a lack of volunteers for long-
term TDY, some union contracts require the Government to first direct 
junior personnel to go on the long term travel before directing senior 
subject matter experts which can result in the need for additional 
personnel to fulfill the assignment to ensure that the work can be 
accomplished. All of these unintended consequences increase the cost of 
the long-term TDY to the Government and reduce workforce morale. 
Specifically with respect to the additional administrative cost of 
processing waivers, once reduced per diem applies, there are at least 4 
waiver processes that the employee could need that add to the 
administrative burden of processing travel orders and travel claims: 
(1) If TDY is projected to exceed 180 days, a waiver is required to 
permit the TDY to extend beyond 180 days; (2) If the employee cannot 
find lodging for the amount of the reduced per diem at the locality to 
which the employee will travel, he or she must ask the government 
travel service provider (CWTSatoTravel) for assistance. If 
CWTSatoTravel cannot find lodging for the employee at the reduced rate, 
the employee must seek a waiver of the reduced rate for lodging to 
permit reimbursement of actual expenses for lodging for up to the 
amount of the locality per diem which ordinarily requires the employee 
to provide receipts for actual expenses; (3) The employee may request a 
waiver of the reduced per diem for M&IE at the locality to permit the 
employee to be reimbursed for actual expenses up to the amount of the 
locality per diem rate which ordinarily requires the employee to 
provide receipts for actual expenses; and, (4) Under the Fiscal Year 
2017 National Defense Authorization Act, the employee may request their 
approving three-star flag officer/general officer or above to waive the 
need for the employee to keep and submit actual receipts. Specifically 
with respect to the lack of volunteers for long-term TDY, before 
implementation of the reduced per-diem requirements, the Naval 
Shipyards never needed to issue a directed travel letter to their 
employees to cover long-term TDY. With the advent of the reduced per-
diem rules, Puget Sound Naval Shipyard and Intermediate Maintenance 
Facility (PSNS & IMF) has discovered that issuing such letters is now a 
common occurrence. Based on a recent survey of primary activities with 
the need to use long-term TDY, mandatory assignment of employees 
(directed travel) to TDY assignments from PSNS & IMF has climbed from 0 
percent through 5 percent to as high as 39 percent of those workers 
being asked to travel. Because of the lower per-diem allowances, 
employees have expressed significant concerns that they risk paying a 
portion of expenses out of pocket and, therefore, no longer volunteer 
for, or decline, the long-term TDY assignments. The result is that 
ordered/directed long-term TDY is now common and negatively impacts 
ship maintenance efficiency and employee morale and performance. 
Additionally, under some union contracts, ordered travel may impose 
reverse seniority rules whereby less experienced junior employees are 
sent to perform highly technical work, introducing increased risk to 
quality and to scheduled completion dates. This poses a significant 
concern as employees selected for temporary duty assignments must have 
the qualification and expertise required for successful execution of 
maintenance work and is compensated for by sending additional personnel 
to accomplish the work. Having a highly qualified team of skilled 
experts committed to maintaining Navy readiness is critical to mission 
success. The new per diem rules contained in the fiscal year 2017 NDAA 
will help alleviate some of these challenges.

                                 [all]
</pre></body></html>
